<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2013</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
             DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2013 
=======================================================================



                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION
                                ________

                         SUBCOMMITTEE ON DEFENSE

                   C. W. BILL YOUNG, Florida, Chairman

 JERRY LEWIS, California                  NORMAN D. DICKS, Washington
 RODNEY P. FRELINGHUYSEN, New Jersey      PETER J. VISCLOSKY, Indiana
 JACK KINGSTON, Georgia                   JAMES P. MORAN, Virginia
 KAY GRANGER, Texas                       MARCY KAPTUR, Ohio
 ANDER CRENSHAW, Florida                  STEVEN R. ROTHMAN, New Jersey
 KEN CALVERT, California                  MAURICE D. HINCHEY, New York
 JO BONNER, Alabama
 TOM COLE, Oklahoma                 

 NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mr. Dicks, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

        Tom McLemore, Jennifer Miller, Paul Terry, Walter Hearne,
            Ann Reese, Tim Prince, Brooke Boyer, B G Wright,
      Adrienne Ramsay, and Megan Milam Rosenbusch, Staff Assistants
                  Sherry L. Young, Administrative Aide
                                ________

                                 PART 2
                                                                   Page
 Fiscal Year 2013 Army Budget Overview............................    1
 Defense Health Program...........................................  137
 Fiscal Year 2013 National Guard and U.S. Army Reserve Budget 
Overview..........................................................  333
 U.S. Pacific Command / U.S. Forces Korea.........................  451
 Joint Improvised Explosive Device Defeat Organization............  497
 Outside Witness Statements.......................................  545
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE

 79-874                     WASHINGTON : 2013




                       COMMITTEE ON APPROPRIATIONS

                    HAROLD ROGERS, Kentucky, Chairman

 C. W. BILL YOUNG, Florida \1\        NORMAN D. DICKS, Washington
 JERRY LEWIS, California \1\          MARCY KAPTUR, Ohio
 FRANK R. WOLF, Virginia              PETER J. VISCLOSKY, Indiana
 JACK KINGSTON, Georgia               NITA M. LOWEY, New York
 RODNEY P. FRELINGHUYSEN, New Jersey  JOSE E. SERRANO, New York
 TOM LATHAM, Iowa                     ROSA L. DeLAURO, Connecticut
 ROBERT B. ADERHOLT, Alabama          JAMES P. MORAN, Virginia
 JO ANN EMERSON, Missouri             JOHN W. OLVER, Massachusetts
 KAY GRANGER, Texas                   ED PASTOR, Arizona
 MICHAEL K. SIMPSON, Idaho            DAVID E. PRICE, North Carolina
 JOHN ABNEY CULBERSON, Texas          MAURICE D. HINCHEY, New York
 ANDER CRENSHAW, Florida              LUCILLE ROYBAL-ALLARD, California
 DENNY REHBERG, Montana               SAM FARR, California
 JOHN R. CARTER, Texas                JESSE L. JACKSON, Jr., Illinois
 RODNEY ALEXANDER, Louisiana          CHAKA FATTAH, Pennsylvania
 KEN CALVERT, California              STEVEN R. ROTHMAN, New Jersey
 JO BONNER, Alabama                   SANFORD D. BISHOP, Jr., Georgia
 STEVEN C. LaTOURETTE, Ohio           BARBARA LEE, California
 TOM COLE, Oklahoma                   ADAM B. SCHIFF, California
 JEFF FLAKE, Arizona                  MICHAEL M. HONDA, California
 MARIO DIAZ-BALART, Florida           BETTY McCOLLUM, Minnesota
 CHARLES W. DENT, Pennsylvania
 STEVE AUSTRIA, Ohio
 CYNTHIA M. LUMMIS, Wyoming
 TOM GRAVES, Georgia
 KEVIN YODER, Kansas
 STEVE WOMACK, Arkansas
 ALAN NUNNELEE, Mississippi
   
 ----------
 <SUP>1}}</SUP>Chairman Emeritus    

               William B. Inglee, Clerk and Staff Director

                                  (ii)


             DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2013

                              ----------                              

                                          Wednesday, March 7, 2012.

                      FY2013 ARMY BUDGET OVERVIEW

                               WITNESSES

HON. JOHN M. McHUGH, SECRETARY OF THE ARMY
GENERAL RAYMOND T. ODIERNO, CHIEF OF STAFF, UNITED STATES ARMY

                  Opening Statement of Chairman Young

    Mr. Young. Good morning. The Committee will be in order. 
This morning the Committee is holding a hearing on the budget 
for the United States Army for fiscal year 2013. We will be 
discussing personnel matters, current operations and readiness, 
research and development and procurement, along with any other 
subject that our witnesses prefer to raise or that the members 
prefer to ask about.
    And we are very happy to welcome our distinguished 
witnesses, the Honorable John McHugh, Secretary of the Army, 
and General Raymond T. Odierno, Chief of Staff of the Army. And 
of course John McHugh has been one of our colleagues for many, 
many years, former chairman of the Armed Services Committee, 
and a colleague that we are very proud of, Mr. Secretary. And 
General, we are very, very happy to have you here. Your 
biography will be placed in the record, which is an extremely, 
extremely impressive biography. It will be placed in our 
record.
    Mr. Secretary, you have appeared several times before this 
subcommittee as Secretary of the Army. We welcome you back, as 
you are a veteran of the budget process and you bring to these 
proceedings a wealth of experience based on your service in the 
House of Representatives and your ongoing service as Secretary 
of the Army. Representing the people of New York's 23rd and 
24th Districts, you served as ranking member on the House Armed 
Services Committee and you served on the Oversight and 
Government Reform Committee and the House Permanent Select 
Committee on Intelligence, and that is quite a background. You 
are highly respected in the area of military affairs, and we 
are pleased that you are here today to discuss the Army budget 
request for fiscal year 2013.
    General, 38th Chief of Staff of the United States Army, 
welcome to you, sir. We note that you are a New Jersey native, 
as is one of our ranking members, who will be here shortly, 
that you are a West Point graduate and you are one of a very 
small company of officers who have commanded at division, corps 
and Army levels in the same conflict. Quite a history and quite 
a record. And while serving in positions other than command, 
you were an assistant to the Chairman of the Joint Chiefs of 
Staff and military advisor to Secretary of State Rice. You 
bring with you experience gained in three tours in Iraq, 
initially as commanding general 4th Infantry Division and 
culminating as Commander of the Multi-National Force Iraq and 
senior U.S. Military commander in Iraq. Impressive. At present 
you are guiding the Army through a ramping down of actions in 
Afghanistan and a shifting focus to the Asia-Pacific. Your 
assessment of the status of personnel, equipment and training 
readiness will be of great assistance to this committee as we 
consider how to best allocate resources so that the Army might 
accomplish its mission in defense of our Nation.

                   OPERATIONS IN IRAQ AND AFGHANISTAN

    Mr. Secretary and General, salute you and the men and 
women, officers and enlisted soldiers, family members and 
civilian employees that you represent. For the past decade the 
Army has carried a heavy load in Iraq and Afghanistan. Despite 
multiple extended combat tours many soldiers and their families 
have continued to serve in the Army. They are proud of what 
they have done, as they should be, and what they continue to do 
for the Nation.

                      ARMY END STRENGTH REDUCTION

    Although operations are ramping down in Afghanistan, we 
hope that they will be successful. Deployments do continue. 
Meanwhile the Secretary of Defense has announced that while the 
United States will continue an active approach to countering 
the threat posed by violent extremists, the focus of national 
defense will be balanced toward the Asia-Pacific region. A 
significant reduction in Army end strength is planned, yet the 
Army is expected to maintain the capability to regenerate 
ground forces as necessary.

                             ARMY READINESS

    Mr. Secretary, General, reversibility sounds great, but 
this committee will want to hear how you ensure the Army when 
called to action can provide the needed units fully manned, 
equipped and trained. The 32nd Chief of Staff of the Army, 
General Gordon Sullivan, frequently noted that hope is not a 
method. This Committee will continue to support an Army that is 
properly equipped, properly supplied, and fully trained. The 
Committee will guard against a hollow Army, and we would like 
to hear your assessment of where you propose to accept risk in 
soldier end strength, training, equipment, readiness and 
modernization.

                SUICIDE AND SEXUAL HARASSMENT PREVENTION

    We will be interested in your plan to downsize the Army and 
programs to prevent, important programs to prevent suicide and 
sexual harassment. Fiscal management and the frequency and 
magnitude of reprogramming requests are likely topics of 
discussion, as they were considerably last year. And we will be 
interested in your updates on key acquisition programs, 
including Joint Light Tactical Vehicle, Ground Combat Vehicle, 
Armed Aerial Scout, Abrams tank and Paladin self-propelled 
Howitzer. We are interested as well in the performance of the 
Stryker vehicles that have the double V hull.

                 NETWORK INTEGRATION EVALUATIONS (NIE)

    Finally, the Army has initiated a series of network 
integration evaluations at Fort Bliss in Texas. We will be 
interested to hear how that process is working and how the 
findings and recommendations are used to inform acquisition 
programs.
    Mr. Secretary and General, we have an ambitious agenda this 
morning. We want to get started. But before we proceed I am 
going to complete my remarks. I should have just put them in 
the record, because what I said about all of you, you already 
know. Anyway, before we proceed I want to recognize Mr. Dicks, 
the former chairman of the subcommittee and ranking member on 
the Full Committee. Chairman Dicks.

                          Remarks of Mr. Dicks

    Mr. Dicks. Thank you, Mr. Chairman. In welcoming both 
Secretary McHugh and General Odierno before the Committee, we 
extend our sincere thanks to you both for your many years of 
service and dedication to our Nation. You are testifying before 
the Committee at a difficult time that places many often 
competing demands on the Army. We recognize that the Defense 
Department will begin to implement significant changes in its 
strategy to address both emerging global security realities and 
the obvious financial challenges.

                 FUNDING FOR THE DEPARTMENT OF DEFENSE

    Regarding DOD funding, we understand that the Budget 
Control Act requires Department-wide savings of $487 billion 
over the coming decade. A significant portion of this will 
ultimately come from the Army budget. It is often said that 
soldiers are the strength of the Army. With this in mind, we 
realize that the Army faces many challenges managing its 
personnel. The Army bears a significant burden as our soldiers 
continue to engage in combat operations in Afghanistan over the 
next several years.

               ARMY END STRENGTH REDUCTION IN AFGHANISTAN

    Your written statement indicates that as of today over 
63,000 soldiers are deployed to Afghanistan performing a 
variety of missions. As the Army continues to support 
deployments, we note that the largest share of the personnel 
drawdown will come from the Army. OSD figures show that the 
Army will draw down 72,000 active duty troops out of a total 
personnel reduction DOD wide of 124,000 over the FYDP. We also 
understand that the Army will reduce its force structure by 
eight brigades from the current 63 and will remove two brigades 
based in Europe. In addition, we understand the Army must tend 
to the needs of military families, post support to troops as 
they return from deployments and provide transition assistance 
as soldiers return to civilian life. And as the chairman 
mentioned, you are developing several new programs, the Ground 
Combat Vehicle, the Joint Light Tactical Vehicle, Soldier 
Systems, including improved night vision, body armor, sensors 
and other individual equipment for soldiers, and the land 
warfare network, which includes Wind<SUP>TM</SUP> and the joint 
tactical radio system. And I know reset is very important to 
you, as we discussed earlier.

                        REQUIREMENTS DEFINITION

    The Committee stands ready to help the Army field these 
programs. However, we need to hear what measures you have in 
place to ensure that requirements are clearly defined and 
technically achievable, that cost estimates to develop and 
field these programs are realistic and that these programs 
receive proper management and oversight. We look forward to 
working with you to meet the needs of our soldiers and their 
families to maintain the readiness of our forces and to field 
the next generation of combat equipment.
    We look forward to your testimony. And Mr. Young and I have 
been here long enough that we remember when Shy Meyer was the 
Chief of Staff of the Army in the 1980s. And during that time 
we fielded the Bradley fighting vehicle, the M1 tank and the 
Apache helicopter. Now we know that General Odierno is as good 
as Shy Meyer was, and so we are expecting him to get these 
systems--he is going to crack the whip, have great oversight 
and get these things out and turn around the rather dismal 
record of the Army on procurement. And we are counting on you, 
General. Just like you did the surge over in Iraq, we are 
counting on you to turn around the Army acquisition and get 
them moving in the right direction.
    Thank you, Mr. Chairman.
    Mr. Young. Well, thank you, Mr. Dicks. And I have mentioned 
in earlier hearings how much we regret Mr. Dicks has announced 
his retirement. And I should also say that Mr. Lewis, who 
Chaired this Committee for 6 years and chaired the Full 
Committee for 2 years, had also announced his retirement. And 
he leaves behind a real legacy of effective representation for 
the United States military and for our readiness and basically 
made the military accept some weapons that they did not want to 
accept and that are so widely used today.
    Now, Mr. Secretary, we are going to place your entire 
statement totally in our record, as well as the General's, and 
so summarize it any way that you like, sir. I am happy to hear 
from you.

                 Summary Statement of Secretary McHugh

    Mr. McHugh. Thank you very much, Mr. Chairman. I will do 
that. I will try to abbreviate my comments so we can have more 
opportunity for discussion. First of all, on behalf of the 1.1 
million soldiers, 270,000 civilians that make up this great 
Army, it is an honor for me to be here today to add my voice of 
admiration to what is without question the greatest land force 
the world has ever seen, the United States Army. And Mr. 
Chairman, Ranking Member Dicks and distinguished members of the 
committee, I truly appreciate both your kind comments, Mr. 
Chairman, but more importantly the incredible support year in 
and year out that this great subcommittee and ultimately the 
committee in Congress provide to our Army and to our great 
military at large.
    I do not know if the Chief will--I do know the Chief will 
be every bit as effective as Mr. Dicks has challenged. And 
certainly he is bigger than Shy Meyer, I know that, by sitting 
next to him. So I am honored and feel very blessed to have as 
our 38th Chief of Staff someone on the caliber of Ray Odierno, 
who as you noted Mr. Dicks, has a career record throughout his 
military career, but I think for many of us who had the 
opportunity to visit him in Iraq, particularly in that very, 
very difficult theater of being someone who can come in and 
take a tough job and get it done. And we have got a few tough 
jobs ahead of us, and like you, Mr. Dicks, I look forward to 
working with him. I feel very fortunate, as I said.

                            ARMY DEPLOYMENTS

    Mr. Chairman, I most of all want to assure you that the 
strategy that this administration, the Department of Defense, 
all the military services went through, the development of it 
and ultimately the adoption of the supporting budget, was one 
that took a great deal of analysis, a great deal of thought and 
I think fairly represents a reasonable way for all of us to go 
forward in these very, very difficult times. For your Army 
these challenges over the last 10 years in many ways continue, 
as I know you understand. But we are busier than that. We have 
soldiers on six of the seven continents of the world, some 150 
nations across this great planet. And whether in the Pacific 
from Japan to Korea to the Philippines or through EUCOM and the 
Middle East and on and on and on, this Army remains fully 
engaged. And this budget that we are here to discuss today I 
think helps us to be prepared for today and, as was noted, to 
be postured for tomorrow.
    This budget really does I think underpin an Army that is 
fully embracing the hard decisions, as I said, we have to make 
at this moment, and at the same time laying the right 
foundation for a new and better future. Under the new framework 
that we will talk about, which was developed collaboratively, 
as I said, I would argue the Army clearly remains adecisive arm 
of the combat power. And at the end we will have a balanced and 
transformed force that will continue to be the most capable and 
effective land force in the world. That is our standard, that 
is what the strategy requires, and that is what this budget 
supports.

                          KEY ARMY PRINCIPLES

    I would also note that we are implementing a new paradigm 
under, as was mentioned, the significant cuts directed by the 
Budget Control Act. And we did have to make tough decisions. 
But I want you to know that we were guided by a number of key 
principles. First, we intend to fully support the ongoing fight 
and make sure the operational commanders in Afghanistan and 
other theaters have the best trained and ready land forces in 
the world. That is our top priority, and it was not in any way 
compromised through this budget.
    Secondly, we intend not to sacrifice readiness for force 
structure. We must responsibly reduce our end strength in a 
manner that fully supports the new strategy, but also provides 
sufficient time to properly balance our training, equipment, 
infrastructure and soldier and family support programs with our 
mission requirements.
    Third, we will be able to build force structure and 
capabilities to handle unforeseen changes to global security. 
The Army must be able to hedge risk through an efficient and 
effective force generation process and access to a strong 
operationalized reserve component.
    Fourth, we will maintain and enhance the Army's extensive 
commitments as they exist today even further in the future as 
they exist in the Pacific.

                      IMPACT OF BUDGET CONTROL ACT

    And lastly, we will not let the Budget Control Act cuts be 
taken on the backs of our soldiers or their families. Although 
we have and we will continue to, where appropriate, examine all 
of our programs we will fully fund those support systems that 
work with special emphasis on wounded warrior, suicide 
prevention, behavioral health and sexual assault programs. And 
based on these principles our budget, as you noted, Mr. 
Chairman, reduces end strength beginning in 2013 and 2014 to 
support the current fight, emphasizes continuing investments in 
vital modernization programs such as a network GCV and JLTV, 
and delays or eliminates programs which no longer meet urgent 
needs in support of our new strategy in transforming the force, 
and defers certain military construction programs.
    At its core the Army is not programs, it is not systems, 
and it is people. And every time I have had the honor to appear 
before you, including this moment, I come not as just Secretary 
but as representative in a small way of those soldiers, 
civilians and their families. And no one on this great 
subcommittee needs to have me sing the praises of these 
incredible men and women who have endured so much over the past 
decade and who depend upon all of us to provide them with the 
tools that they need, the support they deserve, and the funding 
that is required to support them and our families.
    We have remaining challenges. Suicide and substance abuse 
rates are unacceptably high. We are pursuing multiple avenues 
to provide our personnel with the best medical and behavioral 
health support available. We never, never must forget our 
success in Iraq and Afghanistan came at a heavy price to our 
Army families, and we are going to do everything we can to 
continue to provide for them.
    Let me just finally close, Mr. Chairman, if I may, adding 
my words of great admiration to two great Americans who served 
in this Congress and with whom I had the great chance to serve 
with Ranking Member Dicks and my dear long friend Jerry Lewis. 
One of the sad things I have learned since leaving this 
building and looking across sometimes longingly at the Capitol 
from the fun side of the Potomac and the Pentagon is so often 
incredible work is not widely recognized. I think all of us 
understand that when we come here to serve, and in these areas 
it is probably not that important. But the good that these two 
gentlemen have done, the programs that they have initiated, 
sometimes over the objections of some, the support that they 
have provided to these brave men and women in the military and 
their families far extends the reputations, and their 
reputations are extensive. So to my good friends, thank you 
both personally and as the Army secretary of what you have 
done. I wish you both every best in the future.
    I will yield back, Mr. Chairman, and I look forward to our 
discussion.
    Mr. Young. Mr. Secretary, thank you very much. And you have 
given us a lot of thought for some thoughtful questions already 
in your very well thought out statement.
    General Odierno, we are very happy to hear from you now, 
sir.

                  Summary Statement of General Odierno

    General Odierno. Well, thank you very much, Chairman Young, 
Ranking Member Dicks, and the rest of the distinguished members 
of the Committee. Thank you so much for allowing us to be here 
today. I want to first thank you for the continued support that 
you have given our soldiers, especially over the last 10 years, 
as we have been involved in two conflicts in Iraq and 
Afghanistan and other places around the world. Without your 
oversight and without your help we could not have accomplished 
what we have done, and your work has saved many, many, many 
lives as we have worked in these conflicts, so I thank you all 
for that.
    I also appreciate your vote of confidence, I appreciate the 
confidence that Secretary McHugh has shown in me. I think we 
have an incredible civilian military team in the Army today. We 
are focused on continuing to have the best Army in the world, 
one that can satisfy the security requirements of this Nation, 
and there is no better person to do that than Secretary McHugh, 
and he is a great boss, and I appreciate the opportunity to 
work with him.
    It is an honor for me to be representing the 1.1 million 
soldiers in our Army today, our 278,000 Army civilians and our 
1.4 million family members who have contributed so much over 
the last 10 years to our Nation's security. And we owe them a 
debt of gratitude, but more importantly we owe them to provide 
an Army that is capable of moving forward and also capable of 
taking care of our families.

                            ARMY DEPLOYMENTS

    As the Secretary said, we continue to be a truly globally 
engaged Army. We have 95,000 soldiers deployed today in a 
variety of places around the world and another 96,000 forward 
stationed today conducting a broad range of missions.
    But the one thing I would like to point out is our Army's 
primary purpose is steadfast and resolute, and that is to fight 
and win our Nation's wars. As the Army continues its transition 
we will ensure the President's 2012 strategic defense 
priorities are implemented, first meeting our current 
commitments in Afghanistan and elsewhere by ensuring a highly 
trained, properly equipped, and well manned force.
    Now that operations in Iraq are complete and we continue 
surge recovery in Afghanistan, we will begin to shape the 
regional environs in some of the other combatant commanders' 
areas of responsibilities in order to develop the strategic 
environment that allows us to sustain our own security. In the 
Asia-Pacific, which is home to seven out of the 10 largest 
armies in the world, we will provide an array of tools through 
rotational forces, multi-lateral exercises and other innovative 
engagements with our allies and new partners. We currently have 
some 66,000 soldiers and almost 10,000 civilians in this 
region.
    During a time of great uncertainty in the Middle East we 
remain committed and prepared to ensuring security and 
stability across the spectrum of conflict through our 
rotational presence and other available means. And in Europe as 
we inactivate two brigade combat teams, one in 2013 and one in 
2014, we will compensate through a series of engagement tools 
to build and sustain relationships with our European and NATO 
allies and partners. And I believe in the long term this will 
serve as a model of how I see us doing business in the future, 
a combination of forward station and rotational forces using a 
tailored approach by regionally aligned forces and 
prepositioned stocks.

                            ARMY FOCUS AREAS

    As we move forward we will build on the competency and 
experience that has been gained over the past 10 years by our 
National Guard, our Army Reserves, and our Active component in 
Iraq and Afghanistan through the resourcing of a progressive 
training model that will continue to sustain this expertise, 
specifically in our National Guard and Army Reserves.
    As we look forward, the Secretary already touched on this a 
bit, there are several focus areas which will help us guide us 
in the future. Foremost, remain committed to our 67,000 
warfighters in Afghanistan and continue to provide trained, 
equipped and ready soldiers to be successful in that current 
fight.

                         END STRENGTH REDUCTION

    Next, as the Army becomes leaner we must continue to build 
on the key characteristics of our future force, adaptability, 
innovation, flexibility, agility, versatility and lethality. We 
have to prioritize our efforts as we integrate and synchronize 
our activities as part of a larger joint interagency and multi-
national effort.
    By the end of fiscal year 2017 we will decrease our end 
strength in the Active component from 570,000 to 490,000, from 
358,000 to 353,500 in the National Guard, and from 206,000 to 
205,000 in the Army Reserves. It is imperative for us to 
sustain a gradual ramp over the next 6 years that will allow us 
to take care of our soldiers, continue to provide forces for 
Afghanistan, and facilitate reversibility over the next several 
years, if necessary.

                 REDUCE NUMBER OF BRIGADE COMBAT TEAMS

    Currently end strength of 490,000 is funded strictly 
through OCO and must be sustained to help mitigate risk as we 
continue current operations in Afghanistan and simultaneously 
reset for the future. We also reduce our end strength by a 
minimum of eight brigade combat teams. And I say minimum 
because we are looking at potential reorganization initiatives 
that will expand the capabilities of a brigade which could 
cause us to reduce some of the brigades while increasing the 
number of combat battalions available. And we can discuss that 
later if you would like.

                           ACQUISITION REFORM

    Finally, we will be responsible government stewards through 
energy cost savings and institutional and acquisition reform. 
We are now taking a fundamentally different approach to how we 
do business with our acquisition reform, and I credit Secretary 
McHugh for his diligent efforts with this. We have really made 
some tremendous progress, and I will take the challenge that 
Congressman Dicks has given me as the Chief to continue to move 
forward with this.
    Through a new affordable and incremental equipping 
strategy, we are making better business deals and better 
contracts, emphasizing competition and saving even more money 
as governmental stewards. Our expansion of multi-year 
contracts, firm fixed price contracts, and cost-plus incentive 
fee contracts have proven substantive cost savings already. By 
more closely linking the development of requirements with the 
acquisition cycle, we are building the flexibility to integrate 
new technologies incrementally. Additionally, we are looking to 
develop more efficient testing and evaluation strategies by 
eliminating redundancies. We will continue our equipment reset 
program to restore unit equipment to a level of capability that 
is commensurate with our future missions. There have been over 
1.8 million pieces of equipment reset to date, which equates to 
approximately 31 brigade equivalents. Much of what the Army 
needs to do and much of what we hope to be able to do will be 
relying upon sustained OCO funding through our withdrawal in 
Afghanistan and for 2 to 3 years afterwards.

                        MODERNIZATION PRIORITIES

    As we continue to transform our modernization practices to 
a holistic bottom up approach we have several priorities. First 
is a network, which is critical to our ability to manage 
information and command our forces at all levels, both home and 
abroad. We have made significant progress on this critical 
program due to the series of network integration evaluation 
exercises that field tested equipment and integrated the system 
using our soldiers.
    Second, the Ground Combat Vehicle, a replacement for our 
Infantry Fighting Vehicle, that can accommodate an infantry 
squad, balance mobility and survivability and provide unmatched 
lethality. We have paid close attention to risk reduction in 
this development program by maximizing competition to stimulate 
innovation, support cost containment and schedule requirements, 
ensuring industry identifies potential pricing schedule versus 
performance tradeoffs and requiring industry to provide cost 
targets throughout the life cycle of this program.
    Our third priority is the more mobile and survivable 
network integrated Joint Light Tactical Vehicle, which both 
myself and General Amos agree is necessary given the last 10 
years of fighting and what future operations may entail. We 
carefully revised our acquisition strategy to reduce the 
schedule for the next developmental phase from 48 to 33 months 
while reducing the projected cost of the program by $400 
million.
    Next is lightening a soldier's load with a focus on the 
squad. This must be continued efforts to give our squad 
superiority on the battlefield with advanced soldier systems 
and weapons, communications and protection. There has been 
tremendous progress in the advancements to help lighten the 
load of our individual soldiers, so now we must turn to look at 
how the squad can carry the load smarter. We will continue to 
look at decreasing the weight of our body armor while 
increasing protection. But we can make more progress by 
studying how to better distribute the load across the squad.
    The budget request for aviation modernization will continue 
to ensure our lift and close combat attack capabilities remain 
effective. These aircraft provide critical support to our joint 
ground forces, our special operations community, and also our 
international partners.
    Finally, I would like to point out that in order to achieve 
these priorities within our modernization strategy we will need 
the help of this Committee to ensure timely appropriations to 
reduce production and scheduling delays.
    In conclusion, the Secretary and I will continue to assess 
and make adjustments to our strategy while addressing any 
potential risk incurred as we adjust our force posture.

                         SEQUESTRATION CONCERNS

    I would like to leave you with one last thought. 
Sequestration is not in the best interest of our national 
security. The Army share of the cut could be almost $134 
billion through 2017. The impact to the Army could cause up to 
100,000 in cuts to end strength, in addition to the 86,000 we 
were already programmed to take. This would result in severe 
reductions in the National Guard, the Army Reserves and also 
continued reductions in the Active component and will 
significantly decrease what the Army can do for the joint 
force. In my estimation, sequestration would require us to 
fundamentally relook at how we provide national security.
    Mr. Chairman, members of the Committee, thank you again for 
the opportunity to speak here today. It is an honor to be here 
representing the Army, and I look forward to your questions.
    [The statement of Secretary McHugh and General Odierno 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Young. Well, General, thank you very much. And Mr. 
Secretary, thank you very much.
    I was not going to start with sequestration, but I have to 
tell you that all of the members that I know in this House of 
Representatives and many in the Senate are looking long and 
hard to find a solution to avoid sequestration. We understand 
sequestration would be a disaster for our national defense, for 
our military, and in fact for those who serve in the military. 
So believe me, we share that concern, and we are working ways 
to try to make sure that sequestration just does not happen. We 
cannot let it happen.

                         END STRENGTH REDUCTION

    Now, let me ask about the end strength, because you 
mentioned great obligations that the United States Army has. 
You also mentioned that in the Pacific area you will be dealing 
with seven other armies. I believe you said it was seven. But 
we know, this Committee knows, that while our Army is by far 
the best Army of any of those we are not the biggest. We do not 
have the manpower that a lot of these other armies have. And 
then we are going to be reducing, and if I did the math 
properly, we are going to be reducing end strength by about 
80,000, is that correct?
    General Odierno. That is correct.
    Mr. Young. Over what time frame? What will be the time 
frame before you reach that 80,000 drawdown?
    General Odierno. Mr. Chairman, the end of fiscal year 2017 
is when we will meet that requirement. So it has begun in 
fiscal year 2012, so it is over a 6-year period from 2012 
through 2017 that will impact that. And that is important 
because that ramp allows us to make sure we are taking care of 
our soldiers and families, it allows us to ensure we continue 
to meet our commitments in Afghanistan and other deployable 
places, and it also provides a hedge for a few years against 
uncertainty that can allow us to reverse if necessary.
    Mr. McHugh. If I may, Mr. Chairman, there were some 
realities afoot. As you noted, armies are people. About 48 
cents of every dollar currently we spend is on personnel cost. 
So to take the mandated reductions under the Budget Control 
Act, but also to look at the realities coming out of two 
theaters of war as planned by the end of 2014, we felt that 
that end strength reduction was first prudent, but also 
required so that we remained, as you noted, Mr. Chairman, 
balanced, that we did not hollow out. We spent a great deal of 
time ensuring through the process of constructing this budget 
that we had the sufficient resources behind that end strength 
to do the right things by them in family programs, 
modernization, all kinds of readiness, training availabilities, 
et cetera, et cetera. So when you look at this as a whole piece 
I think it represents a very prudent reaction to the realities 
of today, the likelihoods of tomorrow, and as I have said, the 
Budget Control Act that was passed by this Congress.

                       FEDERAL CIVILIAN EMPLOYEES

    Mr. Young. Mr. Secretary, we understand the difficulties in 
reaching the goals set by the President.
    General, you mentioned when you talked about the size of 
the Army, I think you said 178,000 civilians also work for the 
Army. Was that the right number?
    General Odierno. 278,000.
    Mr. Young. Will there be a reduction in that civilian force 
as well?
    General Odierno. I think that we will see reductions in the 
civilian force. We are required to take some throughout this 
period. There will also be required reductions in the end 
force.
    Mr. McHugh. That kind of falls over my side of the ledger. 
We had R&D by the Secretary that required us to reduce the end 
strength of civilian by 8,700. We are in the process of doing 
that. That will be completed by the end of this year. And 
thereafter we are right now trying to right size this civilian 
workforce. We are very mindful that all of the cuts cannot come 
just on the military side. We will in fact be announcing some 
steps forward in the very near future as to exactly how and 
where those civilian cuts will come. Some of your staff have 
already been briefed on the preliminary aspects of those 
drawdowns. But in short, civilian end strength will be coming 
down as well.
    General Odierno. We grew about 30,000 civilians over the 
last 8 or 9 years as we increased the size of the Army during 
the mid-2000s. And in addition, because of some of the 
requirements, because of us being engaged in two theaters, we 
were using operational funds, hired overhires in order to 
provide support to deployed families and other things. So all 
of those things will be relooked as we come out of Iraq, as we 
begin to come out of Afghanistan, and those will all be things 
that we have to look at over the next several years as we right 
size the Army.

                      CONTRACT CIVILIAN EMPLOYEES

    Mr. Young. As you downsize, will it be necessary for you to 
hire contractors to fill in the void or will you just accept 
the void?
    Mr. McHugh. We will always have a requirement for 
contractors. They provide specialized skills that it is just 
not cost beneficial for any military service to keep those 
internally. However, having said that, we are involved in just 
the opposite initiative at the moment, and that is trying to 
shed ourselves of the buildup of contractors that has happened 
principally because of the two theaters of war and begin to 
internalize those where they are absolutely essential and use 
military personnel wherever practicable.
    Mr. Young. I have a lot of other questions but we have a 
very good attendance today and so hopefully I will get a second 
chance to visit with you. But at this point I would like to 
yield to Mr. Dicks.

                       STRYKER RESET AND UPGRADE

    Mr. Dicks. Thank you, Mr. Chairman. The Stryker program was 
initiated in 1999. The Stryker family of vehicles has 10 
variants ranging from infantry carrier to reconnaissance 
vehicle to medical evacuation. The Stryker family was intended 
to serve as a bridge to the future fielding of the Future 
Combat System. FCS, as we know, was canceled in 2009, but the 
Stryker vehicles have performed well.
    Now, let me ask you this. We are going have to go through 
reset on a number of these things. And what I am trying to 
figure out is, and we have had some discussion, General, about 
this, if there is a lack of mobility off the road why would not 
we consider increasing, putting a bigger engine in the 
Strykers, and at the same time going to the double V hull, 
which as I understand it has been very successful, and try to 
reset as many of those in that way in order to meet the 
requirement?
    General Odierno. Congressman----
    Mr. Dicks. Tell us what you think about the Stryker.
    General Odierno. First, the Stryker has performed 
incredibly well both in Iraq and Afghanistan, and we are very 
proud of the legacy of the Stryker and the Stryker brigades and 
what they have been able to accomplish. What we have to do is 
one of the things we are doing with this downsizing, is we are 
reassessing the force mix. And a part of this force mix is how 
much light, medium, heavy airborne will we continue to have in 
the force. And once we make those decisions we will have to go 
back and relook at what systems do we want to have in these 
elements. I will tell you that right now the Stryker brigades 
are really not under consideration because they are found to be 
a very flexible capability that we want to sustain, at least 
into the future. Right now we are planning on purchasing two 
brigades with a double V hull Strykers. And I think in the 
future as we develop this force mix we will then make a 
decision do we have to purchase more of those or not. But 
before we make any decisions like that we have to ensure that 
we understand what our final force mix will be. And I suspect 
we will come to that answer in the next year or so as we 
continue to do our evaluations of what the final force will 
look like.
    I would also add----
    Mr. Dicks. Are you talking there about reset? I mean, about 
taking some of these that we are going to bring back and 
resetting them? I mean, I was intrigued by the idea of going to 
a slightly bigger engine. I think, what is it, 350 horsepower. 
You could go to 450 and maybe this would solve this off road 
issue that you raise.
    General Odierno. What we are going to do is as we go 
through the Ground Combat Vehicle, which is an infantry 
fighting vehicle, as we go through that process, when we get to 
Milestone B one of things we are going to look at is 
alternatives, and one of the alternatives is the Stryker. And 
one would be improvements to the Stryker and would that be a 
better way to go once we see what the two competitors come up 
with in the Ground Combat Vehicle. So I think that is when we 
will take a look at that and decide is that a better way to go 
or not.

                           M1 TANK PRODUCTION

    Mr. Dicks. You know, last year our committee felt very 
strongly on an almost unanimous basis that we ought to keep the 
tank line open, and so we added I think $255 million or 
whatever in order to do that.
    Can you tell us kind of how the Army sees this now? And I 
understand that there is a possibility of foreign military 
sales that could help us keep the tank line open.
    Mr. McHugh. Let me just start and then the Chief can, I am 
sure, fill in the substantial blanks I leave. I just approved 
the execution of the $225 million that you spoke about, Mr. 
Dicks. That will procedure between 42 and 44 tanks. In order to 
sustain the Abrams line at Lima you have to produce at least 70 
tanks a year. So the money that we provided, while substantial, 
will not fill the production gaps. And in fact we would have to 
spend about $600 million to $800 million to close and later 
reopen the line versus nearly $3 billion to close it, and the 
cost analysis is that the closure costs far outweigh keeping an 
open, nearly $3 billion to keep it open.
    The other thing I would tell you, the reality is----
    Mr. Dicks. Mr. Secretary, does that include an analysis of 
industrial base? It just seems to me if you are going to reopen 
this thing in a couple of years the idea of shutting it down 
when we only have one tank for the country I think is something 
that is hard to accept up here.
    Mr. McHugh. Well, you raise a good point. And we are very 
concerned about those high end jobs that are attendant not just 
at the Abrams line, but virtually any of our production lines. 
And we do have, as you noted, a strategy that is working its 
way that we think in concert with GDLS, General Dynamics Land 
Systems, we can fill in substantial gaps in that production gap 
to frankly hold the very high end, high technical jobs that are 
so critical and make reopening or a clean shutdown and a 
reopening so very, very difficult. So we are trying to fill 
those.
    The other thing I would tell you is that the Department of 
Defense is conducting what they call a S2T2, a sector-by-
sector, tier-by-tier analysis that the Army is participating 
in, to try to develop further strategies to protect this 
industrial base through these drawdown times. We simply do not 
feel, going back to the Abrams line, that this is one--we do 
know it is one of the most modernized platforms in our Army. 
The average Abrams tank is about 2\1/2\ years old. So we are 
trying to find the right way forward, we are sensitive to the 
industrial base, we think we have some means by which we can 
sustain those high end jobs but these are going to be tough 
challenges.
    Chief.

                          TANK FLEET READINESS

    General Odierno. And Congressman, the conundrum we have is 
that we do not need tanks. Our tank fleet is 2\1/2\ years old 
average now. It has been recapped, it has been reset, we are in 
good shape. And these are additional tanks that we do not need. 
So that is the other problem we have in keeping this line open. 
When we are done in 2014 we now have all the tanks we need, and 
we did not think we would have to start to reset or 
recapitalizing again until after 2017. So it is about a 3-year 
gap that we have. And in order to sustain it you got to 
purchase 70 tanks a year. That would be another 280 tanks that 
we simply do not need. And so that is part of the problem here 
as we assess this. So what we have done is we have--we believe 
there is, as I mentioned to you yesterday, there are several 
countries who are looking that they believe they have to do 
some work on their tank fleet. Saudi Arabia, Egypt and there is 
a few others. And we think that this could be a solution to us 
keeping the line open if we are successful. But again, it is 
not a done deal yet, and so there is still a lot of work that 
we have to do in the foreign military sales area.
    Mr. Dicks. What about the Guard and Reserve, do they have 
all the tanks they need?
    General Odierno. Yes.
    Mr. Dicks. Thank you, Mr. Chairman.
    General Odierno. And the other piece, finally, is part of 
this force mix we also might, as we go through this force 
structure review, we actually might reduce the requirement for 
heavy capability. And that is the other thing we have to make 
sure we take into account as well.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Young. Thank you, Mr. Dicks.
    Mr. Lewis.
    Mr. Lewis. Thank you very much, Mr. Chairman. Secretary 
McHugh, General Odierno, a pleasure to be with you. Thank you 
very much for your service. I cannot help but reflect upon the 
chairman's mentioning that I had the privilege of chairing this 
Committee for a while. Emblazoned in my mind is a picture of a 
session I went to a couple of weeks after becoming chairman 
when they were swearing in a new Chief to the Army. I never had 
been exposed to this person before, but amazingly to me here 
was a guy who when he first became eligible for the Army was a 
foreign alien, born in Hawaii, World War II. And here some 
years later is this fellow Eric Shinseki being sworn in as the 
Chief of the U.S. Army, and amazing to me and amazing statement 
about this country.

                           SEXUAL HARASSMENT

    I am a little uncomfortable beginning my questioning along 
these lines, but it is an important set of questions. Men and 
women who make up the U.S. Army, we do face a serious challenge 
oft time on the front line with a thing called sexual 
harassment within the force.
    Could you please discuss for the committee those programs 
and policies in place that are designed to deal with this 
challenge and give us an idea of where you see us going 
regarding this challenge?
    Mr. McHugh. Thank you very much, Mr. Lewis. That is a 
critically important issue, not just for the Army but for all 
of the services. And certainly from our perspective one of the 
most disturbing things about it other than the personal tragedy 
that it creates is that there are few things that are more 
contrary to the Army values. And it sadly tragically is not 
just on the front lines, it is through everywhere that we have 
men and women serving together, which is throughout all aspects 
of our United States Army.
    What we have done is to try to take the most holistic 
approach we possibly can. And in fact we have supported what is 
called the SHAR program, sexual harassment and assaults 
response program, where we have literally increased the funding 
over the last 5 years by 500 percent to ensure that we bring on 
line better training programs so that today virtually every 
training level has it, not just as an hour or two, but 
something that is imbued through every aspect of our training 
modules. We have tried to enrich the personnel, to put out 
mobile training teams so that they can go out through all our 
camps, posts and stations training CID officers in the unique 
aspects of both investigating and forensically mining a crime 
scene. We have hired special prosecutors who are particularly 
adept at these kinds of cases to ensure that we are bringing 
the perpetrators to trial. We have hired new lab analysts to 
ensure that the forensic material that is collected is handled 
appropriately and that we are not falling behind the curve.
    So from literally the first day that someone comes into the 
Army to the last day we are either providing the resources 
necessary or the training that is absolutely required. At the 
end of the day it is a commander's program. We have to rely 
upon leadership. And I will defer to the Chief to speak about 
that, but if we do not have our Army command and our NCO 
officers every day instilling this in our young soldiers, then 
I do not think we have really reached the place we need to be.
    We see signs of it being better. The Army reporting rate 
for these incidents is about 33 percent, in the civilian sector 
is about 19 percent. We want crime victims to report. We want 
them to be assured that the Army will do right by them, that 
they will not be victimized again. So those increasing report 
rates I think are encouraging, and our conviction rates are 
going up as well. But as long as there is one case of this that 
still exists in our ranks that is one case too many, and we are 
working it each and every day.
    General Odierno. Congressman, I would just say what I talk 
about all the time is that sexual harassment and sexual assault 
is inconsistent with our Army values. It is inconsistent with 
what we want our Army to be. We want to foster a climate of 
trust and respect. It is essential for us to have that. As we 
ask our soldiers to go into combat and do very many difficult 
missions, it is absolutely inherent that we have trust and 
respect for each other. And if we have sexual harassment and 
sexual assault going on within our force, we do not have that 
trust and respect of protecting each other to making sure we 
are taking care of each other no matter who you are.
    And so there is a two-prong strategy, and actually the 
Secretary covered most of it. But one is institutional. And we 
have now embedded this from the time you come into basic 
training to the basic course in our military academies and ROTC 
programs all the way through our institutional training program 
to when you go through being a general officer. We have also 
now embedded it into all our command programs. We have programs 
that train battalion and brigade and company commanders. This 
is an integral part of this. And then we have our operational 
strategy, which the Secretary talked about, where we now go 
into operational units and continue to train them in there. It 
is about changing our culture. It is about changing the 
culture, and I call it the bystander culture, where you will 
not tolerate if you see something happen; you will not allow 
this to happen to a fellow soldier. And that is what our 
strategy is based on.
    And we will continue to work this. As the Secretary said, 
we have increased our funding in this program. For me it is 
fundamental that we correct this problem. And I want you to 
know that we are totally dedicated and all in on this to ensure 
that we continue, because we still have problems and we will 
continue to go after this, Congressman.

                        NATIONAL TRAINING CENTER

    Mr. Lewis. Thank you very much for that, General and 
Secretary. General Odierno, we have a, you may or may not be 
aware of it, but the National Training Center for the Army, 
NTC, happens to be in San Bernardino County, which is in my 
district. No more fabulous training place in the world for the 
kinds of challenges we present to our soldiers. And what they 
do out there, the equipment we might place there, the testing 
of better, faster, stronger couldn't be done better than I see. 
I wish our entire Committee could go out and spend some time at 
the NTC to view the training aspects of this tremendous Army.

                   NATIONAL TRAINING CENTER EXPANSION

    One piece of this that concerns me that I have not been 
able to successfully get a response to is the fact that beyond 
the NTC in this territory is also the 29 Palms training of the 
Marine Corps. There is space between these two great forces, 
and very, very important to our long-term success. There are 
some who are suggesting that it might be okay to let much of 
the remaining open space between the 29 Palms facility and the 
NTC to be taken up as an addition to our kind of park frontier. 
I am very, very concerned about what that might do to our 
future training capabilities by force, both in the air, but 
also on the ground.
    Could you respond to that?
    General Odierno. Well, first I will tell you I have spent 
many, many rotations, months, days out at the National Training 
Center, so I know it quite well. And it is in my opinion 
probably the finest combined arms training center in the world 
today. And as we have continued to increase its capabilities I 
think there is no other place where we can replicate the future 
environment as well. And I am very excited that this year we 
will conduct several rotations that really take us into the 
future and the threat that we might be challenged to see and we 
will start training our units to this threat as they return 
from Iraq and Afghanistan.
    As I am sure you are aware, Congressman, the Marine Corps 
and the Army has in some cases different training requirements 
that we have to go through. And they do some at 29 Palms, we do 
ours at the National Training Center and the Joint Readiness 
Training Center. But as we become more joint it is important 
that we are able to bring some of these things together.
    I will specifically look at the question you have asked. I 
do not have an answer for you on the area between 29 Palms and 
the National Training Center, but I will certainly look into 
that. And I just want you to know though that there is nothing 
more important to us, especially now that we are moving in 
reestablishing some of our basic capabilities that we have to 
reinstill in the Army and the importance of these training 
centers.
    Mr. Young. Mr. Lewis, thank you very much. And you have 
noticed the presence of our Full Committee chairman.
    Mr. Lewis. I noted his arrival. And I certainly want to 
defer to our chairman. But if I could just say in closing 
regarding that, the NTC and the 29 Palms facility is so 
critical to our future, our ability to cross train. We have 
enough space out there to put four eastern States. We do not 
have to put the whole world into a big park. But indeed the 
future of our ability to extend our force, to exercise our 
force lies right there. And I would hope you give it very high 
priority, Mr. Secretary, as well as the General.
    Mr. McHugh. I promise you we will take a look at that. And 
having been to NTC any number of times and been awed at places 
like Medina Wasl out there. It is an incredible resource and we 
cannot afford to lose it, I would fully agree. So we will get 
back to you on that.
    Mr. Young. I would like to yield now to Chairman Rogers.

                        PRESCRIPTION DRUG ABUSE

    Mr. Rogers. Thank you, Mr. Chairman, for yielding the time.
    Welcome, Mr. Secretary. Back to your old stomping grounds 
here on the Hill. And General, welcome as well.
    Last year, I discussed with you a problem that is a 
national problem but which also impacts our military, and that 
is prescription drug abuse. We had a good conversation about it 
last year, and I was happy to learn of efforts that you have 
undertaken and, over the last year, have enhanced. I don't need 
to repeat to you the problem that we have. In my home State, 
Kentucky, on the diversion of prescription drug medicine, we 
have more people dying of overdoses from prescription drug 
medicine than who die in car wrecks. The medicine cabinet is a 
bigger weapon than a car, and it is infecting the military as 
well. You are not immune from the problem.
    According to a recent Army Times article, 21 percent of 
soldiers involved in illegal drug use in fiscal 2011 were 
abusing prescription drugs. In addition, between 2009 and 2011, 
142 of the 197 drug-related undetermined or accidental deaths 
involved prescription drugs. Because of the mobility of 
soldiers and the different locales that they serve in during 
their tenure, it is difficult to keep tabs on what medicines 
have been prescribed along their path. I understand the 
complicated importance of that.
    However, in 2009, the Army created a pain management task 
force to give us a standardized DOD vision and approach to pain 
management to optimize the care for warriors and their 
families, and I want to commend you for that and for the work 
that you have been doing. In February, you announced plans to 
expand drug testing to include hydrocodone and benzodiazepines, 
whatever that is. Varying press reports have told us about 
different drugs that are already being tested by the Army.

                       PRESCRIPTION DRUG TESTING

    Are you testing for codeine, morphine, oxycodone, 
especially OxyContin?
    Mr. McHugh. My understanding is, we have tested for 
oxycodone since 2009. We have expanded, as you noted, our 
testing particularly for the marker and indices in such drugs 
as Valium, Xanax, those kinds of prescription drugs that sadly 
are becoming widely used as recreational drugs. I think for the 
moment, our testing regimen and our protocols are such that we 
are covering many of the drugs that are a problem. There are 
other drugs that we are told we are not able to effectively--no 
one is able to effectively test for yet. Some of these ever-
emerging chemical concoctions, such things as spice and others 
that are more and more being used recreationally, provide a 
great deal of danger to the health of the force and to the 
individual but are extraordinarily hard to test for, and we are 
always working to try to find better ways to do that.
    But it really is a two-part problem. Those who would 
purposefully abuse drugs, that is a legal challenge; and our 
random testing programs, I think, are becoming more and more 
effective as we root out those people who have a problem. And 
the others are who those who become inadvertent abusers. As you 
know, Mr. Chairman, the ability to track movement and migration 
of soldiers through the force and their medical records is a 
challenge, but it is one I think we are getting on top of. We 
are doing a far better job in tracking, through medical 
records, the kinds of prescriptions that are doled out by our 
military physicians, but therein lies another problem. These 
are American citizens. And while they may receive a set of 
prescription drugs for whatever challenges they face at the 
military health facility, they are free to go off base and 
receive perhaps another dose of the same medicines or other 
medicines that we simply can't track. So we need to do a better 
job working with the civilian sector and ensuring that we have 
a full range of understanding of what drugs are being 
prescribed to individual soldiers.
    The other thing I will tell you is, we have become 
extraordinarily vigilant, particularly in our treatment centers 
and our wounded warrior care centers, for those who are in a 
polypharmacological situation, multiple drugs. If you have over 
four prescriptions, we have a single dispenser, a single person 
who has a responsibility for tracking those prescription drugs 
that are administered to you. We have instituted--I believe we 
talked last year--something called EMA, which is an electronic 
medicine disposal. You can only get so many drugs. We have 
limited the number of supplies of drugs that anyone can get for 
many of these types of prescriptions.
    So we are trying to do what we can. But clearly the data 
show that this continues to be a big problem that we are 
fighting against each and every day.
    Mr. Rogers. Well, as you know, these drugs we are talking 
about are highly addictive and are extremely difficult to kick, 
especially OxyContin, which is a great pain reliever but is 
really subject to terrible abuse. What progress have you made 
in preventing addiction, and also helping those who admit to an 
addiction, particularly the implementation of the 
recommendations made in your pain management task force report 
from May of 2010?

                        PAIN MANAGEMENT CENTERS

    General Odierno. Congressman, first we have now opened 
eight pain management clinics that talk about alternative means 
to address pain as you start to take yourself off of these 
drugs, especially our wounded warriors and other people who 
have done this. And we are finding those to be very, very 
successful, these alternative methods. We are testing codeine, 
morphine now starting this year. We expect to be about 20 
percent in the next month or so, and that will continue to 
increase throughout the year. You know, the electronic records 
have improved significantly in tracking this. One of the holes 
we have found was in drugs being prescribed in Iraq and 
Afghanistan that were not making it back into the medical 
records. We have now fixed that problem, so we now understand 
and have a system in place to track that. So I think through 
the pain management clinics, through the understanding of 
helping our soldiers who have been injured to begin to think 
about how you wean yourself off of the pain and how you have 
alternative methods to do this, I think we are finding some 
success in this.
    But as the Secretary has stated, it is difficult sometimes 
to track what they do outside of the military medical system, 
and that is what we are trying to gain more awareness at the 
leader level so they understand the signs so they can identify 
this to us so we can get them the help necessary.
    Mr. McHugh. If I could just add, Mr. Chairman, you 
mentioned a very important part. What are we doing to help 
these people directly? We have, as we discussed last year, the 
Army substance abuse program and it covers both alcohol and 
drug abuse. And what we are trying to do is encourage soldiers 
who understand they have a problem, the challenge of addiction, 
to come forward voluntarily before they are somehow discovered 
and that places them into the disciplinary process. And I think 
you look at the data and it is somewhat encouraging. We are 
having more and more soldiers self-report, self-identify, go 
get the help they need, whether it is relief from pain 
addiction, pain control addiction or alcohol addiction, and 
then return to their military service with no punitive action. 
But it is hard to convince someone that if they self-divulge 
something that not so many years ago was a complete career 
killer, that they are just going to receive help. But we are 
making progress there as well. And ultimately, I see that as a 
very important part of our response program.
    Mr. Rogers. Well, I appreciate your being on top of the 
problem. It is a problem not just for the military but, more 
importantly, I guess for the population at large. In bringing 
this up, I don't want to take away from the importance of pain 
medicine for those who are in need of it on the battle front.
    So thank you for your work.
    Mr. Young. Mr. Chairman, thank you very much. And thank you 
for being here today. Now I have checked the clock and the very 
good attendance. So I think we are going to have to do the best 
we can to stick to the 5-minute rule for the balance of the 
hearing. And at this point I would yield to Mr. Moran.

                          REPROGRAMMING FUNDS

    Mr. Moran. Thanks very much, Mr. Chairman.
    John, nice to see you. General.
    I am concerned that the executive branch over the years on 
a bipartisan basis really has attempted to usurp the 
prerogatives of the legislative branch. It is our 
responsibility to determine how money is to be spent and yours 
to carry out those requirements that we put into law. We had 
this issue with the Air Force yesterday over Global Hawks, when 
we appropriated the money and they just decided not to use it. 
Now just over a 3-month period last year, you reprogrammed $4.8 
billion. Now is that an aberration or are we going to continue 
to see that kind of thing in the fiscal year 2012 budget?
    Mr. McHugh. We had a very good conversation yesterday with 
a number of Senators who had that very same concern. I am 
somewhat conflicted. I have this dual vision on both sides.
    Mr. Moran. You are one of us, John. Don't forget, Mr. 
Secretary.
    Mr. McHugh. The short answer to your question is: We are 
going to do better.

                        IMPACT OF SEQUESTRATION

    Mr. Moran. That is fair. All right. I wanted that to be the 
last word on the record.
    In this budget, you have asked for money for involuntary 
separations from the Army because you have got to draw down by 
80,000 people. But we also have a sequestration looming on the 
horizon this fiscal year. Now what would that mean to the Army 
if the sequestration was actually allowed to take effect?
    Mr. McHugh. Well, the problem that you have just mentioned 
would be dramatically exacerbated. The Chief spoke to this in 
his opening comment. If you look at it mathematically--and I 
think in is a best-case scenario, sequestration would require 
us to find cuts of at least another $134 billion. You could 
translate that into a minimum of another five BCTs, probably 
more out of the Active component, and I think many on this Hill 
are concerned how we are going to manage the current eight.----
    Mr. Moran. So roughly, are we talking 200,000 Active plus 
Reserve and Guard?
    General Odierno. We have 86,000 now. It would be another 
additional 100,000 at least.
    Mr. Moran. Sure. So it is about 200,000, roughly. And then 
on the Reserve and Guard, we actually have a retention rate of 
110 percent. It is more than we had even anticipated. Now are 
you going to also ask for money for voluntary separations, like 
severance packages and that kind of thing, particularly with 
regard to what that may mean for morale? Obviously if it is 
voluntary it is a lot more of a morale booster than involuntary 
separation.
    General Odierno. Well, I would just say, Congressman, if we 
do not go to sequestration, and we continue just to do the 
80,000 that we are doing now--we went through voluntary 
incentives in the 1990s; and frankly, it didn't work out so 
well. Our assessment is the people we wanted to stay were 
leaving because they felt more confident about leaving and 
being able to do other things. And we want to have control 
somewhat over keeping our best people. So we would use that if 
we had to, but it would be something of a last resort to use 
something like that.
    Mr. McHugh. Could I add to? Because I know some of your 
Northern Virginia concerns. This just isn't military. This is 
civilian as well. And those kinds of cuts would have to be 
equally weighed against civilian reductions, which are already 
a challenge for us, even under the current budget. So it would 
be a huge problem.

                      JOINT LIGHT TACTICAL VEHICLE

    Mr. Moran. Very good point. Thank you, Mr. Secretary. And 
lastly and very quickly, you have got about 150,000 high 
mobility wheeled vehicles. We are going to be sort of switching 
to the prototype, the Joint Light Tactical Vehicle. But we have 
got a problem in that we are requiring that we have the kind of 
MRAP protection underneath them for IEDs and so on. But the 
problem is that that weight is sinking them into light soil. 
And I see that, from the prototype testing and so on, that has 
been a real problem. How are you going to deal with that, 
General?
    General Odierno. Are you asking about the Joint Light 
Tactical Vehicle?
    Mr. Moran. Yes.
    General Odierno. We believe that the Joint Light Tactical 
Vehicle will actually be able to provide better protection 
based on the new technologies that we have. So that is one of 
the benefits we believe of the Joint Light Tactical Vehicle. So 
we think it will provide us better protection at less weight. 
We will see as we go forward with this. That is what we believe 
we will get. But we do have that problem with Humvees clearly 
right now because they are so heavy.
    Mr. Moran. Thank you.
    Mr. McHugh. I would note, we worked very carefully with the 
Marine Corps to do the joint acquisition program, as you know, 
to reduce weight; in fact, 3 years shorter to acquisition and 
reduced the price by about 50 percent. So we feel pretty good 
about that program at this point.
    Mr. Moran. That is terrific. Thank you, Mr. Chairman.
    Mr. Young. Mr. Moran, thank you very much. Mr. 
Frelinghuysen.
    Mr. Frelinghuysen. Thank you, Mr. Chairman. I apologize for 
my absence yesterday.
    Mr. Secretary, thank you for being here. General Odierno, 
New Jersey is proud of you as a West Point graduate, your 
enormous success and your leadership of today's Army.
    I have a general question and a specific question: There is 
a lot of talk of pivoting to the Pacific, the Asia Pacific. 
Representative Calvert and I had the privilege of visiting 
General Thurman on the Korean Peninsula. We also went and 
looked at some issues that related to our appropriations 
process and decisions here with the Navy in Japan. I hear a lot 
of talk about the Marines and the Navy and confrontations, you 
know, in the air; the Air Force has to meet challenges.
    Where does the Army come into the picture here? You know, 
for some who read the newspaper, they feel, Well, maybe we can 
do everything with special operators. We can do things with 
drones. But when push comes to shove--and God only knows we 
hope it never happens--we need boots on the ground. Where do 
you see the Army getting into this picture? And how are you 
going to get today's Army into the fight to address issues of 
confrontation?
    General Odierno. Well first, thank you, Congressman. While 
I remind everybody, if you go into the Pacific region, there 
are actually more Army soldiers there than sailors and airmen 
combined. I will just continue to point that out to everyone, 
for those who believe there is not Army in the Pacific region.
    The second thing is, though, as I mentioned earlier, seven 
out of 10 largest land armies. What I didn't say is, 22 out of 
the 27 chiefs of defense are Army. The most influential 
organizations within the Pacific region in each country is the 
Army itself. So it is important that we engage army-to-army. 
And both Admiral Willard and Admiral Locklear, the new PACOM 
commander, have said one of the issues they have had is they 
have not been able to engage with all of the armies because of 
the tension in the Middle East. So I think there is an 
opportunity for the Army here to build relationships, to do 
multilateral training. So we are relooking, prepositioned 
stocks in the Pacific. We are looking at how we can do that for 
both training and for if we need it for deployment. I believe 
the Army can help with gaining access for future conflicts, if 
necessary. And I believe in both Korea and outside of Korea, 
there is a need to have a joint combined arms capability which 
would require ground forces. And so we are working that very 
carefully as we move forward in the Asia Pacific.
    So I think there is a big role for the Army. I think we are 
being aggressive at making sure everybody understands that I 
made my first trip over there and talked to both the chiefs of 
defense and the ministers of defense of both Japan and Korea. I 
recently had the head of the Australian Army here, and we are 
going to work very carefully with them as well as others. And I 
am going to go back there again this summer to some of the 
other nations to have these discussions and why it is important 
to have the Army involved there.

                         GROUND COMBAT VEHICLE

    Mr. Frelinghuysen. I must say, there seems to be a more of 
a public focus on Marines and Navy and the Air Force and we are 
for joint training with the Australians, who have always been 
supportive of us I guess since World War II. And I mean, you 
have worked and trained with the Australians. They are pretty 
good soldiers. They have been loyal to us. And obviously we 
have other allies.
    One program question: Where do we stand with the Ground 
Combat Vehicle? How is that program going? A less pointed 
question than I had last year. Where do we stand?
    General Odierno. We are in good shape. We had the protest. 
The protest was resolved. That delayed us a little bit, but we 
are on track. It is still a 7-year program. We are on track to 
get to Milestone B where in Milestone B, there will be two 
competitors that are developing a system. And then at that 
time, we will bring off-the-shelf capability to compete. Also 
at Milestone B, along with the new developmental capabilities 
to ensure that we are selecting the best infantry fighting 
vehicle----
    Mr. Frelinghuysen. It is still 7 years?
    General Odierno. It is.
    Mr. Frelinghuysen. Whoa. Okay. Thank you, Mr. Chairman.
    Mr. Young. Thank you, Mr. Frelinghuysen.
    Ms. Granger.

                          OH-58D KIOWA WARRIOR

    Ms. Granger. General Odierno, thank you for your service 
and for being here. It is wonderful to be here. Thank you for 
speaking up about sequester and we have all got to be very 
specific about--this is what it is going to cost us in manpower 
and equipment, whatever, because we have got to stop it.
    Secretary McHugh, thank you very much. I just have one 
question. It has to do with OH-58d Kiowa Warrior and you 
mentioned you are modernizing and replacing the existing 
commercial--the way I understand it, you are converting a 
commercial-off-the-shelf aircraft as a replacement for the 
Kiowa Warrior. And my question is, did you look at 
modernization and upgrading that? Because it is just the 
highest operational tempo and readiness and it has always just 
been a really magnificent vehicle.
    Mr. McHugh. The Kiowa Warrior has been a terrific platform. 
There is no question about it. And it still remains one of the 
focal points of our planning for the way ahead. The current 
status is, we are in an AOA, an analysis of alternatives, to 
try to determine what kind of progress could be made were we to 
build the next generation of armed aerial scout. That analysis 
will be done somewhat later this year; and at that point, 
looking at the Kiowa Warrior, the costs and such of continuing 
to have the SLEP, the service life extension program, for that, 
where bringing in a new platform will be decided. So we really 
haven't finalized a way forward.
    In the meantime, we do have what is called the CASUP 
program, which is the cockpit upgrade program for the Kiowa 
Warrior. We are implementing that. We are asking for funding to 
continue that. That brings that new capability set and 
modernization that you spoke about. If we go through to 
completion of that, that would keep the Kiowa Warrior in the 
fleet until about 2025. But we have got some important 
decisions to make probably by the latter part of this year.
    Ms. Granger. But you are considering all your options?
    Mr. McHugh. Yes, ma'am.

             SEXUAL HARASSMENT AND ASSAULT RESPONSE PROGRAM

    Ms. Granger. Thank you. Let me just say one more thing 
about what Jerry Lewis said, and that has to do with sexual 
assault. I was on the Air Force Academy board of visitors when 
they went through just a complete examination because of some 
situations there. I know it is Air Force. They did an amazing 
job. They brought in a new administration and they went through 
just an examination of everything. And it really was pretty 
amazing because I was brought on during that period of time. 
And of course not drug use but alcohol had a great deal to do 
with these assaults, and as you talk about drug and alcohol. 
And what they learned and the examination they went through 
would be beneficial. Other boards I served on, universities, I 
said, you need to look at this because it also happens in your 
university. But I would say that they really learned a lot and 
made a lot of changes. Some of them were situational. I mean, 
they went to women and said, All right, how could this be 
different? Because they looked at prevention really more than 
criminal charges and what was happening after. I would just 
suggest that.
    Mr. McHugh. I was on the West Point board when you were on 
the Air Force board, and we looked hard at what the academy out 
there did, and it did some darn good things. I think you would 
agree it is breathtaking, first of all, that we have this 
problem but that we have it at places such as West Point, Air 
Force Academy and, of course, at Annapolis, it makes it even 
more disturbing. And whether it is at the academies or just in 
the regular Army, alcohol abuse and the nexus between alcohol 
abuse and sexual abuse is disturbing. And we have got a real 
way by which we can control the latter by doing better on the 
former, and we are working that real hard.
    Ms. Granger. Thank you.
    Mr. Young. Mr. Rothman.

                   MEDIUM EXTENDED AIR DEFENSE SYSTEM

    Mr. Rothman. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary. Good to see you. Thank you for 
your career in public service, which is continuing with 
extraordinary results for our country. Thank you, sir.
    General Odierno, New Jersey is proud of you, sir, as a 
Jersey guy myself. I saw you at least once or twice in Iraq. 
And again, you have led an extraordinary career of military 
service. I hope your son is doing well. And God bless you, sir, 
for all you have done.
    I have a limited amount of time, so I want to get right to 
my question. The overarching issue for me at this moment, for 
my limited time here, would be theater missile defense. Is that 
an issue for you? How do you address it? I know that some of 
the PATRIOT 3 missiles have been upgraded. I have been told 
that the Medium Extended Air Defense System, the MEADS, has 
been canceled; yet the budget request includes about $400 
million for that system for fiscal year 2013. Can you talk a 
little bit about this?
    Mr. McHugh. Yes. I will start with MEADS. This has been a 
2-year excursion. And the reality is, the way forward is 
largely influenced by an agreement that was reached amongst the 
United States, Italian, and German Governments. The agreement 
stated that at the end of 2014, we would reach this magical 
place called ``proof of concept.'' I can't really tell you what 
that means other than at the end of that year all financial 
obligations on the participating partners would be discharged. 
The agreement also calls for anyone who leaves unilaterally has 
to pay all the termination costs. So the judgment that the 
Department of Defense and the Army, as the executive agent for 
it, had to make last year was, would we spend approximately 
$800 million in termination costs, the estimate of what it 
would be to just walk away? Or would we spend roughly the same 
amount of money and get to the end of 2014, the proof of 
concept, and share in the technical capabilities package, 
whatever that might be?

                               PATRIOT 3

    Mr. Rothman. I just want to make sure I don't run out of 
time. The PATRIOT 3s, how effective are they, General?
    General Odierno. Well, first, we are continuing to increase 
the effectiveness. They are one of the most wanted items around 
the world. 50 percent of our current fleet is either deployed 
or is preparing to deploy right now. We continue to procure 
PAC-3 missiles. We have 84 in 2013. Beyond that, we will try to 
do 56 a year. We are also improving the electronic launcher 
system, which upgrades its hit-to-kill capability. So we feel 
like we are investing appropriately there. It is a system that 
is wanted.
    Mr. Rothman. We have a joint U.S.-Israel missile defense 
program on the David's Sling, and we find that the President 
put in his budget last year $204 million for Iron Dome. Those 
are technologies that are being shared with the United States, 
obviously, and are being partly manufactured here. I am 
wondering if the Army is considering, rather than reinvent the 
wheel, so to speak, comparing those technologies, if we have 
got any lessons learned that we can make use of those 
investments we have already made?
    Mr. McHugh. Well, we are always trying to do better. And 
the partnership on missile defense with the Israelis has been 
one of the more productive ones. We also have PAC-2s as part of 
that layered missile defense.
    Mr. Rothman. Could you just talk about--most Americans 
don't understand the need for theater missile defense. What is 
the threat that you are addressing with the theater missile 
defense?
    General Odierno. It is an integrated system, and it has to 
do with short-range ballistic missiles, SCUDs, items like that 
that could be launched into a country, Israel is one example, 
from Iran.
    Mr. Rothman. But how about for our own forces?
    General Odierno. Well, as our forward forces are deployed, 
it protects us from a ballistic missile attack as well as some 
other capabilities, short-range missile capabilities. And it 
defends our forces against that as they are deployed. So it is 
an incredibly important piece of our integrated missile defense 
system for tactical operation formations.
    Mr. Rothman. Thank you, Mr. Chairman.
    Mr. Young. Thank you, sir.
    Mr. Crenshaw.

                           M1 TANK PRODUCTION

    Mr. Crenshaw. Thank you, Mr. Chairman. Thank you all for 
your service and for being here today.
    I was interested in Mr. Dicks' question about tank 
production because if you remember last year, we had kind of a 
conversation about that, about how the production lines were 
going to be shut down. And I wondered how much thought had been 
given at the time about the question of whether you spend money 
to shut down a production line or you keep it open and actually 
produce something. And I think that is why the Committee at the 
end of the day, under the leadership of Mr. Young and Mr. 
Dicks, said, Well, it would be $255 million to see what would 
happen and hopefully end up getting a tank, as opposed to just 
spending money, closing a production line.
    So I was interested in hearing your comments. It sounds 
like there has been some study and documentation. I think the 
committee might like to see that, just to hear more about what 
went into your decision to how that works. Because I think we 
all agree, we are in this thing. We have got to spend less 
money. But we also have got to spend money in a smart way. And 
we all agree that it would be better to spend money and get 
something than to spend money and get nothing. So let's 
continue that conversation. I think we would love to know more 
because I think at the end of the day the Bradleys are going to 
be in that same situation, as I understand it, in terms of 
production and what we are going to do there, so how we are 
going to deal with that.
    And I guess one question: General, just in terms of saying 
we have got enough tanks, as I understand it, the active 
military has the SEP tanks and the National Guard has the A1. 
And I know you have got firsthand knowledge. Can you talk about 
a couple of the advantages of the SEP tank over the A1 tank?
    General Odierno. Well, firstly, the National Guard has a 
combination of SEP and A1s. The active component has SEP tank. 
First, it is the integrated system between the commander's 
module and the gunner. The ability to--it is inside of the 
cockpit, for lack of a better term--the ability to coordinate 
and synchronize engagements and to be able to see longer 
distances at night is the major advantages of the SEP tank over 
the A1. The A1 AIM tank is a very good tank. And in fact there 
are some people who will tell you they like it because it is 
not as, for some people, technically confusing. It is much 
easier to operate. But they are both incredibly very good tanks 
that we are comfortable with, very, very comfortable with. And 
the reason they are important for the National Guard is, as you 
know, they have reduced training time. So in many ways, it is 
easier for them to have the AIM tank because it takes less 
training time to be able to operate and it is just as effective 
in terms of lethality as the SEP tank.
    Mr. Crenshaw. Sir, would there be any benefit of everyone 
having a SEP tank?
    General Odierno. Yes. There could be. But the other thing I 
would like to point out is, again, we are in the process of 
reducing force structure. So as we look at reducing force 
structure, my guess is we will reduce some of our heavy 
requirements. So there will be tanks moving from the Active to 
the Reserve component probably as we move forward. So we have 
to continue to do that analysis and understand how many will be 
moving and how many will not be moving before we make a 
determination whether we need more SEP tanks or not.
    Mr. McHugh. Just to give you some figures to think about: 
If we were going to pure fleet A1, A2, SEP2, D2, it would cost 
$600 million a year. That is the minimum sustained rate at Lima 
for 70 tanks a year for 6 years; so in other words, an 
additional $3.6 billion.

                     MI TANK ENGINE REVITALIZATION

    Mr. Crenshaw. And one last quick question about tanks, Mr. 
Secretary.
    Last year you talked about the fact that the Abrams tanks, 
most of the maintenance issues relate to the engine in terms of 
fuel efficiency. And I think this Committee, in its report, 
encouraged you to pursue ways to deal with that fuel efficiency 
as well as maintenance. And I wonder, is there any money in 
this year's budget to pursue those kinds of issues?
    Mr. McHugh. We have continued money through I believe the 
end of 2014, as projected for the TIGER program, which is the 
Total InteGrated Engine Revitalization program, which brings in 
those kinds of capabilities. We are always looking to improve 
that as well. But the answer is yes.
    Mr. Crenshaw. Thank you. Thank you, Mr. Chairman.
    Mr. Young. Thank you Mr. Crenshaw.
    Mr. Calvert.
    Mr. Calvert. Thank you, Mr. Chairman. And thank you both 
for coming. And John, I miss seeing you around here. General, 
thank you for your service.
    Sorry I was late. I was representing the Appropriations 
Committee at the Budget Committee about the sequestration.
    Mr. Young. That is very, very important. And thank you very 
much.

                    GROUND COMBAT VEHICLE UNIT COST

    Mr. Calvert. Well, it is daily progress. And tomorrow Mr. 
Cole and myself will be at an interesting meeting.
    But since--and maybe this question has already been asked, 
so I apologize if it has. This is regarding ground combat. I 
heard some comments about it, the Ground Combat Vehicle. 
Acquisition has been kind of a pet peeve of mine for years, the 
complexity of the acquisition process and the time that it 
takes to do these things. But since joining this subcommittee, 
I have taken a particular interest in that subject. And the 
current acquisition, as you know, is the Ground Combat Vehicle. 
As I understand it, the Army stated that the average unit 
production cost will be between $9 million and $10.5 million. 
And the average unit production cost will be between $11 
million and $13 million. And the Pentagon's Office of Cost 
Assessment and Program Evaluation reportedly estimates that 
average unit production will be in the $16 to $17 million 
range.
    So I guess I would ask: Why is there such a large 
difference between what the Army is saying it is going to cost 
and what the Pentagon's Cost Assessment and Program Evaluation 
office says it is going to cost?
    Mr. McHugh. I don't want to speak for CAPE, and they don't 
want me to speak for them either, but I think you always have 
some differences in those estimates because they are, in fact, 
estimates. But part of the reason it is hard to pin down these 
costs precisely is the very fact that we have learned a lot of 
the lessons that people like you, Mr. Calvert, have been trying 
to teach us; and that is to take a more realistic approach.
    We, as you know, first issued the RFP for the GCV. There 
were over 900 must-have requirements. That was a lot of the 
``here we go again'' syndrome. And to the Army's credit, they 
withdrew that RFP, reconfigured it, rescoped it, and reduced 
those must-have requirements to under 200. The other thing that 
I think that is causing some differences of estimates is the 
fact that we are using competitive prototyping. And while we 
think that the effects of that may save a bit more than CAPE 
does, I think all of us can agree that is a very smart way to 
go about this kind of acquisition program, this 7-year major 
acquisition program.
    Number two, analysis of alternatives, looking at 
nondevelopmental alternatives from other nations, other 
platforms. The Chief has spoken earlier today about looking at 
the Stryker or a stretch Bradley or something as that instead 
of going to a GCV that causes cost estimates to become a little 
bit more uncertain as well. But for whatever differences we 
have with CAPE, OSD supports this initiative. They have given 
us the okay to go forward with it, and we think we are on a 
good track.
    Mr. Calvert. I appreciate that. But as you know, Mr. 
Secretary, unfortunately, CAPE in the past has been more 
accurate than the Army.
    Mr. McHugh. It is a new Army and a new CAPE.

                    GLOBAL HAWK BLOCK 30 RETIREMENT

    Mr. Calvert. Hopefully that is the case. One thing, I just 
wanted to make a point. I was in Korea recently with 
Congressman Frelinghuysen and I met with General Thurman. We 
had a very candid conversation. And I imagine every combatant 
commander would love to have 24/7 persistent surveillance in 
their theater. And General Thurman is no exception. And I was 
wondering what kind of communication you had with your brothers 
in the Air Force when they determined to park the Global Hawk. 
Did you have quite a conversation about that versus being able 
to use that platform?
    General Odierno. We did not have a specific conversation 
about Global Hawk between the Army and the Air Force. I think 
the combatant commanders in the Air Force had conversations 
about it. You know, it is not one of our programs, so we didn't 
have a specific discussion about that.
    Mr. Calvert. But obviously you are a big customer.
    General Odierno. I am. Was.
    Mr. Calvert. And I would suspect that your people are the 
ones that are at risk here. And was there any candid 
conversation taking place between the Air Force and the Army?
    General Odierno. It is about coming up with--you can't just 
take that capability away. You have to replace the capability. 
They believe they are going to replace the capability with some 
other fixed wing assets that they have. So they have worked 
very hard to explain to us why they will be able to replace 
those capabilities. And we would have to wait and see, have 
further discussion about that.
    Mr. McHugh. If Secretary Donnelly were here, I am hopeful 
he would defend me as well. It is not all Global Hawk. It is 
just the Global Hawk Block 30.
    General Odierno. That is right.
    Mr. McHugh. So they have sustained the Global Hawk program. 
It is just a niche capability that is achieved that they feel 
they can cover with onboard available assets that they have at 
a cheaper price. That was their analysis. But again, we were 
not consulted.
    Mr. Calvert. Thank you. Thank you, Mr. Chairman.
    Mr. Young. Thank you, sir.
    Mr. Hinchey.

                    BATTERIES AND THE SOLDIERS LOAD

    Mr. Hinchey. Well, thank you very much, Mr. Chairman. 
Secretary, it is great to see you. Thank you very much. And I 
very much appreciate what you are doing. And it is a great 
pleasure to listen to you and understand all the things that 
you are doing. Of course we do understand a lot of things you 
are doing and how effective they are. We deeply appreciate it. 
And, General, thank you very much as well. We deeply appreciate 
you and all the things you are doing. And I appreciate the work 
both of you have done to bring attention to the Army's energy 
challenges and the need to improve energy security. A whole 
host of other things. Thanks for everything you are doing.
    I just have a couple of simple little questions about the 
safety and security of these Army people. And one of them has 
to do with a report that soldier load can be as high now as 130 
pounds. And that 130 pounds comes about as a result of a lot of 
things. But mostly apparently it is batteries. At least a big 
chunk of it is batteries. I know that this is something that 
you are paying attention to and something that you are trying 
to deal with effectively to try to make it more safe and 
secure. So I wonder if you could just talk a little bit about 
that and what is likely to happen and what things you are going 
to do to try to make it more safe and secure.
    Mr. McHugh. I would be happy to. I will start with the 
battery part and the Chief can talk about the operational 
loads. He is far more conversant than I am. You are absolutely 
right. My favorite data point is to put a platoon on patrol for 
72 hours, they have to take 400 pounds of batteries with them. 
So what we are trying to do is pretty simple, and that is 
replace those disposable batteries with rechargeable batteries. 
When the conflict started back in the early 2000s, only 2 
percent of the battery supply of the United States Army was 
rechargeable. Today it is 52 percent. And we can reduce the 
individual soldier load by taking that 400-pound battery 
requirement away from that platoon by about six pounds per 
soldier, dispersed across the platoon. Now we still have 48 
percent of those batteries to go, but that is something that we 
are working on very, very diligently, and making sure they have 
other recharge capability out on patrol. What you can really do 
is extend a foot patrol indefinitely. Whereas before batteries 
are as deadly--or lack of batteries can be as deadly as the 
enemy. If you don't have a sustainable electrical supply, you 
have to bring those soldiers back out of the field. So----
    General Odierno. If I could, the 173rd Airborne Brigade and 
the 1st Brigade 82nd are getting ready to deploy to 
Afghanistan, and they are going to be the first brigades 
equipped with some of our newest energy systems. That should 
reduce the load of batteries.
    I will just give you a couple of examples. The Rucksack 
Enhanced Portable Power System, which is solar panel charged 
batteries. They will be given 89 of those within the brigade. 
They will be down to squad platoon levels to help reduce loads. 
There is the Solar Stick, which is a solar module battery pack 
and charging system.
    So these are some of the operational energy things that we 
are now employing and giving to the units getting ready to 
deploy that will help reduce the load of batteries and also, 
frankly, increase our ability to use less batteries and more 
safe batteries as well. So we continue to work this very hard, 
but we are very understanding of this problem of weight on our 
soldiers.

                           ENERGY EFFICIENCY

    Mr. Hinchey. Well, thank you very much. I appreciate the 
attention to that and the positive effort that has being done.
    One other simple little question about the safety and 
security of our people. And it is related to the battery issue. 
It is important to recognize that energy security efficiency 
projects being developed and deployed, you know, all of that 
has saved lives and that is something else that needs to be 
done to continue to do that. And I know that you are very much 
aware of the fact that over 3,000 American servicemembers and 
contractors were killed protecting fuel convoys between 2003 
and 2007. And I am sure that number has increased since 2007. A 
lot can be done to cut down on the number of convoys and to try 
to do this more effectively and more safely.
    I think it is important to educate and create a culture 
that considers energy efficiency a necessity. Soldiers should 
know that their greater efficiency is helping keep their fellow 
soldiers out of harm's way, implementing best practices at FOBs 
and take fuel trucks off the road and ultimately save American 
lives. So I know that this is something that is troubling you 
and something that you are paying a lot of attention to and 
dealing with, and I hope that maybe you can tell us some of the 
things that you are dealing with this and some of the things 
that you think might be more effective as time goes on.
    Mr. McHugh. Excellent point. And you know we want to do 
this to save money. We want to do it for a lot of reasons. But 
at the end of the day, one of the most important is force 
protection. Convoys, for every 44 convoys we have approximately 
results in a casualty. So every time we have to put another 
convoy on the road we are putting our soldiers at risk and that 
is something we want to minimize. One of the key ways in which 
we are doing it, because about 70 to 80 percent of all of our 
convoy load is either water or fuel, what we are trying to do 
is lessen our requirements for water and fuel. We have 
installed shower reuse systems that can save about several 
thousand gallons, about 9,000 gallons of water per day per 
unit. Therefore, fewer convoys. One of the best things I think 
we are doing is what we are calling spot mini generators. They 
are going to save, when all installed, forward deployed, 50 
million gallons of fuel a year. That is the equivalent of 55 
trucks a day taken out of convoys each and every day, fewer 
casualties.
    So these are the kinds of things we have to do, yes, 
because it makes environmental sense, yes, because if we do it 
smartly it saves us money, but most of all, it keeps our 
soldiers safe.
    General Odierno. Can I just add, in Afghanistan we have 22 
mini grids that have been established that have saved us about 
over 30 million gallons of fuel a year. We have 22 employees. 
We are adding six or eight more this year. So that is a 
significant savings in the amount of fuel that is being used. 
We are looking at a new turbine engine for our aircraft which 
will reduce fuel by 25 percent. So these are all keys things we 
will continue to work for. And it is about force protection, as 
you said, in the theater, and it is about us reducing our fuel 
costs as well. So it is dual purpose here. And it is very, very 
important.
    Mr. Hinchey. Well, thanks very much. I appreciate your 
response to this, and I seriously deeply appreciate all the 
attention and effectiveness that you deliver and the 
responsibilities that you have. Thank you very much for 
everything that you do.
    Mr. McHugh. Mr. Chairman, would you allow me? Because I 
don't believe Mr. Hinchey was in the room and I have served 
with Maurice since our days in the State legislature and I know 
he is not running again either. As a fellow New Yorker, I want 
to thank him for his friendship and, more than that, for 
decades of leadership and concern. I wish you all the best.
    Mr. Hinchey. Thank you very much.
    Mr. Young. Mr. Secretary, thank you very much for that, 
because we love our colleague Mr. Hinchey, and we also wish him 
the very best. And thank you very much, Mr. Hinchey.
    And now I will recognize Mr. Cole, who is also one of the 
representatives of this subcommittee to the Budget Committee as 
they try to protect our numbers when the budget funding comes 
out. Mr. Cole.

                  PALADIN INTEGRATED MANAGEMENT (PIM)

    Mr. Cole. Thank you very much, Mr. Chairman. It is always 
great to see you, Mr. Secretary. I had the good fortune of 
being your vice chairman when you are a subcommittee chairman 
on HASC. I was there when you were ranking and now I am here 
when you are Secretary. So if you could tell me what you are 
doing next, I would have some idea the arc of my career is 
because I seem to kind of follow you around.
    General, thank you for your extraordinary service and the 
sacrifice of your family. It is noted and appreciated greatly.
    I am going to ask a parochial question and then I have a 
couple serious ones. The parochial one is this. A number of--as 
I know the Secretary knows and the General knows as well--Fort 
Sill is in my district. I have a lot of Indian tribes and when 
you guys canceled the Comanche I literally got a call from the 
Chief who said I can't imagine the U.S. going to war with 
Kiowas or Apaches and no Comanches. So the next time you name 
something, if you could just--I don't care what it is but if 
you could get the Comanches back in the mix, I would have 
15,000 very happy constituents. He reminded me. He said, look, 
we fought against, with and for the United States Army more 
than anyone else. We ought to be a part of it.
    More seriously, at Fort Sill in Lawton obviously we have 
lived through the cancelation of the Crusader, we have lived 
through the cancellation of the NLC. We are following the 
Paladin, the PIM program, with a great deal of interest. And so 
I would like to know from your standpoint what the status is, 
how the program is progressing and what you see for it going 
forward.
    Mr. McHugh. PIM remains one of our critically important 
developmental and modernization programs. We have to have that 
capacity that can keep up with our formations, particularly as 
we begin to develop JLTV, GCV and other components of both the 
tactical and nontactical vehicle fleet. We want a mobile 
artillery system. In Iraq I came across a figure the other day. 
We fired over 200,000 rounds of artillery. So I think we are 
pretty safe in assuring ourselves that we are going to need 
this capability in the future. So we remain dedicated to it. We 
have a way forward. And we are going to stick to that. Whether 
we can rename that or not, I am not sure.
    General Odierno. I did not mention that as one of our key 
programs, but the PIM program is essential for us as we move 
forward. As an old artillery man, I can tell you how important 
it is not only to the ground force but in fact the joint 
integrated force. And it is about providing a system that is 
more capable, more survivable, and we need this improvement 
very badly as part of the combined arms maneuver team and we 
are moving forward with that. And we are very encouraged by the 
program and the progress it is making so far.

                          PRECISION MUNITIONS

    Mr. Cole. You have actually already answered part of this 
in my question and maybe all of it. And it will be my last 
question, but since we are changing the nature and the 
structure of the force, and I know you are thinking in very 
long-term ways, if you could sketch out again sort of your view 
over time of where artillery will be. Are we going to 
eventually have another artillery piece? As you think through 
these problems, I think a lot of folks are interested in where 
that fits in the future Army.
    General Odierno. Well, what we have learned--and the 
Secretary kind of mentioned it, over the last 10 years of 
warfare which is considered a counterinsurgency both in 
Afghanistan and Iraq, there has been significant use of 
indirect fire systems both by us and by the insurgents, 
frankly, and its value continues to be critical to us as we 
move forward in what we are considering to be a very complex 
hybrid environment that we are going to have to operate in, 
which could include conventional forces, irregular warfare, 
terrorism, and criminal activity, the need for us to be able to 
protect ourselves and also to provide fire as essential to that 
mission. So we don't see it being degraded. It will continue to 
be integrated within our maneuver formations both in the light, 
medium and heavy capacity. So we will continue to have to 
modernize our ability to provide accurate, longer-range 
capability in support of our infantrymen on the ground. And it 
will continue to be a key system that we move forward with.
    Mr. McHugh. One of the things that assures that is the 
amazing development of precision munitions. And whereas in the 
past someone might have questioned the use of artillery in 
certain environments, with precision missions there is 
virtually no environment in which we can't use it very 
effectively.
    General Odierno. Excuse me, Congressman. We talk about one 
of the characteristics. I was talking about lethality, but it 
is not just lethality, it is about discriminate lethality. And 
frankly ground forces can be the most discriminate lethality 
possible. And part of that is having an artillery system that 
is able to deliver at very close range very accurately. So that 
is key to us as we move forward.
    Mr. Cole. I appreciate that very much, and again thanks to 
both of you for your terrific service to our country. You have 
paralleled but very splendid careers in making sure all of us 
stay safe and the country stays free. Thank you very much.
    I yield back, Mr. Chairman.

                    BUDGET REDUCTIONS AND READINESS

    Mr. Young. Mr. Secretary, General, thank you very much for 
a good hearing. I might change the tone just a little bit, but 
it is all in the interest of protecting our country.
    Members of this subcommittee take very seriously the direct 
responsibility that we are given by Article I, Section 8 of the 
Constitution dealing with our national defense and dealing with 
appropriations. Last year we were required to reduce the fiscal 
year 2011 bill by $18 billion below the President's budget 
request and the fiscal year 2012 bill we were required to 
reduce it by some $20 billion below the President's budget 
request. It was not easy because we were committed and 
determined that we would not do anything to affect readiness or 
to affect the soldier. Now we have substantial reductions again 
this year, and we are going to do the same job. And we did it 
very carefully. We have a tremendously professional staff. We 
even went through line by line, item by item, contract by 
contract. We saved those billions of dollars and we did not 
affect readiness. And we have asked that question of all the 
services and they agreed. Those 2 years we did not affect 
readiness.

                                  RISK

    Now yesterday at our hearing, I heard the phrase 
``acceptable risk.'' You can imagine we had quite a 
conversation about what is the acceptable risk. Is it just a 
phrase? Or is it something that they really knew about? Today I 
heard the phrase ``hedge risks.'' Mr. Secretary, what do you 
mean by that?
    Mr. McHugh. As you know, Mr. Chairman, as the members of 
this committee know, you can never buy down to zero risk. We 
could spend every dollar in the Federal Treasury on defense and 
we would still have risks. We understand as we look toward the 
future we cannot in this budget and in this strategy foresee 
all unforeseen things. And when I speak of hedging against risk 
I am talking about the need to engage in some high-end, 
unforeseen, I don't think at this moment reasonably predicted 
conflict against our need to ensure that our end strength is 
balanced by the realm of requirements, readiness, making sure 
we have family programs, making sure we have modernization 
programs. So we are at a point under the budget dictates that 
we were handed, as you were over the last 2 years, where I 
think that when we hedged against risk we have accepted that we 
have a way by which we can accommodate today and the reasonably 
close in future but also in reversibility and in other ways 
meet that unforeseen risk that is always present.
    Mr. Young. And I understand that, sir. Let me just ask 
this, are you comfortable that when you consider risks, are you 
comfortable that this budget is adequate to face up to any 
risks that you might know about today or that you think might 
be a potential risk tomorrow?
    Mr. McHugh. The risks that are envisioned today--and this 
is not just John McHugh talking. If I may, I would like to 
defer to the Chief as well. He is required by law to tell you 
what he thinks, me not so much. But all of the combatant 
commanders were brought in on this development. All of the 
service secretaries, all of the service chiefs. We had an 
unprecedented meeting with the COCOMs, the chiefs, the 
secretaries, the national security staff, the principals of it, 
the President and Vice President of the White House everybody 
had their opportunity for their say. And I think in the context 
of this entire budget, this strategy makes sense, and I feel 
the Army has the necessary resources to do the duty that this 
Congress will assign to us in the future.
    Mr. Young. Well, you know I have much respect for your 
opinion. And General?
    General Odierno. Thank you, Mr. Chairman. You know, as I 
have looked through this budget, there is three things that the 
Secretary and I constantly look at. It is end strength, it is 
modernization, it is readiness: Man, equip, train. And how do 
we balance those three things together in order to sustain the 
best Army in the world? And that is what we are going to be 
focused on. And so for me it is about mitigating the risk 
associated with less dollars and delivering an Army that can 
meet any of the spectrum of missions that we might be asked to 
do. So we talked about reprogramming before. There was a 
question about that. That is why as we continue to assess this 
we might have to come back to you next year or year after, and 
start talking about that we have found some risk in the program 
where we will have to adjust these three dials in order to get 
it right. But as it looks for the whole strategy, the risks 
that we are taking in the Army is if we get into two 
simultaneous sustained operations again. We realize we do not 
have the end strength to handle that. That does not mean we 
cannot do two simultaneous combat operations if they are of 
short duration. We can do that. But when they extend out for 
long periods of time and they are large capacity operations, we 
will then run into the same problems we ran into in the 2000s, 
is that we do not have the end strength to continue to support 
two of those operations at one time. And we understood that 
going in. That was the risk that we decided to take because we 
believe the chances of that happening are fairly low, having 
two simultaneous operations that would extend for a very long 
period of time. And so that is the risk we will look for as we 
move forward.
    Mr. McHugh. But if I may, we also took steps to mitigate 
that should it become reality. We have taken 1,000 forces that 
generally major and senior NCOs, placed them into the 
generating force. Those are the people you can't grow overnight 
if for some reason you have to grow end strength quickly. So we 
tried to mitigate and hedge those risks where we can.
    General Odierno. That is also why we are looking at the 
reorganization of the brigade because I think if we do this 
properly, that could also mitigate the risk of potential 
expansion in the future. And that is part of the analysis we 
are doing as we look at this.
    Mr. Young. Well, I understand that it is real challenging. 
It is challenging to me because I have this ingrained in my 
conscience for years of working on this Committee and having 
worked on the Armed Services Committee prior to that and the 
Intelligence Committee. But I believe that when it comes to 
defense we cannot just pick a number out of the air, and I do 
not think you have done that. But we cannot just make a 
political number, and I do not think you have done that. But we 
have got to base our investment in our national defense on what 
is the threat that we see today, that we know today, and what 
we see as a potential threat tomorrow, next week, next month.
    So forgive me if I tend to be a little bit stronger on this 
issue of readiness and spending and making sure that your 
soldiers have whatever they need. I do not want one of your 
soldiers to be on patrol and reach out and need something and 
all of a sudden it is not there. I do not want that to happen, 
and I know that you do not want that to happen.
    So anyway, that is my sermon for today on the issue of 
readiness. But we are here to be supportive. As you know, over 
the years we have been totally supportive of the 
administration, whichever the administration was, to make sure 
that our country was safe and secure and that the soldiers, the 
troops who keep it secure, that themselves are secure. And now 
I would yield to Mr. Dicks.

                             SEQUESTRATION

    Mr. Dicks. Thank you. And just to follow with the chairman, 
I assume from all we have heard that if we have sequestration 
all of this is a completely different scenario. What were the 
numbers you have, General, of the reductions in personnel 
beyond what we are going to do now?
    General Odierno. 100,000 is our estimate. And it will be a 
mixture of Active and Reserve component. We would have to, 
depending on the mix, it would depend on the specific number, 
we have to work our way through it, but it would be about 
100,000 additional soldiers, so a total of about 186,000 
reduction.

                           SYSTEMS ENGINEERS

    Mr. Dicks. Just one other thing, our surveys and 
investigation staff looked at shortages of key engineering 
personnel such as systems engineers. Now, if you are going to 
beat Shy Meyer you have got to get some systems engineers. What 
has the Army tried to do about it? Is this a legitimate 
concern?
    Mr. McHugh. The nomination the President sent to the Hill 
for the next Army ASAALT is a systems engineer. So we are 
trying to hire her at the highest level. But this has been one 
of the critical areas in which from our developmental 
perspective we have been challenged. Because at the end of the 
day as the systems get more complex you have to have someone 
who understands what you can and what you cannot put together. 
And we are trying very hard, and Congress has given us a mark 
on the wall to end source a great deal of those kinds of 
experts into our acquisition core. And we have come a long way, 
but we still have a ways to go. Like a Major or a Captain you 
do not grow an acquisition expert, particularly a systems 
engineer overnight, but we are working it.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Young. Thank you, Mr. Dicks. And Mr. Secretary and 
General, thank you very much. This has been a good hearing, you 
responded directly to our questions without any hedging, if I 
can borrow your word again, and we appreciate very much both of 
you and your service to our country.
    And so the Committee will be adjourned until 10 a.m. 
tomorrow, at which time the three Surgeons General of our 
military will be here at 10:00.
    [Clerk's note.--Questions submitted by Mr. Kingston and the 
answers thereto follow:]

                        Downsizing the Military

    Question. The Army proposes cutting 72,000 soldiers, per the budget 
proposal; Reserve strength is scheduled to be cut by an additional 
5,000. Will these be specific targeted military skill sets or across 
the board cuts?
    Answer. As part of the new DoD Strategic Guidance, the Army will 
downsize approximately 79,000 Soldiers to 490,000 in the Active 
Component, and will reduce its Reserve Components by 9,000 from 358,200 
to 350,200 in the Army National Guard and from 206,000 to 205,000 in 
the United States Army Reserve by the end of the Future Years Defense 
Program. The Army's deliberate and responsible drawdown plans will take 
into consideration operational demands, unit readiness, and will 
proceed at a pace necessary to ensure mission success and retain 
flexibility to respond to unforeseen demands at a tempo that is 
predictable and sustainable for our all-volunteer force. The Army's 
plan will ensure that the force contains the required capability, 
capacity, and mix of skills to meet current and future operational 
requirements within authorized end strength. In general, we will see an 
increase in Army Aviation, Special Forces, Military Information Support 
Operations, Civil Affairs, Infantry and Armor skills. We will see a 
decrease in Field Artillery, Chemical and Signal skills. An 
announcement on specific force structure actions is expected sometime 
before, or in conjunction with, submission of the FY14 President's 
Budget in early February 2013.
    Question. How will these personnel cuts impact Deployment/Dwell 
time ratio for those that don't get cut?
    Answer. The Army will accomplish force reductions in a responsible 
and controlled manner in synchronization with units deploying or 
redeploying to and from Afghanistan. The Army will execute force 
reduction measures by following a drawdown ramp that allows us to take 
care of Soldiers and families, while maintaining a ready and capable 
force to meet any requirements, including our current operations in 
Afghanistan.
    Question. There are some news reports beginning to circulate 
talking about the Army cutting as many as 13 BCTs. Would cutting 13 
BCTs mean that we will be losing even more personnel than has already 
been announced?
    Answer. The Army announced during the President's Budget 2013 
release that a minimum of 8 BCTs and other force structure totaling 
57,400 would have to be reduced over the course of the 2013-17 Future 
Years Defense Program (FYDP) to achieve the Active Component (AC) end 
state of 490,000 by the end of FY17. Additionally we have said that the 
Army continues to assess the design and mix of BCTs based upon the 
lessons from the last ten years of war. This analysis could lead to a 
decision to reorganize BCTs within the 490,000 AC end strength, into 
more capable and robust formations, requiring further BCT reductions in 
order to increase overall versatility and agility for tomorrow's 
security challenges. An announcement on specific force structure 
actions is expected sometime before, or in conjunction with, submission 
of the FY14 President's Budget in early February 2013.

                                 C-27J

    Question. It is my understanding that at least part of the 
rationale for divesting the C-23 (Sherpa) fleet was that we were going 
to acquire the C-27J. With the C-27J fleet now being divested, do we 
need to re-look at the original C-23 divestiture or can the 
requirements be met with other assets (like the C-130)?
    Answer. The C-23 is an obsolete aircraft. It is limited on payload, 
range, speed, and ``high/hot'' performance. The time sensitive/mission 
critical cargo mission has been shifted to the United States Air Force. 
To continue with the C-23 would be cost prohibitive.

                              Afghanistan

    Question. Is the United States still on track to transfer Afghan 
forces to the lead security role, as we have planned with our NATO and 
ISAF allies? What impact does it have when nations (like France, most 
recently) announce that they are withdrawing early? Has this impacted 
our decision at all with respect to our withdrawal timing?
    Answer. We are well into the process of transitioning security lead 
to the Afghan National Security Force (ANSF) as agreed to at the 2010 
NATO Lisbon summit. Currently, approximately 50 percent of Afghans live 
in areas that are in the transition process and the ANSF are on track 
to assume lead for security for all of Afghanistan by the end of 2014.
    Our coalition partners, including France, remain committed to the 
Lisbon-based transition process. The U.S. and members of the ISAF 
coalition realize that transition is critical to ensuring Afghanistan 
is safe and stable, not merely the way out. Over the next two years 
coalition forces will remain combat ready, but increasingly focused on 
security force assistance missions as we continue to move the Afghans 
into security lead. Both the U.S. and ISAF partners will continue to 
coordinate their drawdown plans to support overarching ISAF campaign 
plan objectives.
    Question. What were some of the military & national security 
considerations that were taken into account when looking at the timing 
of withdrawal? What level have these discussions been occurring at?
    Answer. The pace of force reduction is based on several factors 
including the recommendation of our military commanders as well as 
analysis of progress towards the core goals of the campaign of 
disrupting, dismantling, and defeating al-Qaeda, and preventing 
Afghanistan from ever again becoming a safe haven that could threaten 
the United States or our Allies and partners. In the process, the 
administration carefully looked at all input. The discussions regarding 
the pace of force reduction and the handling of security resulting has 
been discussed at all levels in the military chain of command, the U.S. 
government and the Government of Afghanistan.
    Question. Is the withdrawal of surge forces this year in sync with 
the need for trainers at the Afghani police and Army unit levels?
    Answer. Yes. We are shifting to a Security Force Assistance model 
that will enable ISAF to continue with ANSF development as we reduce 
U.S. Force levels.
    Question. When will the ``reset'' of equipment used in Iraq and 
Afghanistan (estimate) be complete? Any idea of how much it will cost? 
(DoD comptroller, Mr. Hale said we have $9.3B planned for FY13 OCO 
reset at the 15 Feb HASC hearing).
    Answer. The Army estimates that the Reset of equipment used in Iraq 
and Afghanistan will be completed 2-3 yrs after completion of 
operations in Afghanistan. We will require Reset funding for that 
period to complete the Reset effort and ensure equipment readiness for 
future contingencies. We estimate that if contingency operations ceased 
today, the Army would need $10-15B to complete Reset. There are many 
factors and assumptions that can affect the total future Reset 
requests, such as battle losses/washout of equipment, the condition of 
equipment at the time of retrograde and the final determination on what 
equipment we will retrograde from theater. The Army conducts an annual 
Reset Liability study in conjunction with the Office of Cost Assessment 
and Program Evaluation within the Office of the Secretary of Defense to 
revise and re-baseline our Reset estimates.
    Question. What is the rationale behind refurbishing our legacy 
equipment versus deciding to buy new equipment? On what basis is the 
line drawn between buying new systems and repairing/refurbishing the 
legacy systems?
    Answer. The rationale behind refurbishing legacy equipment rather 
than buying new equipment is to ensure the Army gets the capability 
required in the most cost effective way while getting maximum use out 
of the equipment. Refurbishing equipment is considerably less costly 
than buying new and allows for technology insertion, ensuring the 
legacy system is upgraded to the current production standard and 
required capability.
    There is no firm line drawn between buying new systems and 
repairing/refurbishing legacy systems. Each case is evaluated 
separately using a Business Case Analysis (BCA) to evaluate the cost, 
schedule and performance of each course of action. In each case, the 
current Maintenance Expenditure Limit (MEL), which is a percentage of 
the new production cost, is taken into account. If the equipment can be 
refurbished below the MEL, while still meeting the required capability, 
the Army will opt to refurbish the equipment. If the equipment cannot 
be refurbished below the MEL or the equipment can no longer meet the 
required capability, the Army will opt to buy new equipment.

                     Individual Carbine Replacement

    Question. The FY 13 Army base budget request contains approximately 
$21 M for Individual Carbine Replacement. How much progress can we 
expect to make this year with that level of funding? What are the 
goals--where would we like to be coming out of FY13 and into FY14 in 
this program?
    Answer. The Fiscal Year 2013 (FY13) Carbine funding line, BLIN 24, 
containing $21 million, supports the procurement of 12,000 M4A1 
configuration carbines to maintain an active production line during the 
Individual Carbine (IC) competition. The IC competition is not 
scheduled to be completed until the 1st Quarter of FY14.

             Ft. Stewart Growth in Unmanned Aerial Systems

    Question. With respect to the Army going to a concept of 
``consolidated stationing'', where not all Combat Aviation Brigades 
will get a dedicated Grey Eagle UAS organization, we've been told that 
most will consist of 3 squadrons of 12 aircraft each, 6 ground control 
stations and 128 personnel per company. Is this accurate? How many 
contractor personnel will be associated with a typical organization? Is 
it true that these units will be attached to CABs that don't have Grey 
Eagles and will rotate with them for deployment/training?
    Answer. U.S. Army Special Operations Command will receive two fully 
equipped Gray Eagle companies, each with 12 aircraft and 165 personnel. 
For the General Purpose Forces (GPF), the current plan is to collocate 
three Gray Eagle companies at five installations. One of the three 
companies will be fully equipped with 12 aircraft and 6 ground control 
stations (GCS), and will be deployed or available for deployment. The 
two remaining companies will each be equipped with 4 aircraft and 2 GCS 
in order to support training requirements. All GPF companies will have 
their full complement of 128 Soldiers and rotate through deployment 
cycles attached to deployed CABs. As the Gray Eagle is a complex system 
that is very early in its life cycle, a heavy contractor presence is 
required for sustainment--the first company deployed to Afghanistan 
with 28 contractors. Upon redeployment in FY13, this number will be 
reduced to approximately 12, and by FY15 will be further reduced to 5.
    Question. How is the progress going in working with the FAA to get 
the agreements in place to operate the Grey Eagle UAS at those bases? 
Are there any problems getting the authorizations that you need to 
operate unmanned systems in our training airspaces?
    Answer. Outside of the training base at Fort Huachuca, Arizona, the 
Army has not yet pursued a Certificate of Authorization or Waiver (COA) 
from the FAA to support Gray Eagle operations. Requests will be made 
after a detailed risk analysis is completed for each installation to 
ensure safe operations. We have a great deal of experience with the COA 
process, and do not anticipate any extraordinary problems gaining the 
required certifications.
    Question. What are the advantages of this new approach? How much 
money will the Army save by doing this?
    Answer. The consolidated stationing and reduced equipping of Gray 
Eagle companies enabled the Army to reduce costs while fielding 
additional force structure with a greater deployable capability. It 
enables continuous deployment of five companies while maintaining a 
trained rotational pool in the dwell force. This construct allowed the 
Army to procure 32 fewer aircraft at a savings of $76M and reduced 
associated military construction by $725M than if all companies were 
fielded with separate facilities.

                        CH-47 Chinook Helicopter

    Question. (As part of this year's budget, the Army has submitted a 
request for approval to enter into a second multi-year contract for the 
CH-47 Chinook helicopter (five years & 155 aircraft). Coming off of our 
first five-year, multi-year contract for Chinooks, are there any 
lessons that we've learned--things that we need to do differently? What 
has the Army seen that led to this request authority for a second 
multi-year contract?
    Answer. The first five-year, multi-year contract for Chinooks was 
exceptionally successful and there were no significant issues that 
would cause the Army to adjust the multiyear contracting approach. The 
primary reason for requesting a second multi-year contract is the 
significant savings made possible. The first multi-year contract 
realized savings of $449 million (M) on the base contract for 181 CH-
47F aircraft. In addition to the base contract savings, the program 
office procured 34 option aircraft for an additional $86M in savings. 
The current Chinook multi-year contract is a firm fixed price contract 
for Fiscal Year 2008-2012. The contract has executed on cost and 
delivered on schedule. The second requested multi-year contract is 
projected to yield a 10 percent savings or $373M.

                      Armed Scout Helicopter (ASH)

    Question. For FY 2011, this committee was a proponent of providing 
$15 million for a flight demonstration of a new Armed Scout Helicopter. 
I understand that the Army is going to issue a Request for Information 
(RFI) to industry, looking for technology solutions for the Armed Scout 
Program. What is the way ahead for an evaluation of the different 
capabilities available from industry? Is this program an Army priority? 
Is this program fully funded?
    Answer. The Army has asked the Defense Acquisition Executive to 
authorize a Request for Information (RFI) and a voluntary flight 
demonstration to assess the current state of technology within 
industry. The voluntary flight demonstrations will help define the 
capabilities available from industry to fill the Armed Aerial Scout 
(AAS) requirement. After assessing the available data, the Army intends 
to make a capabilities decision that either conducts a service life 
extension of the Kiowa Warrior helicopter or pursues increased 
capability with a new helicopter through an achievable and affordable 
moderate risk program.
    Funding for a new AAS helicopter program is yet to be determined. 
However, the Army is funded in Fiscal Year 2012 to release an RFI and 
execute the voluntary flight demonstration. Understanding the 
affordability of a new helicopter program will be a critical factor in 
the upcoming capabilities decision. The AAS capability remains a top 
equipping modernization priority for the Army.

    Enhanced Medium Altitude Reconnaissance and Surveillance System 
                                (EMARSS)

    Question. The Army and the Air Force have been engaged in airborne 
tactical Intelligence Reconnaissance (ISR) in both Iraq and 
Afghanistan. Have the Army resolved the division of responsibility for 
this function between the Army and the Air Force?
    Answer. The deliberation of roles and missions is still ongoing, 
but the issue of direct support apportionment of manned medium-altitude 
Aerial Intelligence, Surveillance and Reconnaissance (AISR) assets was 
not discussed during the 15.7 FEB 12 Army--Air Force talks. That being 
said, this issue of EMARSS is really a larger issue within the 
Department as it pertains to redundancy. During the POM 13-17 build, 
CAPE analysis identified an existing shortfall of manned medium-level 
AISR. This identified shortfall is exacerbated by SOCOM's new 
requirement for an increased number of manned AISR orbits. The Chairman 
of the JS directed the J8 to conduct a review of all Services ISR 
assets to include SOCOM's request. The termination of the EMARSS due to 
affordability did not reduce the requirement for manned medium-altitude 
AISR support for Army BCTs. Joint interdependency would rely on AF 
providing manned medium-altitude requirement. While we continue to work 
towards a commitment to this higher level of support, the Army will 
assess additional options and other potential investment strategies to 
satisfy these JROC approved requirements. The lack of EMARSS multi-INT 
capability continues to be a major gap within the AISR layer.
    Question. What is the role of the EMARSS program in support of the 
overall strategy in this area?
    Answer. The initial Engineering and Manufacturing Development 
EMARSS systems will deploy in support of Operation Enduring Freedom. 
Though the affordability discussion impacted the EMARSS program 
decision, the requirement for manned medium-altitude Aerial 
Intelligence, Surveillance and Reconnaissance (AISR) still exists 
within the Army. The Army is committed to addressing these shortfalls 
by acquiring additional EMARRS platforms and/or recapitalizing existing 
Quick Reaction Capability AISR systems.

            Army Corps of Engineers Projects in Afghanistan

    Question. The U.S. Army Corps of Engineers (USACE) recently issued 
an RFI for a Detention Facility in Parwan, Afghanistan. A United States 
firm briefed the USACE prior to issuance of the formal RFP on the 
potential use of American-made, prefabricated steel detention cell 
modules for the project. The USACE completed the design and advertised 
an RFP using an Afghanistan produced reinforced concrete, fully grouted 
contract masonry unit construction. Did the USACE consider ``made in 
America'' products like these prefabricated detention cell units? Would 
the USACE consider use of products like this in future requirements for 
detention and force protection?
    Answer. The Detention Facility in Parwan (DFIP), Afghanistan, is 
being executed via two USACE-awarded construction contracts. The first 
of these contracts was awarded on August 25, 2011. The more recent 
Request for Proposal (RFP) was issued by USACE Middle East District on 
October 22, 2011. The proposals were received on November 22, 2011. The 
contract was awarded on January 30, 2012.
    It is correct that the DFIP RFP specified reinforced concrete, 
fully grouted masonry unit construction. An extremely short 
construction schedule was mandated by the customer and end-user to meet 
critical detention space requirements. As a result, it was imperative 
that the contractor be allowed to use locally available materials and 
products that would allow for site fabrication and would not require 
the delivery of long lead items through unreliable border supply 
routes. However, the terms of the contract did not preclude the 
submission of alternate means and methods for Government approval. If 
the contractor had proposed prefabricated detention cell units as an 
alternate construction method, this method would have been reviewed for 
acceptability including impacts to the construction delivery date.
    USACE would consider use of products like the prefabricated steel 
detention cell modules on future projects.

              Military Trends and Issues Facing the Force

    Question. I have a large military community in the district (active 
and retired members) that I represent, and I also hear from some 
medical professionals involved in treatment of addiction and mental 
health problems in this population. I know the Army is attempting to 
deal with these problems, but could you address some specific actions 
that have been taken recently to address the following areas:
    a. Suicide
        <bullet> What is the Army doing to stem the tide of suicides in 
        the force? From an article in Army Times, April, 2010:
        <bullet> Eighteen veterans per day are committing suicide
        <bullet> Although only 1% of Americans have served in the 
        military, former service members represent 20% of suicides in 
        the United States.
    b. Drug & Alcohol Dependency
          <bullet> I continue to hear that a lot of our soldiers 
        returning from overseas are struggling with drug and alcohol 
        dependency. (Article from NIH (National Institute of Health) 
        and NIDA (National Institution on Drug Abuse), April, 2011)
          <bullet> Prescription drug abuse doubled among U.S. military 
        personnel from 2002 to 2005 and almost tripled between 2005 and 
        2008.
          <bullet> Study of Army soldiers screened 3 to 4 months after 
        returning from deployment to Iraq showed that 27 % met criteria 
        for alcohol abuse (compared to a prevalence of alcohol abuse of 
        7.4% and of drug abuse of 1.5% in the general population).
          <bullet> Drug or alcohol use frequently accompanies mental 
        health problems and was involved in 30% of the Army's suicide 
        deaths from 2003 to 2009 and in more than 45% of non-fatal 
        suicide attempts from 2005 to 2009.
    c. PTSD (Posttraumatic Stress Disorder) & Depression
          <bullet> According to the Rand study conducted in 2008, 
        nearly 20% of military service members (1 in 5) who have 
        returned from Iraq and Afghanistan--300,000 in all-report 
        symptoms of PTSD or major depression. This is compared to a 
        lifetime prevalence rate for PTSD of 6.8% and for depression of 
        6% among the general population.
          <bullet> Aggressive behavior or alcohol misuse was also 
        present in about 50% of the soldiers who had PTSD or 
        depression.
    Answer. The Army is executing numerous initiatives that address 
drug testing, confidential alcohol treatment and education, counseling, 
prevention services to geographically-dispersed Soldiers, expeditionary 
treatment services, risk reduction, and stigma reduction.
    Prescription Drug Abuse. The 2008 DoD Health Related Behavior 
Survey (HRBS) is used as a benchmark. The Army is aware that our 
Soldiers come from the civilian population where drug abuse is on the 
rise and is tracking prescription drug abuse. The HRBS rates cited in 
your question are self reports, and therefore different than the Army 
drug testing rates. The percentage of Soldiers on active duty that 
tested positive for illicit prescription drug abuse in FY02 was 0.13%, 
rising to 0.23% in FY11. The Army began testing for the ``Oxy'' family 
of painkillers in FY06 and has led the charge to have DoD implement 
expanded testing for the hydrocodone family of painkillers and 
benzodiazepine (tranquilizer) testing for all Soldiers by the end of 
FY12.
    The Army was actively involved in National Prescription Take Back 
Day and continues to develop a prescription substance abuse campaign 
for the force. Army policy was recently changed that limits the length 
of time to six months for prescription medication. With expanded 
prescription testing and campaign efforts, we believe the second order 
effects will be a disposal of unused medications and a decrease in 
prescription drug abuse.
    To deter Soldiers from using emerging drugs, the Secretary of the 
Army issued a memorandum banning the use of Spice.
    Alcohol and Drug Abuse of Returning Combat Veterans. The Army asks 
Soldiers about high-risk behaviors via the Re-integration Unit Risk 
Inventory (RURI). RURI data shows that, of the Soldiers serving in 
Iraqi Freedom, 24% (2116 of 8810) were screened as potential problem 
drinkers within six months of returning, and 2% (189 of 8810) of 
Soldiers admitted to illicit drug use. The DoD HRBS cites 16% alcohol 
abuse and 20% drug abuse for the comparable civilian (18-25 year) 
population, rather than use the general population statistics.
    The Army is using an online prevention tool that allows Soldiers to 
self assess high-risk behaviors and attitudes and then prompts them to 
make lifestyle changes. This program is part of the new Expeditionary 
Substance Abuse Program (ESAP) for deployed and geo-dispersed Soldiers. 
Near future efforts include opening a call center for deployed troops 
and giving specialized substance abuse training for mental health 
specialists who will provide direct services in theater.
    The Confidential Alcohol Treatment and Education Pilot (CATEP) was 
started in 2009 to provide confidential alcohol education and treatment 
to Soldiers. It is piloted at six installations and is currently being 
evaluated for Army-wide implementation.
    The Army has focused on increasing the number of Army Substance 
Abuse Program (ASAP) counselors from 320 in October 2010 to a total of 
493 as of April 2012.
    Drug and Alcohol Use and Suicides. Army data reveals that, from Jan 
2004 to June 2011, 21% of suicides involved alcohol while 9% involved 
drugs. From that same time period, 56% of suicide attempts were due to 
drug and alcohol overdose. To address suicides, the Army Health 
Promotion and Risk Reduction Task Force represents a portfolio of 60 + 
Soldier and Family programs that will be leveraged to reduce high risk 
behaviors that can culminate in suicide. Over 439 specific tasks have 
been developed and 135 implemented to address the issues. CATEP and 
limitation of drug prescriptions, both previously mentioned, are two 
example tasks from the Task Force.
    To address stigma, the Army has developed a Stigma Reduction 
Campaign Plan with messages to help combat the negative perceptions of 
seeking help for substance abuse, behavioral health, and other 
challenges that Soldiers experience.

                    Ministry of the Interior Funding

    Question. The FY13 Army O&M budget cuts the Afghan National 
Security Force funds from $11.2B in FY12 to $5.7B. DoD has stated that 
this reflects the ``front loading'' of funds for equipment, facilities, 
etc, and does not reflect a decrease in commitment to the training 
mission. However, Ministry of the Interior forces (which include the 
Afghan police) is cut from $1.1B in FY12 to $570M in FY13, a decrease 
of almost 50%. This would appear to be a real blow to the Afghan 
police, who will be largely charged with maintaining stability and 
security, as well as bolstering confidence in the Afghan government's 
ability to care for its people just as the US military is pulling back.
    Are there similar equipment and facilities costs associated with 
the Ministry of the Interior funding? If not, what is the rationale for 
such drastic cuts, which would appear to occur just as we are needing 
the Afghans to step up their roles?
    Answer. The Afghan National Security Forces (ANSF), specifically 
the Afghan National Police (ANP), is growing in capability. This growth 
in capability is covered by two distinct phases: Build ANP capabilities 
and Sustain ANP capabilities. During FY 2012, the ANP will achieve 
their planned end strength of 157K. This fact passes the ANP into the 
Sustain phase in FY 2013 and subsequently reduces their requirement for 
initial entry training to only sustaining the force level. Another 
savings is projected based upon the Afghans assuming a greater role in 
overall training mission in FY 2013 and thus significantly reducing the 
reliance upon mentor and trainer contracts to meet these needs. The ANP 
is growing in overall strength and in capability. This capability will 
be reflected in both their operating and generating forces. For 
clarification, the funding decrease for training and operations for the 
ANP is $1.1B in FY 2012 and $570M in FY 2013 for a reduction of 48%.

    [Clerk's note.--End of questions submitted by Mr. Kingston. 
Questions submitted by Mr. Calvert and the answers thereto 
follow:]

              Ground Combat Vehicle (Defense Acquisition)

    Question. Please explain why you believe the Army estimate for the 
ground combat vehicle (GCV) unit production costs is more accurate than 
the Pentagon's Office of Cost Assessment and Program Evaluation (CAPE) 
estimates.
    Answer. The CAPE and the Army used two different approaches to the 
GCV cost estimates. The Army estimate is a detailed estimate directly 
driven by the GCV design concepts that take into account technical 
maturity, allowable trade space built into the GCV performance 
specification, and continued use of a detailed Cost Informed Trades 
process. It is based on the current planned schedule for delivering a 
production vehicle. The CAPE estimate is based on a conservative 
parametric estimate influenced by significant historical cost growth in 
various prior Army programs. As such, it is influenced by historical 
cost trends and is not directly driven by the GCV design concepts. For 
these reasons, we believe the Army estimate is a better reflection of 
anticipated GCV costs.
    Question. is my understanding that three GCV development contracts 
were able to be awarded but only two actually were. Why wasn't the 
third contract awarded?
    Answer. The GCV Technology Development (TD) phase Request for 
Proposals (RFP) specified that the Government would award up to three 
contracts for the TD effort. In response to the RFP, three offerors 
submitted their proposals. The Army conducted a thorough source 
selection and determined that the proposals submitted by British 
Aerospace Engineering (BAE) and General Dynamics Land Systems (GDLS) 
provided the best value to the U.S. Government. On August 29, 2012, 
Science Applications International Corporation (SAIC) filed a post-
award Government Accountability Office (GAO) protest. On December 5, 
2012, the GAO denied SAIC's protest and found that ``With respect to 
SAIC, the Army found that, although the firm's Final Proposal Revision 
presented some strengths, it also had four significant weaknesses and 
numerous other weaknesses,'' and ``In deciding not to award a third 
contract to SAIC, the Source Selection Authority concluded that there 
were clear and meaningful differences between the proposals and that 
the SAIC's proposal did not represent the best value to the U. S. 
Government.''

           Joint Light Tactical Vehicle (Defense Acquisition)

    Question. Last year, the Joint Light Tactical Vehicle (JLTV) 
program appeared almost dead. Ford even declined an opportunity to bid 
on the project.
    What makes it feasible now?
    Answer. The JLTV is one of the Army's top three priorities. The 
Army and the United States Marine Corps (USMC) revised the Acquisition 
Strategy and Requirements to ensure that the MTV will be affordable 
while improving reliability and maintainability, providing commonality 
in design, and be procured competitively in order to reduce total 
ownership cost. The JLTV will fill the force protection and payload 
gaps not currently satisfied by the High Mobility Multipurpose Wheeled 
Vehicles. It also fills the mobility and transportability gaps in the 
Mine Resistant Ambush Protected Family of Vehicles.
    Question. Why should Congress consider it to be a responsible 
acquisitions move now, when it arguably was not, last year?
    Answer. Last year, the U.S. Congress expressed valid concerns about 
the program as it was structured prior to the efforts to align the 
program with the results of the Technology Demonstration phase. The 
Army and U.S. Marine Corps (USMC) have worked diligently to revise 
requirements, reduce the length of the program by more than 15 months, 
and reduce the development costs in the Engineering and Manufacturing 
Development (EMD) phase by nearly one half.
    The U.S. Army and the USMC conducted trade and risk analysis 
through a Cost Informed Trade Assessment (CITA) to evaluate the Average 
Unit Manufacturing Cost of the base vehicle. The assessment yielded 
cost savings while only modestly affecting vehicle performance. The 
CITA process reduced the cost by 27.5 percent.
    Question. Is the JTLV being offered as a lowest price/technically 
acceptable (LPTA) contract? If so, why was that contracting vehicle 
chosen?
    Answer. No. The basis of the JLTV Engineering and Manufacturing 
Development (EMD) phase contract award(s) is not LPTA. The JLTV EMD 
Request for Proposal, released to industry in Jan 2012, specifies that 
the U.S. Government will select the proposals that represent the best 
value to the U.S. Government according to a range of technical and 
other evaluation criteria.
    The U.S. Government will award up to three contracts on a full and 
open competition basis for the JLTV EMD phase. The relative strengths, 
weaknesses, and risks of each proposal are considered when selecting 
the offer that represents the best overall value to the U.S. 
Government. Criteria for the EMD phase are focused on the maturity of 
the designs that are being bid, and the ability of those designs to 
meet at least threshold requirements. The solicitation also makes it 
clear that performance above threshold levels will be evaluated in the 
final selection for low rate initial production.

                             Sexual Assault

    Question. Some members of Congress have suggested that changes need 
to be made to the services prosecution of sexual assault. One proposal 
would establish a central body at the Pentagon to prosecute all sexual 
assaults in the Department of Defense.
    In your opinion, would prosecuting sexual assaults separately from 
other criminal acts that occurred at the same time facilitate or delay 
prosecutions; cause any evidentiary issues; or have any potentially 
negative consequences for victims?
    Answer. The separate prosecution of sexual assaults from other 
criminal acts occurring at the same time would delay prosecutions, 
cause evidentiary issues and unnecessarily subject victims to multiple 
investigations and trials. Many investigations arising from an 
allegation of sexual assault involve a variety of offenses (i.e. 
housebreaking, violations of regulations, alcohol offenses, false 
official statements). Bifurcation of these offenses for purposes of 
disposition and trial would be inefficient and contrary to basic 
principles of due process and equal protection by treating one class of 
offenses differently. Separate trials could raise complex issues 
regarding the admissibility of evidence, and create perceptions of 
potentially inconsistent findings, verdicts and unjust sentences. 
Separate trials would subject victims to additional interviews and 
cross examinations by defense counsel, forcing victims to recount the 
circumstances of the offense in a public forum on multiple occasions 
and delaying closure for the victim.
    Question. Would removing the chain of command from the sexual 
assault prosecution process help avoid barriers to proper prosecution 
of allegations?
    Answer. The Army's efforts to prevent, investigate and prosecute 
allegations of sexual assault are unprecedented. The result of 4 plus 
years of consistent focus and resourcing has made an enormous positive 
impact in culture change, in the quality of investigations, and in the 
way in which we hold offenders accountable. By any measure, our system 
of military justice is responsive, responsible and effective in dealing 
with this serious crime. Specifically, there are no barriers to the 
proper prosecution of sexual assault allegations under the Uniform Code 
of Military Justice in which Commanders, with the advice of Judge 
Advocates, are given the authority to dispose of allegations against 
members of their command. Commanders are appropriately trained, 
resourced and committed to reviewing all allegations of misconduct and 
holding offenders appropriately accountable. There is no evidence that 
removing the chain of command from the disposition of sexual assault 
allegations will improve decision-making or remove discretion from the 
process.
    A Commander is responsible and accountable for all that goes on in 
a formation health, welfare, safety, morale discipline, and readiness 
to execute the mission. The adjudication of alleged offenses inside the 
unit must be efficient, visible, and just. Adjudication of sexual 
assault offenses by local commanders promotes these ends. Commanders 
are best-positioned to understand the impact of an offense on readiness 
and morale on his or her unit and the aggravating and mitigating 
factors of each unique offense. Transfer of the Commander's authority 
to an outside, centralized source does not ensure efficiency, reduces 
transparency, and undermines the credibility of dispositions of sexual 
assault cases. The military justice system, which utilizes the chain of 
command to adjudicate offenses, promotes loyalty to both superiors and 
subordinates, and is perceived by commanders, soldiers and the public 
as a just system.
    Question. What has the Army done to disseminate the sexual assault 
programmatic changes that were included in the 2011 National Defense 
Authorization Act (NDAA) to the field? Do you have confirmation that 
the changes required by the 2011 NDAA have been implemented?
    Answer. The FY11 NDAA required from the Army: Sec. 1602: Army 
Regulation 600-20, Appendix K (2) requires all Army Commands, Army 
Service Component Commands, and Direct Reporting Units to submit an 
annual report to Headquarters, Department of the Army (HQDA) which 
includes findings from any evaluation of the implementation of the 
Sexual Assault Prevention and Response (SAPR) program, actions and 
initiatives taken, recommendations for changes to SAPR policy, and any 
resource shortfalls.
    Sec. 1611: Army Regulation 600-0, Appendix K (2) requires all Army 
Commands, Army Service Component Commands, and Direct Reporting Units 
include SAPR as part of their Command Inspection program, and conduct 
periodic evaluation of compliance. Additionally, The Department of the 
Army Inspector General (DAIG) conducts inspections at the direction of 
the Secretary of the Army. The Army Sexual Harassment/Assault Response 
and Prevention (SHARP) Program Office works closely with the DAIG to 
help the inspection team prepare for inspections of the SHARP Program, 
to include identifying subject matter experts to augment the team. The 
DAIG last inspected the SHARP Program from July 7, 2009 to November 6, 
2009 and the report was approved on January 25, 2010. SHARP related 
inspections were not conducted in FY11 nor are planned for FY12 at 
either HQDA or Army Command-level, however SHARP related inspections 
were conducted at some TRADOC installations this past year. A look at 
SHARP may also occur incidental to other inspections. As an example, a 
recent inspection on Disciplined Leadership/Company Administration at 
numerous Army installations included a look at whether units were 
conducting SHARP training and the frequency of occurrence. Units are 
conducting SHARP training as required and in a timely manner. The topic 
will likely surface as an item of interest in future planned 
inspections as well.
    The Army has a field grade officer/Major assigned to the DoD Sexual 
Assault Prevention and Response Office.
    Sec. 1631: Army submitted its annual report for FY11 on March 12, 
2012.
    All other sections were not applicable to the Army.

    [Clerk's note.--End of questions submitted by Mr. Calvert. 
Statements submitted by Mr. Visclosky.]

    Mr. Secretary, General Odierno, I would like to express my support 
for the changes that have been made to the Joint Light Tactical Vehicle 
(JLTV) program. Last year, the Army and Marine Corps engaged in a 
thorough review of the program's schedule and requirements. By working 
closely with industry leaders, realistic determinations as to how to 
recalibrate this critical program were made, and the result is an 
accelerated, more cost effective program. I am pleased that the Army 
and Marine Corps leadership has taken these important steps on the JLTV 
program.

    [Clerk's note.--End of statement submitted by Mr. 
Visclosky. Questions submitted Mr. Moran and the answers 
thereto follow:]

                  Joint Light Tactical Vehicle (JLTV)

    Question. The Joint Light Tactical Vehicle (JLTV) is a U.S. Army, 
U.S. Special Operations Command (USSOCOM), and U.S. Marine Corps 
collaborative program to replace the current High Mobility Multi-
purpose Wheeled Vehicle (Hum-vee) with a fresh design to incorporate 
the survivability lessons learned from Iraq and Afghanistan.
    General Odierno, the Army currently has about 150,000 HMMWVs. As 
the Army comes home from Iraq, and downsizes, how many light tactical 
vehicles will the Army maintain, and of that total number, how many 
will be JLTVs?
    Answer. The Army will maintain approximately 136,000 light tactical 
vehicles, of which 49,099 will be JLTVs.
    Question. General, during technology demonstration testing in March 
2011, all three prototypes had difficulty navigating soft soil due to 
vehicle weight. The prototype's weight was driven by underbody 
protection equivalent to MRAPS. Is the JLTV's underbody protection 
requirement incompatible with the mobility requirements of the program?
    Answer. The JLTV's underbody protection requirement is not 
incompatible with the mobility requirements. The adjustments that were 
made to the requirements preserved the key core capabilities that the 
MTV must satisfy by delivering significantly improved payload, 
protection and performance over our current light tactical vehicle 
fleet, without paying a premium in terms of either cost or schedule for 
marginally increased capabilities. Based on the Technology Development 
results, we have adjusted performance requirements so that the vehicle 
weight is reduced from approximately 24,000 lbs to approximately 19,500 
lbs. This reduction in weight reduced the risk of meeting the mobility 
requirements.
    Question. It is rumored that the testing period for the JLTV 
program will be reduced from 48 to 33 months. Is that true? What are 
the risks involved? What is driving an accelerated testing schedule?
    Answer. The Joint Program Management Office revised the Acquisition 
Strategy, reducing the Engineering and Manufacturing Development (EMD) 
phase from 48 to 33 months. Out of those 33 months, the testing period 
for the JLTV program during the EMD phase is 14 months in length. 
Testing will include Contractor performance and U.S. Government 
reliability, performance, and blast testing.
    The Department's program change from 48 to 33 months reduced 
program length and shifted from a traditional development phase where 
Industry would be paid with cost plus contracts for design to a program 
strategy that leverages and tests mature and production-ready industry 
designs. This adjusted schedule and strategy has reduced the total EMD 
cost by nearly $400 million.

                      Tour Normalization in Korea

    Question. Since the 1950s, soldiers assigned to Korea have served 
one year tours and family members are not supported or sponsored, With 
the exception of a few senior officers, the entire command in South 
Korea would rotate every year. In 2008, the Department announced ``Tour 
Normalization'' for Korea, which would normalize deployments to Korea 
by establishing two year tours for single service members and three 
year tours for married service members to include their family members.
    How many soldiers do you estimate will take advantage of tour 
normalization?
    Answer. Because tour normalization is currently on hold, the Army 
has not determined how many Soldiers will take advantage of tour 
normalization.
    Question. Do you have an estimate of the additional cost per year 
for tour normalization?
    Answer. If it is the decision to pursue full tour normalization the 
additional cost is estimated to be $481M per year, not including 
construction.
    Question. Is adequate housing available for families that decide to 
accept a three year assignment in Korea?
    Answer. Tour length is not a factor when determining the quantity 
of adequate family houses. The number of command sponsored families 
does not change with the increase in tour length.

             Counterbomber Suicide Bomber Detection System

    Question. The Congress has expressed concern over many years about 
the continued failure of the Army acquisition system to field systems 
to operational forces on a timely basis.
     DOD has spent approximately $50 million developing and deploying 
the CounterBomber suicide bomber detection system. Over the last 5 
years, the Departments of Army, Navy, and Air Force have expended 
millions of dollars testing the system and optimizing its performance 
against female bombers. Army ATEC formally tested the system at White 
Sands and Yuma Proving Grounds, where test reports indicate the 
CounterBomber system exceeded virtually all threshold and many 
objective thresholds from CENTCOM Joint Urgent Operational Needs 
Statement CC 315 for this kind of capability. The system has been 
continuously deployed by the Marines since 2008 and the Air Force since 
2009 which includes 23 by the Army, 14 by the Marines, and 4 by the Air 
Force (total of 40). Unfortunately, only 6 Army systems are being 
operated, of which 2 are in Iraq and 4 are in Afghanistan, while others 
remain ready for deployment in transit boxes and some are in the 
manufacturer's warehouse undelivered due to lack of direction from the 
Army.
    The Army has developed an innovative ``Entry Control Point in a 
Box'' for its soldiers, but has not yet included CounterBomber in that 
program while it conducts still more testing and evaluations and 
discusses which Army acquisition organization is responsible for it.
    If the Army paid for CounterBomber systems, why haven't they been 
deployed?
    Answer. The Joint Improvised Explosive Device Defeat Organization 
(JIEDDO), a joint services organization established to reduce or 
eliminate the effects of improvised explosive devices used against U.S. 
and Coalition Forces, funded 31 CounterBomber-3 (CB) systems for the 
Army. Of the Army's 31 CBs, 10 are in support of the Office of Security 
Cooperation-Iraq, 12 in Operation Enduring Freedom, and two in Kuwait. 
The remaining seven systems are located within the continental United 
States where they are used in support of the homeland defense mission.
    Question. Why is CounterBomber not under the control of Army 
organizations responsible for the Entry Control Point in a Box program?
    Answer. On April 3, 2012, Counter Bomber was assigned by the 
Assistant Secretary of the Army (Acquisition, Logistics and Technology) 
to the Joint Program Executive Office for Chemical and Biological 
Defense (JPEO CBD). The JPEO CBD is responsible for Non-Intrusive 
Inspection Systems (NIIS), and Entry Control Point in a Box.
    Question. Question. Why is ownership of Counter Bomber still 
``stuck'' internally in the Army between PEO Ammo and PEO CB Defense?
    Answer. The Joint Program Executive Office for Chemical and 
Biological Defense (JPEO CBD) has been designated the Integrated Base 
Defense (IBD) lead, which provides the capability to present a holistic 
solution set, to include Counter Bomber 3 (CB-3). As of April 3, 2012, 
Counter Bomber was assigned to the JPEO CBD.
    Question. What do U.S. forces use today to screen entry control 
points for personal-borne suicide bombers, and how close do potential 
bombers get to U.S. troops who inspect them? Why is this acceptable to 
the leadership of the Army?
    Answer. The Joint Program Executive Office for Chemical and 
Biological Defense (JPEO CBD) was given the lead for the Integrated 
Base Defense (IBD) so integration of all applicable assets to screen at 
entry points are used in a system that can easily be accessed by the 
Base Commander. In addition to Counter Bomber (CB), the Army has 
procured other material solutions to screen personnel, to include 
Subtle Magnetic Anomaly Detection Networked Systems, Light Guard, Rapid 
Scan, Back Scatter Vans, walk-through metal detectors, Biometrics, and 
Random Antiterrorism Measures and the capabilities associated with 
Entrance Control Point in a Box. These systems provide protection 
against Vehicle Borne Improvised Explosive Device and Personnel Borne 
Improvised Explosive Device attacks. They allow the Army to generate a 
layered system of systems approach, a capability that is superior to 
CB, and capable of leveraging CB's ability to detect anomalies at a 
distance of up to 100 meters. This is acceptable to the leadership 
based on approved requirements from Commanders in the field.
    Question. What systems is the Army fielding currently to meet the 
JUONS requirement for protection of U.S. forces against suicide bomber 
attacks?
    Answer. The Army has fielded the following material solutions to 
meet the requirement for protection of U.S. Forces against suicide 
bomber attacks: Counter Bomber, Subtle Magnetic Anomaly Detection 
Networked Systems, Light Guard, Rapid Scan, Back Scatter Vans, walk-
through metal detectors, Biometrics, Random Antiterrorism Measures and 
the capabilities associated with Entrance Control Point in a Box. These 
systems provide protection against Vehicle Borne Improvised Explosive 
Device and Personnel Borne Improvised Explosive Device attacks. The 
Joint Program Executive Office for Chemical and Biological Defense 
continues coordinating the integration of the systems to ensure a full 
solution that meets the requirements of the Combatant Commander.

    [Clerk's note.--End of questions submited by Mr. Moran. 
Questions submitted by Mr. Hinchey and the answers thereto 
follow:]

                     Solar Panels on Military Bases

    Question. Mr. Secretary, I want to commend you on your efforts to 
stand up the Army Energy Investment Task Force and provide the 
leadership to ensure the Army meets its renewable energy goals.
    The progress made by the Task Force is evident in its recently 
released draft RFP to develop $7 billion worth of renewable energy 
projects on bases via Power Purchase Agreements (PPAs), where third 
parties own and operate the system while leasing the power generated to 
the Army.
    As you know, I am an ardent supporter of the military utilizing 
solar panels on these installations that comply with the Buy America 
Act. I am concerned this multi-year contract effort by the Army will 
allow solar panels from non-signatory WTO Government Procurement 
Agreement countries on sensitive U.S. bases.
    How can the Army adjust the RFP to stop the circumvention of the 
Buy America Act for installation of solar panels on military bases?
    Answer. The planned competitive Request for Proposals (RFP) for the 
Multiple Award Task Order Contract will include all provisions of the 
Buy American Act as required by Part 25 of the Federal Acquisition 
Regulation (FAR) and Part 225 of the Defense Federal Acquisition 
Supplement (DFARS), and the resulting award(s) will comply with the Buy 
American Act.

    [Clerk's note.--End of questions submitted by Mr. Hinchey. 
Questions submitted by Mr. Young and the anwers thereto 
follow:]

                          Army Force Reduction

    Question. As part of its fiscal year 2013 budget, the Army is 
proposing to reduce its end strength from 569,400 in fiscal year 2011 
to 490,000, a reduction of over 80,000 troops.
    General Odierno, the Committee is concerned that the proposed troop 
strength reduction is budget driven rather than based on military 
requirement. In your expert military opinion, will the Army have 
sufficient manpower based on the proposed end strength to meet its 
current obligations and respond to any future potential military needs?
    Answer. The Army has sufficient end strength to meet current 
requirements and can implement the new defense strategy while affecting 
end strength reductions. By deliberately reducing end strength over a 
five-year period, the Army is able to take care of Soldiers, meet 
requirements in Afghanistan, and respond to unforeseen contingencies. 
We have planned a manpower reduction ramp that minimizes the number of 
Soldiers who will be involuntarily separated as well as reduces 
turbulence for recruiting and training requirements. Imposing arbitrary 
end strength floors would be detrimental to our deliberate manpower 
reduction plan. The Army will rely on Reserve Component (RC) forces to 
surge for major contingencies and maintain the proper deployed/home-
station balance for the Total Army. We will also ensure the Army 
capitalizes on the investments of the past decade, such as 
Intelligence, Surveillance, and Reconnaissance (ISR) capabilities, 
Special Operations Forces (SOF), and leader development to support the 
new strategy as we decrease the Army's end strength. Investment in 
readiness, retention of high quality and combat experienced mid-grade 
officers and non-commissioned officers, and reliance on Reserve 
Component forces will allow the Army of 2020 to remain flexible to 
expand to meet requirements and to support long duration operations, if 
needed.
    Question. Could the Army sustain additional reductions in end 
strength without overstressing the force or causing significant risk?
    Answer. The reduction of the active Army to 490,000 Soldiers will 
enable the Army to meet both projected steady-state requirements and 
combatant commanders' timelines for warplans. Continued investment in 
readiness is required for this leaner stance, given the strategic 
environment of uncertainty and threat.
    Question. As of the end of fiscal year 2011, the Army active and 
reserve components were operating at or near their authorized end 
strengths, and they were meeting or exceeding their recruiting and 
retention goals. In fact, the active component was at an average of 
110% retention rate. For fiscal year 2013, the Army has requested 
increased funding for involuntary separation payments.
    Given the high recruiting and retention rate, please describe how 
the Army plans to reduce the size of the force by 80,000 personnel.
    Answer. The Army will use precision and care in determining who 
must leave our service, and will make every effort to keep faith with 
our All Volunteer Force and treat Soldiers and their Families fairly 
while continuing to meet the operational requirements of the Nation. 
First, the Army will minimize the number of induced (forced) losses 
needed to meet future end-strength requirements by lowering accessions 
without jeopardizing current and future operational requirements; thus 
allowing us to retain the greatest percentage of our seasoned force as 
possible. Second, the Army will use our proven centralized selection 
board processes to identify both Regularly Commissioned and Non-
commissioned Officers with the greatest potential for continued service 
as we shape the force by grade and specialty. Finally, Commanders will 
be empowered to retain only the highest quality Soldiers. When 
feasible, fully qualified Soldiers identified as excess due to strength 
limitations will be afforded the option to volunteer for 
reclassification into a shortage skill. Additionally, in lieu of 
involuntary separation, voluntary options (when applicable) will be 
afforded to fully qualified Soldiers targeted to leave the service.
    Question. Will reductions fall proportionately on officer and 
enlisted ranks?
    Answer. Yes. While the number of enlisted inventory reductions will 
be greater in absolute terms, the proportionate reductions will be 
between 5.5% and 6% of the inventory for both enlisted and officers.
    Question. The Army has already begun to request increased funding 
for involuntary separation payments--I understand that the Army plans 
to rely primarily on involuntary measures such as this to draw down. 
What impact will this have on the morale of the force? What is the 
rationale for using involuntary separation rather than incentives to 
encourage voluntary separations? Is the Army planning to use any 
voluntary separation payments in addition to the involuntary payments?
    Answer. The Army seeks funding for several voluntary separation 
programs to ensure it retains flexibility as it continues to refine 
planning for inventory reductions. No final decisions have been made on 
specific programs or options at this time; however, a key precept of 
planning is that the Army will decide, to the greatest extent possible, 
who will remain and who will separate from service. These decisions 
will facilitate shaping the future force to requirements while 
retaining experienced Soldiers with the greatest potential for future 
contributions. Although DoD's force reduction objectives include 
guidance to maximize the use of voluntary separations, the Army's 
intent is to apply lessons learned from the 1990s drawdown when the 
magnitude of the voluntary separations made it difficult for the Army 
to control the quality of those service members choosing to separate. 
Post-drawdown analysis of the 90s reductions indicated that a large 
number of Soldiers accepting voluntary incentives would have separated 
without incentives.
    In order to preserve this seasoned, All-Volunteer force, the Army 
will reduce accessions to the lowest level consistent with sustaining 
future mission capability, limit enlisted retention to support 
quantitative requirements based on a qualitative assessment, and employ 
proven and trusted centralized selection board processes to identify 
Soldiers, based on a qualitative review, who will leave our formations.
    When forced separations are required, the Army will selectively 
target grades and specialties where excess capability exists, and will 
make maximum use of cross training and re-designation to fill 
critically short skills. The Army is an organization founded on an 
ethic of service to the nation. Soldiers understand that the Army must 
shrink or expand in response to the Nation's needs. Those who are 
identified to leave will be given the maximum amount of support in 
making the transition to retirement or other employment. Finally, the 
Army is evaluating use of voluntary separation incentives such as 
Temporary Early Retirement Authority as part of its overall strategy. 
Specific authorities and level of use will be determined as we finalize 
our planning and actively monitor execution in the future.
    Question. Are you considering using new incentives, such as 
severance packages and early retirement packages, to encourage 
voluntary early separation as well?
    Answer. As the Army finalizes our plans, we are analyzing the 
authorities provided by the Congress. We continue to evaluate the best 
methods to retain the best and brightest of our high-quality, 
experienced personnel as we shape our All-Volunteer force. 
Incorporating new incentives along with existing voluntary separation 
incentives will be determined as part of our final plan based on need 
and funding availability.
    Question. Will forced separations or a Reduction in Force (RIF), be 
implemented to assist with the drawdown?
    Answer. The normal losses we project through accession, retention 
and promotion processes will not achieve the end strength goals set for 
us. As a result, some combination of voluntary and involuntary 
separations will be necessary to achieve end strength goals. The Army 
will decide to the greatest extent possible which Soldiers will leave 
our service, and we will determine the most effective mix of all 
options for voluntary and involuntary separations as we finalize our 
planning.
    Question. The Department's strategic guidance states that you will 
retain, to the extent possible, the ability to adjust or reverse force 
structure in case ``unforeseen demands'' arise in the future. Please 
explain how you plan to retain the ability to adjust or reverse changes 
in force structure should it be necessary.
    Answer. The Army is examining strategies, policies and investments 
which posture the Army to slow down and reverse a planned drawdown of 
Army end strength and formations, and rapidly expand in response to a 
future crisis. Investment and Regeneration (I&R) will be attained 
through the adaptation of current manning, equipping, and training 
policies and procedures to enable the Army to reverse and expand by 
accessing additional soldiers annually to support regeneration of 
additional BCTs and enablers in response to any unforeseen requirements 
or changes in the defense strategy.
    Additionally, the Army will identify military requirements resident 
in the Generating Force that can be concomitantly identified to support 
I&R.
    Question. Under the new guidance, there will be an increased demand 
for certain military specialties even as the overall size of the force 
shrinks. While the size of the force is shrinking, are there certain 
occupations or skills that you would like to see grown? Please describe 
how you will reduce the size of the force while retaining or even 
increasing the number of personnel qualified for these high-demand 
specialties.
    Answer. Although the overall force will be smaller, there are 
certain occupations or skills that the Army would like to see grown to 
both meet the new defense strategy and respond to lessons learned from 
current and recent operations. These include occupations such as those 
found in the Special Operations community, Cyber Operations and 
contracting specialists. The Army continues to carefully analyze 
personnel cohorts by skill and grade to determine where excess exists 
and alternatively where growth will be required. Our force shaping 
actions will be targeted and will allow the Army to make the choice to 
keep our best qualified personnel with the highest potential for future 
contributions to the Nation's defense.
    Question. General Odierno, many of our mid-level soldiers have only 
been in the military during war time. Concerns have been expressed 
about how to keep those soldiers used to the high op-tempo of the past 
ten years excited about staying in the Army. Are you concerned about 
how you will retain those soldiers, which will be the backbone of your 
smaller force, in this changing Army environment?
    Answer. The Army remains committed to retaining the experienced, 
exceptionally capable mid-level Soldiers within our projected force 
structure. Soldiers at this level are remaining with the service for 
benefits, incentives, job satisfaction, security, and being part of a 
successful team. Army retention and promotion processes focus on the 
quality of the Soldier. Our goal is to keep Soldiers at all grades with 
the greatest potential to serve our Nation. This is accomplished for 
enlisted members by approving reenlistments based on a commander's 
review of the ``Whole Soldier''. Criteria for this review include 
meeting and exceeding Army standards, leadership potential, Soldier 
competencies, and overall military experience. Enlisted Soldiers with 
poor evaluations, no potential for future service, misconduct, and 
repetitive non-judicial punishments will not be retained as we shape 
our service to meet new fiscal realities. Officer career development 
and promotion policies ensure that only the best qualified and most 
experienced will be retained to advance to higher levels of 
responsibility.
    Question. If we were attacked on two fronts, would we have the 
force strength and the resources necessary to respond?
    Answer. The Army will carefully balance capability and risk as we 
size the force to meet national security demands. The Army uses a 
combination of factors when sizing the force: war plans, approved 
Defense Planning Scenarios developed in conjunction with the Joint 
Staff, and known and projected steady-state activities. These ranges of 
force demands are assessed in conjunction with force structure and end 
strength analysis to help the Army and senior leaders determine the 
risk associated with any course of action. Our ability to provide 
future forces is heavily dependent upon how we source units in 
accordance with Army priorities. Readiness will be a focus across all 
of our formations, emphasizing the need to maintain expertise and 
leader competencies, as well as the ability to expand the force to meet 
greater demands, if necessary.

                        Deployment to Dwell Time

    Question. The Army in particular has been experiencing very high 
rates of deployment over the past ten years. The mid-term deployment to 
dwell time ratio goal remains 1 to 2 for active duty units with a long 
term goal of 1 to 3 and 1 to 4 for reserve and National Guard troops. 
Achieving the dwell time goal is critical to restoring unit readiness 
and improving troop morale.
    Please describe the specific measures the Army is implementing to 
reach its mid-term goal of 1 to 2 by the end of fiscal year 2013.
    Answer. The objective for reaching 1:2 for the active Army is 
expected to occur in FY15. The Army implemented a 9 month Boots on the 
Ground (BOG) policy for units deploying in the second quarter of FY12 
and later, which shortened tours to minimize stress on units and 
families.
    To achieve these goals in the future, the Army is redesigning the 
Army Force Generation model to align with DoD strategic priorities and 
guidance while simultaneously providing for longer dwell time and 
appropriate readiness. Training time at home station will increase as 
commitments in Afghanistan diminish. The Army has a progressive 
readiness model for most units, but there are some high-demand, low-
density units that may be better served by a constant readiness model. 
The Army will adjust the process where units advance through a reset 
phase, a training phase, and an available phase, by prioritizing their 
training and planning in support of a specific Combatant Command and 
mission sets.
    Question. What is the Army doing to address dwell times of high 
demand units that are experiencing dwell time ratios below the average?
    Answer. In the last decade the Army expanded low density, high 
demand capabilities such as aviation, civil affairs, intelligence, 
military police, psychological operations, engineers and special 
forces. We also mitigated shortages with in lieu of sourcing and re-
missioning of units. The demand for these capabilities remains too high 
to realize a 1:2 Boots on the Ground (BOG):Dwell rotation prior to 
changes in the operational climate.
    Question. What impact will the planned reduction in force have on 
future dwell time ratios?
    Answer. In March 2012, the Army achieved the BOG:Dwell goal of 1:2 
in the aggregate. The Army will sustain this goal even as we conduct 
the planned reduction in force in concert with the deliberate 
withdrawal from Afghanistan. Some low density, high demand capabilities 
have not yet achieved 1:2 BOG:Dwell. In the last decade the Army 
expanded many of these low density, high demand capabilities to include 
aviation, civil affairs, intelligence, military police, psychological 
operations, engineers and Special Forces. We also mitigated shortages 
with in lieu-of-sourcing and re-missioning of units. However, the 
demand for these capabilities remains too high to realize a 1:2 
BOG:Dwell rotation prior to changes in the operational climate.

                                Suicide

    Question. Suicide remains an issue of ongoing concern among the 
services. Anytime we lose a military member, it is a tragedy. It is 
even more of a tragedy when it is entirely preventable. The rate of 
suicides in the active Army has increased slightly from calendar year 
2010 to calendar year 2011, from 159 to 165. The rate of suicide in the 
Army National Guard, in particular, remains extremely troubling with 
103 suicides in 2010 and 80 in 2011.
    Please describe the suicide prevention training and outreach 
programs currently in operation. What steps is the Army taking to 
identify potential at-risk personnel as well as to improve prevention 
and outreach efforts for them?
    Answer. The Army currently provides suicide prevention training to 
Soldiers, leaders, Department of the Army (DA) civilians, and Family 
members through two main programs: the Ask, Care, Escort (ACE) Training 
Program and the Applied Suicide Intervention Skills Training (ASIST).
    The Army's ACE Training Program is built around the actions to take 
to prevent suicide. The battle buddy should ``Ask'' a fellow Soldier or 
co-worker whether or not he/she is thinking about suicide, ``Care'' for 
the individual, and ``Escort'' the individual to the source of 
professional help. The ACE Training Program consists of two components: 
The Suicide Prevention Awareness, Education, and Training component 
(commonly referred to as ACE), and the Suicide Intervention (SI) Skills 
Training component.
    The Suicide Prevention Awareness, Education, and Training component 
is the Army-approved suicide prevention and awareness training model 
for all Soldiers, leaders, and DA civilians, and is available to Family 
members. This training, approximately 1.0 to 1.5 hours in length, helps 
Soldiers, leaders, DA civilians, and Family members to avoid letting 
their fears of suicide govern their actions to prevent suicide. The ACE 
Training Program is supplemented by the ``Shoulder to Shoulder'' video 
series comprised of three installments (``No Soldier Stands Alone'', 
``I Will Never Quit on Life'' and ``Finding Strength and Hope 
Together'') as well as the interactive videos ``Beyond the Front'' and 
``Home Front.'' Army Regulation (AR) 600-63, Army Health Promotion, 
mandates annual ACE suicide prevention training for the Active Army, 
Army National Guard, Army Reserve, and DA civilians.
    The ACE-SI Skills Training component is a 4-hour program that 
provides more in-depth suicide intervention training for leaders and 
first-line supervisors to empower them to be part of the solution. The 
ACE-SI training includes suicide awareness, warning signs of suicidal 
thinking and behavior, risk factors, protective factors/resilience, and 
intervention skills development. ACE-SI is a one-time training 
requirement for junior leaders and first-line supervisors that teaches 
the skills in active listening, increases the opportunity to secure 
early intervention before a suicidal crisis, and instructs individuals 
to take their battle buddy directly to a helping provider. In fiscal 
year 2012 (FY 2012), the Army will conduct ACE-SI train-the-trainer 
workshops Army-wide to provide the Army with the maximum number of ACE-
SI trainers and support the requirement to train all junior leaders and 
first-line supervisors.
    ASIST is the approved suicide intervention training for 
Gatekeepers. Gatekeepers are individuals who, in the performance of 
their assigned duties and responsibilities, provide specific counseling 
to Soldiers and DA civilians in need. ASIST is a one-time training 
requirement that helps Gatekeepers recognize and help individuals with 
suicide-related symptoms or issues. In FY 2012, the Army will provide 
funding to facilitate ten (10) ASIST Train-the-Trainer sessions and 
purchase 23,000 ASIST Kits to support the two-day workshops for 
Gatekeepers Army-wide. A Sole Source Indefinite Delivery, Indefinite 
Quantity (IDIQ) contract with Living Works Education is in the process 
of being approved to support this training requirement.
    In addition to the ACE and ASIST training programs, the Army is 
currently developing curriculum for a new Company Commanders/First 
Sergeants Course that includes key information on health promotion, 
risk reduction and suicide prevention. This course will focus on the 
responsibility role of first-line leaders and peers. The Army is also 
developing a new training course for Suicide Prevention Program 
Managers to assist them in organizing the many Army and community 
resources at their disposal to combat suicide.
    In regards to outreach efforts, the Army continues to train 
Soldiers, leaders, DA civilians, and Family members to identify 
potential at-risk personnel and to have the confidence to intervene 
when someone is in need. The Army has also worked to increase access to 
and availability of behavioral health care to promote help-seeking 
behaviors, and has implemented in-theater mild Traumatic Brain Injury 
screening. Addressing the impact of substance abuse on suicides, the 
Army implemented the Pain Management Campaign to improve the 
appropriate use of narcotic pain medication and reduce medication 
adverse effects; launched the online alcohol and substance abuse risk 
self-assessment tool, ``myPRIME''; expanded military drug testing of 
commonly abused prescription drugs, beginning with Hydrocodone and 
Hydromorphone; and initiated Army suicide prevention and substance 
abuse training at battalion and brigade pre-command courses to improve 
leader understanding. The Army has also worked to improve communication 
between law enforcement and unit leadership to ensure that Soldiers 
subject to investigative or legal actions are monitored for indicators 
of high-risk behavior or self-harm. Through collaboration with the 
Department of Veterans Affairs (VA), the Army has worked to promote the 
use of the free/confidential service (1-800-273-TALK (8255), press `1' 
for veterans) and to develop the Army Campaign theme.
    Question. Secretary McHugh, does the fiscal year 2013 budget 
request adequate funding for suicide prevention training and outreach 
programs?
    Answer. The Active Component Army Suicide Prevention Program is 
forecasted to receive $53.7 million in fiscal year 2013 (FY 2013). We 
assess this funding level will adequately address the program's 
requirements. However, this is not an enemy that can be defeated by a 
particular weapons system. It requires leader involvement from the top 
down and from the bottom up. Every Soldier must be aware and be 
prepared to intervene to stop a suicide. By and large this funding 
supports public awareness campaigns, suicide prevention support 
personnel, and training and education for Soldiers, leaders, Department 
of the Army (DA) Civilians, and Family members across the Active Army, 
Army National Guard (ARNG) and U.S. Army Reserve (USAR). Suicide 
prevention support personnel include Suicide Prevention Program 
Managers at installations, camps and stations worldwide for 
Installation Management Command (IMCOM), ARNG, and USAR. Army Suicide 
Prevention Program awareness training includes the Ask, Care, Escort 
(ACE) training; interactive and awareness training videos; suicide 
awareness training aids; execution of the Applied Suicide Intervention 
Skills Training (ASIST) Train-the-Trainer workshops and distribution of 
ASIST training materials; and health promotion, risk reduction, and 
suicide prevention training associated with Soldier and Family Ministry 
(Strong Bonds Training).
    The foundation of the ARNG suicide prevention program is the ARNG 
Resilience, Risk Reduction and Suicide Prevention (R3SP) Campaign Plan. 
The R3SP Campaign Plan redefines suicide prevention as an integrated 
part of a broader based resilience and risk reduction framework. 
Although the ARNG engages in specific suicide prevention and 
intervention activities, the essence of prevention is accomplished by 
building resilient Soldiers and Families with well-developed coping 
skills, a strong support network, accessible and practical resources, 
and a supportive process for post-traumatic growth through times of 
crisis.
    The ARNG FY 2013 funding is $5.3 million. If funding remains at 
this amount, the ARNG is capable of funding 54 Suicide Prevention 
Program Manager positions within each state and territory, providing 
five regional training classes for ASIST, and providing ASIST 
materials. The ARNG has made great strides in improving our support of 
Soldiers and Families. Additional funding would sustain FY 2013 
capabilities for the ARNG Master Resilience Trainer Course.
    Question. The Army recently released their ``Gold Book'', which 
serves as an update to the Army's ``Red Book'' and describes the health 
and discipline of the Force. Please discuss any new findings or new 
measures being taken based on the findings of the Gold Book.
    Answer. The report entitled Army 2020, Generating Health and 
Discipline in the Force, otherwise known as the Army ``Gold Book'' 
looks at the current conditions across the Force. It examines the 
prevalence of behavioral health issues, incidents of crime and high-
risk behavior, as well as relevant rates and trends over the last 
several years. It also reviews new policies and programs put in place 
since the Red Book to address identified gaps, and assesses their 
impact on improving Soldier health and readiness. Overall, the report 
tells us two things: we have made great progress in increasing health 
and discipline, and we have a lot of work still left to do.
    One of the most important lessons that the Army has learned is that 
many health and disciplinary issues, ranging from post-traumatic stress 
to illicit drug use to suicide, are interrelated. As we move forward to 
address suicide, we must foster a culture that facilitates an awareness 
of the interactions of health and disciplinary issues on individual 
Soldiers, units and Army communities.
    The 38 recommendations out of the Gold Book focus Army leaders on 
the actions required to close remaining gaps in Army health and 
disciplinary surveillance, detection and response systems. 
Additionally, the Health Promotion & Risk Reduction Council continues 
to implement and improve upon recommendations from the Red Book, while 
analyzing and incorporating those from the Gold Book.
    Question. While soldiers serving on active duty return from 
deployments to military bases which provide more structured support 
networks, returning soldiers of the Army National Guard and the Army 
Reserve are frequently geographically isolated from their units and may 
not have regular interactions with their peers and chain of command. 
What are you are doing to help this vulnerable population?
    Answer. Deployments place additional strain on our Soldiers and 
their Families. The Yellow Ribbon Reintegration Program serves service 
members from all Reserve Components and supports a safe, healthy, and 
successful reintegration of our Citizen-Soldiers and their Families 
following deployment. The Yellow Ribbon Reintegration program helps 
Soldiers and Families cope--and even thrive--in the face of life's 
challenges through information sharing, services, referrals, and 
proactive outreach opportunities coordinated at the state and territory 
level. This delivery structure ensures that attendees from all 
components are better prepared throughout the entire deployment cycle 
(pre-deployment, during a deployment, and post-deployment).
    The National Guard Yellow Ribbon Reintegration program provides a 
robust, preventive, and proactive support program for Soldiers and 
Families, promoting preparedness through education, by conducting 
effective Family outreach, leveraging resources, and supporting the 
volunteer force. This provides the continuum of care needed to ensure 
successful Soldier and Family reintegration.
    The Soldier and Family Support Division of National Guard Bureau 
assists and supports the Yellow Ribbon programs in the 54 states and 
territories. During fiscal year 2011 (FY 2011), 929 events were held 
with 89,524 service members and 91,151 designated individuals 
attending. To date in FY 2012, 550 events have been held with 38,397 
service members and 41,172 designated individuals attending.
    The U.S. Army Reserve (USAR) provides several behavioral health 
support networks initiatives for Soldiers who are geographically 
isolated from their units. Following return from a deployment, the USAR 
mandates personal contact with Soldiers and Family members between 
Battle Assemblies achieved through a variety of methods such as phone 
calls, Facebook, text messages, twitter, etc. The USAR has increased 
Suicide Prevention training opportunities and disseminated information 
to Family members in regard to risk factors, warning signs and contact 
assistance numbers. The USAR is strengthening Soldiers' and Families' 
support networks by ensuring that first-line supervisors, junior 
leaders, and unit Gatekeepers receive proper suicide intervention 
training. First-line supervisors and junior leaders receive the Ask, 
Care, and Escort (ACE) Skills Intervention (SI) training to help 
recognize suicidal behavior in fellow Soldiers and the warning signs 
that accompany it. Unit Gatekeepers receive the Applied Suicide 
Intervention Skills Training (ASIST), a standardized and customizable, 
two-trainer suicide prevention workshop designed for members of all 
care giving groups. The USAR also promotes Soldier and Family 
resiliency through a variety of programs, to include the Yellow Ribbon 
Reintegration Program, Strong Bonds, Army Strong Community Centers, the 
Army Reserve Fort Family hotline, Army Family Team Building training, 
virtual and real-world Family Readiness Groups, and Army Reserve Child 
and Youth Services. In addition to Army-specific programs, the USAR 
works to promote and advertise local resources to include Chaplains, 
Military and Family Life Consultants, Behavioral Health Providers, Off-
Post Community Services, Churches, Medical Centers, Crisis Centers, 
Welcome Centers, and the National Suicide Prevention Lifeline 1-800-
273-TALK (8255).
    Question. Is there a particular demographic of personnel that are 
particularly vulnerable to suicide attempts? (i.e. age, race, gender, 
enlisted versus officer, frequently deployed versus never deployed) If 
so, please describe the measures being implemented by the Army to 
target this particularly vulnerable category?
    Answer. It is important to first note that Soldiers who attempt 
suicide are a different demographic population than those who die by 
suicide. This response addresses those who attempt suicide, and thus, 
the below described demographic group does not represent the most 
vulnerable groups for death by suicide.
    In reviewing suicide attempts from January 2004 to June 2011, the 
U.S. Army Public Health Command (USAPHC) Surveillance of Suicidal 
Behavior Report identifies the most vulnerable demographics to include: 
females, young Soldiers, and Soldiers of ``other'' race-ethnicity (non-
White and non-Black). (Please note that each of these is a separate 
risk demographic, so it is not correct to say ``young, female, non-
white/non-black Soldiers.'') Within these individual demographic 
characteristics, females were twice as likely as males to attempt 
suicide (attempt rates 128 per 100,000 and 60 per 100,000, 
respectively) and Soldiers age 24 or less were two to four times more 
likely to attempt suicide than older Soldiers.
    The Army is targeting this demographic category by increasing 
Suicide Prevention training opportunities and disseminates information 
to Family members with regard to risk factors, warning signs and 
contact assistance numbers. The Army is also working to strengthen 
Soldiers' and Families' support networks by ensuring that first-line 
supervisors, junior leaders, and unit Gatekeepers receive proper 
suicide intervention training. First-line supervisors and junior 
leaders receive the Ask, Care, and Escort (ACE) Skills Intervention 
(SI) training to help recognize suicidal behavior in fellow Soldiers 
and the warning signs that accompany it. Unit Gatekeepers receive the 
Applied Suicide Intervention Skills Training (ASIST), a standardized 
and customizable, two-trainer suicide prevention workshop designed for 
members of all care giving groups. In addition to Army-specific 
programs, the Army works to promote and advertise local resources to 
include Chaplains, Military and Family Life Consultants, Behavioral 
Health Providers, Off-Post Community Services, Churches, Medical 
Centers, Crisis Centers, Welcome Centers, and the National Suicide 
Prevention Lifeline 1-800-273-TALK (8255).
    Question. What mental health services are available to soldiers 
prior to deployment, while in theater, and then at home upon returning 
from deployment? What mental health services are available to their 
families?
    Answer. The Army's Behavioral Health System of Care, under U.S. 
Army Medical Command, has an extensive array of behavioral health 
services and wellness resources available to address the strain on 
service members and their Families throughout the Army Force Generation 
Cycle. Soldiers and Family members have additional counseling options 
and other avenues to deal with stress through Army Chaplain services, 
Military One Source, in-theater combat and operational stress programs, 
psychological school programs, Army Community Service programs, and the 
Comprehensive Soldier Fitness program.

                      Sexual Assault in the Force

    Question. Sexual assault remains a significant problem in the 
military and in the Army specifically. While the Committee recognizes 
the steps the Department has taken to reduce the number of incidents, 
it remains a pervasive problem. The Army's Gold Book states that sex 
crimes in the active duty army have seen a 28% increase from fiscal 
year 2006 to fiscal year 2011.
    In a recent press conference, Secretary of Defense Panetta stated 
that while 3,191 sexual assaults were reported last year in the 
military as a whole, the actual number of incidents was probably closer 
to 19,000. Both as a military and as a society, we must do more to 
change the stigma of sexual assault so that victims are not afraid to 
come forward and report the crime without worrying that their career or 
their personal reputation will be damaged and so that perpetrators know 
they will be held fully accountable for their crimes.
    Please describe the policies and programs currently in place to 
combat sexual assault and provide immediate care and assistance to 
victims of sexual assault. What new programs are being implemented to 
combat this issue?
    Answer. The behaviors of sexual assault and sexual harassment are 
unacceptable to the military profession, and the Army is taking strides 
to re-energize the standards and discipline long at the core of a 
professional, all-volunteer force.
    Inasmuch as behavior such as sexual harassment sets a potential 
foundation for sexual violence, the Army is combining its SAPR Program 
with the Prevention of Sexual Harassment (POSH) efforts. The result is 
a new overarching program called Sexual Harassment/Assault Response and 
Prevention, or SHARP. SHARP addresses sexual misconduct at the earliest 
point of intervention, as Army survey data indicates approximately 40% 
of sexual assaults were preceded by sexual harassment.
    The SHARP Program includes the Army's Sexual Harassment/Assault 
Prevention Strategy and Campaign, the intent of which is to prevent 
sexual assaults from occurring. Leaders at all echelons facilitate this 
prevention strategy by establishing positive command climates in which 
sexual assault rarely occurs, but when it does, victims can come 
forward with confidence that their leaders will take appropriate 
action.
    The cornerstone of the prevention strategy is the ``I. A.M. 
Strong'' campaign where the letters I. A. M. stands for Intervene--
Act--Motivate. The purpose of ``I. A.M. Strong'' is to encourage 
Soldiers to take action to prevent sexual assault and to actively 
foster respectful treatment of others. The Army's prevention strategy 
also strives to reduce the stigma of reporting, thus increasing a 
victim's propensity to report incidents for one of the nation's most 
unreported crimes.
    To support commanders in implementing the SHARP Program and the 
``I. A.M. Strong'' campaign, the Army established an 80-hour SHARP 
training course conducted by SHARP Mobile Training Teams (MTT). To 
date, MTTs have trained 12.8K command-selected SHARP personnel from 
major command down to the company level. These SHARP personnel are 
trained to help commanders establish and maintain positive command 
climates, and provide immediate and accessible support to victims of 
sexual assault.
    Army Regulation (AR) 600-20 (Army Command Policy) formalizes the 
Army's Sexual Assault Prevention and Response (SAPR) Program. The 
Assistant Secretary of the Army for Manpower and Reserve Affairs (ASA 
M&RA) has oversight of the Army's SAPR Program, while the Deputy Chief 
of Staff, G-1 is responsible for program implementation and assessment. 
As we combine the SAPR Program with the Prevention of Sexual Harassment 
(POSH) efforts, Army will combine Chapters 7 (POSH) and 8 (SAPR) of AR 
600-20 into one chapter addressing SHARP.
    The SHARP program is a command responsibility. Therefore, 
commanders are required to: establish a command climate that prevents 
the crime of sexual assault; treat all allegations of sexual assault 
seriously and ensure investigations occur; treat victims with dignity 
and respect; and take appropriate action against offenders. Significant 
elements of the current Army program include:
    <bullet> Installation commanders and deployed senior commanders (or 
their representatives) have overall responsibility for SAPR Program 
implementation and 24/7 execution. As a critical element of program 
execution, these leaders conduct required monthly Sexual Assault Review 
Boards (SARB). The SARB provides executive oversight, procedural 
guidance and feedback concerning local program implementation and case 
management.
    <bullet> Army-wide Victim Advocacy Program led by Sexual Assault 
Response Coordinators (SARCs) and supported by a cadre of professional 
Victim Advocates (VA). These SARCs and VAs are available 24 hours a 
day/7 days a week to interact directly with victims of sexual assault 
and other response agencies (medical, legal, law enforcement, 
investigative, and chaplain).
    <bullet> Command Program Managers, Deployable Sexual Assault 
Response Coordinators (DSARCs) and Unit Victim Advocates (UVA) are 
Soldiers (or civilians assigned to military units) who assist their 
commanders in executing their SAPR Programs and coordinating sexual 
assault response efforts (legal, law enforcement, chaplaincy, and 
medical).
          --DSARCs and UVAs provide/support advocacy services in 
        deployed environments and for geographically dispersed units in 
        CONUS and OCONUS not serviced by an installation. They also 
        augment advocacy services in a garrison environment, as needed.
          --Army policy requires each brigade level unit and higher 
        echelon to have one trained DSARC. UVAs are Soldiers (or 
        civilians assigned to military units) trained to provide victim 
        advocacy as a collateral duty. Army policy requires two UVAs 
        for each battalion sized unit. (Some units may require more 
        than two due to geographical dispersion).
    <bullet> All levels of Army institutional Professional Military 
Education (PME), from initial entry to senior service school, use a 
comprehensive set of training support packages to conduct required 
training. Annual unit level sexual assault awareness and pre- and post-
deployment SHARP training is also mandatory per AR 350-1 (Army Training 
and Leader Development).
    Question. Secretary McHugh, incidents of assault appear to be 
highest among the 18-24 year old, junior enlisted population. Females 
compose only 14% of the Army's force, but they make up 95% of all 
victims of violent sex crimes. What are we doing to teach our newest 
servicemembers about the military's no tolerance policy for sexual 
assault and the programs in place should they experience such an 
assault? What programs are in place for both our enlisted recruits and 
at West Point and ROTC to raise awareness of this issue? What programs 
are in place to train our commanders and senior non-commissioned 
officers how to handle such cases?
    Answer. Army research and national data indicate sexual assault is 
a societal issue that affects male and female Soldiers. While female 
victims are more likely to report being sexually assaulted, the Army is 
addressing sexual assault prevention across the entire force. The SHARP 
Program includes the Army's Sexual Harassment/Assault Prevention 
Strategy and Campaign, the intent of which is to prevent sexual 
assaults from occurring. The goal of phase II of this four-phased 
campaign was to achieve Army-wide synchronization, and included the 
task to aggressively indoctrinate pre-accession and first term 
Soldiers. Soldiers would become advocates for prevention and would 
participate in peer-to-peer intervention training, take action to stop 
harassment and assaults, and speak out against sexual harassment and 
sexual assault.
    Since 2005, the Army has included sexual assault prevention and 
response training at all levels of Professional Military Education 
(PME), from Initial Entry Training (IET) through the Army War College. 
In 2011, the Army revised this PME training, starting with IET.
    To educate new Soldiers in a more attention-getting and intriguing 
manner, the revised IET training includes a set of ten ``Sex Rules'' 
(``Sex Rules--Follow Them'') which break down the elements of sexual 
harassment and sexual assault and defines them in simple, relatable 
terms. By linking each Sex Rule to an Army Value, the training helps 
establish the social behavior expected of all Soldiers. The revised 
curriculum challenges Soldiers to ``Know the Rules--Live the Values'' 
and includes a pocket guide for Drill Sergeants (``Sex Rules--Teach 
Them'').
    Most of the concepts in the new IET curriculum are also embedded in 
the upgraded ROTC training. In coordination with Cadet Command, the 
Army SHARP Program Office developed new ROTC training which 
incorporates ``Sex Rules'' messaging, an ROTC Cadre SHARP Guide, and a 
critical decision-making tool.
    The IET curriculum also added the live, two-person, audience 
interactive ``Sex Signals''. This 90-minute program includes skits 
dealing with dating, consent, rape and other associated topics such as 
body language, alcohol use and intervention. Newly commissioned 
officers receive Sex Signals training in their Basic Officer Leadership 
Course. We are assessing the use of this program in other educational 
venues.
    West Point conducts a myriad of sexual assault prevention and 
response training and education events which are above and beyond the 
requirements under DoD and Army policy. In addition to the required 
unit level training conducted by every Army unit, West Point conducts 
targeted Sexual Assault /Sexual Harassment education for each class of 
the Corps of Cadets. For example, during FY11, the Fourth Class 
(freshman) cadets received training from Ms. Veraunda Jackson, a 
renowned sexual assault survivor and lecturer. Third Class (sophomores) 
cadets received a cadet/staff facilitated class centered on a 
university-focused sexual assault training package, ``Welcome to the 
Party''. Second Class (Junior) cadets participated in audience 
interactive productions of ``Sex Signals''. First Class (Senior) cadets 
received additional instruction focused on the tenets of the Army SHARP 
campaign, ``I. A.M. Strong'', to prevent sexual assault and sexual 
harassment.
    To ensure our commanders and senior non-commissioned officers know 
how to handle sexual assault cases, the Army's PME training is 
specifically tailored for junior, intermediate and senior leaders. This 
includes training at the Sergeants Major Academy, Army War College and 
Pre-Command Courses (PCC). The PCC curriculum for Brigade and Battalion 
Commanders includes instruction from the Army Judge Advocate General 
School and Legal Center on handling sexual assault cases.
    Question. The Gold Book states that violent sex crimes are most 
likely to occur during periods of transition--during times when 
soldiers are transitioning into their new units and lack the formal 
chain of command and established social network. Young female soldiers 
are most vulnerable to assault. What is the Army specifically doing 
during these transition periods to prevent assaults?
    Answer. The Army uses a battle buddy system for pairing Initial 
Entry Training (IET) Soldiers into teams to teach teamwork, develop a 
sense of responsibility and accountability for fellow Soldiers, improve 
safety, and reduce the likelihood and opportunity for sexual 
harassment, sexual assault, misconduct and suicidal gestures or 
attempts. Under the battle buddy concept, IET Soldiers are formed into 
two-person teams upon arrival at their initial training unit. Soldiers 
must have battle buddies at all times; the cadre will pair ad hoc buddy 
teams of the same gender for sick call, worship services, additional 
unit-specific training, or remedial training. Similarly, ad hoc buddy 
teams are formed on Family Day for Soldiers without family members 
attending. Soldiers must also utilize the battle buddy system during 
all passes except when accompanied by family members.
    The Army takes sponsorship of Soldiers into their new units very 
seriously. Under the Army's formal Sponsorship Program, commanders are 
directed to assign same-gender sponsors for Soldiers and civilians, 
especially first-term Soldiers. Sponsors of first-term Soldiers act as 
battle buddies in order to orient inbound Soldiers to their new 
surroundings, in all aspects of Army life, and to provide support and 
assistance during the transition period. Sponsors of first-term 
Soldiers have a responsibility for their fellow Soldiers and are 
charged to monitor their safety and ``reduce the likelihood and 
opportunity for sexual assault'' during the Soldier's first year in the 
unit.
    The Army has sent training materials focused on the ``I. A.M. 
Strong'' Campaign down to the battalion level. These materials included 
posters, touch cards, brochures, and videos, including Amateur Night, a 
12-minute video suitable for newcomer orientation training. 
Additionally, Annual unit level sexual assault awareness and pre- and 
post-deployment SHARP training are also mandatory per AR 350-1 (Army 
Training and Leader Development).
    Question. The Gold Book states that 97% of victims at least 
casually knew their attackers and that most assaults occurred in the 
barracks in a situation in which alcohol was present. What is the Army 
doing to address the risk associated with high density housing? Does 
the presence of alcohol inhibit victims from coming forward for fear of 
being punished for violating rules regarding the use of alcohol?
    Answer. The primary solution to these issues is positive and 
engaged leadership. That is why we are aggressively implementing and 
expanding the Army's comprehensive Sexual Harassment/Assault Response 
and Prevention (SHARP) Program. SHARP is a commander's program, 
committed to ensuring engaged leadership at all levels to foster a 
climate of trust that respects the dignity of our Soldiers and serves 
to prevent sexual assault.
    To support commanders in this effort, the SHARP program is training 
SHARP Personnel at every echelon down to the company level. To date, 
the Army has trained over 9,000 unit SHARP personnel using mobile 
training teams delivering an 80-hour nationally certified curriculum.
    Additionally, the Army fielded new mandatory annual unit training 
which includes leader and Soldier videos and an interactive video for 
all Soldiers. This self-study video (``Team Bound'') is an interactive, 
multiple scenario product in which Soldiers become the lead character, 
making choices in situations dealing with sexual harassment and sexual 
assault. The revised unit and self-study training began in April 2011.
    Finally, we know that one of the reasons Soldiers may not report 
they are a victim of sexual assault is because they were involved in 
some kind of misconduct themselves, including the unauthorized use of 
alcohol. Since March 2008, Army policy instructs Commanders to consider 
delaying disposition of any collateral misconduct on the part of a 
sexual assault victim so as to encourage reporting and cooperation.
    Question. Does the fiscal year 2013 budget include sufficient 
funding for the Army Sexual Assault Prevention and Response Programs? 
Does the Army have a sufficient number of sexual assault response 
coordinators so that anywhere you might find a soldier, you will find a 
coordinator?
    Answer. Senior Army leadership has always ensured adequate funding 
for all of the Army SHARP Program. Army currently has contract and 
collateral duty sexual assault response coordinators to provide 
services to the force regardless of location. Per FY12 NDAA requirement 
for full time brigade or like-sized unit Sexual Assault Response 
Coordinators (SARC) and Victim Advocates (VA), the Army is implementing 
an interim manning solution requiring trained, full time military 
personnel in the positions as we transition from contract and 
collateral duty program execution. Army uses Mobile Training Teams to 
train personnel to meet 17,000 Command program manning requirements at 
brigade and below command levels. Army is identifying costs based on 
the FY12 NDAA requirement and will request resources for these 
requirements through the normal programming and budgeting process.

                               Stop Loss

    Question. In 2009, Secretary Gates announced the phased suspension 
of the Stop Loss Program. Among the Services, the Army relied most 
heavily on Stop Loss to supplement their forces. This Committee 
established a new special pay, which provides up to a maximum of $500 
per month for all service members extended under Stop Loss since 
September 11, 2001. This Committee believes it is important that every 
eligible service member that has earned the benefit have the 
opportunity to receive it.
    How many soldiers have been provided with the benefit? How many are 
eligible to receive stop loss payments but have not yet collected their 
benefit?
    Answer. The Army reviewed 108,946 claims to date. Of those, 82,707 
have been paid; the remaining 26,239 claims did not meet the 
eligibility requirements established by the Department. There are 
11,054 potential claimants remaining to be paid. However, they have not 
responded to the extensive outreach campaign the Army has conducted 
that included two certified mailing.
    Question. In your opinion, have the outreach and education efforts 
adequately reached every service member who is eligible to receive 
these payments to ensure they are aware of the payments and understand 
the steps they must take to collect the benefit?
    Answer. Yes, the Army has conducted a number of innovative outreach 
efforts to include a certified mail campaign advertising in every 
recruiting station, and communications with veteran service 
organizations. As a result, we know that some members have received as 
many as four notifications. We have received claims from every state 
and territory as well as 12 foreign countries. We have also received 
claims from Service Members who served during every major conflict 
going back to the Korean War.
    Question. Is additional time needed to ensure that every soldier 
eligible for this special pay has een provided the opportunity to apply 
for it?
    Answer. No, the Army does not believe additional time will 
measurably increase the number of Soldiers applying for the Special 
Pay. The program has had a number of extensions and the number of 
``new'' claims that have been received since the October deadline is 
very small.

                      Tour Normalization in Korea

    Question. Since the 1950s, soldiers assigned to Korea have served 
one year tours and family members are not supported or sponsored. With 
the exception of a few senior officers, the entire command in South 
Korea would rotate every year. In 2008, the Department announced ``Tour 
Normalization'' for Korea, which would normalize deployments to Korea 
by establishing two year tours for single servicemembers and three year 
tours for married servicemembers to include their family members.
    Mr. Secretary, do you have a timeline for implementation of Tour 
Normalization?
    Answer. The Army does not have a timeline for the implementation of 
Tour Normalization. The Department's directions were to pursue Tour 
Normalization as affordable and feasible. After analysis the Department 
determined tour norm is not affordable because it would require 
additional housing, schools and require additional funding to support 
families.
    Question. Will all of our soldiers that are bound for Korea be 
eligible for the longer, accompanied tours? If not, how will the Army 
determine which soldiers will be eligible for tour normalization?
    Answer. All movement on Tour Normalization has been suspended as 
General Thurman, current commander of US Forces, Korea, reevaluates the 
strategic and financial environment on the Korean peninsula. Ultimately 
it is his military strategy that will drive the requirement for 
accompanied military members in Korea.
    Question. How many soldiers do you estimate will take advantage of 
tour normalization? Do you have an estimate of the additional cost per 
year, not including the required military construction to support the 
additional families, for tour normalization?
    Answer. The Army has not determined how many Soldiers would take 
advantage of command sponsorship if the Department of Defense was to 
authorize tour normalization. The estimated additional cost per year to 
implement tour normalization is $481 million annually, not including 
construction.
    Question. General Odierno, how has Tour Normalization been received 
by our soldiers and then.FTily members who are bound for a tour of duty 
in Korea?
    Answer. The Army currently does not have a matrix or a survey that 
identifies how Tour Normalization is received by Soldiers. However, 
anecdotal evidence from the chain of command indicates that Tour 
Normalization is well received by Soldiers. The total Army command 
sponsorship positions for the Army is 3740 out of 4645 total for all 
Services.
    Question. Is adequate housing available for families that decide to 
accept a three year assignment to U. S. Forces Korea?
    Answer. Tour length is not a factor when determining the quantity 
of adequate family houses. The number of command sponsored families 
does not change with the increase in tour length, therefore the 
quantity of housing remains adequate given existing limits on 
accompanied tours.
    Question. What is the status of providing facilities such as 
schools, medical clinics, exchanges, commissaries, and other support 
activities that are needed to provide for a large increase in military 
families that are assigned to U.S. Forces Korea?
    Answer. There are no plans to construct additional facilities to 
support tour normalization. The Fiscal Year 2012 NDAA section 2111 
restricts the number of command sponsored tours at the current level of 
4645.
    Question. General Odierno, the Department of Defense recently 
released a report regarding women in combat, which stated that it is 
``committed to removing all barriers that would prevent Servicemembers 
from rising to the highest level of responsibility that their talents 
and capabilities warrant.'' The Army estimated that, in fiscal year 
2011, 66% of Army active component positions were open to women.
    What percentage of positions will be open to women in the Army once 
this guidance is implemented?
    Answer. Approximately 67% of all authorized positions in the Active 
Army will be open to women based on the policy changes outlined in the 
DoD report.
    Question. Please provide us with some examples of positions that 
would now be open to women. Are there concerns about the impact this 
guidance could have in the field? Does the Army expect it will have to 
adjust either its qualification requirements or it training or 
operations plans to accommodate this new guidance?
    Answer. Example of positions that would become open based on the 
removal of collocation include: Bradley Fighting Vehicle System 
Maintainer, Field Artillery Radar Specialist, and M1 Abrams Tank System 
Repairer. These are positions that have never been available to women. 
Additionally, positions such Human Resources Specialist and Supply 
Specialist, though open to women, women will now have the opportunity 
to serve in units such as Multiple Launch Rocket Systems and Opposing 
Forces (OPFOR) Battalions. Examples of positions that would become open 
based on the exception to the Direct Ground Combat Assignment Rule 
include: Military Intelligence Officer, Human Resources Officer, and 
Physician's Assistants. Though currently held by women, this will be 
the first time they will be able to serve in these positions in 
Infantry, Armor, and Field Artillery Cannon Battalions. As outlined in 
the report released on 9 Feb, the openings of these particular 
positions are limited to only 37 battalions across the Army.
    Yes, there is always some level of concern when doing something new 
or different. However, the Army is a highly disciplined, highly 
professional organization where women have fought side-by-side with 
their male counterparts since the inception of the All-Volunteer force. 
At this time the Army leadership believes this is the right step 
forward. We will not be adjusting any qualifications to accommodate 
this guidance. However, there are minimal billeting requirements that 
are currently working at the Fort Benning training base. The 
requirements entail reconfiguring barracks space that includes 
replacing urinals with toilets and constructing walls that completely 
separate male quarters from female quarters. These are requirements 
already in place at other installations impacted by the opening of 
these positions. Recruiting operations will be adjusted to include 
recruitment of women for positions that have never been available to 
them as we begin recruiting for FY 13.
    Question. Please explain for the Committee any benefits or 
challenges that you envision will be a consequence of the new guidance 
will create for the Army and for the typical soldier, both male and 
female.
    Answer. The greatest benefit under this new guidance is the 
opportunities created for both males and females to serve in a greater 
breadth of roles at varying levels of the force. It is a benefit to 
commanders as it adds flexibility in placing the best Soldiers, male or 
female, where they best fit. It is a benefit to the Army as it 
increases our opportunity to utilize the talents of our greatest 
assets, our Soldiers.
    Question. For the past ten years the Department has focused nearly 
exclusively on counter insurgency, and as a result the military's 
readiness to address units ``high end'' warfighting missions has been 
compromised. Over the past few years the Army' ``Status of Resources 
and Training System'' readiness levels have hovered consistently at 20-
25 percent, meaning only 25 percent of Army units can accomplish their 
assigned mission. The Army's operation and maintenance budget request 
includes additional training funds to support ``Decisive Action'', the 
effort to rebuild full spectrum readiness.
    Secretary McHugh, the Department's quarterly readiness reports to 
the Congress state that 75 percent of the Army's military units are not 
able to accomplish their assigned mission. How did this impact your 
strategy review? How is this addressed in your budget request?
    Answer. This issue pertains to the Army's readiness reporting (all 
units) of C-Level (Core mission) assessments and the A-level (Directed 
mission) assessments. In addition, readiness reporting is often 
confused with the Army's Force Generation (ARFORGEN) process for the 
rotational units in Operating force. The readiness reporting 
percentages cited in the question reflect readiness reporting C-level 
data aggregated for all Army units, to include units in the Reset and 
Train/Ready force pools.
    The C-Level assessment reflects the ability of a unit to accomplish 
its core functions and to provide the capabilities for which it was 
designed (the core mission or designed mission). The A-Level assessment 
reflects the ability of a unit to accomplish the specific mission that 
has been directed for planning or formally assigned for execution (the 
directed or assigned mission).
    Currently, the preponderance of deployed and next to deploy Army 
units report the highest levels of readiness for their directed 
missions (A-Levels), and a significant majority of these units report 
high C-Levels as well. In many cases, Army units are assigned and 
execute various missions and tasks that are significantly different 
from those for which they were designed (for example, a field artillery 
battalion assigned to execute a security force mission).
    The ARFORGEN process is the structured progression of unit 
readiness over time to produce trained, ready, and cohesive units 
prepared for operational deployment in support of the Combatant 
Commander and other Army requirements. ARFORGEN utilizes aim points as 
a mechanism to establish benchmarks for manning, training and equipping 
criteria. Units entering into the ``Train/Ready'' force pool report 
degraded levels of readiness to accurately reflect their aim point for 
current resource and training status. Units in the ``Available'' pool 
are expected to be at the higher Core mission levels of readiness (C1/
C2) for their directed or assigned missions (A-levels). The readiness 
percentages cited in this question reflect Core mission level data 
aggregated for all Army units, to include units in the ``Reset'' and 
``Train/Ready'' force pools.
    Question. General Odierno, could you explain the Army's training 
activity called ``Decisive Action''?
    Answer. Army Doctrine Publication 3-0 (ADP 3-0 published October 
2011, provides a common operational concept for a future in which Army 
forces must be prepared for operations across the range of military 
operations, integrating their actions with joint, interagency, and 
multinational partners as part of a larger effort. As described in ADP 
3-0, to achieve decisive action during operations, forces must be 
prepared to effectively execute some mix of offensive, defensive, and 
stability tasks (defense support to civilian agencies in the Contiguous 
United States). Army unit-level training strategies are designed to 
enable units for decisive action across a broad range of missions, that 
is, to perform the fundamental doctrinal tasks needed to conduct a 
combination of offense, defense, and stability operations (or defense 
support of civil authorities); by means of Army core competencies 
(combined arms maneuver / wide area security); as part of a joint, 
interagency, and frequently multinational coalition; against an 
adaptive hybrid threat (mix of conventional and unconventional forces, 
terrorists and criminals); at any point from stable peace to general 
war.
    Question: Secretary McHugh, given the resources available, the Army 
has done a good job of supporting the effort to rebuild the Nation's 
readiness. Could you explain how a sequester would impact the Army's 
readiness budgets?
    Answer. The magnitude of these cuts to both the military and 
civilian force structure, readiness, and modernization would be 
devastating. The indiscriminate nature of these large and arbitrary 
cuts does not provide the Army with the necessary flexibility to react 
to the uncertain security environment.
    Such reductions would result in lower readiness levels of units and 
adversely impact our modernization efforts, as well as the defense 
industrial base. Moreover, we risk breaking faith with our Soldiers and 
their Families who have performed superbly over ten years of continuous 
conflict. Sustaining the all-volunteer force is absolutely essential 
for the Army's ability to support our Nation's defense.

                            The Hollow Force

    Question. In 1980, the term ``Hollow Force'' was coined by Army 
Chief of Staff General Meyer when only four of ten active divisions 
were capable of deploying overseas in an emergency. The term ``hollow 
force'' that was soon widely used to characterize a force was not 
capable of performing required missions. In the 1990s ``hollowness'' 
once again became a concern. The force structure following the victory 
in Operation Desert Storm/Desert Shield, the expected cold war ``peace 
dividend,'' and a recession in the early 1990s resulted in a 
significantly reduced DoD top-line, a growing backlog of depot 
maintenance and degraded readiness. The Army's fiscal year 2013 budget 
request (base and OCO) includes $1 billion less (21 percent decrease) 
in equipment maintenance and reset funds from fiscal year 2012 planned 
levels and $1.8 billion less than was spent in fiscal year 2011. The 
impact of the Army's equipment repair budget after prolonged combat 
operations, or ten years of war on equipment is concerning. The 
continuous increase in operations has been unprecedented. Many types of 
military equipment have been used in operations at three to five times 
``peacetime'' operational rates with a related increase in necessary 
maintenance. The need to ``reset'' equipment has been adequately funded 
over the past five years, although these efforts will need to persist 
for several years after current operations end.
    General Odierno, experts predict that it will take years to repair 
and reset equipment even after current operations end and yet the 
fiscal year 2013 request for equipment maintenance is 21 percent ($1 
billion) less than will be spent this year. Can you assure the 
Committee that the budget request for equipment maintenance will keep 
it capable and will not put us on a path to a hollow force?
    Answer. I can assure the committee that our FY13 request for 
equipment maintenance will adequately address our critical requirements 
and sustain our equipment readiness.
    The Army is ``right-sizing'' its base depot maintenance budget to 
capture its post-war requirements in order to facilitate the transition 
of forces from Overseas Contingency Operations (OCO) to Base funding.
    Depot Maintenance requirements are aligned with Army Force 
Generation (ARFORGEN) demands and resourced according to Army's 
priorities.
    Depot maintenance base program sustains unit readiness by providing 
equipment availability and reliability and is balanced with other Army 
initiatives and priorities, i.e. force structure changes.
    The FY 2013 budget request for Depot Maintenance is  $4.9B ($2.3B 
in Base Sub Activity Group (SAG) 123 and $2.6B in Reset SAG 137). The 
FY 2012 enacted budget for Depot Maintenance is  $5.3B ($3.0B in Base 
SAG 123 and $2.3B in Reset SAG 137).
    I would also reiterate to the committee that reset is a lengthy 
process and even after the drawdown from Afghanistan is complete, the 
Army will require funding from OCO for 2 to 3 years to reset our 
equipment from the harsh demands of war.
    Question. The proposed resource reductions to equipment maintenance 
are incremental, and the effects are not immediately apparent. General 
Odierno, can you assure the Committee that cuts to equipment 
maintenance budgets that you propose will not unintentionally reduce 
equipment capability and military readiness?
    Answer. I can assure the committee that our reduction in equipment 
maintenance budget is tempered by the condition and readiness of our 
fleets and our ability to respond to unforeseen contingencies. FY13 
request for equipment maintenance adequately addresses our critical 
requirements and sustains our equipment readiness.
    The Army is ``right-sizing'' its base depot maintenance budget to 
capture its post-war requirements in order to facilitate the transition 
of forces from Overseas Contingency Operations (OCO) to Base funding.
    Depot Maintenance requirements are aligned with Army Force 
Generation (ARFORGEN) demands and resourced according to Army's 
priorities.
    Depot maintenance base program sustains unit readiness by providing 
equipment availability and reliability and is balanced with other Army 
initiatives and priorities, i.e. force structure changes.
    The FY 2013 budget request for Depot Maintenance is  $4.9B ($2.3B 
in Base Sub Activity Group (SAG) 123 and $2.6B in Reset SAG 137). The 
FY 2012 enacted budget for Depot Maintenance is  $5.3B ($3.0B in Base 
SAG 123 and $2.3B in Reset SAG 137).

                  Security Contractors in Afghanistan

    Question. As of December 2011, the Department of Defense employed 
approximately 133,000 contractors in Afghanistan, 20,000 of which were 
security contractors with the majority of these being Afghan nationals. 
President Karzai has long expressed concern that private security firms 
skirt the law and are vulnerable to corruption. In 2009, President 
Karzai issued a decree to abolish the use of private security guards in 
Afghanistan. On March 21st the first tranche of private security 
guards, approximately 11,000 guards, now working for private security 
firms will become Afghan government employees as members of the Afghan 
Public Protection Force (APPF). The United States will finance future 
security requirements via an international security agreement with the 
APPF on a fee-for-service basis.
    What impact has the recent killings of six U.S. soldiers had on the 
transition plan?
    Answer. No combat operations are without risk. While the loss of 
any U.S. service member's life is tragic, these killings will not cause 
us to deviate from the current transition plan.
    Question. Do you have confidence that the APPF has the capability 
and the resources to meet our security needs? If not, what is being 
done to mitigate risks?
    Answer. The APPF has made notable progress over the past year, 
transforming itself from a government-run guard force, lacking advanced 
business functions, into a functioning State-Owned Enterprise, now 
capable of delivering commercial security services to international 
organizations and commercial enterprises. As a State-Owned Enterprise 
(SOE), the APPF is working to develop modern business practices--
providing effective security services while generating self-sustaining 
revenue. As of this date, the APPF has achieved an Initial Operating 
Capacity (IOC), sufficient to conduct business with and provide 
security to international organizations and commercial enterprises in 
Afghanistan--a significant achievement and a vast improvement from its 
operational capability a year ago. In some areas, however (e.g. 
contracting), the APPF has only been able to achieve IOC with 
assistance from ISAF advisors.
    While the APPF did not fully meet the transition dates laid out in 
the Bridging Strategy, it was able to commence the transition of 
commercial and developmental contracts from Private Security Companies 
(PSC) to the APPF before the transition deadline. Toward that end, the 
APPF expanded its business and operations directorates, bringing in 
some talented Afghan experts from the business world and Afghan 
National Police (ANP), and expanded its operations from existing sites, 
previously contracted under substandard adhesion contracts, to include 
new sites, contracted under modernized contracts that approach 
international commercial standards. To date, the APPF has signed more 
than 50 contracts with domestic and international customers for 
security services, including 27 USAID projects. Four sites are fully 
transitioned to APPF control with another 33 in transition.
    However, while it is an achievement that the APPF has reached IOC 
and begun the transition of security services in accordance with the 
Bridging Strategy, considerable work remains to be done before the APPF 
is ready to provide static security, convoy security and personal 
security detail (PSD) services nation-wide, independent of ISAF 
assistance. In particular, the APPF must mature and hone its business 
operations, implement its solution to overcome challenges associated 
with complex convoy operations, and strategically prepare to assume 
responsibility for ISAF/ANSF construction sites and ISAF bases. The 
APPF Advisory Group will continue to partner with the APPF over the 
next year to execute a smooth transition of security from private 
security companies to the APPF and to help build enduring capability 
for the APPF.
    Question. Will you outline how the Army will contract with the APPF 
for security forces to ensure the security of our personnel?
    Answer. All contracts for private security contractors used to 
guard personnel, sites, and convoys must be replaced by contracts with 
the Afghan Public Protection Force (APPF) in accordance with the 
following transition schedule: 1) by March 20, 2012, all development 
fixed site and all mobile security will transition to the APPF; 2) by 
March 20, 2013, all International Security Assistance Force bases and 
military construction sites will transition to the APPF. The transition 
of these security services to the APPF is part of an overall shift to 
Afghan-led security by 2014.
    All development sites (non-military) and mobile security contracts, 
which currently rely on private security contractors (PSCs) must 
transition to the APPF by March 20, 2012. The National Afghan Trucking 
(NAT) contract will be impacted by the transition. Under NAT, the prime 
contractors provide transport services and issue subcontracts with PSCs 
when required. The U.S. Government will not contract directly with the 
APPF to provide PSC services. Instead, the NAT contractors will obtain 
PSC services from APPF and are all working their APPF agreements.
    Once NAT contractors have their APPF agreements, the contracts will 
be modified to reflect the APPF rates. All contractors have been 
advised that it is their responsibility to ensure compliance with the 
Government of the Islamic Republic of Afghanistan law while performing 
services under the NAT contract.
    Department of State (DoS) approved the content of an Acquisition 
Only Agreement (AOA) for direct contracts between the Department of 
Defense (DoD) and the APPF for all static security. United States 
Forces-Afghanistan has been delegated authority to negotiate the AOA 
with the APPF. Any changes to the terms of the Agreement are subject to 
approval by DoS. This Agreement will establish the basic terms, 
conditions, and procedures to facilitate the provision of logistic 
support, supplies, and services to U.S. forces personnel, DoD civilian 
employees, and DoD contractor personnel deployed to Afghanistan in 
support of Operation Enduring Freedom and International Security 
Assistance Force missions.
    Question. What is the funding mechanism that will be used to hire 
APPF security guards? What protections will be in place to ensure there 
is no corruption?
    Answer. Customers and users of APPF state-owned enterprise services 
will contract directly with the APPF to fund security services.
    Although DoD contracts have not been established, current 
implementing partners have contracted with APPF for security services. 
An Acquisition Only Agreement has been established for DoD to negotiate 
contracts for security at fixed site lotations, ISAF bases and military 
construction sites. The negotiations for these contracts will occur 
over the next year and will allow DoD representatives to work directly 
with the APPF to contract security services.
    As DoD and DoS help build the capacity of numerous Afghan 
government entities, we are focused on anti-corruption efforts to 
ensure that these entities have credibility and transparency in their 
operations. We are working side by side with the Afghan Government to 
create mechanisms within the APPF that that will ensure transparent 
services for APPF customers. These include a robust quality control and 
quality assurance program and independent oversight.

         Fiscal Management: Growing Reliance on Reprogrammings

    Question. The Department of Defense's increased reliance on 
reprogramming of funds during the execution year has been 
extraordinary. There has been a 1,000 percent increase (10 fold) 
between fiscal year 2000 and 2011 in the magnitude of the annual 
omnibus reprogramming. In fiscal year 2011, $10 billion was transferred 
and used for different purposes than for which it was appropriated.
    While an increased number of funding transfers would be expected in 
the early stages of a contingency operation, the war should not be the 
rationale for increasing funding transfers after ten years. While the 
chart above describes the overall DoD trend, Army's increasing reliance 
on reprogramming seems to mirror the overall Departments. For example, 
last June Army requested $2.3 billion be transferred for use in a 
manner differently than had been requested and appropriated and in 
September Army requested an additional (nearly) $2.5 billion be 
transferred.
    Secretary McHugh, we are concerned that the Army has increasingly 
transferred and spent funding differently than the purposes for which 
the funding was justified and appropriated. For example in the last 3 
months of fiscal year 2011, the Army proposed transfer of $4.8 billion 
to be spent in a manner differently than for which the funding was 
requested and appropriated.
    What actions have you taken to enhance the discipline in the budget 
process?
    Answer. The budget process has been improved with the increased 
emphasis and involvement of our senior leaders. They have directed that 
they be included in all decisions and realignments that are made at 
both an organizational and a strategic level. The process is very 
deliberative and disciplined.
    Additionally, our leadership worked closely with the Secretary of 
Defense and the Chairman to ensure the Army's strategy was in concert 
with that of the Defense Department. The new strategic guidance was 
developed and provided before any final budget decisions were made to 
ensure that the budget choices reflected the new defense and Army 
strategies.
    Internal to the Army process we have been ``implementing a cost 
culture'' using a Cost Benefit Analysis process that thoroughly reviews 
and costs out options--balancing between the most effective, efficient 
and least costly. Army leadership has taken a hands-on approach to 
conducting in-depth reviews of the programs and portfolios. These steps 
have ensured our budget is accurate and defendable.
    Question. Are you confident in the Army's budget request that is 
before this Committee is fully executable as it is now arrayed? If not, 
will you work with us to adjust your request so that it can be 
appropriated in a manner in which you intend to expend it?
    Answer. The Army's position is that the President's Budget requests 
what is required to meet our mission requirements. The Defense 
Department's new strategic guidance was developed before any final 
budget decisions were made to ensure that the budget choices reflected 
the new defense strategy. While shaping this strategy, the Department's 
leadership did not want to repeat the mistakes of the past. The goals 
were: to maintain the strongest ground force in the world, to not 
``hollow out'' the force, to take a balanced approach to budget cuts, 
to put everything on the table, and to not break faith with troops and 
their families. As a result, the Army is strongly united behind the 
President's budget request for fiscal year 2013.
    Since we developed the FY13 request we have identified several 
areas that could be realigned to better support emerging issues. We are 
working with the appropriators to make these adjustments for the 
upcoming marks and any adjustments made may reduce the number of 
reprogramming actions requested during the year of execution.

                         Ground Combat Vehicle

    Question. The Ground Combat Vehicle (GCV) will replace the Bradley 
Fighting Vehicle. Add on armor kits have significantly improved Bradley 
survivability but sprint speed has been slowed thus increasing exposure 
to enemy fire. The fiscal year 2012 budget request for Ground Combat 
Vehicle development was $768,053,000. The conference agreement provided 
$449,387,000. The reduction was due to program delays and a revised 
acquisition strategy. The fiscal year 2013 budget includes $640 million 
for GCV development.
    General Odierno, please explain the changes made in the Ground 
Combat Vehicle program strategy and how those changes shaped the fiscal 
year 2013 budget request.
    Answer. The Army awarded contracts to British Aerospace Engineering 
(BAE) and General Dynamics Land Systems for the Technology Development 
Phase on August 18, 2011. They were placed in a stop-work situation for 
100 days due to a protest filed by Science Applications International 
Corporation (SAIC) on August 29, 2011. The U. S. General Accounting 
Office (GAO) denied the SAIC protest on December 5, 2011.
    This stop-work period resulted in a 100-day schedule delay in the 
technology development phase of the program, which caused the Army to 
shift planned work into the next fiscal year. The Fiscal Year 13 
President's Budget of $640 million for GCV accounts for this shift and 
associated planned contractor efforts.
    Question. The Committee understands that the GCV program plans to 
review the infantry fighting vehicles that are in use currently in 
other countries, such as the Israeli Namer and the German Puma? What 
sort of trials will you put the vehicles through?
    Answer. The Project Manager (PM) GCV Assessment of Non-
Developmental Vehicles (NDV) consists of multiple technical and 
operational assessments.
    The technical assessments include testing of armor survivability 
technologies, destructive testing of select vehicles, mobility testing 
of vehicles, a technical review of large remote weapons stations 
currently in service/production in the world (Rafeal, Elbit, and 
Kongsburg), and live-fire testing of select vehicle weapon systems to 
validate lethality performance. The technical assessments also include 
a bi-lateral data exchange with Germany on the PUMA.
    The operational assessments will be conducted in two phases. Phase 
I, which is complete, included training on the CV-9035 at the Danish 
Infantry School and reviewing lessons learned from Denmark and Norway 
in Operation Enduring Freedom. Additionally, PM GCV sent a platoon of 
infantry Soldiers from Fort Benning to Israel to attend the Israeli 
Namer training course. Once trained, the platoon conducted two weeks of 
missions on the Namers. This effort was overseen by the Training and 
Doctrine Command Analysis Center and the Maneuver Center of Excellence. 
The focus was to validate the Namer impact on U.S. Army Tactics, 
Techniques, and Procedures while assessing vehicle performance.
    During Phase II of the GCV Assessment of NDV, the Army will conduct 
an operational assessment of five NDV attributes across varying 
operational conditions. The platforms to be assessed include the: 1) 
M2A3 Bradley Infantry Fighting Vehicle; 2) Stryker Double V-Hull; 3) 
Israeli Namer; 4) Swedish CV-9035; and 5) M2 Turretless Bradley.
    Key tasks during the assessment include: 1) Conducting a baseline 
assessment of vehicle capabilities against the draft GCV Capabilities 
Development Document (CDD); 2) creating operational conditions to 
highlight key discriminators among vehicle attributes; and 3) 
maximizing the number of vehicles the crews and dismounts utilize 
during the assessment to gather relevant Soldier feedback.
    The assessment will be focused at the platform level using static 
assessments and situation training exercise (STX) lanes. The static 
assessments will benchmark vehicle attributes against draft GCV CDD 
requirements and complement STX lane observations. STX lanes will 
contain varied operational conditions, to include urban and open desert 
terrain, medium armored and dismounted threats, and operations during 
day time and hours of limited visibility.
    The STX lanes will utilize three vignettes: 1) Security Patrol 
(Complex Ambush); 2) Movement to Contact (Far Ambush); and 3) Raid 
(Enter/Clear Building).
    Question. The Army's goal is to transport a complete infantry squad 
in one vehicle. Is that a capability that is found in the infantry 
fighting vehicles of other countries? How important is this criteria?
    Answer. As the Ground Combat Vehicle (GCV) Non-Developmental 
Vehicle Analysis is conducted (as well as other foreign vehicle and 
technology assessments) it has been determined that the capability to 
carry a complete infantry squad in one vehicle exists currently in the 
foreign vehicles under study by the US Army Training and Doctrine 
Command and the GCV Program Management office. Examples of this are the 
NAMER which carries a complete Israeli Squad and the CV-9035 which 
carries a complete Danish Infantry Squad.
    The criterion to carry a complete infantry squad is one of the four 
most important capabilities in the GCV Program. The GCV facilitates the 
9-man infantry squad to better deploy, gain, and maintain the 
initiative and tempo of small unit tasks. The GCV allows small sized 
units to seize, retain, and exploit the initiative by enabling squads 
to deploy with unit integrity, providing immediate, coherent combat 
power on the ground. Transporting the entire 9-man Infantry squad 
supports decentralized operations and freedom of movement among other 
small units, enabling an agile and rapid deployment, re-deployment and 
task-organization of combat power across a distributed, ever-changing 
battlefield and missions. This capability provides increased leader 
presence, unity of command, and increased information dissemination 
reducing confusion and uncertainty. Lastly, this capability enables the 
deployment of complete infantry squads in close combat with the enemy 
under maximum armor protection.
    Question. What is the expected date to begin fielding a new Ground 
Combat Vehicle?
    Answer. The Army has consistently stated that it will be seven 
years from contract award to first production vehicle.
    The Army awarded Technology Development (TD) contracts to British 
Aerospace Engineering (BAE) and General Dynamics Land Systems (GDLS) on 
August 18, 2011. Science Applications International Corporation (SAIC) 
filed a protest with the U.S. Government Accountability Office (GAO) on 
August 29, 2011. Both BAE and GDLS were placed in a stop-work situation 
for 100 days due to the protest. The GAO denied the protest on December 
5, 2011 (Fiscal Year 2012) and work on the TD contracts officially 
began on December 6, 2011.
    The Army's seven-year period must take into account the 100-day 
delay due to the GAO protest. The first production vehicle is scheduled 
for delivery in Fiscal Year (FY) 2019. Fielding to active Army units 
will begin in FY21.
    Question. As funding is scarce, and trades must be made within and 
between programs, what is the possibility of continuing with the 
current fleet of Bradley Fighting vehicles with some limited upgrades 
and deferring the production of a new IFV?
    Answer. The Bradley IFV has grown in weight and power demand above 
what it was designed for, exceeding its size, weight, and power-cooling 
(SWaP-C) margin and has minimal growth potential. Without significant 
and expensive turret and chassis redesign, the Bradley cannot 
incorporate latest and most effective vulnerability reduction 
principles, nor can it meet other identified critical gaps in lethality 
and capacity.
    The Ground Combat Vehicle (GCV) will provide the protected mobility 
and fill capability gaps (Force Protection and Survivability, Network, 
Mobility, and Lethality) that currently exist in our heavy formations. 
The GCV will have growth capacity for SWaP-C to allow incremental 
improvements like the Abrams and be relevant for the next 40-50 years 
and will make our combined arms operations more effective by having the 
capability to carry a full squad in one Infantry Fighting Vehicle.

                                Network

    Question. The Network is the Army's top investment priority. The 
Army intends to have every soldier plugged into the tactical network; 
able to access and distribute information. Previously the Army fielded 
subsets of the network as the pieces became available. The new approach 
is to field capability sets when the necessary pieces are present, and 
with the receiving unit determined by the force generation process.
    The budget request includes nearly $2 billion for the procurement 
of Network equipment:
    $893 million for 2,166 items for Warfighter Information Network--
Tactical (WIN-T) for seven brigade combat teams.
    $556 million for Joint Tactical Radio System 11,059 radios
    $274 million for Distributed Common Ground System
    $103 million for Nett Warrior
    $141 million for 1,032 systems of Joint Battle Command--Platform
    How do you rate the status of the Network?
    Answer. The Army Network could best be rated as emerging. Through 
more than 10 years of sustained combat, the Army made significant 
improvements to expeditionary communications capabilities to support 
our Soldiers in the fight. Although significant strides have been made 
to support the expeditionary portion of the Network, there has not been 
an equal focus on the strategic portion of the Network. The strategic 
portion includes the infrastructure on posts, camps and stations which 
enable home station training as well as business systems which enable 
medical, finance, logistics and personnel services for Soldiers and 
their Families. The Army's Network, Land WarNet, is an emerging fully 
integrated enterprise network. It is essential to planning and 
operating with Joint, coalition and interagency partners: It remains 
the Army's number one modernization effort. An enhanced, interoperable 
and fully modernized communications Network is central to the Army's 
efforts to enable Mission Command, ensure our Soldiers always have the 
technological advantage and give the Army a decisive advantage across 
the range of military operations.
    This Network is critical to enhanced decision making and enabling 
our Forces' missions, from the Commander to the Soldier. At the 
tactical level, the Army's modernization efforts remain on track. 
Beginning this fall, the Army will field the first fully integrated 
Network capability as part of Capability Set Fielding this fall. This 
approach is a fundamental change to the way we develop, evaluate, test 
and deliver Networked capabilities. Treating tactical Network 
capability as a cohesive portfolio, Capability Set Management evaluates 
the current operational environment and identifies a suite of systems 
and equipment to fulfill projected Army Force Generation (ARFORGEN) 
requirements.
    Under this construct, each new Capability Set integrated and 
fielded reflects any changes or advances in technology. This 
incremental modernization allows the Army to buy fewer, more often, to 
help ensure that we leverage industry advancements and keep up with the 
pace of technology change. The Army completes two operational 
evaluations of the entire Capability Set prior to fielding.
    Capability Set 13, the first to be fielded, provides Soldiers 
enhanced capability over current theater-provided Network equipment. We 
will establish the final integrated network baseline and integrate CS 
13 in its entirety during the Network Integration Evaluation 12.2 to be 
conducted at Ft. Bliss, Texas; and White Sands Missile Range, New 
Mexico in May/June 2012. Key capabilities provided by CS 13 include 
Mission Command on the Move (allowing commanders to take the Network 
with them) and Network to the Soldier (providing capabilities through 
advanced radios and handheld devices down to the squad level).
    We must focus our modernization efforts not only at the tactical 
portion of the Army's Network with Capability Set 13, but also on the 
enterprise infrastructure on posts, camps and stations. Modernization 
must address the entirety of the Army's Network to empower a CONUS 
based Army that projects Expeditionary Forces with little to no notice. 
The Army is addressing three major challenges as it modernizes the 
LandWarNet: (1) improving cyber security; (2) meeting operational needs 
in a dynamic threat environment; (3) while becoming more efficient.
    Improving cyber security and Network operations is essential to 
build a single, secure, standards-based Network environment. Non-
standard Network management tools, multiple access points, vulnerable 
perimeter defenses and inconsistent architectures (many of which were 
deployed quickly to support war efforts) make it harder to prevent, 
identify, isolate, and eliminate security risks. As cyber threats 
increase exponentially, it is imperative that we, as the Nation's 
premiere land force, address this challenge head on.
    Second, balancing the Army's operational needs is a continuing 
challenge, both at the tactical edge and on posts, camps and stations. 
Army users have high operational expectations, and growing need for 
trusted access, assured connectivity, joint interoperability and 
collaboration with mission partners. The Soldiers and leaders expect 
the Network to be available wherever they are, whether they are 
training, preparing for deployment, en route or deployed.
    Finally, as an Army, we are becoming more efficient through 
advanced technology and improved governance. The DoD mandate is to 
streamline, achieve efficiencies, and optimize return on investment. 
For a Networked Force, that translates into a need for enterprise 
systems and solutions, seamless data access, and robust, secure Network 
infrastructure to support every facet of Army, Joint and Multinational 
operations. LandWarNet is the key to retaining the Army's technological 
edge on the battlefield.
    The Army is addressing these challenges through the combined 
resources requested in the President's Fiscal Year 2013 budget request.
    Question. The RDT&E request includes $214 million for Network costs 
related to Network Integration Evaluations. Explain how the Network 
equipment is evaluated while concurrently supporting formal and 
informal evaluations of other items of equipment? What are some of the 
expenses that total $214 million?
    Answer. The Network Integration Evaluation (NIE) process has 
allowed the Army to bring all elements of the Network together in one 
place for a holistic evaluation by an operational unit in an 
operational environment, and will allow for the validation of a network 
capability set that will be fielded to deploying Brigade Combat Teams 
starting in late 2012. The Army has also brought the materiel 
developers, combat developers, and testers together with industry, 
ensuring continuous coordination in providing the right capability to 
Soldiers. Most importantly, the Army has begun the difficult task of 
changing its processes to provide current network capabilities to the 
force faster and cheaper.
    Treating tactical Network capability as a cohesive portfolio, 
Capability Set (CS) Management evaluates the current operational 
environment, and identifies a suite of systems and equipment to answer 
projected requirements over a two-year period. The NIEs evaluate 
promising capabilities with the potential to close capability gaps 
identified by the Training and Doctrine Command, as well as Network 
capabilities in existing programs requiring formal tests, as part of 
the acquisition process. The CS13 Integrated Network Baseline will, 
upon approval, serve as the operational environment for future testing 
and evaluation.
    The NIE 12.2 will focus on completing the formal evaluations of 
three Systems Under Test and 40 Systems Under Evaluation, establishing 
the initial integrated network baseline and evaluating its operational 
performance. The Army's key objectives for NIE 12.2 are to validate 
CS13/Software Block 11-12 architecture; establish the CS13 Integrated 
Network Baseline and finalize CS13 Mission Command On-The-Move/Soldier 
Connectivity configurations.
    The NIE has established a strong foundation toward realizing the 
network of 2020 and has demonstrated its ability to pay off in 
operational and fiscal benefits. The key NIE expenses include 
engineering expenses, system under evaluation support, test/evaluation 
expenses, and infrastructure. Lessons learned from the NIE construct 
have helped the Army avoid approximately $6 billion in planned spending 
or re-allocate resources to other priorities--all while providing more 
capability, sooner, to our operational formations. This represents a 
considerable savings to a variety of recipients: Congress, the Office 
of the Secretary of Defense, and the U.S. Army. The benefits of the NIE 
construct far exceed testing and evaluation costs.
    The FY13 President's Budget Request contains the following cost 
elements:


------------------------------------------------------------------------
              Cost Element                  Project          Amount
------------------------------------------------------------------------
Test Experimentation....................          DV1              58.9M
System of Systems (SoS) Integration               DV1              66.2M
 Directorate............................
Architecture Development and Systems              DV1              15.6M
 Engineering............................
Infrastructure..........................          DV1              18.0M
                                         -------------------------------
    Subtotal (Project DV1)..............  ...........             158.7M
------------------------------------------------------------------------
Systems Under Evaluation Integrations...          DU8              45.5M
SoS Engineering for Common Operating              DU9              10.1M
 Environment (COE)......................
------------------------------------------------------------------------

    * The $10.1 million (M) Budget Request in Project DU9 is not for 
the NIE, it will be distributed to support the Army's COE program.

                      Joint Tactical Radio System

    Question. The Joint Tactical Radio System (JTRS) dates from 1997. 
The program has been led by a Joint Program Manager since 2005. Program 
subsets include: Ground Mobile Radios; Handheld, Manpack and Small Form 
Fit; and Airborne Maritime and Fixed Station. The program Budget 
Request includes $556 million for 11,059 radios from the Joint Tactical 
Radio Family.
    General Odierno, please give us an assessment of the radios in the 
JTRS family that will be used by the Army.
    Answer. The Joint Tactical Radio System (JTRS) program has 
experienced success this year. The Army is over 80 percent complete in 
terms of development with two of the JTRS hardware programs, the 
Handheld/Manpack/Small (HMS) FormFit and Multifunctional Information 
Distribution System JTRS. Many of our capabilities, both hardware and 
software, were recently demonstrated in the field with other Army 
networking products and capabilities at the White Sands Missile Range 
during the Army's Network Integration Exercise (NIE). These exercises 
are a critical part of the Army's agile acquisition process designed to 
quickly field new capabilities in a synchronized manner for deploying 
Brigade Combat Teams. In addition to NIEs, we are developing the right 
mechanisms to encourage industry to leverage their own research and 
development funding and bring solutions to the table for assessment and 
potential inclusion as part of a larger interoperable tactical force.
    In terms of the specific hardware programs, we are progressing 
toward production and delivery in many areas. The HMS program will be 
providing near term capabilities with both a Handheld version (Rifleman 
Radio) and a JTRS 2-channel Manpack. Both systems run the JTRS advanced 
networking Soldier Radio Waveform. The HMS program (Manpack and 
Rifleman Radio) completed a successful Milestone C, the point at which 
a production decision is authorized. The Manpack and Rifleman Radio 
have been thoroughly demonstrated and tested though the Army's NIE 
process. For the Rifleman Radio in particular, over 100 radios were 
deployed with the 75th Ranger regiment to Afghanistan, with exceptional 
results. This program is meeting several successful milestones and 
driving toward full rate production and delivery this year.
    Following the cancellation of the Ground Mobile Radio program, the 
Army is looking at a less expensive, mid-tier networking vehicular 
radio running the Wideband Networking Waveform. This capability will be 
an essential component of the Army's tactical network architecture, 
which will provide a critical link between Soldiers at the lowest 
tactical echelon and the Warfighter Information Network-Tactical. 
Accordingly, the Army is already looking at industry-provided 
alternatives that meet the intent of this low cost, reduced size, 
weight and power radios. Competitive production awards are targeted to 
meet the Army's Capability Set 13/14 requirements as part of our 
tactical network architecture.
    The third program--Airborne, Maritime, Fixed (AMF)--is targeted to 
provide Link-16 capabilities to the Long Bow Apache program, and the 
program has delivered pre-production units to the Apache program for 
integration.
    Question. We understand that the Rifleman Radio has been used by 
units in combat. What is the feedback from the field evaluation?
    Answer. The United States Army's 75th Ranger Regiment in 
Afghanistan recently completed an operational assessment of the 
Rifleman Radio. The assessment highlighted the radio's ability to share 
combat-relevant information, voice and data across small units in real 
time. Results from the operational assessment indicate that the 
Rifleman Radio was effective, suitable, and reliable. Specifically, 
Soldiers found the radio easy to use and the appropriate size, weight, 
and power, with more than eight hours of battery life. They also 
experienced enhanced situational awareness via networked voice and data 
communications and effective, reliable communication inside buildings, 
through multiple walls, and to positions outside of compounds. 
Generally speaking, the Soldiers experience very few problems and found 
the Rifleman Radio outperformed current radios.
    Question. Rifleman radios and Manpack radios were used in the 
Network Integration Evaluation at White Sands Missile Range in December 
2011. Please describe how the radios were used, and how they performed.
    Answer. The Rifleman Radio completed a successful Initial 
Operational Test & Evaluation (IOT&E) at the Army Network Integration 
Evaluation (NIE) 12.1 in December 2011. The Army Test Evaluation 
Command (ATEC) conducted the test with support from B Company, 1st 
Battalion, 35th Armored Regiment, 2nd Brigade Combat Team, 1st Armored 
Division (B Co, 1-35 AR, 2/1 AD) using 70 AN/PRC-154 Rifleman Radios. 
The independent evaluators used a variety of missions to test the 
radios. The Rifleman Radio was found to be effective by increasing the 
Soldier's situational awareness and providing useful capability to 
execute mission command. The radio was also found to be suitable. The 
radio met the size, weight and power requirements. Neither the size nor 
the weight posed any problems with the Soldiers, and the battery life 
either met or exceeded the eight hour requirement.
    The United States Army Training and Doctrine Command Capability 
Manager for Tactical Radios (TCM-TR) conducted a Manpack operational 
assessment in conjunction with the Rifleman Radio IOT&E. The ATEC 
conducted the test with support from B Co, 1-35 AR, 2/1 AD using 18 AN/
PRC-155 Manpack radios in both mounted, dismounted, and stationary 
command posts. In three weeks of operation using Soldier Radio Waveform 
(SRW), not a single Manpack was withdrawn from the test. The 
Operational Assessment noted good voice quality, reliable 
communications, and that it enhanced the Soldiers' ability to execute 
the mission. The TCM-TR evaluators reported that the Manpack enhanced 
voice and data communications to the tactical edge. The Soldiers were 
generally satisfied with the Manpack's overall design, form factor, and 
weight. The evaluators found that the Manpack clearly supports the 
Warfighting function of mission command. Combined with the Rifleman 
Radio, the Manpack increased every Soldier's situational awareness by 
extending voice and data between all echelons from Team to Company 
level.
    The TCM-TR operational assessment further found that the SRW 
Platoon Network, consisting of both Manpacks and Rifleman Radios, 
provided voice and data down to the team leader level, increased staff 
awareness and provided leaders with valuable information.
    Question. Over the past eight years billions of dollars have been 
provided to the Army to procure SINCGARs radios. Discuss the 
interoperability between SINCGARs and JTRS radios.
    Answer. The Joint Tactical Radio System (JTRS) radios are designed 
to be fully interoperable with the Single Channel Ground and Airborne 
Radio System (SINCGARS) radios through JTRS support of the SINCGARS 
legacy waveform. The JTRS family of networking capability provides the 
Soldier with a software programmable and hardware configurable, 
scalable, Internet Protocol-based, wideband, networking radio to 
support Joint Forces requirements across the full range of military 
operations. JTRS uses both networking waveforms (Wideband Networking 
Waveform (WNW), Soldier Radio Waveform (SRW), etc.) and legacy 
waveforms (SINCGARS, waveformsLink 16, etc.). Specific wav ornis 
supported by capability are:


--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                       Mobile User
                           System                               WNW     SRW        SINCGARS        Legacy SATCOM     Objective System       Link 16
                                                                                                                         (SATCOM)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Handheld/Manpacks/Small Form Kit............................  ......       X                  X                  X                  X  .................
Rifleman Radio..............................................  ......       X  .................  .................  .................  .................
Airborne Maritime Fixed.....................................       X       X                  X  .................  .................                  X
Mid-Tier Networking Vehicular Radio.........................       X       X                  X  .................  .................  .................
--------------------------------------------------------------------------------------------------------------------------------------------------------

    Use of the legacy waveforms ensures interoperability with current 
force systems, thereby capitalizing on the Services previous large 
investments while building capability for the future.
    Question. After field testing, the Ground Mobile Radio and Network 
Integration Kit were cancelled. Have other items of equipment been 
selected to provide the services these two cancelled items were to 
provide?
    Answer. Although the Ground Mobile Radio (GMR) program development 
was nearly complete, a recertification decision to formally restructure 
the current program required additional funding and, more importantly, 
delayed delivery of an advanced ground networking capability that the 
Army assessed as too expensive to procure in large quantities. Thus, in 
Fall 2011, the Department of Defense decided to terminate the program. 
However, the insight and knowledge obtained as a result of the GMR 
developmental efforts proved invaluable in establishing the foundation 
for a less expensive, mid-tier radio capability running the Wideband 
Networking Waveform. This capability will be an essential component of 
the Army's tactical network architecture, providing a critical link 
between Soldiers at the lowest tactical echelon and the Warfighter 
Information Network-Tactical. Accordingly, the Army is looking at 
Industry provided alternatives that meet the intent of this low cost 
reduced size, weight and power capability, particularly as part of the 
Network Integrated Evaluations. Competitive production awards are 
targeted to meet the Army's Capability Set 13/14 requirements.

                      Joint Light Tactical Vehicle

    Question. The Joint Light Tactical Vehicle (JLTV) is a U.S. Army, 
USSOCOM, and U.S. Marine Corps program to replace the current HMMWV 
with a fresh design, and with the advantage of lessons learned in Iraq 
and Afghanistan in HMMWVs and MATVs (MRAP All-Terrain Vehicle) the JLTV 
is expected to be more survivable, and able to carry a heavier load 
than an MATV.
    General Odierno, the Army currently has about 150,000 HMMWVs. As 
the Army comes home from Iraq, and downsizes, how many light tactical 
vehicles will the Army maintain, and of that total number, how many 
will be JLTVs?
    Answer. The Army will maintain approximately 136,000 light tactical 
vehicles, of which 49,099 will be JLTVs.
    Question. When will JLTV fielding begin and when will it be 
complete?
    Answer. The JLTV will begin fielding in Fiscal Year 2016 (FY16) for 
the U.S. Marine Corps (USMC) and FY18 for the Army. The LTV will be 
fielded in phases with Initial Operational Capability planned for the 
USMC in FY17 and for the Army in FY18. Fielding will be complete in 
FY22 for the USMC and in FY37 for the Army.
    Question. Please describe the objective mix of unarmored HMMWVs, 
uparmored HMMWVs, MATVs, and JLTVs.
    Answer. The objective mix of the Army's Light Tactical Fleet (LTV) 
will consist of High Mobility Multi-purpose Wheeled Vehicle (HMMWV) 
variants and the Joint light Tactical Vehicle (JLTV). In the near term, 
the Army will continue to divest and cross level its inventory of 
HMMWVs, retaining Up-Armored HMMWVs (UAH) and the most modern Non-
Armored HMMWVs (NAH) to meet the LTV requirements. The Army has 53K 
UAHs and has recapitalized 47K NAHs. In the mid to far term, the Army 
plans to procure approximately 49K JLTVs by FY37, which will displace 
un-armored legacy HMMWV variants over time. The Army intends to retain 
approximately 6K Mine Resistant Ambush Protected Vehicle-All Terrain 
Vehicles (M-ATV) for use in missions to mitigate Improvised Explosive 
Devices, Rocket Propelled Grenades, Explosively Formed Penetrators, 
underbody mines and small arms fire threats.
    Question. How will the recently announced downsizing of the Army 
impact the requirement for JLTVs?
    Answer. Based on current forecasted reduction of HMMWVs to 136,000 
we expect the requirement for JLTVs to remain stable at 49,099.
    Question. What is the plan to guard against requirements creep in 
the JLTV program?
    Answer. The JLTV program will guard against requirements creep 
through the conduct of Configuration Steering Boards currently required 
on an annual basis for Acquisition Category I programs like JLTV. These 
boards serve as the principal mechanism for reviewing and evaluating 
the program to control cost and identify opportunities for revising 
requirements to meet program objectives.
    Question. The Army and Marine Corps are said to be ``joined at the 
hip'' on JLTV. What compromises did the Army and the Marine Corps 
accept in order to agree on the requirement?
    Answer. The Army and Marine Corps are ``joined at the hip'' on the 
JLTV program. The Marine Corps owns the Capabilities Development 
Document (CDD) which is the document that articulates both the Army and 
the Marine Corps requirements for the program. The CDD was approved in 
March 2012, by the Vice Chairman of the Joint Chiefs of Staff. The 
services have agreed on a common set of base requirements that allow 
for service unique flexibility such as scalable armor protection and 
external air transportability.

                              Abrams Tank

    Question. The Consolidated Appropriations Act for fiscal year 2012 
included an additional amount of $255,000,000 to procure 42 additional 
M1A2SEP tanks to support continuation of tank production. Also, it 
directed the Secretary of the Army to provide a report on the plan for 
the use of the additional funds and the plan to sustain tank 
production. In a letter to the chairmen of the congressional defense 
committees, dated February 15, 2012, Secretary McHugh advised that the 
Army will use the additional $255 million to procure 42 additional 
tanks and keep the production line going until June of 2014. The Army 
has been comparing the cost of continuing a sustaining level of 
production, to the cost of shutting down and later restarting when a 
new tank goes into production.
    Secretary McHugh, the Committee appreciates your support, as 
announced in your letter of February 15, 2012 for keeping tank 
production going into mid-2014. We are aware that the Army has been 
studying various courses of action for the tank assembly line going 
forward. In the first option, the Army continues tank production at a 
minimum sustaining rate; in the second option the Army shuts down the 
line and restarts it when needed. The preliminary report of analysis 
compares the costs of the two options, but assigns no tactical or 
monetary value to the tanks that are produced under the minimum 
sustaining rate option.
    Mr. Secretary, it would seem that the comparison of options should 
consider the value of the tanks that are produced under the minimum 
sustaining rate option. Do you agree?
    Answer. The Army agrees that there is an operational value in the 
Abrams tank. The purpose of the RAND Arroyo study is to independently 
validate the Army's assessment of the costs and benefits of the planned 
production break. This study is focused on addressing whether it would 
be more beneficial from a cost perspective to stop or continue tank 
production. The ongoing RAND Arroyo study will not specifically assign 
a tactical or monetary value to continued Abrams tank production. The 
final results of the on-going RAND Arroyo cost refinement analysis will 
be available in the near term.
    Question. When will you have a proposal for the way ahead for tank 
production?
    Answer. From an Abrams fleet requirement perspective, the Army will 
meet its acquisition objective for M1A2/SEPv2 tanks when production is 
complete in June 2014. The Army currently plans to restart production 
in Fiscal Year 2017 in connection with future Abrams tank upgrades. The 
final results of the on-going RAND Arroyo cost refinement analysis will 
be available in the near term. The specific purpose of the RAND Arroyo 
study is to independently validate the Army's assessment of the costs 
and benefits of the planned production break. This study is focused on 
addressing whether it would be more beneficial from a cost perspective 
to stop or continue tank production.
    Currently the Army has a mix of models in the tank fleet. Active 
component units are equipped with M1A2SEP tanks and the Army National 
Guard has M1A1 tanks. The budget request proposes no funding to 
purchase tanks and provides funds only for contractor technical 
support, fielding, and training.
    Question. Currently the Army has a mix of models in the tank fleet. 
Active component units are equipped with M1A2SEP tanks and the Army 
National Guard has M1A1 tanks. The budget request proposes no funding 
to purchase tanks and provides funds only for contractor technical 
support, fielding, and training.
    General Odierno, how many additional new M1A2SEP tanks would be 
required to outfit all of our tank battalions, active, and national 
guard with the newest model, the M1A2SEPv2?
    Answer. Under the current force structure and two-variant fleet 
requirement, all active component Armored Brigade Combat Teams (ABCTs) 
and Army Prepositioned Stocks (APS) will be fully equipped with 
M1A2SEPv2 tanks. The 116th Army National Guard ABCT is currently being 
fielded with 58 M1A2SEPv2 tanks. An additional 435 M1A2SEPv2 tanks 
would be needed to fully outfit the remaining six ABCTs and three 
Combined Arms Battalions in the Army National Guard.
    Pending Active Duty force structure reductions will likely increase 
the number of M1A2SEPv2 tanks available to outfit more National Guard 
units.
    Question. In the concept for the more lethal, high tech military, 
what would be the advantages of a pure M1A2SEP tank fleet?
    Answer. The Army's two-variant fleet strategy equips all Armored 
Brigade Combat Teams (ABCTs) in Active Component, Army Prepositioned 
Stock (APS), and one ABCT in the Army National Guard (116th ABCT) with 
M1A2SEPv2 tanks. The remaining six ABCTs and three Combined Arms 
Battalions are equipped with M1A1AIM-SA tanks. This fleet mix is a 
result of refining the balance between affordable investment options 
over the last eight years and providing the right level of warfighting 
capability to Active and National Guard units. While there are 
advantages to the concept of a pure M1A2SEPv2 tank fleet, we must 
balance these with the substantial cost involved.
    The Army's MlA1AIM-SA fleet is very new (2-3 years) and very 
capable. The benefits of replacing these tanks, many of which are still 
in the process of being fielded, with the M1A2SEPv2, do not outweigh 
the costs in our current fiscal environment. The principal operational 
difference between Abrams variants is the Commander's Independent 
Thermal Viewer (CITV) on the M1A2SEPv2 that provides the tank commander 
with a separate thermal sight and integrated digital fire control 
system. Despite the differences between the two variants, both Abrams 
variants offer similar lethality, protection and mobility capability. 
While a pure fleet would alleviate the training and logistic 
differences between the two variants, the benefits gained cannot be 
justified by the cost involved.
    Question. What are the key advantages of the M1A2SEP over the M1A1?
    Answer. The principal operational difference between Abrams 
variants is the Commander's Independent Thermal Viewer (CITV) on the 
M1A2SEPv2 that provides the tank commander with a separate thermal 
sight and integrated digital fire control system, which enables the 
Commander and gunner to engage the enemy using hunter/killer tactics--
the Commander and gunner can search for targets independently from 
their protected positions using high quality optics.
    Another difference between variants is the means of integrating the 
tank's on-board and mission command systems. The M1A2SEPv2 is a fully 
digitized tank with all on-board and mission command systems integrated 
into a single, embedded data bus, where data/output and processes are 
shared between on-board systems. The M1A1AIM-SA tank's mission command 
is applique to the tank (hardware is attached to existing systems 
reducing room in the turret), and its on-board systems are not 
integrated into a single data bus.
    However, both Abrams variants offer similar lethality, mobility, 
protection, and Mission Command capabilities.
    Question. The Army has been working to have as many vehicles and 
systems as possible with digital capability. How important is digital 
capability in our tanks?
    Answer. Today's complex battlefield environment places increasing 
demands on both individual Soldiers and leaders at every level, 
resulting in an unprecedented need to pass information both up and down 
the chain of command. Complex coalition efforts drive additional 
burdens on tactical formations to share common information and 
collaborate to achieve the desired battle field effects.
    All command platforms, including tanks, must provide leaders at all 
levels the capabilities required to execute mission command, from the 
tactical operations center, to the commander on the move, to the 
dismounted Soldier. Mission Command is the conduct of military 
operations through decentralized execution based on mission-type 
orders. Successful mission command demands that subordinate leaders at 
all echelons exercise disciplined initiative and act aggressively and 
independently to accomplish the mission.
    The network remains essential to planning and operating with Joint, 
coalition and interagency partners: it remains the Army's number one 
modernization effort. Central to the Army's effort to enable Mission 
Command is a modernized, enhanced, and interoperable communications 
network that ensures our Soldiers always have the technological 
advantage and gives the Army a decisive advantage across the range of 
military operations.
    Capability Set 13, the first Capability Set to be fielded, provides 
enhanced capability over current theater-provided network equipment. 
Key capabilities include Mission Command on the Move (allowing 
commanders to take the network with them) and Network to the Soldier 
(through advanced radios and handheld devices down to the squad level). 
Capability Set Management is geared toward our tactical forces, with 
initial sets going to infantry and Stryker formations. Efforts to 
integrate capability sets into armored formations are ongoing.

                  Paladin Integrated Management (PIM)

    Question. The M109 self-propelled 155mm howitzer has served the 
Army well since the early 1960s. However the current model, the Paladin 
is showing its age. The British and a number of other North Atlantic 
armed forces have replaced their M109s with other howitzers. The Army 
is developing a new self-propelled 155mm howitzer and accompanying 
self-propelled ammunition carrier known as the ``Paladin Integrated 
Management'', or ``Paladin PIM''. To simplify logistics, the PIM has 
many components in common with the Bradley Fighting Vehicle, including 
the engine, transmission and track. It uses the gun elevating and 
traversing mechanisms from the cancelled Future Combat Systems program. 
The program experienced integration problems and schedule slips in 
fiscal year 2011, but seems to be on track after some key leadership 
changes.
    General Odierno, the Paladin PIM 155mm self-propelled howitzer 
program seems to be on track to reach milestone C and begin low rate 
initial production at the end of the 3rd quarter of fiscal year 2013. 
What are the key improvements in the Paladin PIM as compared to the 
current M109 Howitzer?
    Answer. The key improvements that Paladin Integrated Management 
(PIM) offers over the existing M109 Paladin Howitzer are increases in 
Force Protection and Survivability, mobility, responsiveness of fires, 
Space Weight and Power (SWaP) capacity, enhanced Network Capability, 
and commonality with the Bradley Fighting Vehicle.
    PIM provides increases in Force Protection and Survivability 
through a new chassis, increased ground clearance, integration of a 
remote weapon station, more effective armor materials, improved crew 
seating and hull thickness. PIM can also accept add on armor modular 
kits.
    PIM delivers increased mobility to provide the ability to maintain 
the tempo of the supported force and is able to support Full Spectrum 
Operations.
    PIM improves the responsiveness of fires using electric drives to 
point the gun tube and pivot steer capability, allowing PIM to execute 
fire missions faster than the current M109A6 Paladin which utilizes a 
hydraulic system.
    SWaP enhancements are critical enablers to provide growth margin 
for future requirements and technology insertion which the current M109 
Howitzer cannot accommodate.
    The new 600 volt system on PIM provides Enhanced Network Capability 
over the 28 volt system employed on the M109A6 Paladin. PIM accepts the 
Army's current and future networks and meets the need to remain network 
capable commensurate with supported forces.
    The PIM chassis utilizes a Bradley common engine, transmission, 
suspension, and track. This commonality will reduce the logistics 
footprint of the Heavy Brigade Combat Team and is expected to reduce 
maintenance costs through common parts and maintenance tasks.
    Question. The Paladin PIM shares a number of chassis components 
with the Bradley fighting vehicle, but much of the current M109 chassis 
remains the same. Please describe the improvements in mobility, 
lethality and survivability, plus the advantages in logistics of 
sharing parts and components with Bradley vehicles?
    Answer. PIM has a new chassis/hull design that uses Bradley common 
power train and suspension components. The new hull provides increased 
structural integrity, more effective armor materials for greater force 
protection/survivability, and provisions for add-on-armor to improve 
PIM's survivability over the current M109 Paladin. PIM uses an upgraded 
Bradley power train & suspension providing greater horsepower to 
improve PIM's mobility, enabling the platform to keep up with the 
maneuver force. The larger power train also provides margin for 
additional weight and power demands. Component commonality with Bradley 
reduces the logistics footprint of the Brigade Combat Team and reduces 
the number of unique parts in the Army supply chain. The use of Bradley 
common components leverages maintenance skill sets currently resident 
in the Army.
    Question. At 79,600 pounds, the Paladin is 1,100 over its design 
weight. Is that a matter of concern?
    Answer. The original M109 chassis and suspension fielded in 1963 
was designed for a gross vehicle weight of 53,000 pounds. The current 
M109A6 Paladin gross vehicle weight is 67,200 pounds with no 
substantial changes to the original chassis and suspension, resulting 
in increased wear on suspension components and reduced ground 
clearance. The current M109A6 Paladin does not have the weight capacity 
to accommodate future howitzer related needs, to include Force 
Protection packages. The excess weight of the current M109A6 over its 
design weight is a matter of concern to the Army and is one reason for 
the Army's support for the Paladin Integrated Management system.
    Question. Describe the countermine, counter IED and counter RPG 
protection on Paladin?
    Answer. The Paladin's (M109A6) countermine, counter IED and counter 
RPG protection were appropriate to the threats to crew and platform at 
the time of its design in 1993. Counter Radio-Controlled Improvised 
Explosive Device Electronic Warfare (CREW) systems were added to the 
platform in 2004 to mitigate the increased IED threat in Operation 
Iraqi Freedom.
    In developing Paladin Integrated Management (PIM), the M109A6's 
successor, the Army will increase countermine, counter IED and counter 
RPG protection by three levels of protection. The first level is 
improvements to the base vehicle by having a thicker hull and improved 
armor recipe, integrating a remote weapons system, increasing ground 
clearance, improved crew seating, and increasing electrical and 
mechanical power supply to accept future technology force protection 
insertions. Additional side armor to the base vehicle will provide the 
second level of protection against mine, IED and RPG threats. Finally, 
the third level of protection will be achieved by the ability to accept 
an underbody kit to increase force protection and survivability against 
underbelly mine and IED threats. These increases in countermine, 
counter IED and counter RPG protection will allow the PIM freedom of 
maneuver within the battlespace.
    Question. Will the Paladin PIM howitzers have crash and blast 
tolerant fuel tanks?
    Answer. The PIM howitzer design does not include crash and blast 
tolerant fuel tanks. The PIM sponson fuel cells incorporate fire 
suppression powder panels to mitigate potential fuel fires. Fuel 
subsystem vulnerability testing will be conducted using various 
threats.

                                Stryker

    Question. The Stryker Program was initiated in 1999. The Stryker 
family of vehicles has ten variants ranging from infantry carrier, to 
reconnaissance vehicle to medical evacuation. The Stryker family was 
intended to serve as a bridge to the fielding of the Future Combat 
Systems' vehicles. The FCS program was cancelled in 2009, but the 
Stryker vehicles have performed well. The Army plans to field 9 Stryker 
Brigade Combat Teams. Each of the brigades will have 340 Strykers. The 
Army will have 292 additional Strykers with double-vee hulls for duty 
in Afghanistan. All fielding is scheduled to be complete mid-2013.
    Stryker vehicles have served well in Iraq and Afghanistan, and a 
high level of survivability has been maintained despite attacks by a 
determined and creative enemy. General Odierno, could you briefly 
describe the improvements that have been made to the Strykers to better 
counter IEDs, mines, and rocket propelled grenades.
    Answer. The Army has continually improved the survivability of the 
Stryker vehicle to meet evolving threats. Examples of these additional 
survivability improvements include, SLAT and Stryker Reactive Armor 
Tiles to counter rocket propelled grenades, Driver's Enhancement Kit, 
Mine Roller Adapter Kit, Blast Mitigation Kit, Energy Attenuating 
(Blast) Seats, and Skydex (Energy Attenuating Floor Mat) to counter 
Improvised Explosive Devices and mines, Hull Protection Kit to counter 
Explosively Formed Projectiles and Common Ballistic Shield, Squad 
Leader Integrated Protection Kit and Tire Fire Suppression Kit and 
Driver's Ballistic Shield to counter shrapnel and blast effects.
    In 2010, the Army began integrating a unique, Double-V shaped hull 
onto the Stryker that mitigates the affects of underbelly blasts by 
deflecting the blast away from the vehicle. The Stryker Double-V Hull 
(DVH) has been extremely successful at providing additional 
survivability protection for our Soldiers. Currently, the Army has a 
requirement for a total of 742 Stryker DVHs of which 461 have been 
produced and 256 fielded in Afghanistan. The Army is completing the 
testing on Stryker Reactive Armor II (SRAT II), that provides 
protection against Rocket Propelled Grenade similar to SRAT, but at a 
reduced weight. The latest initiative being worked is a Targeting under 
Armor (TUA) effort that will allow Soldiers to conduct fire support 
mission tasks from under cover, allowing greater protection from the 
effects of IEDs, mines, and rocket propelled grenades.
    Question. Has Stryker off-road mobility been reduced?
    Answer. Continual application of survivability kits, to include 
integration of the Double V-Hull, have increased the weight of the 
Stryker vehicles. Testing conducted on the Stryker Double V-Hull (DVH) 
prior to fielding noted that mobility was affected to some extent in 
loose soil and on slopes; however, testing analysis also noted the 
differences between DVH and flat bottom Strykers were minor. Although 
these measures have reduced off-road mobility, it has not impacted 
operational use in Afghanistan.
    Question. Does the Army plan to eventually convert all Strykers to 
the double-vee hull configuration?
    Answer. Once the Army decides on the appropriate force structure, 
fleet mix and overall number of combat vehicles, the quantity of DVH 
Strykers and variants of Strykers will be finalized. The Army has a 
current procurement target of 2 Stryker Brigade Combat Teams (SBCT) 
with Double-V Hull (DVH), totaling 742 DVH Stryker vehicles, based on 
minimum operational and training needs to support Afghanistan. This 
plan currently maintains the nine garrison SBCTs with flat bottom 
hulls. Conversion of all Strykers to DVH configurations is unaffordable 
within our Combat Vehicle Modernization Portfolio and Strategy.
    Question. The budget request includes funds for 58 Strykers, all of 
them chemical reconnaissance vehicles. Do you see a requirement for 
more Stryker brigades, beyond the nine being fielded now?
    Answer. The Stryker brigades currently in the force are sufficient 
to meet current warplans and steady-state requirements.

                        Helicopter Modernization

    Question. When Army units move on the battlefield, they would like 
to have tactical cover by armed helicopters. The strike on Osama bin 
Laden by special forces employed specially equipped helicopters to make 
the strike, and for subsequent extraction. In the recent hostage rescue 
in Somalia, the Navy SEALS parachuted into the action but were 
extracted by Army helicopters. However helicopter acquisition has not 
gone well in recent years. Comanche was cancelled. Armed Reconnaissance 
Helicopter--cancelled. And Army and DoD leaders have adopted a three to 
five year delay in helicopter modernization. Production of 24 Apache's 
will be deferred, the equivalent of a battalion. Development of a new 
armed scout helicopter has been deferred also.
    General Odierno, what is your evaluation of the capabilities of the 
current Army helicopter fleets versus the requirements in the future 
force to be more agile, mobile, lethal and high tech?
    Answer. We have been modernizing our current fleet of aircraft, UH-
60M, CH-47F, AH-64D block III, and continuing to move forward for a 
replacement of the OH-58D Kiowa Warrior. These modernization efforts 
will keep our helicopter fleet relevant out to 2025/2030. 2030 and 
beyond the Army is heavily involved in the Future Vertical Lift effort 
which may prove to be our next generation of vertical lift aircraft.
    Question. The Army will slow for five or six years the production 
of new Apache helicopters, essentially slipping one battalion of 
helicopters several years to the right. Is the cutback in Apache 
procurement driven by endstrength and structure downsizing or just to 
save money?
    Answer. The reduction in Apache procurement was to save money in 
the near-term by deferring some Apache costs to the out years in order 
to support higher priorities within the Army. The reduction was not 
driven by end-strength and structure downsizing.
    Question. Fiscal Year 13 production of UH-60M helicopters deceased 
from the planned 71 a year ago to 59 in the budget request. However, 
the Army has unfilled requirements of over 800 UH-60s. Why are you 
slowing production?
    Answer. The reduction in UH-60M procurement was to save money in 
the near-term by deferring some UH-60M costs to the out years in order 
to support higher priorities within the Army. The Army still has a 
requirement for a total of 2,135 UH-60 L/M aircraft and will continue 
to procure UH-60M aircraft through the Five Year Defense Plan and 
beyond to meet those modernization requirements. The Army's planned 
procurement of the UH-60M will eventually displace its current non-
modernized fleet of approximately 800 UH-60A aircraft.
    Question. General Odierno, the Institute for Defense Analysis 
conducted a study on rotorcraft safety and survivability from 2001 to 
2009. Of 375 rotorcraft losses with 496 fatalities, 81 percent were due 
to accidents--not the enemy. Accidents include flying into the ground, 
colliding with other aircraft, and crashing after loss of vision due to 
brown out.
    This has been an item of concern for some time. What is the Army's 
plan to improve procedures, more training, or high tech solutions to 
address the accident problem? What progress has been made?
    Answer. The Army is demonstrating significant improvement in 
reducing ClassA/B degraded visual environment (DVE) related incidents. 
The last compiled DVE statistics reflect a marked decrease in incidents 
per 100K flight hours from 1.47 in FY03-FY06 to .59 between FY07-FY10, 
a decrease of 60%. FY11 DVE rate remains at .54 per 100K hours. 
Reductions are attributable to the introduction of more modernized 
aircraft and DVE emphasis in pilot proficiency training.
    Every aircraft currently under procurement has a fully modernized 
cockpit which includes flight symbology for all modes of flight, moving 
maps and enhanced flight controls to improve controllability. In 
addition, we are looking at focused solutions including active radar 
penetrating sensors to address DVE operations in the legacy platforms 
in support of current operations as well as a bridge to an end-state 
modernized fleet.
    All aircrews practice the tactics, techniques, and procedures 
(TTPs) appropriate to their helicopter to ensure the best use of 
available power, aircraft systems and crew coordination as a part of 
regular crew training. Individual training includes sand and dust 
qualifications as well as unit training at the Combat Training Centers 
and during High Altitude Maneuver Environmental Training.

   Armed Aerial Scout Helicopter and Unmanned Aerial Vehicle Teaming

    Question. Army initiated the Armed Reconnaissance Helicopter (ARH) 
program in December of 2004, about ten months after the cancellation of 
the RAH-66 Comanche helicopter program. The Comanche was over cost and 
the prospect for production was poor. The ARH was to be an economical 
alternative, based on commercial off-the-shelf aircraft technology. 
However by 2008 the ARH had also experienced significant cost growth. 
Following a Nunn-McCurdy review the ARH was not certified for 
continuation and in October 2008 the Army directed the program be 
terminated. The Committee anticipated, based on the sense of urgency 
and commitment in the Army for a new armed scout helicopter that a new 
program would be started promptly. That has not happened. The Committee 
understands that the Army will defer modernizing the scout helicopter 
fleet for three to five years and will continue to use OH-58D and F 
models with minor upgrades.
    General Odierno, the Army has been searching for a replacement for 
the OH-58 series scout helicopter for nearly 30 years. However, with 
the submission of the fiscal year budget request, the Army delays 
helicopter modernization for three to five years, and will continue to 
rely on the OH-58D and F models.
    General, what capability trades are you making to delay modernizing 
the scout helicopter fleet?
    Answer. The Army is not delaying modernization or currently making 
any trades on the capabilities available to the scout helicopter fleet.
    Modernization of the armed aerial scout capability is being 
addressed in the current Kiowa Warrior helicopter through the Cockpit 
and Sensor Upgrade Program (CASUP). This program addresses obsolescence 
and weight reduction on the current fleet of OH-58D helicopters and 
modernizes that platform to the OH-58F, but does not extend service 
life. The CASUP program is on schedule and continues to meet its 
program baseline requirements for completion. The first pre-production 
aircraft is scheduled for delivery in the 4th Quarter of FY12. The 
first unit equipped with the OH-58F is expected in FY16. However, the 
Army continues to pursue a potential replacement for the Kiowa Warrior.
    The Armed Aerial Scout (AAS) Analysis of Alternatives was completed 
and submitted to the Office of the Secretary of Defense in January 
2012. In order to make a more informed capabilities decision, the Army 
is requesting to conduct a Voluntary Flight Demonstration (VFD) of 
helicopters currently available from industry representatives. These 
flight demonstrations will help define the capabilities available from 
industry to fill the AAS helicopter role and perhaps better define the 
capability trades as they relate to the OH-58F helicopter. The Army is 
expected to make a capabilities decision once the data from the VFD is 
compiled and analyzed.
    Question. Do you anticipate advances in technology in the next few 
years that will dramatically change rotorcraft capabilities?
    Answer. The Army Science and Technology (S&T) community is actively 
engaged in developing next generation vertical lift technologies for 
the Future Vertical Lift family of aircraft. S&T is developing a 
technology demonstrator to provide a medium lift fleet (Blackhawk, 
Seahawk and Apache) replacement on or about 2030. We seek to achieve 
triple the un-refueled range, triple the operational persistence, or 
time on station, and double the speed of our current fleet aircraft, to 
meet the projected capabilities needed for the future. To achieve these 
operational capabilities, new technologies will be developed over the 
next five years, to include high speed rotors; multi-speed 
transmissions; low drag fuselages and embedded sensors; and internal 
weapons carriage. Upon successful development and flight demonstration, 
the Army anticipates integrating these technologies into advanced 
vehicle designs that provide increased cruise efficiencies, such as 
compound (auxiliary propulsion and wings) configurations (advanced 
tilt-rotor).
    While this S&T effort is addressing the medium class fleet, these 
technologies are expected to support future light and heavy lift 
aircraft.
    Question. Does teaming OH-58 series helicopters with unmanned 
aircraft deliver a significant boost in reconnaissance capability? 
Lethality?
    Answer. Yes, Unmanned Aircraft Systems (UAS) complement existing 
OH-58Ds in many but not all of their reconnaissance tasks. UAS operate 
traditionally at higher altitude, with greater endurance and often 
unobserved by the enemy; this allows them to cue the OH-58s to 
additional targets, enhancing their missions. The UAS armed with laser 
designators also allows the OH-58 to engage targets with precision fire 
outside the range of the enemy, enhancing the survivability of the 
aircrew. The OH-58 in turn provides the needed lower viewing angle, and 
more detailed reconnaissance completing the overall reconnaissance 
picture. The ability of all aircraft to share Full Motion Video (FMV) 
with each other and the ground Commander provides greater situational 
awareness, and helps reduce the complexity of target acquisition and 
the number of steps between acquisition and engagement. This was 
demonstrated at a recent National Training Center rotation with our 
first Full Spectrum Attack Reconnaissance Squadron where teaming of 
manned and unmanned aircraft resulted in an increased tactical 
advantage.
    Question. Which unmanned aerial vehicles will be teamed with the 
OH-58s?
    Answer. The Attack Reconnaissance Squadron of the Full Spectrum 
Combat Aviation Brigade (CAB) teams the RQ-7B Shadow UAS with the OH-
58Ds. All Army UAS will also be interoperable with the OH-58D, and thus 
teaming is enabled across the fleet.
    Question. Does the pilot of the OH-58 essentially fly two aircraft 
at once?
    Answer. No, the OH-58D copilot will take temporary control of only 
the sensor on the UAS, and then release control back to the UAS 
aircrew. This enables the OH-58D to survey the target area and 
communicate to the UAS operators how they can best support the 
helicopter's maneuver.

                      Joint Air-To-Ground Missile

    Question. The Joint Air-to-Ground Missile (JAGM) provided greater 
range, insensitive munitions, and a tri-mode seeker with fire-and-
forget capability. The JAGM was to provide precision engagement against 
stationary and moving targets. It was to be effective against armor, 
bunkers, vehicles, missile launchers, and command and control 
facilities. The very broad nature of the requirements also increased 
the complexity of integration and drove up cost. The fiscal year 2012 
appropriation provides $127 million for JAGM development. The fiscal 
year 2013 request proposes only $10 million to continue development and 
the Secretary of Defense has announced that the Department will focus 
on low cost alternatives such as Hellfire.
    General Odierno, describe for this Committee the significance of 
the capability that is lost by continuing with the older missiles 
rather than fielding JAGM.
    Answer. The full JAGM capability provides the following 
improvements over the current HELLFIRE and Longbow missiles: 1) 
Improved Countermeasure/Adverse Weather capability; 2) More robust 
capability to engage Unmanned Aerial System (UAS); 3) Improved Fire and 
Forget; 4) Improved operational flexibility through the use of the tri-
mode seeker; 5) Increased lethality against moving/fleeting targets; 
and 6) Extended range (16 km for rotary-wing platforms versus the 
current 8 km for HELLFIRE).
    The Army and Navy reviewed and prioritized JAGM's requirements for 
cost versus operational capability. The restructured program will take 
advantage of the tri-mode seeker we've already developed in this 
program and give it open system architecture. With this architecture we 
intend to incrementally improve its countermeasure and adverse weather 
capability as well as improve its Unmanned Aerial System lethality. 
This restructured approach leverages the development already completed 
and provides a more affordable solution.
    Question. What is the unit cost of Hellfire versus JAGM?
    Answer. The HELLFIRE Fiscal Year 2012 production costs, with 
government support, are $120,000 per missile, given a procurement rate 
of approximately 2,000 per year. Prior to program restructure, the JAGM 
certified costs were estimated by the Deputy Assistant Secretary of the 
Army (Cost and Economics) to be $169,000 per missile for a 16-year 
production program given a procurement rate of approximately 2,000 per 
year. The intent of the JAGM Extended Technology Development Phase is 
to address potential requirements tradeoff and affordability for future 
production; therefore, the JAGM actual production cost is expected to 
be reduced from the original program estimates when compared at the 
same production rate.
    Question. What is the savings, year by year, of continuing with 
Hellfire rather than procuring JAGM?
    Answer. During the period of Fiscal Years 2013-2017 (FY13-FY17), 
the Army projected savings would be $395.6 million (M).


----------------------------------------------------------------------------------------------------------------
                                        FY13         FY14         FY15         FY16         FY17        Total
----------------------------------------------------------------------------------------------------------------
RDT&E Funding.....................      $159.4M      $145.8M       $37.7M       $26.7M       $26.0M      $395.6M
----------------------------------------------------------------------------------------------------------------
* For FY15 and out, the Army would continue to procure HELLFIRE Missiles to meet the Total Army Munitions
  Requirements at approximately $85M per year.

    Question. What upgrades can be added to the Hellfire? At what cost?
    Answer. The Army presently is not planning an upgrade to HELLFIRE. 
During the JAGM Extended Technology Development Phase, however, the 
Army will integrate a multimode seeker on existing qualified components 
of the HELLFIRE system in order to deliver a missile that has much 
greater capability than the current major HELLFIRE variants. The 
expected unit cost of this approach will ultimately be comparable to 
the current HELLFIRE.

      Patriot PAC-3 and Medium Extended Air Defense System (MEADS)

    Question. General Odierno, given the potential threat to U.S. and 
allied interests, especially the potential threat in the Pacific region 
posed by Chinese aircraft, cruise missiles, and ballistic missiles, 
there is a general consensus that more Patriot Missiles, and launchers 
may be needed. The budget request proposes 84 additional Patriot 
Advanced Capability 3 (PAC-3) missiles and 38 launchers, which 
completes the procurement.
    General Odierno, please discuss the requirement for Patriot 
missiles, and the balance, or friction between assets available and the 
requests from the combatant commanders for Patriots to be forward 
deployed in their areas.
    Answer. The Army requirement for Patriot missiles is currently well 
established at 2200. In conjunction with development and planned 
procurement of the next generation Patriot Advanced Capability--Phase 3 
(PAC-3) missile and the Missile Segment Enhancement (MSE), the Army is 
working a revision to the current Army Acquisition Objective (AAO). As 
combatant commands submit their PAC-3 missile inventory requirements to 
the department, allocation of the PAC-3 missiles is then adjudicated by 
the Joint Staff and approved by the Secretary of Defense in the Patriot 
Missile Distribution Plan.
    Question. The Committee understands that some Patriot units have a 
blended capability. That is, the units have a mix of earlier model 
missiles and PAC-3 missiles. General Odierno, please explain the 
strengths and limitations of Patriot units with a blended inventory of 
new and older model missiles.
    Answer. All Patriot units fight with a mix of Patriot Advanced 
Capability--Phase 3 (PAC-3) and legacy missiles. This mix capitalizes 
on the strengths of our newest missile (PAC-3, soon to be Missile 
Segment Enhancement (MSE)), while utilizing legacy missiles until they 
are expended. Commanders can select which missile variant to employ in 
response to their knowledge of the threat. Patriot is deliberately 
planned to have a mix of missiles for the next two decades, at minimum. 
The Patriot force is currently fielded with both newer PAC-3 Enhanced 
Launcher Electronic System (ELES) launchers, which can fire all missile 
variants and older launchers that can only fire legacy missiles. To 
increase commander flexibility, the Army is working to upgrade all 
launchers to the ELES configuration PAC-3 capability.
    Question. The Medium Extended Air Defense System (MEADS) being 
jointly developed by the United States, Italy, and Germany was to 
replace the Patriot series air defense systems, but MEADS has been 
cancelled. Weighing threats versus Patriot capabilities, was MEADS 
termination the correct move?
    Answer. The U.S. cannot afford to purchase the MEADS and make the 
required upgrades to Patriot concurrently over the next two decades. 
The estimated MEADS design and development program would have required 
at least $974 million additional U.S. investment on top of the Fiscal 
Year 2012 (FY12) and FY13 funding requirements. Additionally, three 
independent MEADS program studies concluded that the MEADS system 
design would not meet the U.S. requirements, and delays in the MEADS 
development would not have allowed the Army to replace the Patriot 
systems with the MEADS as originally planned. Consequently, the costs 
of completing the MEADS development and procuring it to eventually 
replace the Patriot would have required significant concurrent 
investment in the Patriot sustainment and modernization over the next 
two decades. Together, these costs are unaffordable in the current 
budget environment.
    The Army has programmed significant Patriot modernization 
initiatives across FY13 through FY17. These investments provide 
critical capability upgrades and also help enable longer term 
sustainment of the force, while the U.S. plans to end participation in 
the MEADS. The Preplanned Patriot Product Improvement Program (P3I) 
provides for the upgrade of the Patriot System through individual 
materiel changes. The P3I sustains and modernizes the Patriot system to 
address operational lessons learned, enhance joint force 
interoperability, and make other system performance improvements to 
provide overmatch capability against emerging threats. The Army's 
Patriot modernization approach includes enhanced integration into the 
Integrated Air and Missile Defense architecture, the greater range and 
capability Missile Segment Enhancement missile, software upgrades to 
address specific emerging threats, net centric communication upgrades 
and new system processors with expanded capacity to accommodate current 
and future software evolution.
    The Department will continue to refine the Patriot evolutionary 
development based on information gained from the MEADS Proof of Concept 
and results of the ongoing Army, Joint Staff, and the Office of the 
Secretary of Defense reviews and studies.
    Question. The budget request includes $400,861,000 for MEADS in 
fiscal year 2013. For the current fiscal year, 2012, the program is 
funded at $389,630,000. What value is the United States receiving for 
the investment of approximately $800 million over fiscal years 2012 and 
2013?
    Answer. The Department of Defense and our MEADS partners seek the 
results of the final two years of the Proof of Concept (PoC) effort, 
the completed design and testing of the MEADS elements, the capability 
demonstrations and the data archival and performance reporting in order 
to fully assess which elements or technologies would be available to 
transition to existing air and missile defense architectures. Until 
this critical design and performance data is available, no final 
decisions can be made; but, we can say at this point, that multiple 
MEADS technologies, capabilities, and data could be harvested to 
potentially benefit the U.S. air and missile defense. The MEADS PoC 
facilitates demonstration on advanced, rotating Multifunction Fire 
Control Radar and lightweight/360 degree Launcher; and the design and 
limited demonstration of an advanced Surveillance Radar, all of which 
would be considered in follow-on efforts to enhance air and missile 
defense once the MEADS PoC is completed. The system demonstrations in 
2012 and 2013 will demonstrate the maturity of design and be an enabler 
for potential European follow-on efforts and initial U.S. harvesting 
decisions. There is no U.S. MEADS funding planned beyond FY13.
    Additionally, the PoC effort results in data archival and delivery 
for future use, potential options for harvesting, future consideration 
of MEADS Major End Items, and technologies to be assessed by the 
Department in determining future Air and Missile Defense capabilities.
    The following MEADS technologies are candidates for U.S. 
harvesting:
          <bullet> 360-Degree, Long Range UHF Surveillance Radar 
        Demonstration Unit/Performance Data
          <bullet> PAC-3 MSE Interceptor Data
          <bullet> Performance Qualification Data From Three Flight 
        Tests
          <bullet> 360-Degree Engagement Solution Software Logic and 
        Algorithms
          <bullet> Band Fire Control Radar Exciter Design and 
        Performance Data
          <bullet> Lightweight Launcher With Improved Launcher 
        Electronics and Near-Vertical Launch Design/Performance Data
          <bullet> XM1160 FMTV 10-Ton Prime Mover With Armor
          <bullet> Advanced Power and Cooling Technologies for Rotating 
        Phased-array Radars
          <bullet> Techniques and Algorithms for Track Fusion From 
        Multi-spectral (UHF and X-band) Sensors
          <bullet> Advanced Prognostic and Diagnostics Logistics 
        Approaches
          <bullet> Design for Reduced Personnel Requirements
          <bullet> Data Link Processor From the BMC4I
          <bullet> MEADS Intra-Communication System
    More broadly, while the DoD understands the need to make difficult 
choices in the current fiscal environment concerning funding for all of 
our activities, we also note that failure to meet our MEADS Memorandum 
of Understanding funding obligations for FY13 could negatively affect 
our allies' implementation of current transatlantic projects and 
multinational cooperation, as well as their willingness to join future 
cooperative endeavors with the U.S. that are strongly supported by the 
Administration and Congress. Germany is a longstanding Partner in the 
Patriot system, and we are currently engaged in multiple cooperative 
efforts with Germany and/or Italy (e.g., Joint Strike Fighter). The 
ramification of failing to provide funds for this program, which is 
near completion, has already impacted relations with our Allies. Most 
recently, at the Three Nations Board of Directors meeting, our Allies 
expressed severe consternation that they had just formally ratified the 
U.S. recommended PoC, and insist on completing the PoC as agreed to in 
October 2011.
    To remain flexible and adaptive for potential incorporation of any 
of the above technologies into the U.S. Army Air Defense structure, it 
is imperative to complete these final steps. Without this final MEADS 
investment, the U.S. use of these technologies would require 
reinvestment of additional development funds from near inception.
    Question. What is the plan to enhance air defense capability going 
forward?
    Answer. The characteristics of the future Air and Missile Defense 
(AMD) force are based on the new Defense Strategy and The Army Plan 
(TAP), which provide a framework for the modernization effort to keep 
pace with the evolving threat and remain lethal and discriminate. The 
Army's plan to enhance air defense capability entails:
          <bullet> Integrated Battle Command System (IBCS) which will 
        provide a single, modular, integrated architecture that will 
        enable componentization of Joint AMD systems as well as the 
        Patriot system by putting launchers and radars on the network.
          <bullet> Sustain Patriot, to include planned product 
        improvements through 2040.
          <bullet> Institutionalize the current Counter-Rocket, 
        Artillery and Mortar (C-RAM) system while seeking improved 
        capability through the development of the Indirect Fire 
        Protection Capability (IFPC) Increment 2.
          <bullet> Investigate kinetic/non-kinetic integration to 
        enhance cruise missile defense and counter Unmanned Aerial 
        System (UAS) capability.
          <bullet> Continue Doctrine, Organization, Training, 
        Leadership, Material, Personnel and Facilities (DOTLMPF) 
        integration with the Missile Defense Agency (MDA).
          <bullet> The ability to defeat advanced countermeasures such 
        as early release of sub-munitions and Digital Radio Frequency 
        Memory (DRFM) electronic attack.
          <bullet> The ability to provide relevant situational 
        awareness and early warning across multiple joint operations 
        areas simultaneously.
          <bullet> In the far term, a 360 degree surveillance and fire 
        control capability that enables the employment of advanced 
        engagement concepts with other Joint AMD capabilities.

             Modernized Expanded Capability Vehicle (MECV)

    Question. The Modernized Expanded Capability Vehicle (MECV) was 
designed to build on the HMMWV (uparmored) Expanded Capability Vehicle. 
Though not as well armored as the MRAP series of vehicles, the MECV was 
intended to restore load carrying capability to the HMMWV while raising 
survivability to near MRAP levels. However the Army has terminated this 
program, and will focus on the MTV research and development effort.
    General Odierno, the Army had planned to use a small number of 
MECVs, improved versions of the HMMWV Modernized Expanded Capability 
Vehicles, with improvements in survivability, availability and agility, 
but light enough for airmobile operations. That effort has been 
cancelled.
    What light tactical wheeled vehicle will fill the void for the air 
mobile or airborne units until fielding of the JLTV?
    Answer. The Up-Armored High Mobility Multipurpose Wheeled Vehicle 
(HMMWV) (UAH) is the current vehicle utilized for air mobile and 
airborne missions. The HMMWV UAH will continue to be utilized until 
fielding of the JLTV.
    Question. How would you characterize the tradeoff made by focusing 
resources on JLTV and opting not to proceed with MECV?
    Answer. The decision to not resource the MECV production in the 
FY13 President's Budget reflects the U.S. Army's and U.S. Marine Corps' 
commitment to the JLTV as our highest priority to close the capability 
gaps for Light Tactical Ground Mobility, which are to move mounted 
Combat, Combat Support and Combat Service Support Forces. The JLTV will 
support Air Assault operations in virtually all environments except in 
the most extreme conditions of altitude and heat where we accept 
minimal risk.

                         Reversible Downsizing

    Question. The Department of Defense paper entitled ``Defense Budget 
Priorities and Choices'', January 2012, addressed reversibility 
stating, ``To the extent possible, structure major adjustments in a way 
that best allows for their reversal or for regeneration of capabilities 
in the future if circumstances change''.
    Reversibility or regeneration sounds good. What specifically are 
you proposing to do in the Army so that units can be rapidly 
regenerated if necessary?
    Answer. Reversibility and Expansibility (R&E) will be attained 
through the adaptation of current manning, equipping, and training 
policies and procedures to enable the Army to reverse and expand by 
accessing additional soldiers annually to support regeneration of 
additional BCTs and enablers in response to any unforeseen requirements 
or changes in the defense strategy. The Army is examining strategies, 
policies and investments that would posture the Army to slow down and 
reverse a planned drawdown of Army end strength and formations, and 
rapidly expand in response to a future crisis.
    Additionally, the Army is in the early stages of identifying 
billets in our Generating Force that can also support R&E.
    Question. Is the capability to regenerate found mostly in the 
National Guard and the reserves?
    Answer. A smaller Army requires a capable and ready Reserve 
Component; the Reserve Component is a vital element of the concept of 
reversibility embedded in the Department of Defense's strategic 
guidance. Combat experience and investment in the Army National Guard 
and the Army Reserve in Iraq and Afghanistan has significantly 
increased capabilities and readiness. Currently, we are making only 
small reductions in the Army Reserve and Army National Guard. The 
challenge is sustaining Reserve Component leader development and 
proficiency, given the biggest constraint, time to train. This requires 
us to carefully manage notification, mobilization, and deployment 
timelines and work closely with Reserve leaders to leverage their 
unique skill sets and advantages for certain missions. To this end, we 
will sustain the progressive readiness model for most National Guard 
and Reserve units in order to sustain increased readiness prior to 
mobilization.
    Currently, the Reserve Components have manning challenges that will 
stress their ability to mobilize trained and cohesive units quickly in 
the event expansion is needed. A total force approach avoids over-
reliance on one component and the Army will retain, to the extent 
possible, the ability to adjust or reverse active and reserve force 
structures and modernization changes being made today to preserve 
flexibility for tomorrow.
    The Army is working to retain a more senior active force by 
retaining mid-grade NCOs and commissioned officers even as their 
overall end strength decreases. The Army is preserving the 
institutional structure and training force upon which it may build if 
required. In this way, the Army will have the structure and cadre of 
experienced leaders necessary to build upon if we have to re-grow the 
active force quickly.
    Question. Can you provide examples of successful rapid regeneration 
of units in the Army?
    Answer. The most recent example of successful expansion/
regeneration of the Army is evident in the Grow the Army (GTA) Plan 
approved by the President in January 2007. This plan increased the size 
of the Army by 74,200 Soldiers to improve the balance of forces across 
all three components and better meet the Global Force Demand in an era 
of persistent conflict. The decision to expand the size of the Army 
reflected the clear recognition by the President, the Secretary of 
Defense and the Congress of the importance of joint ground forces to 
meet strategic requirements and the need to reduce stress on Soldiers 
and Families related to the increasing and enduring operational 
demands. A complementary feature of the GTA Plan was Army leadership 
guidance to direct the implementation of a regeneration model that 
would serve to reconstitute and regenerate the force to increase unit 
readiness, improve preparation for deployment, and build strategic 
depth. The Army RESET imperative established a balanced six-month 
process that systematically restores deployed units to a level of 
personnel and equipment readiness that permits resumption of training 
for future missions. RESET encompasses those tasks required to re-
integrate Soldiers and Families, then organize, man, equip, and train a 
unit. RESET is predicated on the concept of allowing Soldiers and 
Families the opportunity to recover in order to reverse the cumulative 
effects of sustained operational tempo.
    Question. Secretary McHugh, how can the Army assist industry to 
sustain the capability to rapidly reverse cutbacks in the industrial 
base?
    Answer. The Army can assist industry to sustain the capability to 
rapidly reverse cutbacks in the industrial base by identifying areas of 
risk to the preservation of critical capabilities. The Army 
continuously works with suppliers in the commercial industrial base to 
assess and sustain essential capabilities and to reduce the chances of 
single points of failure.
    Related efforts include a Department of Defense Sector-by-Sector, 
Tier-by-Tier (S2T2) effort. The S2T2 effort seeks: (1) to establish 
early warning indicators of risk, particularly at lower-tiers; (2) to 
strengthen the supply chain and mitigate potential points of failure; 
and (3) to perform joint agency assessments providing the Army the 
ability to capture impacts on market sectors, manufacturers, and the 
Warfighter requirements across the U.S. Services. Another effort is the 
Industrial Base Baseline Assessment that seeks: (1) to conduct a 
sector/sub-sector assessment of programs identified as critical by 
Program Executive Offices and Life Cycle Management Commands; (2) to 
determine the impact of reductions in funding to program requirements; 
and (3) to develop recommendations which enable the industrial base to 
sustain current and future Warfighter requirements.
    Question. General Odierno, is the concept of reversibility or rapid 
regeneration an example of relying on hope rather on proven capability?
    Answer. As the new national defense priorities drives us to a 
smaller Army, we must avoid the historical pattern of drawing down too 
fast or risk losing leadership and capabilities, making it much harder 
to expand again when needed. The effort under way is a deliberate 
decision by the Army and DOD to understand how current manning, 
equipping and training strategies and policies will have to adapt in 
order to be able to expand to meet large unexpected contingencies in 
the future. The Army continues to conduct analysis that could lead to 
reorganizing our Brigade Combat Teams into more capable and robust 
formations.

                             C-27J Spartan

    Question. The Army initiated the C-27J Spartan program in 2005, 
with the aircraft intended to replace the aging C-23 Sherpa, the C-12 
Huron, and the C-26 Metroliner. The C-27J looks like a small C-130, but 
with two engines instead of four. The C-27J would provide frontline 
tactical airlift support to Army units and relieve some of the pressure 
on the CH-47 Chinook helicopter fleet. Also, the C-27J watended to 
serve as the airlift platform for the Army National Guard units that 
were losing C-130s. The Department of Defense changed the Army program 
to a joint program with the Air Force, and eventually made the program 
an Air Force program. The Department has received 38 of the C-27Js, but 
now the Air Force plans to end the program and divest of the 38 
aircraft.
    General Odierno, the Army and Air Force have barely begun fielding 
of the C-27J aircraft and yet the program is being cancelled.
    What was the Army's requirement for C-27J aircraft?
    Answer. The Army's requirement remains the intra-theater movement 
of time critical/mission essential cargo and personnel. The C-27J was a 
platform developed to meet or significantly mitigate this requirement 
gap. The Chief of Staff of the Army has co-signed an agreement with the 
Chief of Staff of the Air Force which will provide Air Force assets in 
Direct Support to Army ground commanders to mitigate the time critical/
mission essential requirement.
    Question. The Committee understands that the C-27J has served well 
in National Guard homeland missions, and the Ohio National Guard has 
flown the C-27J in Afghanistan. General Odierno, has the C-27J program 
had cost, schedule or performance problems which have led to the 
decision to end the program?
    Answer. AF Response: No, the C-27J program divestiture did not 
result from cost, schedule, or performance issues. Force structure 
analysis informed by the new DoD Strategic Guidance revealed the Air 
Force had excess capacity in intra-theater airlift. A result of this 
force structure analysis, the Air Force made the difficult decision to 
retire 65 C-130s, terminate the C-27J procurement, and divest the 
delivered aircraft. These actions delivered a $2.1 billion budget 
reduction over the Future Years Defense Program and enabled the Air 
Force to focus on common configurations for key weapon systems to 
maximize operational flexibility and minimize sustainment costs.
    Studies conducted by the Air Force and RAND have both shown the C-
130 to be equally capable of performing the Direct Support airlift 
mission for the Army while offering increased capability to perform 
General Support airlift missions. The Air Force remains committed to 
meeting the Direct Support airlift requirements for the Army and has 
programmed sufficient C-130 force structure to fulfill this 
requirement.
    Based on my experience in Iraq in 2009, when the Army and Air Force 
validated the direct support concept, I am confident the Air Force is 
fully committed to ensuring that this important mission will be 
accomplished.
    Question. General Odierno, please explain the requirement for front 
line tactical airlift, and explain how some tactical airlift can be 
better performed by fixed wing aircraft than by a helicopter.
    Answer. Fixed wing aircraft have a greater cargo, range, and speed 
capacity than tactical rotary wing aircraft. Fixed wing aircraft can 
operate at higher altitudes, reducing the risk to cargo and personnel 
in regards to threat and terrain. The Army's airlift requirement, time 
sensitive/mission critical cargo, requires both fixed wing and tactical 
rotary wing aircraft. Fixed wing aircraft is the preferred method to 
accomplish this mission when airfields are available. Tactical rotary 
wing aircraft are required to get the cargo/personnel to the point of 
need, often to locations where there is not an established airfield. 
The Army's airlift requirement demands a complementary fixed and rotary 
wing solution.
    Question. General Odierno, The Committee understands that Army 
National Guard units are in the process of turning in their old 
aircraft, the Sherpas, Hurons, C-12s and Metroliners? Since the C-27J 
program has been cancelled and the Department of Defense plans to 
divest of the few that have been fielded, what is the plan to replace 
those older aircraft?
    Answer. The C-27J program was conceived to mitigate a time 
sensitive/mission critical cargo mission for the Army. When the C-27J 
was transferred to the Air Force, they accepted the entire cargo 
mission for the Army. This negated the requirement for the Army to have 
cargo aircraft like the C-23 Sherpa. The agreement between the Chief of 
Staff of Army and the Chief of Staff of the Air Force continues to 
validate that Air Force will continue to support the Army's time 
sensitive/mission critical cargo mission requirement. The 26 
Metroliners and 128 C-12s will be replaced with the Future Utility 
Aircraft.
    Question. Mr. Secretary, the C-27J procurement plan at its peak was 
127 aircraft for the Army. That number was reduced to 76 and later the 
program became an Air Force only program with an acquisition target of 
38 aircraft. Now the Air Force plans to terminate the program and 
divest of the aircraft. Is this program another example of a lack of 
control in the Department of Defense regarding the establishment of 
requirements?
    Answer. The Army's requirements have not changed. 127 Aircraft was 
a low risk acquisition strategy and 76 aircraft was a medium risk 
acquisition strategy. The program was transferred to the Air Force in 
2008. The Memorandum of Understanding signed by the Army Chief of Staff 
and the Air Force Chief of Staff does not specify a specific aircraft 
or platform but does place Air Force assets in Direct Support of the 
Army Ground Commander.
    Question. The Army's program exectitive officer has gone on record 
stating that the Army is considering whether to take the 21 C-27 Joint 
Cargo Aircraft that the Air Force is divesting. Is this accurate? Given 
that the Air Force plans on shutting down the C-27 program by the 
September 30 of this year, when will Army make a decision and inform 
the Committee?
    Answer. The Army's fixed wing cargo mission and the C-27J aircraft 
were transferred to the Air Force. The Army's fixed wing cargo needs 
will be provided by the Air Force. The Army has no plans to take the C-
27J into the service.
    Question. If the Army is seriously considering this action, should 
the Committee be concerned that the Air Force cannot perform the direct 
support mission with C-130s alone?
    Answer. The C-130 is capable of doing everything the C-27J can. It 
has greater load carrying capacity than a C-27J and will meet the 
Army's requirement for time sensitive/mission critical cargo. The 
memorandum of understanding signed by the Army CSA and Air Force CSA 
places airlift (C-130s) in direct support of the ground commander to 
meet the time sensitive/mission critical cargo requirement.

                       Blast Tolerant Fuel Cells

    Question. Mr. Secretary a January 30, 2012 New York Times article, 
entitled ``For Soldier Disfigured in War, a Way to Return to the 
World'', described the medical treatment of Specialist Joey Paulk who 
was severely burned when his HMMWV struck a buried mine and the 
explosion ignited the fuel tank. The article details the medical 
treatment that Specialist Paulk received at Brooke Army Medical Center, 
and at U.C.L.A. Medical Center. The stories of Specialist Paulk and 
many other U.S. servicemembers who have suffered severe burns when 
their vehicles have been attacked by some form of conventional or home-
made bomb call to question the commitment of the Army to employ state-
of-the-art fuel cell technology to make ground vehicles more blast 
tolerant.
    General Odierno, what is your assessment of the level of blast and 
fire survivability of combat vehicles and tactical trucks in Army 
units?
    Answer. The Army is committed to providing the highest level of 
blast and fire survivability protection available in order to ensure 
the safety of our Soldiers. To that end, we have integrated a variety 
of technologies on our combat and tactical vehicles to mitigate the 
impact of conventional and home-made bomb blasts and enhance fire 
survivability of our vehicle crews. These technologies include V-hull 
designs, underbody Improvised Explosive Device improvement kits and 
Explosively Formed Penetrator Armor Kits. In addition to the blast 
mitigation measures, the Army also employs Fuel Tank Fire Suppression 
kits and Automatic Fire Extinguishing System systems on our combat and 
tactical vehicle fleets to enhance Soldier safety and survivability. 
While these measures have contributed immeasurably to saving the lives 
of countless Soldiers on the battlefield, the Army continues to 
investigate opportunities to improve blast and fire survivability of 
our combat and tactical vehicle fleets.
    Question. What guidance has been established in the Army regarding 
the procurement of new vehicles to adopt advances in technology to make 
fuel cells less likely to explode and burn when the vehicle is struck 
by a mine or grenade, or when the vehicle is in an accident?
    Answer. To lessen the likelihood of a vehicle exploding the Army 
has mandated that new tactical vehicle procurements meet the 
requirements of the Federal Motor Carrier Safety Regulation for liquid 
tanks. The fuel tanks on new tactical vehicle procurements will be 
self-sealing and all fixed fuel tanks will be mounted external to the 
crew compartment or compartmented away from the crew. Guidance 
concerning new procurement of combat vehicles is in accordance with 
specific military mobility, force protection, and survivability 
requirements codified in the required capability document and 
translated to the vehicle performance specification. Fuel cell 
containment or fire suppression is part of the Performance 
Specification for the Ground Combat Vehicle and Paladin Integrated 
Management self-propelled howitzer, which are the only new combat 
vehicles in the design phase.
    Question. The Committee understands that the Joint Lite Tactical 
Vehicle, that will replace the HMMWV, will have automatic fire 
extinguishers, and self-sealing fuel tanks. However, the Army has about 
155,000 HMMWVs. HMMWVs will very likely remain in use for another 15 
years. Is there a plan to make the HMMWVs more fires resistant?
    Answer. The Army plans to continue fire suppression improvement 
efforts for the High Mobility Multipurpose Wheeled Vehicle (HMMWV) that 
include investigating fuel tank, wheel well, battery box, and engine 
compartment protection. There is currently an Automatic Fire 
Extinguisher System in the crew compartment of approximately one-half 
of the Up Armored HMMWV (UAH) fleet of more than 53,000 vehicles. This 
includes a Manual Fire Suppression System which provides an additional 
crew compartment fire suppression bottle that can be manually activated 
from outside the vehicle, if additional fire suppressant is required.

    Clerk's note.--End of questions submitted by Mr. Young.]
                                           Thursday, March 8, 2012.

                         DEFENSE HEALTH PROGRAM

                               WITNESSES

HON. DR. JONATHAN WOODSON, ASSISTANT SECRETARY OF DEFENSE FOR HEALTH 
    AFFAIRS
LIEUTENANT GENERAL PATRICIA HOROHO, THE SURGEON GENERAL OF THE UNITED 
    STATES ARMY
VICE ADMIRAL MATTHEW L. NATHAN, MC, USN, SURGEON GENERAL OF THE NAVY
LIEUTENANT GENERAL (DR.) CHARLES B. GREEN, THE SURGEON GENERAL OF THE 
    AIR FORCE

                  Opening Statement of Chairman Young

    Mr. Young. The committee will be in order. Good morning, 
everybody. Thank you for attending.
    The committee's hearing this morning has to do with the 
fiscal year 2013 budget request for the Defense Health Program. 
I want to welcome Assistant Secretary of Defense for Health 
Affairs, Dr. Jonathan Woodson; the Surgeon General of the Army, 
Lieutenant General Patricia Horoho, who has been here with us 
on different occasions in different categories; the Surgeon 
General of the Navy, Vice Admiral Matthew Nathan, who comes to 
us from having commanded the hospital at Bethesda; and the 
Surgeon General of the Air Force, Lieutenant General Charles 
Green, who at our last hearing gave us some very impressive 
testimony. General, we appreciated that then and we look 
forward to today.
    The hearing should be a little bit different. The subject 
is a little bit different today than it was a few weeks ago.
    General Green, by the way, this probably will be your last 
time to testify before our subcommittee.
    General Green. It may be, sir.
    Mr. Young. I would say that it has been good, all of your 
testimony has been good, and we will miss you.
    General Green. Thank you, sir.
    Mr. Young. And we wish you the very best.
    Many challenges are facing the Department; growing costs, 
long-term sustainability of the military health system, still 
very serious injuries that you are dealing with coming out of 
the war zones. Military health care costs have risen from $19 
billion in fiscal year 2001 to $53 billion in fiscal year 2012, 
and I would say this committee is committed to providing 
whatever is needed to properly care for these wounded warriors 
and America's heroes.
    This year, for the first time in the last decade, the 
budget request of $48.7 billion for the entirety of military 
health care is lower than the previous year's level. However, 
this level assumes savings associated with several TRICARE 
benefit cost sharing proposals, proposals that must ultimately 
be approved by Congress, and today I can't predict what that 
will be. So we are interested to hear about these proposals 
today.
    Additionally, the committee remains interested in the final 
recommendations recently announced by the Department related to 
the restructuring of the military health system as a whole and 
governance and multi-service markets in particular. We want to 
ensure that any changes to the military health system 
adequately reflect your input as the senior medical officers of 
your respective services.
    Additionally, the Department continues to focus on the need 
for mental health counseling and readjustment support for our 
service members returning from deployments. It is imperative 
for the Department to get to the heart of the issues that 
service members and their families face during and after the 
deployments.
    The committee is anxious to hear about what progress the 
Department has made in the past year with regard to 
psychological health, traumatic brain injury, and suicide 
prevention and what this subcommittee can do to assist in 
making further advances as we progress into the future.
    We look forward to your testimony and to a good question 
and answer session. As I mentioned to you, we are going to have 
votes at an untimely point this morning, so we are going to 
expedite as quickly as we can. In other words, we would be 
asking you to stand by while we went to vote for about an hour 
and I just don't want to do that to you. You have got very 
important things to do. I am sure the members of the committee, 
and the attendance is not all that great this morning anyway, 
but we will do our very best to be completed with everything 
that you have to say before we have to break to vote, and then 
we will just close the hearing and let you get on about your 
business.
    I would like to yield now to my friend, my partner, former 
chairman, Norm Dicks.

               Opening Statement of Ranking Member Dicks

    Mr. Dicks. Thank you, Mr. Chairman. I want to welcome all 
of the witnesses. Although we saw you just a few weeks ago, we 
welcome you both in your appearances as Surgeon Generals of 
your services. Also I would like to thank General Green for his 
many years of service to the Nation and for his insights on 
military health. We understand this is his last appearance with 
the committee. We appreciate your dedication in caring for our 
service members and their families and look forward to your 
testimony today.
    The costs for the Defense Health Program have more than 
doubled over the past decade, from $19 billion in 2001 to $48.7 
billion in the fiscal year 2013 request. Military health care 
allows service members, their families and retirees to maintain 
a standard of health as well as peace of mind that world class 
health care is available, not only when serving but after their 
active service is done.
    However, the cost of the Defense Health Program in light of 
increasing budgetary pressures will be difficult to support. As 
a result, a significant part of the Defense Department's budget 
initiatives is focused on reducing health care costs. The 2013 
budget request is $4.1 billion less than the 2012 enacted level 
of $52.8 billion, and $12.9 billion in savings is included in 
the Future Year Defense Program. The majority of these savings 
are from proposed changes to the TRICARE fees, mainly affecting 
retired service members.
    Are these estimated savings realistic? How do you think 
those proposals will be received, and most importantly, would 
these initiatives affect the quality, availability or 
expectation of care?
    Physical and mental health of our service members affects 
readiness, especially when faced with the task of filling 
deployable units in, and in the case of the Army and Marine 
Corps, concurrently drawing down end strength. Preventive 
health and resiliency programs can only raise the health of the 
force, which translates into increased readiness, but may also 
lead to reduced health care costs for physical and mental 
health care. We look forward to hearing how you are addressing 
this aspect of health care.
    Conversely, the committee is also concerned about the care 
service members receive when they are injured on the 
battlefield and sometimes in training, both physically and 
mentally. Much has been accomplished in the treatment of 
amputees and the advancement of prosthetics, in many cases 
allowing our wounded warriors to live a full life. However, 
much work still needs to be done with the invisible wounds of 
traumatic brain injury and post-traumatic stress disorder.
    Centers of Excellence for these wounds help to combine 
treatment and research, but somehow members still fall through 
the cracks and gaps for treatment and recovery. Today we hope 
to learn about your progress treating those injuries and how 
the results from the efforts have been implemented.
    We strongly support your efforts to provide the best 
possible medical care for service members, their families and 
military retirees. We look forward to your testimony on how to 
best maintain and where possible improve this care.
    Thank you, Mr. Chairman.

                         Other Opening Remarks

    Mr. Young. Thank you, Mr. Dicks.
    During the 6 years that I had the privilege of serving as 
chairman of the Appropriations Committee, this committee was 
chaired by Jerry Lewis for 6 years, who did a really great job. 
Do you want to make any opening comments?
    Mr. Lewis. No opening comments. Thank you, sir.
    Mr. Young. Mr. Frelinghuysen is not only an important 
member of this subcommittee, but he also represents this 
subcommittee as an adjunct through the House Permanent Select 
Committee on Intelligence. In addition to that, he chairs his 
own subcommittee, which is important to national defense 
because he deals with all of the nuclear laboratories and all 
of our nuclear facilities.
    Mr. Frelinghuysen, do you want to make any opening 
comments?
    Mr. Frelinghuysen. No, thank you, Mr. Chairman.
    Mr. Young. Thank you all very much. We will proceed to 
hearing your statements. As usual, you summarize them any way 
you like. Your entire statement will be put into the record.
    Secretary, I assume we will begin with you.

                    Summary Statement of Dr. Woodson

    Dr. Woodson. Thank you, Mr. Chairman, members of the 
committee, thank you for the opportunity to appear before you 
today to discuss the future of the military health system and 
in particular our priorities for this year.
    Over the last 10 years, the men and women of the military 
health system have performed with great skill and undeniable 
courage in combat. Their contributions to advancing military 
and American medicine are immense. The military health system's 
ability to perform this mission and be able to respond to 
humanitarian crises around the globe is unique among all 
military and non-military organizations on this globe, and I am 
committed to sustaining this indispensable instrument of 
national security.
    The budget we have proposed provides the resources we need 
to sustain the system and maintain our readiness. We must also 
be responsible stewards of the taxpayers' dollars. The 2011 
Budget Control Act required the Department to identify $487 
billion in budget reductions over the next 10 years, and health 
care costs could not be exempt from this analysis.
    The military health system is undertaking four simultaneous 
actions to reduce costs: One, internal efficiencies to better 
organize our decisionmaking and execution arm; two, a 
continuation of our efforts to appropriately pay private sector 
providers; three, initiatives that promote health, reduce 
illness, injury and hospitalization; and, four, proposed 
changes to beneficiary cost sharing under TRICARE. The military 
and civilian leaders in the Department developed these 
proposals and have publicly communicated their support for 
these proposals to you in writing and in person.
    We have recently submitted to the Congress the Secretary's 
recommended path forward for how we should organize the 
military health system. We have learned a great deal from our 
joint medical operations over the last 10 years and we 
recognize that there is much opportunity for introducing even a 
more agile headquarters operation that shares common services 
and institutes common clinical and business practices across 
our system of care.
    The budget we have put forward for 2013 is a responsible 
path forward to sustaining the military health system in a 
changing world and recognizes that the fiscal health of the 
country is a vital element of national security. I am proud to 
be here with you today to represent the men and women that 
comprise the military health system, and I look forward to 
answering your questions.
    [The statement of Dr. Woodson follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Young. Mr. Secretary, thank you very much. We 
appreciate your being here today.
    General Horoho, we will be happy to hear from you at this 
point.

                  Summary Statement of General Horoho

    General Horoho. Thank you, sir. Chairman Young, Ranking 
Member Dicks and distinguished members of the committee, thank 
you for providing me this opportunity to share with you today 
my thoughts about the future of U.S. Army medicine and 
highlight some of the incredible work being done by dedicated 
men and women.
    From July to October of 2011, I was privileged to serve as 
the International Security Assistance Force Joint Command 
Special Assistant for Health Affairs. My multidisciplinary team 
of 14 medical health professionals conducted an extensive 
evaluation of theater health service support to critically 
assess how well we are providing health care from the point of 
injury to evacuation from theater.
    It cannot be overstated that the best trauma care in the 
world resides with the U.S. military in Afghanistan and Iraq. 
The AMED is focused on building upon these successes on the 
battlefield as we perform our mission at home and is further 
cementing our commitment to working as a combined team anywhere 
and any time.
    MHS governance changes will change the way we currently 
operate for everyone. These recommended changes will strengthen 
our system in the delivery of military medicine. The military 
departments have more activities in common than not. Together, 
we will drive toward greater common approaches in all areas, 
except where legitimate uniquenesses require a service-specific 
approach. Our commitment is to achieve greater unity of effort, 
improve service to our members and beneficiaries and achieve 
greater efficiency through a more rapid implementation of 
common services and joint purchasing, as well as other 
opportunities for a more streamlined service delivery.
    We are at our best when we operate as part of a joint team, 
and we need to proactively develop synergy with our partners as 
military medicine moves towards a joint operating environment. 
Continuity of care and continuity of information are key to the 
delivery of care as DOD and the VA team.
    There are significant health-related consequences over 10 
years of war, including behavioral health needs, post-traumatic 
stress, concussive care, burns or disfiguring injuries, chronic 
pain and loss of limb. A decade of war in Afghanistan and Iraq 
has led to tremendous advances in knowledge and care of combat-
related physical and psychological problems. We have partnered 
with the Department of Veterans Affairs, the Defense and 
Veterans Brain Injury Center, and the Defense Center of 
Excellence for Traumatic Brain Injury and Psychological Health, 
and academia, as well as the National Football League to 
improve our ability to diagnose, treat and care for those 
affected by TBI.
    Similar to our approach with concussive care injuries, Army 
medicine has harvested the lessons of almost a decade of war 
and has approached the strengthening of our soldiers' and 
families' behavior health and emotional resiliency through a 
campaign plan. We will increase our efforts on decreasing 
variance and implementing standards across Army medicine in the 
areas of a behavioral health and integrated disability 
evaluation system. We are implementing recommendations from the 
Pain Management Task Force and incorporating this capability 
across all forms of health care.
    I am incredibly honored and proud to serve as the 43rd 
Surgeon General in the Army and Commander of the U.S. Army 
Medical Command. There are miracles that are happening every 
day across our command outposts, forward operating bases, 
posts, camps and stations because of the dedicated soldiers and 
civilians that make up the Army Medical Department.
    To the Ranking Member Dicks, it has been an honor to serve 
with you over the years. I appreciated your support when I 
served at the Western Region Medical Command at Joint Base 
Lewis-McChord. As you conclude your service to our Nation, on 
behalf of the Army Medical Department, I want to express our 
deepest gratitude and my personal thanks for your enduring 
support of Army medicine throughout these significant times in 
our history.
    With the continued support of Congress, we will lead the 
Nation in health care and our men and women in uniform will be 
ready when the Nation calls, wherever they need to. I look 
forward to answering your questions and thank you for the 
opportunity to be here today.
    [The statement of General Horoho follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                    Summary Statement of VADM Nathan

    Mr. Young. General, thank you very much. And I want to 
comment when it is my turn about your comment about miracles, 
because I have something to say about that.
    Admiral Nathan. The Admiral and I have had a chance to 
spend a lot of time together because as we visit wounded 
soldiers and marines at our hospitals at Walter Reed, Bethesda, 
he is on the spot. Problems that are brought to his attention 
are fixed. I just really appreciate Admiral Nathan. Thank you 
very much. We are glad to hear your statement now, sir.
    Admiral Nathan. Thank you, sir. Good morning. Chairman 
Young, Ranking Member Dicks, distinguished members of the 
subcommittee, I am pleased to be with you today to provide an 
update on Navy Medicine, including some of our collective 
strategic priorities, our accomplishments and our 
opportunities.
    I want to thank the committee members for the tremendous 
confidence, support and resourcing you have shown us in Navy 
Medicine. I will abbreviate my opening comments in the interest 
of time, but may I also add my thanks to Ranking Member Dicks 
for your service, sir, on behalf of the men and women who serve 
in the Pacific Northwest, specifically at Naval Hospital 
Bremerton and at the submarine clinic at Bangor. Your advocacy 
and your support of them is not forgotten.
    I will report to you that Navy Medicine remains strong, 
capable and mission ready to deliver world class care any time, 
anywhere. We are operating forward and we are globally engaged, 
no matter what the environment and regardless of the challenge. 
The men and women of Navy Medicine are flexible, they are agile 
and they are resilient. They are meeting their operational and 
wartime commitments, including humanitarian assistance and 
disaster response, and concurrently delivering outstanding 
patient and family centered care to our beneficiaries. Force 
Health Protection is what we do and it is the very foundation 
of our continuum of care in support of the war fighter and 
optimizes our ability to promote, protect and restore their 
health.
    What is obviously a priority to this committee is clearly a 
priority to us. It is supporting the warfighter, enabling them 
to perform their mission. It is taking care of the warfighter 
upon return from their mission and taking care of their 
families. It is the ability to operate forward and to remain 
congruent in readiness with our Navy and Marine Corps partners.
    In closing, let me briefly address one topic I am sure is 
of interest, which is MHS governance. We appreciate the 
opportunity to begin this dialogue with you that started a 
month ago when you held a hearing on this issue. The Deputy 
Secretary of Defense has submitted his report to Congress 
required by section 716 of the Fiscal Year 2012 National 
Defense Authorization Act. It addresses the Department's plans, 
subject to review and concurrence by the Government Accounting 
Office (GAO), to move forward with governance changes.
    Throughout my remarks this morning and in my statement for 
the record I have referred to our jointness in theater, in our 
classrooms and labs, and in common pursuit of solutions for 
challenges like Tramatic Brain Injury (TBI). I stress our 
commitment again to the interoperability and cost-effective 
joint solutions in terms of overall governance, and I look 
forward to partnering with my fellow Surgeons General and the 
Assistant Secretary of Defense for Health Affairs in finding 
these solutions.
    Navy Medicine looks forward to working on the next phase of 
the Deputy Secretary's plan. We must proceed in a deliberative 
and measured manner to ensure that our readiness to support our 
services' missions and core warfighting capabilities will be 
maintained and our excellence in health care delivery will be 
sustained.
    On behalf of the men and women of Navy Medicine, I want to 
thank the committee for your tremendous support, confidence and 
your leadership. It is my pleasure to testify before you today, 
and I look forward to your questions.
    [The statement of Admiral Nathan follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                     Summary Statement of LTG Green

    Mr. Young. Admiral, thank you very much. We appreciate 
especially the conversations we had at the last hearing with 
all of you about the new governance. I don't know that we are 
going to do too much on that issue today. We might. We will see 
how it goes.
    General Green, again, thank you for being here. You have 
always been very, very direct in your statements and very 
direct in your answers to our questions that are probing on 
occasion, and we just appreciate that honesty and we appreciate 
you. We are sorry this is going to be your last time to visit 
with us, but we are still your friends and we will still be 
here even after you move on to your next role in life.
    So we are glad to hear from you at this point, sir.
    General Green. Thank you, sir. I too will abbreviate my 
comments today.
    Chairman Young, Representative Dicks and members of 
committee, thank you for inviting me here and for your very 
kind words. The Air Force Medical Service could not achieve our 
goals of readiness, better health, better care and best value, 
without your support, and we thank you. To meet these goals, 
the Air Force Medical Service is transforming deployable 
capability, building patient centered care, and investing in 
education, training and resource to sustain world class health 
care. In the coming year we will work shoulder to shoulder with 
the Army, Navy and DOD counterparts to be ready, provide that 
better health, better care and best value to America's heroes. 
We will find efficiencies and we will provide even higher 
quality care with the resources we are given, and together we 
will implement the right governance of our military health 
system.
    I thank this committee for your tremendous support to 
military medics, and a special thank you to Representative 
Dicks. Our success, both at home and on the battlefield, would 
not be possible without your persistent and generous support. 
Thank you, and I look forward to answering your questions.
    [The statement of General Green follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                       Remarks of Chairman Young

    Mr. Young. General, thank you very, very much.
    I told you, General, that I wanted to make a comment on 
your statement about miracles. If you remember a few years 
back, Walter Reed got beat up in the media because of that 
Building 18 issue that really had nothing to do with medical 
care, and I got beat up because I wouldn't join in the chorus 
condemning Walter Reed because I made the point numerous times 
that at Walter Reed and at Bethesda, I personally, not being a 
medical expert, but I personally have seen what I consider to 
be miracles happen at both of those hospitals. And I can cite 
examples, I can cite the patients, I can cite the doctors who 
performed these miracles, and I suspect that God's hand was 
with them. Otherwise some of these soldiers and marines might 
not have made it.
    But there was one marine that was given up for dead, the 
family left the hospital, went home to prepare the final 
arrangements for their son, and this one doctor said, I am not 
going to let this kid die. And he tried something that I think 
maybe today is still a little bit unorthodox, but he saved the 
kid.
    I was surprised a few months later when a police officer 
walked into my office in Washington and he said, you don't 
remember me, do you? I said, no, I don't. He said, well, I am 
the one they gave up for dead and I am the one that they 
brought back to life. I am the miracle. So he survived, he went 
on to go to the police academy and he is serving today as a 
patrolman in the City of New York. So that is just one of the 
miracles that I think I have witnessed there at the hospitals.
    Anyway, I told President Bush right after 9/11 when, of 
course, we all huddled together quickly to do what we had to do 
to recover, to respond, and I said, Mr. President, when we go 
into this war, you are going to find out that our warriors are 
going to be hurt bad. Because of the great advances in military 
medicine, the new medicines, the new training, the ability to 
have corpsmen and medics who are more capable than ever, the 
ability to evacuate from the battle zone and just everything, 
the kids are going to live today who would have not survived in 
a previous war. The issue is they are going to be hurt worse, 
and it is going to require a lot to take care of them. And all 
of you have seen exactly what I am talking about, and all the 
Members of Congress that I can get to come see for themselves 
are amazed by the care and the treatment and the ability to 
save the lives of some of the quadriplegics who maybe will not 
have much of a life left, but, anyway, they are alive and their 
families still have them.
    So this committee is prepared to do whatever we need to do 
to make sure that you have the adequate resources, whatever it 
is, supplies, personnel, whatever you need to make sure that 
these heroes are properly and adequately taken care of, so that 
they can get on about their life and receive the benefits that 
they really, really deserve and have earned with the sacrifices 
they made.
    So, that is my preaching for the day.
    I want to yield to Mr. Lewis.
    Mr. Lewis. Go to Mr. Dicks, Mr. Chairman.
    Mr. Young. Let me go to Mr. Dicks then.

                      MADIGAN ARMY MEDICAL CENTER

    Mr. Dicks. Thank you very much, and, again, I want to 
commend the witnesses for their great service.
    General Horoho, we have talked about this Madigan 
situation. Would you like to just give an overview of what you 
are doing and why you are doing it?
    General Horoho. Yes, sir. We found back in the September-
October timeframe that we had 17 service members that came 
forward with concerns that their diagnosis was changed from a 
behavioral health diagnoses to one that was non-behavioral 
health after being reevaluated by our forensic psychiatry 
department out at Fort Lewis, Washington, and based on those 
concerns we offered them the opportunity for a reevaluation at 
Walter Reed National Military Medical Center, and then as they 
were being reevaluated we found that there was a brief that was 
provided by one of the forensic scientists that alluded to a 
focus on compensation and the cost of PTSD. So, because of that 
and some other concerns, I initiated an investigation to look 
at the climate and the practices and variance and to make sure 
that we were fairly treating our service members and providing 
them the best care possible. That investigation is ongoing.
    We also initiated an IG assessment across all of Army 
medicine to make sure that we didn't have variance or systemic 
issues. That is still ongoing. Both of those should be 
completed shortly. In addition to that, when we got the results 
back from Walter Reed, we found that 12 out of 14 of the 
service members' diagnoses were reverted back to the original 
decision by Behavioral Health. So then we looked and evaluated 
every single service member that had gone through forensic 
psychiatry as a second evaluation going back to 2007, and that 
was about 1,600 service members.
    When we relooked, there are 285 of those service members 
that had their diagnoses changed. Each one of those are going 
to be personally contacted and offered the opportunity to come 
back to be reevaluated. So currently that is where we are right 
now, sir.
    Mr. Dicks. In the press there has been some insinuation 
that this is being done in a politically correct way. I know 
that is inaccurate. But I think what we are trying to do is to 
have it be done in a medically correct way so that there is not 
pressure for these people to have the decisions reversed, it is 
just review the decisions and make sure they are accurate. 
Isn't that correct?
    General Horoho. Yes, sir. But what we are looking at is 
one, to make sure that our service members received the best 
care possible, and we are also looking at variance. And across 
our processes, forensic psychiatry is not a good capability, it 
is not a bad capability, it is a capability. But it introduces 
variance into the Integrated Disability Evaluation System 
(IDES) process, and that is what is being evaluated as well.
    Mr. Dicks. Also, and I was quite concerned about this, the 
closure of the intensive outpatient clinic at Madigan in 2010, 
and there was concern because a lot of people, and I know this 
is part of the investigation, but there was concern because a 
lot of people thought this was an extraordinarily effective 
program and was having a good result for the wounded warriors, 
and then the program was canceled. So we are doing that 
investigation, and we are looking at Landstuhl, isn't that 
correct?
    General Horoho. Yes, sir.

                           OMBUDSMAN PROGRAM

    Mr. Dicks. Because there were concerns raised there. Tell 
us about the Ombudsman Program. What are you doing on that?
    General Horoho. The Ombudsman Program is a program that 
started in 2007 in response to concerns of making sure that we 
had the ability for service members' voices to be heard with 
any concerns that they have. So we have over 50 ombudsmen that 
are working across Army medicine. They don't report to the 
chain of command. They actually report to me as the medical--
well, Frank Berlingis is one level, and then it is to the 
MEDCOM commander. And it is a fair way to allow any concerns to 
be raised and to kind of look at resolution of issues at the 
lowest level.
    Because of this occurring out at the Fort Lewis area and 
some concerns, I had an evaluation done to see if there was any 
concerns at Fort Lewis. And then we have also asked AAA, our 
Army Audit Agency, if they would please review the entire 
Ombudsman Program going back to 2007 to ensure that it is 
working in the way that we want it to be working. So that is 
ongoing as well.
    Mr. Dicks. Well, we appreciate the way you have dealt with 
this problem and the fact that the Army, I think, is trying to 
be as fair as possible with these soldiers. What concerned 
Senator Murray and myself was the fact that some of these 
soldiers felt that the reversal of their diagnosis was not 
accurate. So we are pleased that you are doing this. I know it 
takes a lot of work and effort to get it done, but I think it 
will clear the air so the people will have a chance, if their 
evaluation was reversed, to have it reevaluated.
    General Horoho. Yes, sir.
    Mr. Dicks. That is all I have today, Mr. Chairman. Thank 
you.
    Mr. Young. Thank you, Mr. Dicks.
    Mr. Lewis, are you prepared?

                     POST TRAUMATIC STRESS DISORDER

    Mr. Lewis. I am, Mr. Chairman.
    General Horoho, I have similar questions to Mr. Dicks' 
question. They are the result of some communication to me from 
my good friend Dr. Michael Walter, a retired Brigadier General 
from the U.S. Army who is currently employed as a 
gastroenterologist at Loma Linda University Medical Center. He 
brought to my attention the case of Colonel Dallas Homas at 
Madigan. Dr. Walter served and traveled with Dr. Homas in 
Afghanistan and knows him to be an outstanding soldier, 
physician and leader, whose highest priority is taking care of 
soldiers.
    I specifically want to associate myself with the comments 
of Mr. Dicks, and I do appreciate your effort in connection 
with this very complex and difficult problem.
    While not getting into the specifics of this case, I do 
have some questions about the manner in which PTSD is diagnosed 
throughout the U.S. military. Has MEDCOM published any guidance 
in diagnosing PTSD? General Horoho, do you have or have you 
ever endorsed the use of forensic psychology testing in the 
evaluation process of PTSD diagnosis?
    And further, my last question, while I know each case is 
different and unique, I would like to know if all the services 
feel it would be helpful to have general uniform guidelines in 
place in determining the diagnoses of PTSD?
    General Horoho. Thank you, sir. For the very first 
question, there are Department of Defense guidelines for 
diagnosing PTSD which each one of our services follows, so 
those guidelines have been in place and we are all consistent 
with following those. There is also uniform training for our 
providers across the Department of Defense.
    Mr. Dicks. Would my friend yield? Are they the same? Is 
there a difference in how PTSD, post-traumatic stress disorder, 
is evaluated? Is it different for each service?
    General Horoho. I will speak just for the Army and then let 
my fellow Surgeon Generals speak to that--there is a common 
standard for diagnosing PTSD. There is the clinical judgment 
that is part of that, because it is not a hard science. So we 
do have standards, but we also have the clinical judgment of 
each provider that is providing that behavioral health care.
    Mr. Lewis. Please proceed.

                          FORENSIC PSYCHIATRY

    General Horoho. Thank you, sir. So we have those standards 
that are out there. The second question that I believe you 
asked is whether or not I have ever endorsed Forensic 
psychiatry. Forensic psychiatry stood up back in 2007. I took 
command of Madigan Army Medical Center in 2008, so this 
capability was in place.
    What was ongoing at that time was in 2007 we were just 
standing up warrior transition units across the Army. We didn't 
have the Integrated Disability Evaluation System. So out West 
we were looking at using all of our behavior health assets to 
work with the backload of medical evaluations and providing 
behavioral health, and then we were also over those ensuing 
years developing a behavioral health system of care.
    In 2010 the Department of Defense rolled out the Integrated 
Disability Evaluation System, which then took the compensation 
piece away from our providers and actually had that as one 
disability rating with the VA. So it took that friction point 
away.
    Then regarding Colonel Homas, sir, there are a couple 
things. When we started the investigation, the chief of 
forensics was actually administratively suspended pending the 
investigation. The warrior transition surgeon was also 
administratively suspended pending the investigation; and then 
Colonel Homas was administratively suspended pending the 
investigation. And those are normal procedures when an 
investigation is ongoing.
    Mr. Dicks. I think the point is that is not an aspersion on 
these officers, it is just that this is the way you do it 
during an investigation. So there is a good chance that they 
could all be cleared, or some of them could be cleared.
    General Horoho. Yes, sir. What we are doing right now----
    Mr. Dicks. Are they being investigated?
    General Horoho. Sir, the command climate, the variance in 
the practice and why this deviation had occurred is all being 
looked at. It is a very comprehensive investigation, because 
the standard across Army Medicine is that we don't typically 
use forensics as part of the disability system once that stood 
up in 2010. So we are looking at all of that.
    Mr. Lewis. I am satisfied. Thank you, Mr. Chairman.
    Mr. Young. Okay, Mr. Lewis.
    Mr. Frelinghuysen.

                         BATTLEFIELD EYE TRAUMA

    Mr. Frelinghuysen. Thank you, Mr. Chairman. Good morning. 
All of us salute the work you do at home and abroad. It is 
remarkable how you get those from the battlefield, evacuate 
them from Bagram or in the past maybe from Balad in Iraq and 
get them to Landstuhl and get them home and the service that 
they get.
    I would like to focus just for a few minutes on battlefield 
eye trauma. I know often the focus is on loss of limbs and 
remarkable things are done in terms of rehabilitation and 
prostheses, and TBI is a huge issue. But would one or more of 
you focus for a few minutes, I believe the VA has vision 
injuries as sort of the fourth largest injury component.
    What are we doing in terms of investments in this area of 
research? It is pretty basic. I just wonder, what are we doing? 
What are you doing jointly or individually to meet these types 
of needs?
    Admiral Nathan. Thank you for the question, sir. I can 
speak to one arm of engagement, which is the Vision Center of 
Excellence which has been stood up. It is one of the four 
Centers of Excellence that is under the aegis of the Defense 
Center of Excellence umbrella portfolio. It exists at Walter 
Reed National Military Medical Center. It is being staffed as 
we speak.
    Mr. Frelinghuysen. So it exists now?
    Admiral Nathan. Yes, sir, it exists now. It has not reached 
its robust operating tempo yet as they are still staffing and 
hiring the requisite personnel. But it will not be a clinical 
entity, although it is proximal to the very large ophthalmology 
and optometry units at Walter Reed Bethesda. It is designed to 
be a clearinghouse and collating repository for the Department 
of Defense in eye injuries, eye trauma and eye care related to 
wounded warrior care.
    Mr. Frelinghuysen. So in the overall scheme of things, sort 
of translate for me, this is a priority? Certainly if it is the 
fourth largest combat injury, and we are not minimizing the 
others, is this a priority? Is it reflected in your funding?
    Dr. Woodson. Yes, sir, and there is approximately $15 
million that is available for competitive research, so we are 
trying to make sure that we have the best of intramural and 
extramural research and partners to address this.
    Mr. Frelinghuysen. I ask the question because I think 
sometimes quite honestly, I have quite a lot of people visit my 
office on this issue and they don't feel that there is enough 
research going on, and often I think the statistics are sort of 
underreported. And even more alarming, Mr. Chairman, I hear 
somewhat anecdotally, and I would like your reaction, that 
there are reports that some of our troops have been--some eye 
damage has been caused by some of our own forces, lasers, 
things from our own, shall we say, friendly fire. Would one or 
more of you comment often that issue?
    Admiral Nathan. Well, my comment would be, sir, that I am 
not aware of the specific numbers of these injuries.
    Mr. Frelinghuysen. So you are not aware of any of those 
that have suffered retinal damage or accidental exposure to 
these types? I wonder, because I just think if there is an 
issue there, how are we dealing with it?
    Admiral Nathan. I certainly wouldn't rule out that 
possibility, and perhaps my colleagues know of a more codified 
review, and the line operators may well have more information 
on that.
    Mr. Frelinghuysen. No one does it deliberately, but when 
you have choppers out there, you have fighters out there and 
they are providing close support, things happen. I just 
wondered if you could address it. General Green?
    General Green. Sir, just so you know, we pay very close 
attention to this because of the potential injuries to our 
fliers, because it is a credible threat. So we have some 
research that goes on in terms of detectors, things that can 
actually tell us the wavelength and the power so that we know 
what the damage may be. There is a reporting system in the 
theater that actually captures laser eye injuries. A lot of 
this is worked through the School of Aerospace Medicine. I 
don't have a lot of details today, but I will be happy to bring 
back the details.
    Mr. Frelinghuysen. Certainly there is the vulnerability of 
pilots to all sorts of lasers. But I am talking about troops on 
the ground. If you don't have the information, would you be 
willing to focus on that for me? I would appreciate it. I think 
it is an issue, and if it should be part of some sort of a 
doctrine here--you are providing the air support, or the Army 
may be doing it too. I just think there are some issues here.
    Admiral Nathan. Sir, ideally the Visual Center of 
Excellence will be able to wrap its arms around all of the 
various----
    Mr. Frelinghuysen. Will you ask them to wrap their arms 
around that probability as well?
    Admiral Nathan. Yes, sir.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    [The information follows:]

    The Air Force Medical Service is actively engaged in efforts to 
manage and counter the medical threat posed by lasers. In accordance 
with Department of Defense (DoD) Instruction 6055.15 (May 4, 2007), 
``The Secretary of the Air Force shall establish, administer and 
maintain the Tri-Service Laser Injury Hotline to provide immediate 
expert medical advice in the event of an injury or suspected injury to 
DoD personnel from lasers. The Secretary of the Army shall establish, 
administer and maintain the Laser Accident and Incident Registry for 
DoD Components and analyze data for use in laser safety, protection, 
and treatment programs.''
    The United States Air Force School of Aerospace Medicine at Wright-
Patterson Air Force Base, Ohio operates the Tri-Service Laser Injury 
Hotline. A Laser Radiation Accident/Incident Reporting form is used to 
record all events. It has recently been revised and will be distributed 
along with a Laser Injury Guide that is also currently being updated.
    In addition, the Air Force Surgeon General's Modernization 
Directorate has been engaged in research efforts to develop laser 
sensors that possess the capability to detect and characterize incident 
laser beams as well as assessing their potential eye hazard threat.

                        VISION RESEARCH PROGRAMS

    Mr. Young. Thank you, Mr. Frelinghuysen.
    Mr. Moran.
    Mr. Moran. Thank you, Mr. Chairman, and I appreciate Mr. 
Frelinghuysen bringing that up. The subcommittee's concern has 
been that you continue to reduce peer-reviewed vision with the 
justification that the Center for Excellence is doing it, but 
we don't see the research component within the Center for 
Excellence. So that is what Mr. Frelinghuysen was getting at, 
and I share his concern that it is not the same kind of 
activity and we want to make sure that there is an ongoing 
research component. That is why the subcommittee put the money 
in.
    Mr. Frelinghuysen. Will the gentleman yield?
    Mr. Moran. Sure.
    Mr. Frelinghuysen. Can we ask the chairman whether you 
would help to assure that? Could you assure us that that would 
be part of this center?
    Admiral Nathan. Absolutely, sir. We will communicate 
directly to the VCOE.
    Mr. Frelinghuysen. Thank you for yielding.

                      PROPOSED SAVINGS INITIATIVES

    Mr. Moran. Very good. Now, my first question is with regard 
to cost sharing in the Defense Health Program. In 2000, as you 
know, the Pentagon spent $17.7 billion on medical benefits, and 
now we spend $44.3 billion, a 150 percent increase. So you have 
proposed things like coinsurance, copays and so on, that 
Federal employees currently pay in their health care coverage 
but that TRICARE beneficiaries don't. I know that those changes 
will not apply to active duty service members or their 
families.
    But I was struck by your quote, Dr. Woodson, and I quote, 
``That given the constraints of the Budget Control Act, if no 
adjustments are made in TRICARE fees and we don't achieve more 
than $12 billion in savings over the 5-year defense plan, 
additional force structure cuts will need to be made.'' Would 
you amplify on that a bit, Doctor?
    Dr. Woodson. Yes. Thank you very much for that question. 
And just to create a context, before we even considered TRICARE 
fees, there were a number of initiatives and considerations 
taken. The initiatives to control costs really are multiple.
    First of all, you know we are in a multi-year set of 
initiatives to control headquarters costs. Last year we removed 
440 FTES from headquarters and by the end of this year we will 
have achieved removing 780 FTEs. We put in a number of 
management reforms that have yielded very positive results in 
reducing costs, including a robust fraud and recuperative 
program that has yielded $2.6 billion over the last 4 years, a 
pharmacy management program that has yielded $3.4 billion, 
medical supply and acquisition standardization yielding $31 
million annually, other management efficiencies as it relates 
to, again, headquarters management, and the prospective payment 
system that yield about $1 billion annually. So we have been 
aggressively addressing the issue of costs.
    But in the last year, the world has changed. There has been 
a global fiscal crisis, a national fiscal crisis, a 
reevaluation of bond ratings, the super committee and then the 
Budget Control Act. And under Title I of the Budget Control 
Act, the Department of Defense is required to achieve $487 
billion in savings over 10 years, $269 billion over the FYDP.
    The Secretary and senior line leadership in the Pentagon 
had to look at everything. Personnel and benefits costs are 
about a third of the budget, but the decision was made in fact 
that 90 percent of the savings would come from other areas, 
force structure, weapons programs, et cetera, and then only 10 
percent would reflect personnel costs. In truth, the health 
care fee adjustments only represent 5 percent of the savings 
and, as you have correctly indicated, trying to achieve about 
$12 billion-plus over the FYDP.
    When looking at what adjustments should be made, we went 
back to the 2007 Task Force on the Future of the Military 
Health Care Report to look at what we had done and what could 
still be done to achieve savings in health care costs. We 
looked at, there was somewhat I think about 12 separate 
initiatives, and we had made progress really on all except the 
recommendation to update retiree cost share. And what we did is 
we followed that formula, including the tiering. And that is 
how we arrived at the fee adjustments, and we spread it out 
over all of the programs so not one particular program would 
take maximum effect.
    So we consider taking care of men and women who have 
committed to the defense of this Nation seriously and long 
term, but we had to create a structure that would ensure an 
enduring and sustainable program.

                              TOBACCO USE

    Mr. Moran. Well, thank you. My response was little more of 
an opening statement kind of response than I anticipated, but 
you stand by that statement that if we don't make adjustments 
to health care, it is going to show in the need to further 
reduce force.
    I just had two follow-ups related to the original question. 
We have got a couple of areas where we really are not saving 
the kind of money we are outside the military. One is in 
smoking. Smoking among service men and women is twice as 
prevalent as it is outside the military. Two-thirds of those in 
deployed status are smoking and half started smoking after 
joining the military. So there is about a quarter of a million 
veterans who are going to develop a tobacco-related illness 
which is going to have to be paid for by TRICARE, which is an 
element of spending that we don't have in private insurance 
plans. That is correct, I gather?
    Dr. Woodson. Absolutely, sir, and thank you so much for 
bringing this up, because one of my priorities this year, one 
of the other broad buckets of how we are addressing health care 
costs, is moving from what we call health care to health, 
really creating population health which in the outyears will 
reduce costs. And one of the targeted areas for this year is 
smoking cessation, trying to create more smoke-free campuses 
and disincentives for smoking, bringing leadership, 
particularly senior enlisted leadership, into the campaign to 
reduce smoking among service men and women.

                           PRESCRIPTION DRUGS

    Mr. Moran. Well, that and the issue of drugs, in some cases 
over half of the money spent on drugs is wasted because we try 
to find the right drug and mix of drugs, and if we have got 
300,000 returning veterans who have been given drugs to deal 
with PTSD and depression and traumatic brain injury and 
combinations, it is enormously expensive and it is not 
necessarily immediately effective. It is kind of a trial and 
error situation.
    You can respond if you want. I know I am out of time though 
and I don't want to indulge on the chairman's leniency, but 
those are two areas I do think we need further focus. Thank 
you. Is there anything you wanted to say very quickly?
    Admiral Nathan. If I could just add, for example, one of 
the things we have just been able to obtain is relief from the 
provision that we had to sell tobacco products on our Navy 
facilities at reduced prices. So now that has been alleviated. 
Again, we are looking at every disincentive we can to have the 
service member take the path of least resistance, being to not 
smoke, to not use smokeless tobacco products. More of our 
hospitals are becoming smoke free and we are increasing access 
to smoking cessation programs in conjunction with 
pharmaceutical smoking cessation products.
    General Horoho. Sir, just to address that, in the overall 
movement towards health is we are looking at tobacco cessation, 
as well as sleep management, anger and alcohol abuse, all of 
those stress relievers that may have someone turn to smoking, 
and really look at it from a comprehensive perspective to 
increase their health.
    Mr. Moran. Good. Well, you are trying. Thank you.
    Mr. Young. Thank you very much, Mr. Moran. I appreciate 
your raising that issue, believe me. It is important.
    Mr. Crenshaw.

           CONGRESSIONALLY DIRECTED MEDICAL RESEARCH PROGRAM

    Mr. Crenshaw. Thank you, Mr. Chairman, and thank you all 
for being here. I wanted to ask a couple of questions about the 
congressional-directed medical research program. You all know 
that is a program that Chairman Young pioneered and it has made 
some tremendous breakthroughs in a lot of areas.
    There is an area that I know you all have worked on, 
inflammatory bowel disease. I know a little bit about it 
because my daughter has suffered with it for about 12 years. It 
is interesting, when I go, we do a lot of advocacy work, and it 
seems like we will be at a large gathering, either raising 
money or raising awareness, and it seems like every time there 
is a situation, I will meet somebody in the military that has 
come up and said you know, I had IBD. I had to leave the 
military, or it caused a real problem. I think it affects about 
one out of every 200 people. People don't like to talk about it 
because it is about the digestive tract and all that kind of 
stuff.
    But I think it is great that some of the money we have 
appropriated and I know you all have used, they don't know what 
causes it, they don't know how to cure it, but they are 
discovering some of the genetics aspects, and I think that is 
wonderful what you are doing. I wanted to ask you a couple of 
questions about that whole program. Maybe touch on just a 
couple other success stories that you can talk about, number 
one.
    Number two, talk about how you decide what areas to study? 
Is it more that it benefits the military or is it just research 
in general? And maybe talk about what is the difference between 
the research you do through the Department of Defense and what 
other research is done, say through Health and Human Services. 
Can you just talk briefly about those three items?
    Dr. Woodson. Well, first of all, let me thank you for the 
question and thank the entire committee and the Congress for 
supporting Congressionally-directed research programs. It is 
enormously important. Not only does it add value to military 
medicine but obviously American medicine by the advances that 
are made.
    In regards to the specific program, what I would love to do 
is take your question for the record and give you specifics. 
But in general, of course, as you correctly indicated, no one 
knows exactly why this problem comes about and various 
treatment modalities have in fact been devised to address the 
symptoms depending on severity.
    As it relates to men and women in the military, of course, 
we would love to pursue avenues in which they didn't have to 
take immuno-suppressive agents and then not be deployable and 
impact their career. So that is one avenue clearly that we want 
to address, is better strategies for care so that they can 
remain fully employable in the military. But I would love to 
take your question for the record.
    [The information follows:]

    Starting in 2008, the Department of Defense has supported research 
on inflammatory bowel disease. The research projects are part of the 
Congressionally Directed Medical Research Programs at the U.S. Army 
Medical Research and Materiel Command. Research in this area is by 
Congressional direction which distinguishes it from research on that 
topic conducted by other Federal agencies. From 2008 to 2010, eight 
research projects have been awarded and research is underway. In 
addition, there are four research awards in this area that are pending 
final approval. We look forward to providing significant contributions 
to the field of inflammatory bowel disease when these research projects 
conclude.

    Mr. Crenshaw. But in general, I am just curious how you 
decide, like when you decide to study disease, is it more just 
research in general, or do you look at a disease that might 
more directly impact military personnel?
    Dr. Woodson. Both. In some of the Congressionally-directed 
research programs, it is particular areas that Congress might 
be interested in that we pursue. But also, you know, our 
research portfolio is always driven by priorities affecting the 
military. So certainly after 10 years of war, a lot of our 
priorities are driven by the invisible and visible wounds of 
war and how to prevent those issues or make wounded warriors 
whole.

                        MEDICATION TO TREAT PTSD

    Mr. Crenshaw. Maybe just one more brief question. When we 
talked about PTSD, I have talked to some people but I guess it 
is a broad category and you have different symptoms and things 
like that. Do you all try to kind of gear, particularly when 
you are dealing with medication, is there one particular drug 
that is used in general, or are there specific drugs that deal 
with specific aspects of that overall condition? Because I have 
heard some criticism sometimes that people say, well, I got 
PTSD, and they say take this drug and things will be fine, and 
it is maybe more complicated than that.
    General Horoho. Sir, I will answer that question. There is 
a lot of work that is being done with not just looking at 
providing medication, but actually looking at yoga and stress 
reduction, virtual reality and many different forums that we 
can actually try to help someone with their behavioral health 
and help them on the healing journey. So there are some 
medications that may work better than others for one individual 
and then may not be as effective on another individual.
    So the Pain Management Task Force has stood up over the 
last 12 to 15 months, and we are really looking at it from a 
holistic perspective, from the behavioral health to pain 
management and to decreasing the stress using all different 
therapies that are out there.
    Mr. Crenshaw. But in the prescribing of medication, it is 
based on individual symptoms, not kind of one pill cures all?
    General Horoho. It is individual.
    Mr. Crenshaw. Got you. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Young. Thank you, Mr. Crenshaw.
    Mr. Dicks. He wanted to make a statement.
    Mr. Young. I am sorry.
    General Green. I was going to contribute to the discussion 
so you hear it beyond a single service.
    In the Air Force, we train all of our mental health 
providers in the diagnostics as well as the treatment. The 
actual treatment in terms of the evidence base for PTSD falls 
into two categories, which is the prolonged exposure training 
and the cognitive processing training, and it is not 
necessarily tied to any particular drug. So the drugs are 
always individually prescribed.
    And the clinical diagnostics actually are the same as they 
would be in the civilian community. We do have DoD guidelines, 
but they draw heavily from the DSM and basically the guidelines 
that are put out for mental health providers to do this. So it 
is very standardized training. It is a clinical diagnose.
    In terms of your research question, if I could contribute 
to that one, we put much more money, into things that affect, 
for instance, Aerovac or wartime skills. We put a lot more 
things into how do we track equipment; for instance, the RFID 
efforts that have been going on to make certain we can track 
things in the Aerovac system, get them back into the system, 
take care of the next patient. Also things like pre-hospital 
care to try and increase the survival rate, can we use new 
devices in addition to the tourniquets and some of the new 
dressings. Are there ways to use new things to stop bleeding.
    So there are a lot of things that go into that. We have 
also reduced the ability to actually transport a patient on 
heart-lung machines so that we can take the sickest of the 
sick. So when you look at what we focus our efforts on, we do 
some research on just diseases that are common that affect the 
deployability, but the majority of our research is actually 
focused on wartime care.
    Admiral Nathan. If I could just add, I think it is 
critically relevant as far as post-traumatic stress, which is a 
syndrome, and post-traumatic stress disorder, which is a 
diagnosis that is clinically defined across the spectrum of the 
services and American healthcare that, we found the 
multidisciplinary approach is really the best. And whereas we 
used to take care of people sequentially, they would first see 
the psychiatrist, then the neurologist, then perhaps maybe 
somebody trained in complementary medicine such as acupuncture 
or manipulation. Now we find that if we can approach the 
patient and the patient's family in a multidisciplinary 
environment with all the medical specialists in tow and look at 
the patient in total, we get the best results. That is good 
news.
    This is personnel intensive, though, because that requires 
a lot of resources at one time. So we are trying to model what 
we have learned in areas such as the National Intrepid Center 
of Excellence (NICOE) at Walter Reed Bethesda, a Center of 
Excellence for TBI and Post-Traumatic Stress, and we are 
branding that now and sending out what we have learned, those 
algorithms of care, to NICOE satellites in other places like 
Camp Lejeune, Fort Belvoir and other Navy and Army facilities.
    Mr. Young. Okay.
    Mr. Dicks. Would the gentleman yield just briefly on this 
point?
    Mr. Young. I yield.
    Mr. Dicks. Thank you. There was a story today in The New 
York Times, veterans with post-traumatic stress disorder are 
more likely to be prescribed opioid, I hope that is how you say 
it, painkillers than other veterans with pain problems and more 
likely to use the opioids in risky ways, according to a study 
published Wednesday by the Department of Veterans Affairs. The 
study, published by the Journal of the American Medical 
Association, also found that veterans returning from Iraq and 
Afghanistan who were prescribed opioids for pain, and 
particularly those with post-traumatic stress disorder, had a 
prevalence of adverse clinical outcomes like overdoses, self-
inflicted injuries, and injuries caused by accidents or 
fighting.
    Are you aware of this concern?
    Dr. Woodson. Yes, and thank you very much for bringing this 
issue up. We know that veterans and individuals, even civilians 
who have post-traumatic stress disorder, are at risk for other 
substance abuse, use of polypharmacy, and then being at risk 
for adverse events as a result of those medications that they 
take. And I think this study that was carried out actually 
confirms those suspicions, and it is why I think within the 
military as we try and advance our strategies for managing PTSD 
we are trying to move away from drugs and medication to 
alternative therapies and other strategies to reduce the PTSD 
symptoms.
    General Horoho. Sir, there has been a tremendous amount of 
work done over the past several years when we look at trying to 
move more towards wellness and prevention. So we have been 
using telebehavioral health in Afghanistan so we can early on 
provide behavioral health support in a deployed environment. We 
have got five touch points when our service personnel are 
redeployed back with behavioral health where they see a 
behavioral health provider face-to-face.
    We have put in policies where if any service member is on 
four or more medications, one of them being opiates, that there 
is a clinical pharmacologist that actually reviews their 
records and works with the triad of care: the physician, the 
cadre member, and the nurse case manager. And then we have also 
put in a policy--because our concern was that when individuals 
may get medication from going to a dentist or someone else--
that we have stopped the shelf life of the medication, so that 
it is 6 months and then it expires. We have limited it down to 
30 days of supply so that we reduce the amount of drugs.
    And then we also have a sole provider. When we have a 
concern of an individual that may be on an increased number of 
medications, we will then have one provider that monitors the 
medication that they get in the civilian sector as well as what 
they get in the military so that we make sure we are providing 
them the best oversight of care.
    Mr. Dicks. Thank you.

                                 AUTISM

    Mr. Young. Mr. Hinchey.
    Mr. Hinchey. Yes, thank you very much, Mr. Chairman, and 
thank you all very much. I just want to express my deep 
appreciation to everything you are doing, the complex 
circumstances that you are involved in, and the clarity of that 
is very, very much expressed in the responses that you provide 
for the questions that are asked of you here.
    So I want to thank you for all your efforts in improving 
the lives of our service members and their families, and I 
would like to particularly applaud on some of the mental and 
behavioral health initiatives.
    But there is one thing that I wanted to mention which seems 
to be also complicated, but is not really being dealt with 
effectively. I am sure that you know there is an estimated 
20,000 military children suffering from autism and, based on 
the data that I have seen, these children are not receiving the 
level of care that they deserve and they are not receiving it 
really by a long shot. In the treatment of autism, early 
intervention and intensive behavioral therapy, including 
applied behavioral analysis therapy, are imperative to success, 
obviously, and I am sure you really know that and deal with 
these things very effectively.
    ABA therapy is the most widely utilized treatment 
recommended by many national medical policy institutions. It is 
recognized as medically necessary in 29 States, but not under 
TRICARE. In fact, TRICARE segregates ABA therapy under the ECHO 
program, which is only available to active duty service 
members. And even the therapy available to active duty service 
members falls far short, providing only about 10 hours per week 
out of the 25 to 40 hours per week prescribed by doctors. In 
some areas, such as this place where we are, for example, 
Washington, D.C., it apparently only provides 5 hours. 
Dependents of military retirees are not eligible, and this also 
includes wounded warriors who are forced to retire medically. 
Imagine being wounded in Iraq or Afghanistan and forced to 
medically retire because of your injuries, and your child, the 
child losing his or her autism therapy.
    We have an obligation to provide the health care needs of 
our military families. Policy changes are urgently needed to 
recognize the medical necessity of behavioral health treatment 
such as ABA and fund them appropriately. Military families who 
serve our Nation, as you provide for them, really deserve the 
best kind of treatment that they could get. And I know that is 
the basic kind of things that go about in so many things, but 
this is one thing that seems to me to be something that really 
needs to be more attention.
    So can you comment on what is being done to ensure that all 
military children get the doctor-prescribed amount of therapy 
for autism?
    Dr. Woodson. Thank you very much for that question, and I 
appreciate your concern and support of service men and women 
who have children who may be afflicted with this condition. 
Part of the issue for us is that it is not an issue of a policy 
change, but it is an issue of a statute change. As it turns 
out, ABA is not considered a medical treatment, but an 
educational intervention for the management of autism, and we 
currently provide about $36,000 a year in benefits for active 
duty service members for dependents who have this condition. As 
you have correctly outlined, once they retire, because of 
statutes again, we cannot provide that care.
    So the issue is not--and then we are statutorily prohibited 
from providing this service under TRICARE except through the 
vehicle of the ECHO program, which I have just signed an 
extension of that program until we can figure out how to do 
this. It is not a policy issue. In many cases, it is under an 
educational benefit.
    Mr. Dicks. What is the ECHO program?
    Dr. Woodson. It is the Exceptional Care Program--let me get 
you the right acronym. But it is an exceptional care program 
that allows us to extend these benefits for certain conditions 
in which perhaps the medical proof is not there, but it seems 
reasonable to provide certain care. But in this case the issue 
is that it is considered an educational intervention, not a 
medical intervention, and so we are limited to providing 
reimbursement for it under TRICARE.
    [The information follows:]

    The Extended Care Health Option (ECHO) is a supplemental program to 
the TRICARE Basic Program and provides eligible Active Duty Family 
Members (ADFMs) with additional financial resources for an integrated 
set of services and supplies designed to assist in the reduction of the 
disabling effects of the beneficiary's qualifying condition. ECHO is 
established in law at Section 1079(d)-(f) of Title 10 of the United 
States Code. The ECHO is not an enrollment program but does require 
registration. TRICARE ECHO provides financial assistance only for 
active duty family members with specific qualifying mental or physical 
conditions, including:
         <bullet> Diagnosis of a neuromuscular developmental condition 
        or other condition in an infant or toddler expected to precede 
        a diagnosis of moderate or severe mental retardation or serious 
        physical disability
         <bullet> Extraordinary physical or psychological condition 
        causing the beneficiary to be homebound
         <bullet> Moderate or severe mental retardation
         <bullet> Multiple disabilities
         <bullet> Serious physical disability
    ECHO provides benefits not available through the basic TRICARE 
program, such as coverage for:
         <bullet> Assistive services (e.g., those from a qualified 
        interpreter or translator)
         <bullet> Durable equipment, including adaptation and 
        maintenance
         <bullet> Expanded in-home medical services through TRICARE 
        ECHO Home Health Care (EHHC)
         <bullet> Medical and rehabilitative services
         <bullet> In-home respite care services (Can only be used in a 
        month when at least one other ECHO benefit is being received)
         <bullet> Training to use assistive technology devices
         <bullet> Institutional care when a residential environment is 
        required
         <bullet> Special education (does not include tuition for a 
        beneficiary to attend private school)
         <bullet> Transportation under certain circumstances
         <bullet> Other services that the Director of TMA determines 
        are capable of reducing the disabling effects of a qualifying 
        condition, such as ABA services for eligible beneficiaries with 
        a diagnosis of ASD.

    Mr. Hinchey. Well, I express appreciation for your 
response, because apparently this is something you are deeply 
concerned about and you are doing everything you can to correct 
it and make it much better. So thank you very, very much, much. 
I appreciate it and I appreciate everything you are doing. 
Thank you very much.

                MILITARY HEALTH SYSTEM GOVERNANCE REVIEW

    Mr. Young. Mr. Hinchey, thank you very much. My turn.
    The chairman has to produce a markup bill to the 
subcommittee and get as much for our national defense as 
possible with the dollars that we are going to have available. 
In order to do that, we have to really tighten up where we can 
tighten up, but we want to make sure that we don't over tighten 
in places like medical care or taking care of our wounded 
heroes.
    Now, in view of that, I am going to open a subject, and I 
want to assure you this is not a rerun of the February 8th 
hearing where we sort of dissected the JTF CapMed. That is not 
my intention. But I do have a question that I think relates to 
money and the good use of money. I have two questions on the 
subject.
    One is, when the JTF was created, it was intended to help 
facilitate the merger of the two flagship hospitals of 
international excellence, Walter Reed and Bethesda, and that 
merger is now complete. But the JTF appeared to be another 
layer of governance over, in addition to, what we already had 
and what we have worked with for many, many years. So I am 
concerned about that. And there is considerable cost to JTF 
CapMed, but I know there are going to be some changes, and that 
is why we are not going to dissect it again.
    But here is my question: There was another joint task force 
that was created to consider what the new system of governance 
should be in the capital region. There were six options. My 
question, Dr. Woodson, would go to you, because I think it was 
at your level where these decisions were made.
    Mr. Young. There were nine voting members. Five of the 
members of that task force voted for the same option. None of 
the other options got five votes. However, the majority Option 
was not chosen. And I am curious. In view of the task force 
that the Defense Department created, the recommendation that 
they made that was supported by the task force was basically 
ignored. And I am wondering why.
    Dr. Woodson. Thank you, Chairman Young, for the question 
and, again, for your support of the men and women in the 
military health system.
    To address your question specifically, the purpose of the 
task force was to present options to the Deputy Secretary for 
reorganizing the military health system governance. And the 
task force, as you correctly pointed out, presented a set of 
recommendations with the voting, as you have indicated, but 
there was a second layer of consideration that involved senior 
leaders in the Department of Defense with line leadership, 
where they vetted the options; and out of that process--so a 
group of recommendations were presented--the decision was that 
the best way to proceed was with the Defense Health Agency and 
the recommendations that the Deputy Secretary came out with.
    So it wasn't that they were ignoring what they presented. 
Their task was to present a set of recommendations and then 
that second level review with the line leadership then produced 
the final proposals for the MHS governance restructure.
    So that doesn't come out I think when you read the initial 
task force report because you see the work that the task force 
did in sort of racking and stacking the options that were 
considered. But there was a second level review by the senior 
leadership and line leadership to say, well, what is the best 
way to go? And remember, the issue of cost was considered, but 
also the issue of ease and implementation and the possibility 
of what would be left open to do in the future. So what I mean 
by that is, we are presently involved in a war, and to try to 
take the departments apart, let's say, and create a unified 
medical command seemed to be an onerous task.
    But any concept, let's say, of a unified medical command 
would require the building of a Defense Health Agency, because 
we have to deal with garrison care and the TRICARE insurance 
program and other shared entities. So when all of these options 
and issues were considered, it was decided that a Defense 
Health Agency with enhancement of the multiservice market 
managers would be the most appropriate way to go because it 
didn't stop us from doing other things down the road, and it 
didn't cause such disruption in the organizational scheme at 
the time when we are trying to deliver care in wartime. It just 
seemed to be the prudent way to go. So there was another layer 
of analysis that went on, sir.
    Mr. Young. Doctor, the Army's representative on that task 
force and the Navy's representative on that task force--and 
those are the two organizations that have to provide the 
medical care--supported the majority option. They did not 
support the other options. So tell me what in the wisdom of the 
Pentagon--tell me, how does the new system of governance, the 
extra layer of governance, as I see it--I may be simplifying 
that. But I see it as an extra layer of governance over and 
above the Army and the Navy that have done this for years. What 
will that extra layer of governance do to enhance what these 
surgeons general and their medical professionals are going to 
do to protect our kids? What will it do to enhance the medical 
care?
    Dr. Woodson. I think it will bring better command and 
control and coordination to the National Capital Region and 
oversight for the two new joint facilities, Walter Reed 
National Military Medical Center at Bethesda and the Fort 
Belvoir community hospital. Plus it will act as the 
multiservice market area management command authority. So in 
essence, it doesn't add another layer.
    If you look at San Antonio, where you have more than one 
service operating in the area, you still have to establish a 
multiservice market manager which requires personnel to 
effectively develop the business plan for the areas. The Joint 
Task Force CAPMED in reduced form--so it is not going to exist 
the way it does now.
    Mr. Young. I do understand that, yes.
    Dr. Woodson. It will be downsized--will provide that 
oversight, develop the business plans for the National Capital 
Region, which is really a complicated market in and of itself. 
So I think you need that command and control. And then when you 
have two joint entities, you have to have a command structure 
to effectively command and control the joint entities.
    Mr. Young. But Doctor, if this is such a good idea, why 
aren't we doing it worldwide at all of our military 
installations, hospitals, clinics? If it is so good in the 
Washington, D.C., area, why isn't it good for somewhere else?
    Dr. Woodson. That is also a very good question. Again, I 
think it gets back to the point I was trying to make before, 
that if you believe that, let's say, a unified medical command 
is the ultimate option, in order to do that, to create that, 
number one, I think it would be a more expensive option, which 
I think the report to Congress points out the number of FTEs 
you have to add to this four-star headquarters. Could we do 
that now in the fiscal environment that we are now in?
    But more importantly, the issue is that this is an 
iterative approach, a sequential, reasonable approach to 
producing greater unity of effort, greater efficiency, 
particularly in those shared entities, without causing major 
disruption at this time. It doesn't prevent us from dealing 
with other things if the time becomes right or the conditions 
become right to do those things.
    So I think this is a responsible iterative approach that 
allows us to manage the transition to greater collaborative 
joint processes, develop common business plans, common clinical 
plans, manage the shared interests, like IT pharmacy, graduate 
medical education, medical education research, much more 
effectively without causing a major disruption that might make 
us weaker for a period of time.
    Mr. Young. When will this new plan be effective?
    Dr. Woodson. So Mr. Chairman, as you know, under the NDAA, 
we have got a prohibition from instituting any restructuring 
until the GAO has had 180 days to consider the proposal and 
then Congress has another 120 days to reflect upon it. So we 
have a minimum, what, of around 300 days or so that we cannot 
do any implementation. I would just point out, though, that 
considering all of the things that the members have brought 
forth today and all of the considerations that are ongoing, we 
clearly needed to do some things to enhance the joint approach 
to, again, these shared services. That is imperative, 
absolutely imperative for securing the future of the military 
health system and its sustainability. So we fully appreciate 
the involvement of the Congress in analyzing our proposals, but 
it is the Department's position that this is the responsible 
iterative way forward that will produce the maximum efficiency 
with the least disruption.
    Mr. Young. Well, let's hope. Let's hope.
    Let me ask the surgeons general, is there any uncertainty 
where you work because of the delay? And Congress has required 
the delay, so we understand that. But is there any uncertainty 
now waiting for that time to run out before the new governance 
actually becomes effective?
    Admiral Nathan. Mr. Chairman, I think that the only prong 
of the task force recommendations and the Deputy Secretary's 
plan is in the National Capital Region, which currently enjoys 
a little bit of ambiguity in command and control. The two 
facilities, Walter Reed--Bethesda Walter Reed, were under a 
BRAC process. And by charter of the Deputy Secretary of Defense 
a JTF was stood up to complete the BRAC process and to provide 
integrated care in the National Capital Region. So the Services 
have retained administrative control. The Navy retains 
administrative control over Bethesda and the Army over Belvoir. 
Operational control and tactical control rests in the Joint 
Task Force (JTF). It works currently directly for the Deputy 
Secretary of Defense. I believe the task force, one of the 
reasons it was assembled, was to try to find a better command 
and control venue for those facilities, for those flagship 
facilities.
    And so your recommendations, when they are put into effect, 
will completely remove the services, those two facilities, as 
well as the other National Capital Region facilities, from the 
Service oversight. They will no longer be Navy facilities or 
Army facilities or Air Force facilities, in the case of Malcolm 
Grove.
    That is somewhat different than the other--in reference to 
your previous question--as to the other markets throughout the 
country, whereas the services will retain control of those 
facilities. San Diego will remain a Navy facility but will have 
an enhanced multiservice market management role to oversee care 
for all the Services in the area. Madigan in the Northwest; 
Brooke down in San Antonio.
    But the National Capital Region has been given a different 
twist in that there will be a medical directorate placed over 
it, presumably a migration of what JTF is now, which will 
report to the Assistant Secretary of Defense, the Under 
Secretary of Defense and then to the Deputy Secretary of 
Defense with oversight to the Defense Health Agency. So the big 
difference being that the facilities in the National Capital 
Region will be under the control of the Defense Health Agency, 
whereas the remaining facilities throughout the world will be 
under the control of the Services.
    Mr. Young. I will let the others respond to that if you 
like. But let me ask a follow-up question there: Is this a test 
case? Is this an opportunity to test this system to see if you 
want to expand it throughout the entire system? Or is this just 
something for the Capital Region? And if it is only for the 
Capital Region, if it is good for the Capital Region, why isn't 
it good for everybody else? And if it is not good for everybody 
else, why is it good for the Capital Region? I am just having a 
little bit of trouble. In my own mind, I see additional--I know 
there are additional costs.
    We questioned the Director of the Joint Task Force about 
the additional costs and the cost versus investment versus 
return. We didn't get any answers. So we are using our own 
processes. We will have those answers very shortly. And you all 
will be contacted with our people that are running that down.
    But please, Generals, if you have any comment you would 
like to make on the same issues.
    General Horoho. Mr. Chairman, in an attempt to answer the 
question that you have asked, I believe that it will give a 
comparison of the effectiveness of the structure and the 
processes that are used in the National Capital Area with the 
structures and the processes that will be used for these 
enhanced multiservice market areas. And then over the years, to 
evaluate which one is more effective in patient outcomes, 
decreasing costs and increasing in efficiencies.
    General Green. And, sir, I think there is work to be done 
to actually establish--there is actually a task force that will 
be working while the Congress is looking at this to see exactly 
what the Defense Health Agency's authorities will be and how 
things will be aligned to try to save costs and figure this 
out. The 300-day delay, as you folks look at it, delays the 
implementation for probably--I mean, realistically, if you 
approve the guidance that has come out of the Department, my 
guess is, the first time they would reach an initial operating 
capability would be October of possibly 2013, if you think it 
through. So in terms of whether this is a pilot or--I think it 
was something that was put together essentially to get us 
through a very difficult, very large hospital--two large 
hospital systems integration. And the difficulty that we have 
now is--and honestly the biggest problem with the 300 days is, 
there will continue to be ambiguity in terms of what the actual 
guidance is at each of the hospitals. So the Joint Task Force 
(JTF) clearly will still have the authority, but there still 
remains the problem that there is not joint credentialing nor 
joint nursing policy nor joint patient administrative policy in 
terms of how you would run a hospital because we do that by 
service.
    And so that ambiguity will continue. We have had some of 
that ambiguity over the last couple of years, as we stood up 
the JTF. So I don't know that it will stop. I don't think it 
will affect the quality of care because we have been working to 
basically solve these things. But until there is a joint 
execution or a joint policy evolution, if you will, on how we 
would do this, it is going to continue to be a problem. And 
that is part of what has to be done with this DHA setup as 
well.
    Mr. Young. Well, General, I think you hit the nail right on 
the head. And as Admiral Nathan knows, my wife and I visit our 
wounded soldiers and Marines a number of times each week. And 
as we inquire, we find that the wounded kids--they are not kids 
anymore by the time they get there, by the way. But they 
believe they are getting excellent medical care, which is good. 
And I agree with that. I think they are getting excellent 
medical care. But we don't need the uncertainty that goes with 
the ambiguity, as you pointed out. And I know that you all will 
be able to work this out. Whatever has to be worked out, you 
will work it out. And the medical care for our wounded warriors 
is going to be first class, like it has always been.
    Admiral Nathan. Mr. Chairman, Walter Reed Bethesda just 
underwent the Joint Commission Accreditation Survey.
    Mr. Young. Yes. I am aware of that, sir.
    Admiral Nathan. They passed with flying colors. And for the 
record, I would say it is a tribute to the jointly staffed and 
jointly led team at that hospital, not that Naval Bureau of 
Medicine (BUMED) or Army Medicine or JTF would take credit for 
it. I don't believe any joint oversight from the service 
surgeon generals that are in control of that facility was the 
main engine for success. I give all the credit to the soldiers, 
the sailors, the airmen who work together; and the staff that 
leads; a joint staff leadership. That hospital, by any 
definition that I have, is a joint hospital. It is a hospital 
where you walk in, you see members of all services, of all 
enlisted and officer ranks working seamlessly together, getting 
the work done, putting patient care first. Sometimes they are 
doing effective work because of the system we have handed them. 
Occasionally, they are doing good work in spite of the system 
we have handed them. But nonetheless, the key thing is they are 
doing great work.
    Mr. Young. I appreciate that. And I agree with that. You 
know, maybe we spend more time than we should out there. Maybe 
we just get in the way sometimes. But there are a lot of things 
the government doesn't do, especially for the families. The 
wounded kids are being very well taken care of. Some of the 
families have problems that the government does not address. 
And that is where we play a role in helping--if you recall, one 
day, we brought quite a wealthy family in. And before they 
left, they left $47,000 with families who were losing their 
homes or losing their cars or having their electricity turned 
off. And as General Horoho knows, that has been a commitment 
that my wife has had ever since we began in Iraq and 
Afghanistan.

                           TRICARE PROPOSALS

    Let me change the subject just a minute. And we are getting 
very close to the vote that I told you we were going to get to. 
But I want to pick up on what Mr. Moran started because it is 
going to be a very important issue, both with the 
Appropriations Committee and with the Armed Services Committee, 
and that is issue about TRICARE and retirements. Let me ask, 
how much savings do we expect to be realized with the proposed 
changes to TRICARE fees and pharmacy copays? And are these 
estimates, or are they guestimates? Or are they pretty hard 
numbers?
    Dr. Woodson. Fairly hard numbers based upon what has 
happened over the last few years. But it looks like we are 
recouping about $1 billion a year. We have gotten back about 
$3.4 billion and would expect to do that in the next few years 
as well.
    Mr. Young. Doctor, suppose Congress doesn't approve--you 
know, there is a bit of an outcry throughout the country on the 
Medicare issue--suppose Congress decided not to approve these 
changes. What would be the effect? What would happen?
    Dr. Woodson. As I previously testified, there would have to 
be additional considerations to force structure, with a gross 
estimate of 50 percent more troop reductions in the categories 
that have already been talked about to make up for the $12.9 
billion or so that we estimate will happen with the TRICARE 
adjustments.
    Mr. Young. Have you been asked by the Armed Services 
Committee specifically about the program?
    Dr. Woodson. We have a hearing scheduled; I believe one 
next week and one the following week.
    Mr. Young. We will follow that hearing as well because we 
are running out of time, and they have more time. And they have 
more staff to work the issues. Our staff is outnumbered by 
about 10-to-one with other committee staffs. But the quality of 
our staff is outstanding. So we want to follow this issue 
closely because we want to do what is right. And for whatever 
role that the appropriators have to play here, we want to make 
sure that our contribution is right.
    Now do you all have anything else you would like to add 
before we do break up?

                            Closing Remarks

    Dr. Woodson. I would just like to say, thank you for your 
superb support of all of the military health systems.
    Mr. Dicks. Mr. Chairman?
    Mr. Young. Let's let the witnesses go first.
    General Horoho. I would just like to echo and say thank you 
very much for the support over the years with MILCON funding 
and funding for all the new initiatives that we initiated for 
our servicemembers.
    Admiral Nathan. I would thank you again for your personal 
advocacy, as you take time to visit the wounded warriors and as 
you take their cases and their interests. It is always 
comforting to know that the senior leaders have this kind of 
attention and engagement with this precious part of our 
country.
    Mr. Young. Well, thanks for letting us do that, Admiral. We 
appreciate it.
    General Green. And from my perspective, it has been an 
honor to represent the services to come and talk with you folks 
who support us so well. And I would also tell you that it has 
been an honor to work with your very professional staff. Thank 
you, sir.
    Mr. Young. Thank you very much, General. I will add, we 
will miss you.
    Mr. Dicks, any closing thoughts or questions?

                                 AUTISM

    Mr. Dicks. Yes. One thing I wanted to add, on this question 
about autism, I read an article recently that there is a 
special school in New York--maybe in New York City--where they 
have intensive interaction with these autistic children, and 
they start really young, or I guess when they diagnose it. And 
that intensive interaction makes a big difference. Now I don't 
know if that is even possible. This is kind of an experimental 
thing. But I don't know if that is possible for us to do in the 
military setting or not. But it was interesting that it proved 
to be quite effective and that these kids did much better after 
they had had this intensive interaction. It is like one-on-one 
per child, somebody working with them. I don't know if you saw 
this, but I saw it recently.
    Dr. Woodson. Yes. I don't know the details of the program, 
but about the special schools. Again, one of the things we need 
to do in trying to craft the benefits for our service men and 
women with children afflicted is to understand what needs to be 
addressed within the educational lane versus the health care 
lane. So I think we need a more--how can we say--involved 
discussion to bring the educational folks into it in crafting 
these benefits.
    Mr. Dicks. I was under the impression that sometimes the 
military has compassionate assignments, where if there is a 
good program--years ago, we did the Evergreen School at Fort 
Lewis, and this was aimed at a lot of special needs children. 
So people who had a special needs child could be assigned to go 
to Fort Lewis and then their child got this special care. Do we 
still do that?
    Dr. Woodson. I will allow surgeon generals to talk about 
assignments. I think I have heard of and actually witnessed 
servicemembers who have gotten or wished to be assigned to 
certain areas because of certain facilities when they have an 
exceptional needs child. And when it can be accommodated with 
the interests of the services being protected, I think they do 
make an attempt to do that. But I will let the surgeon generals 
talk to that.
    General Horoho. Sir, we do take that into consideration, 
and then just the opposite, we try not to assign family members 
in places where we can't support them because of the medical 
needs of either their children or their family members. So it 
is something that is considered in assignments.
    Admiral Nathan. The Navy has an exceptional family member 
program, which all of the Services enjoy which actually can 
codify a patient, a family member with special needs, to remain 
in a certain area for proximity of medical care. It prohibits 
or precludes the active duty member from being assigned outside 
of that area, to provide continuity of care. And there also is 
a mechanism called compassionate or humanitarian transfer. So 
if an active duty member or family member has an overwhelming 
humanitarian need to relocate to some area, either for medical 
care or to take care of a sick relative or for some other 
reason, that mechanism is available through the Bureau of 
Personnel.
    General Green. And the Air Force has the exact same 
programs with the exceptional family members programs, where 
constantly the families are reviewed to make certain we don't 
assign them somewhere they would not have services. And does 
have what you call compassionate assignments, the humanitarian 
assignments. There are some restrictions in terms of the length 
of time, in terms of when things are expected to resolve, which 
may affect the ability to get those assignments, particularly 
with an autistic child, where there may not be an end point. 
But I am not as familiar with the New York program, sir.
    Mr. Dicks. Thank you very much.
    Thank you, Mr. Chairman.

                    TRAUMATIC BRAIN INJURY RESEARCH

    Mr. Young. Mr. Lewis, a closing issue?
    Mr. Lewis. Thank you very much, Mr. Chairman. I have some 
interest in the research and development that may be taking 
place regarding treatment of traumatic brain injuries. Could 
each of you speak to that question? Current and future research 
on drugs that may affect traumatic brain injury.
    General Horoho. Sir, there is a lot of research out of MRMC 
as well as our Defense Center of Excellence for Traumatic Brain 
Injury looking at not just different types of drugs but 
concussive care, different types of therapy for mild, moderate, 
and severe. There is collaborative outreach with some of our 
civilian academia partners, and we are also partnered with the 
NFL as well as Boston VA in an effort of really looking and 
saying: what are the right therapies out there in addition to, 
sometimes nutrition, and a combination of drugs to see whether 
or not that is having an impact. We can get you more 
information on details in that area if you would like.
    Mr. Lewis. Thank you, General.
    Admiral Nathan. Sir, I would add that in the spectrum from 
post-traumatic stress, which heretofore was a psychological 
diagnosis or assessment, to traumatic brain injury, which was 
an anatomical diagnosis, we are finding that more and more 
folks with post-traumatic stress actually may have an 
underlying TBI-type symptoms. And that at the microcellular 
level, with our new sophisticated imagery and research, we are 
researching that. I would echo what General Horoho said which 
is, I think the real utility is going to be in the partnerships 
that we are now doing with Centers of Excellence in the private 
and academic sectors. And that if we don't widen the aperture 
for TBI to include the VA, the DoD and the private and academic 
sectors, we are not going to be able to get our arms around 
this, not only from a research and diagnostic standpoint, but 
from a therapeutic one. As our patients leave our epicenters 
and military treatment facilities, where we do a pretty good 
job with this, or our polytrauma units in the VA and go out to 
the interstitial spaces of America.
    General Green. And I would say we are locked arm in arm in 
terms of these efforts. The most significant right now being 
what we are doing in theater in terms of how we are managing 
concussion and ensuring rest and time for people to recover 
after a potential injury that could lead to a traumatic brain 
injury.
    In addition to that, we also, as you know, are exploring 
other things that have made popular press but have not yet been 
proven effective, such as that HBO program that is going on. 
The HBO therapy, the hyperbaric therapy, and the study that the 
Air Force did did not show a significant difference with that, 
but it was not the definitive study. It was a preliminary 
study, and the other study is ongoing with multiple sites, 
essentially collecting patients to see if we can get a 
definitive answer on whether hyperbarics can help.
    Mr. Lewis. Thank you, Mr. Chairman.
    Mr. Young. Mr. Frelinghuysen.

                             WOMEN'S HEALTH

    Mr. Frelinghuysen. Thank you, Mr. Chairman, for your 
indulgence. Since we have been talking about post-traumatic 
stress, I have some issues that relates to women. This is a 
report that is only anecdotal, but I heard that some women are 
being told that in order for a female soldier to be diagnosed 
and treated for post-traumatic stress syndrome, they must claim 
military sexual abuse; the rationale being post-traumatic 
stress results from action in combat and women are not 
permitted in combat. Are you familiar with this issue?
    General Horoho. Sir, not specifically with that issue. But 
I can tell you what we have stood up is a women's health task 
force; it will be tri-service. And we are looking at PTSD. We 
are looking at sexual assault, sexual abuse. We are looking at 
predeployment, deployment, and postdeployment issues that are 
very specific just to women.
    Mr. Frelinghuysen. We had, yesterday Secretary McHugh came 
in; General Odierno came in. Mr. Lewis actually raised the 
issue. But I was unaware of this sort of anecdotal report that 
somehow with the post-traumatic stress, since women are not in 
combat--and obviously, if it involves rape, that is stress. 
That is a serious crime of course. Are you aware of this issue 
at all?
    General Horoho. Sir, I would say that women----
    Mr. Frelinghuysen. To be treated for post-traumatic stress.
    General Horoho. Maybe I am not understanding the question. 
I am sorry.
    Mr. Frelinghuysen. With post-traumatic stress, women are 
not allowed in combat. So do they qualify for post-traumatic 
stress only because they have been raped?
    General Horoho. No, sir.
    Mr. Frelinghuysen. So clarify that for me.
    General Horoho. A couple of things. One, for PTSD, you do 
not have to be exposed to combat to have a diagnosis for PTSD. 
And that is with women or men. So that is not a criteria. The 
second one that I would clarify is that, in Afghanistan and 
Iraq, women may not be in combat, but they are exposed to 
combat.
    Mr. Frelinghuysen. Absolutely.
    General Horoho. We have had 10 years where women have been 
exposed to some of the same combat that our servicemembers on 
the male side have. So they are being treated with the same 
treatment modalities that we have for men and women. I sat and 
met with almost 2,000 women over the last probably 18 months, 
talking with them. And there are concerns with females of how 
they experience some of the same encounters that a male may. So 
what we are looking at now and saying----
    Mr. Frelinghuysen. They are under the same combat stress. 
They may be in the region, so they certainly would qualify for 
it.
    General Horoho. Absolutely.
    Mr. Frelinghuysen. There are a lot of issues out here.
    General Green. Yes, sir. And if I could add to that 
conversation. We actually see that in the top three suffering 
PTS--not necessarily PTSD--our own medics who are exposed to 
combat injuries, which are not necessarily associated with 
being fired upon and those kinds of things that you are talking 
about. And so I would tell you that we do not restrict our 
treatment in any way. If someone identifies with post-traumatic 
stress, we treat them appropriately. If they actually progress 
into the disorder, we treat them appropriately, and it has 
nothing to do with whether or not they have been assaulted in 
that manner.
    Mr. Frelinghuysen. We are pleased to have that reassurance.
    Thank you, Mr. Chairman.

                            Closing Remarks

    Mr. Young. Thank you all for a very good hearing. We 
appreciate the directness of your answers and your willingness 
to be totally transparent and let us know what you know--at 
least I think you let us know what you know. Maybe there are 
some secrets you have that we don't know about. But anyway, we 
really appreciate the openness.
    But even more importantly than that, we appreciate how you 
take care of our sick and wounded troops. And that is a 
tremendous, tremendous obligation to all of you, to all of us, 
to the Congress. The Constitution made it very clear that we 
have that responsibility, and you do it well. And I just want 
to compliment you all for that.
    Thank you for a good hearing. The committee will be 
adjourned. We are reconvening right now on the floor, and the 
vote will come here just in a few minutes. So timing worked out 
just right. Thanks again. It is good to see all of you.
    General Green, we are going to miss you.
    And Admiral Nathan, General Horoho, we look forward to 
seeing you all again.
    And Dr. Woodson, stay in touch.
    General Green. Thank you.
    Admiral Nathan. Thank you, sir.
    Mr. Young. We are adjourned.
    [Clerk's note.--Questions submitted by Mr. Kingston and the 
answers thereto follow:]

                          Overall Budget Costs

    Question. In 2008, the request for health care funding was $38.7 
Billion, where as in FY12 this request has grown to $52.5 Billion.., 
which is a nearly a 36% increase in four years. The FY13 request of 
$48.7B for the Military Healthcare System is a decrease of $4.1B from 
the FY 12 enacted level, a decrease of more than 7%. While we are 
pleased to see a decrease, absent a detailed cost analysis, do we know 
where these savings are coming from?
    Answer. The table below highlights the specific line items of the 
Unified Medical Budget and displays the FY 2012 appropriated amount 
compared to the FY 2013 Request. $4.0B of the decrease is due to 
reduced Medicare Eligible Retiree Health Care Fund (MERHCF) Normal Cost 
Contributions (NCC).

                                                [$ in Milliions]
----------------------------------------------------------------------------------------------------------------
                                                                FY 2012 Approp  FY 2013 Request       Change
----------------------------------------------------------------------------------------------------------------
Operation and Maintenance....................................        $30,586.2         31,349.3            763.0
Procurement..................................................            632.5            506.5           -126.1
Research, Development, Test & Evaluation.....................          1,266.8            673.0           -593.8
Defense Health Military Personnel............................          8,475.0          8,415.0            -60.0
Defense Health Military Construction.........................          1,130.1          1,037.3            -92.8
MERHCF Normal Cost Contribution..............................         10,728.0          6,682.2         -4,045.8
                                                              --------------------------------------------------
    Total Unified Medical Budget.............................         52,818.7         48,663.2         -4,155.5
----------------------------------------------------------------------------------------------------------------

    The table below details the additional adjustments to the MERHCF 
per capita rates assumed in the FY 2013 budget submission, which 
generates the $4.0 billion savings.

------------------------------------------------------------------------
                                  MERHCF Rates      Reduction
                             ----------------------     in
                                                     Accruals
                              Full-Time  Part-Time     ($B)
------------------------------------------------------------- -------------
FY 2012 Medicare-Eligible         5,580      3,260  .........
 Health Care Fund Normal
 Cost Accrual Rates.........
FY 2013 Medicare-Eligible         4,702      2,597        1.7
 Health Care Fund Normal
 Cost Accrual Rates*........
Additional Adjustments to FY
 2013 MERHCF Rates:
    Enactment of US Family        (295)      (217)        0.6
     Health Program
     Legislative Proposal
     (FY12 NDAA - Sec. 708).
    FY 2013 President's           (487)      (338)        0.9
     Budget Proposal
     Increasing Pharmacy Co-
     Pays...................
    FY 2013 President's           (219)      (105)        0.4
     Budget Proposal
     Implementing Enrollment
     Fees for TRICARE-for-
     Life...................
                             -------------------------------------------
        Total Adjustments to    (1,001)      (660)        1.9
         FY 2013 MERHCF
         Normal Cost Accrual
         Rates..............
        FY 2013 Medicare-         3,701      1,937        3.6
         Eligible Health
         Care Fund Normal
         Cost Accrual Rates
         for PB13...........
        End Strength          .........  .........        0.4
         Reductions & Shift
         of Non-Enduring
         Army/USMC Strength
         to OCO Request**...
                                        --------------------------------
        Total Reduction in    .........  .........        4.0
         Base Budget MERHCF
         Accruals From FY
         2012 to FY 2013....
------------------------------------------------------------------------
* August 9,2011 letter from DoD Board of Actuaries.
** FY 2013 Overseas Contingency Operations (OCO) request includes $272M
  in MERHCF Contributions for Army/USMC non-enduring strength.

                       Benefits of Consolidation

    Question. Have any of the services started to analyze the costs 
associated with and saved by these consolidations, combinations and 
eliminations?
    Answer. The Task Force on MHS Governance did provide an initial 
analysis of cost savings and all Services were represented on the Task 
Force. The Department will stand up an Implementation Planning Team 
consisting of representatives of key organizations across the Military 
Services, the Joint Staff, and the OSD staff to identify the actions 
required and to analyze costs associated with any finally approved 
changes. At this time the Team has not been formed, so the Services 
have not begun their analyses.
    Question. How would the recommended changes to governance 
structure, especially those selected which provide increased budget and 
personnel authority, impact the ability of MHS to efficiently and 
effectively utilize, integrate, and procure technological resources?
    Answer. The proposed MHS governance changes should enable 
accelerated implementation of shared services, identification and 
proliferation of common clinical and business practices, and 
implementation of entirely new approaches to delivering shared 
services. In the specific area of technology, common processes in 
requirements generation for purchases across the system should lead to 
volume discounts. In addition, reducing duplication in program 
management, acquisition, and sustainment across the entire MHS will 
provide more effective and efficient services. These efforts and single 
clinical and business processes should enable the MHS to more 
efficiently and effectively use, integrate, and procure technological 
resources, and should allow for significant savings.
    Question. Do we have anything quantifiable to show the impact of 
procuring technical solutions in order to realize some efficiencies?
    Answer. The Military Health System (MHS) has developed plans to 
achieve efficiencies in response to the Secretary of Defense' call for 
efficiencies, to include data center consolidation.
    Approaches to consolidation. Our approaches to technical 
efficiencies include:
    <bullet> Decommissioning--turn off or eliminate servers not being 
used (or used infrequently).
    <bullet> Site Centralization--migrate servers/storage to selected 
(larger) data centers.
    <bullet> Server/Storage Consolidation--eliminate individual 
physical servers and consolidate to blade architecture.
    <bullet> Virtualization--utilize virtualization technologies at 
selected data centers to maximize central management, enhance disaster 
recovery, and improve utilization metrics (power usage, rack space, and 
floor space).
    <bullet> Cloud Computing--migrate application functions to 
standard, vendor supported enterprise platforms or services.
    Data Center Consolidation. A specific example is to reduce the 
total number of data centers. Actions plans formed to support this 
includes:
    <bullet> Consolidate MHS and service applications to regional data 
centers through virtualization and standardization. Application 
decommissioning will also occur when analysis determines this 
alternative to be the most appropriate course of action.
    <bullet> Walter Reed Army Medical Center merged with the National 
Naval Medical Center to become the Walter Reed National Military 
Medical Center (Bethesda, MD).
    <bullet> DeWitt Army Community Hospital (Ft Belvoir, VA) moved 
assets into the new Fort Belvoir Community Hospital.
    <bullet> Advanced Technology Integration Center (TMA, Falls Church, 
VA) moved assets to the new Development and Test Center (Richmond, VA) 
and other sites.
    <bullet> Denver Center Irvington (TMA/DHSS, Denver, CO).
    Question. How are these impacts being measured--is there any 
applicable personnel and budget information that was used to make the 
analysis and/or recommendations for changes?
    Answer. The impacts of the proposed Military Health System 
consolidations are not being measured yet because the Department has 
not completed planning for the recommendations. An implementation team 
must decide what changes will take place and only after implementation 
of such changes would it be possible to start measuring results.
    Question. Has a cost analysis been accomplished? What gains have we 
made in the management of our budgetary and procurement processes?
    Answer. A detailed cost analysis was not required by the Terms of 
Reference for this 90-day Task Force on MHS Governance. However, the 
Task Force provided a rough order of magnitude estimate of staffing 
increases or reductions based on each organizational construct 
considered. The Task Force acknowledged that no allocations of 
personnel revisions should be considered until a more detailed analysis 
was completed. In attachment 4 of the Department's report to Congress 
on MHS Governance, March 2, 2012, we provided additional cost analyses 
related to the options presented by the MHS Governance Task Force. 
However, cost analyses for the final decisions for MHS Governance 
reform must await the results of an Implementation Planning Team that 
will identify all the actions necessary for reform and perform more 
detailed cost analyses.

                        How Do We Claim Success?

    Question. Overall Organization / Re-Organization--have we 
identified how we can become more efficient, and know that what we are 
doing is working? For example, unifying some medical commands/
structures that will provide shared services seems like it would yield 
some savings and efficiency gains--do we have any data to show that? 
Have we identified specific areas that would benefit from increased 
oversight?
    Answer. The Department's report to Congress, March 2, 2012, 
provides the best overview to answer these questions and show the 
breadth of the analysis to come up with proposed Military Health System 
(MHS) Governance reforms. We do believe there are opportunities to 
accelerate the process for a shared services model across a range of 
common MHS activities. These activities include, but are not limited 
to: medical education and training, medical logistics, facility 
planning and construction, health information technology, medical 
research and development, public health, acquisition, and other common 
clinical and business processes.

                    Areas for Continued Improvement

    Question. Lack of Joint Standards (amongst the services) has been 
brought up as a potential problem area in the Defense Health Area--how 
do we ensure this gets looked at?
    Answer. The Military Services do follow joint standards. For 
example, all of our medical treatment facilities, regardless of Service 
affiliation, must meet the standards of and be accredited by The Joint 
Commission, formerly the Joint Commission on Accreditation of 
Healthcare Organizations, which is a United-States-based, not-for-
profit organization that accredits more than 19,000 health care 
organizations and programs in the United States. However, if your 
concern is that there are more opportunities for the Services to share 
common services, we agree. The Department believes that a great 
opportunity exists to accelerate shared services across a range of 
common Military Health System activities. These activities include, but 
are not limited to medical education and training, medical logistics, 
facility planning and construction, health information technology, 
medical research and development, public health, acquisition, and other 
common clinical and business processes. The Department's report to 
Congress of March 2, 2012, provides more detail.
    Question. Where are we with respect to the integration of services 
in the National Capital Region? What do we still need to accomplish? Do 
we know enough to say that the Bethesda/Ft. Belvoir effort has been 
successful?
    Answer. The Department conducted a comprehensive examination of its 
medical infrastructure in the National Capital Region and determined 
that it did not make sense to continue to have large in-patient 
hospitals operating in close proximity to each other when the physical 
assets were aging and the mode of treatment was shifting to more 
outpatient care. This examination resulted in the closure of the aging 
Walter Reed Army Medical Center, the replacement of the Fort Belvoir 
hospital, the expansion of medical facilities at Bethesda (establishing 
the Walter Reed National Military Medical Center), and the closure of 
the inpatient facility at Joint Base Andrews.
    Over the long term, this change is avoiding costs of operating four 
inpatient hospitals in close proximity and having to recapitalize each. 
Moreover, it matches the infrastructure to current medical practices. 
In this particular case estimates at the time indicated that it would 
cost $600-700 million to replace or renovate Walter Reed and that, 
under existing budget assumptions, the work would take many years to 
complete (6-8 years for replacement, 10-15 years for renovation). While 
that is a major cost avoidance for which we could take credit, the 
Department has elected to be conservative in its savings estimates and 
have focused instead on estimating the savings or avoidances that are 
derived by calculating the net facility overhead costs (i.e. the sum of 
the support personnel, base operating support, and sustainment and 
modernization costs saved at the closing location less the sum of the 
incremental increase of those costs at the new location).
    JTF CapMed has been a model for efficiencies in the Military Health 
System and has saved the Department money through its oversight of 
transitioning four inpatient Military Treatment Facilities (MTFs) in 
the National Capital Region (NCR) into two and implementing an 
integrated healthcare delivery system (IDS). Specific initiatives 
(implemented and future) include:

                        Implemented Initiatives

    <bullet> $114M in cost avoidance through equipment re-use programs
    <bullet> $109M+ in savings through using a single contractor to 
provision Initial Outfitting and Transition (IO&T)
        <bullet> $77M upfront by competitively bidding the equipment 
        and relocation costs
        <bullet> $32M in savings due to incentive plan allowing IO&T 
        contractor to share in savings due to lowering equipment costs 
        through competitive pricing events, bulk buying power, as well 
        as a willingness for vendors to accommodate the needs of such a 
        volume customer
        <bullet> The total savings from this contract cannot be 
        quantified at this time, but will be realized after the 
        contract optimization is completed
    <bullet> $16M per year in savings through staffing and operational 
efficiencies
          <bullet> $15M a year through establishing a Joint Pathology 
        Center to assume core functions of the Armed Forces Institute 
        of Pathology (now closed)
        <bullet> $810K a year through establishing a regional Civilian 
        Human Resources Center
        <bullet> $230K a year by consolidating appointment call centers 
        in the NCR

                           Future Initiatives

    <bullet> Installation of an Integrated Healthcare Data Network 
(Joint Medical Network) across the NCR will reduce IM/IT sustainment 
costs throughout all NCR MTFs as well as provide better performance
    <bullet> Consolidation of the workforces at Walter Reed National 
Military Medical Center (WRNMMC) and Fort Belvoir Community Hospital 
(FBCH) and authorities sufficient to implement shared services will 
enable efficiencies and economies of scale that will result in 
contractor and civilian personnel savings of approximately $60M per 
year (FY 2011 dollars)
    <bullet> With command and control over WRNMMC and FBCH, JTF CapMed 
continues to identify additional opportunities to develop shared 
services capabilities and achieve efficiencies in the NCR IDS.

                          Battlefield Injuries

    Question. Due to TED blasts there are reports of large numbers of 
wounded having suffered a variety of injuries including sensory loss of 
vision and hearing trauma. Have the departments identified 
``battlefield gaps'' in research for these traumatic injuries? Along 
with TBI and limb extremity research programs, are there other injuries 
that require increased funding to improve patient outcomes on the front 
lines?
    Answer. The Department of Defense has identified battlefield gaps 
in research in order to further understand the relationship between 
blast exposure and traumatic injuries to the sensory systems. Current 
research initiatives focus on developing injury risk criteria and 
guidelines for protecting Service members. With respect to restorative 
and rehabilitative care, research efforts are addressing gaps 
associated with the development and evaluation of novel regenerative 
medicine, pharmacological, and sensory substitution approaches to 
restore blast-induced visual and auditory impairments. As more research 
is conducted to elucidate the mechanistic and correlative underpinnings 
of blast-induced sensory system dysfunction, battlefield gaps will 
evolve and be refined to mitigate the deleterious effects of both acute 
and chronic blast-induced sensory system dysfunction.
    Recently, there has been a reported heightened incidence of 
dismounted complex blast injuries characterized by genitourinary/lower 
abdomen trauma. While there is some overlap between the injuries that 
characterize limb and extremity trauma and genitourinary/lower abdomen 
trauma, there also are notable differences. Pelvic and urogenital 
reconstruction are two examples that fall outside of the current 
research efforts addressing limb and extremity trauma. We are working 
to address these battlefield gaps in our research planning.
    Question. I understand that the Air Force, through its San Antonio 
Medical Command, has deployed a new FDA certified NeuroRadiology 
volumetric process that produces an early-stage medical diagnostic 
image that can be used to identify Mild Traumatic Brain Injury (MTBI) 
in a service member who has been subject to an IED attack or other 
injury that would cause trauma to the brain. What is the status of this 
new diagnostic technology?
    Answer. NeuroQuant is a proprietary medical image processing 
software cleared for marketing as a medical device by the Food and Drug 
Administration in 2006. NeuroQuant provides a quantitative measurement 
of the volume of specific areas of the brain, including the 
hippocampus. Because Traumatic Brain Injury (TB!) can result in loss of 
brain volume over time, NeuroQuant has potential application for 
longitudinal monitoring of service members who have sustained TBI. Air 
Force acquired this technology on October 11, 2011 at the San Antonio 
Military Health System. Because the TBI population is predominantly 
Army, we installed the equipment at the San Antonio Military Medical 
Center. To date, this application has been applied to images of 92 
patients with history of mild Traumatic Brain Injury (mTBI), the 
overwhelming majority for routine clinical TBI care. The technology is 
also being utilized on four institutional review board approved 
research projects, including the iSCORE project (an imaging subset of 
the national Study of Cognitive Rehabilitation Effectiveness in mTBI). 
On April 1, 2012 the Wilford Hall Ambulatory Surgical Center will begin 
performing the high resolution sagittal sequence required for 
NeuroQuant software application on all routine brain imaging.
    Question. How could the AF use this technology in regular clinical 
practice in order to determine if service members should either be 
treated or returned to duty, and thus avoid the risk of repetitive 
concussive injuries that aggregate into a disabling condition?
    Answer. As an adjunct in the imaging evaluation of mild Traumatic 
Brain Injury (TBI), NeuroQuant provides a quantitative assessment of 
brain volume, particularly the hippocampus, which can be assessed in 
the subacute period and followed longitudinally over a service member's 
career. If progressive hippocampal volume loss is identified and it 
correlates with clinical history, signs, and symptoms of TBI, the 
service member's provider can use this information to aid in return to 
duty or duty limitation decisions that may be required to reduce the 
risk of additional head injuries. Volumetric measurements near the time 
of injury can serve as a baseline measurement to aid in detection of 
volume loss over time, but cannot be used as an acute diagnostic tool 
for mild TBI.
    Question. Can this technology be deployed in a way that assists the 
AF in early MTBI diagnosis in a commt environment?
    Answer. Brain volume loss following Traumatic Brain Injury (TBI) 
has been documented in the medical literature, but is not a universal 
finding and it remains unclear what severity and frequency of mild 
Traumatic Brain Injury (mTBI) is sufficient to produce gradual volume 
loss. Because mTBI may result in a small degree of swelling which can 
skew the evaluation of quantitative brain volume, an initial post-
injury volumetric measurement should not be performed until the 
subacute period (beyond two weeks from time of injury).
    Question. How can the AF use the technology to support the 
activities of the Physical Disability Evaluation System to render more 
quantitative evaluations of service members?
    Answer. Deploying the use of NeuroQuant in the Air Force Medical 
Service, the Department of Defense and the Department of Veterans 
Affairs will provide a means for quantitative assessment of brain 
volume, particularly hippocampal volume that can be followed 
longitudinally from the initial injury through separation or medical 
discharge and beyond. Though hippocampal volume loss after Traumatic 
Brain Injury (TBI) has been well documented in the medical literature, 
especially with moderate to severe TBI, it is not a universal finding 
in all who have sustained TBI. In addition, there are other medical 
conditions which may result in hippocampal volume loss. Thus, 
NeuroQuant may provide objective support for the clinical diagnosis of 
cognitive deficits from TBI but cannot be used a sole diagnostic tool. 
This information must be used in conjunction with clinical assessment, 
laboratory evaluation, and other imaging assessment tools to support 
the activities of the Physical Disability Evaluation System.
    Question. Could this technology be deployed in such a way as to 
establish a longitudinal study that would follow a patient through 
their military service and into the VA system?
    Answer. A longitudinal study to follow a service member through 
their career and into the Department of Veterans Affairs system would 
require standardized Traumatic Brain Injury imaging techniques across 
the Department of Defense to include a high resolution sagittal 
sequence required to process NeuroQuant data, an accessible database 
for our wounded warriors' Magnetic Resonance Imaging data at any 
Department of Defense facility and Department of Veterans Affairs, and 
incorporation of imaging and volumetric data with the patient's 
electronic medical record.

    [Clerk's notes.--End of questions submitted by Mr. 
Kingston. Questions submitted by Mr. Calvert and the answers 
thereto follow:]

                              TRICARE Fees

    Question. TRICARE for Life is currently a mandatory program. 
Enrollment is automatic. Will this continue to be automatic after the 
enrollment fees are imposed? What will happen if a retiree does not 
want to enroll in or cannot afford the program?
    Answer. TRICARE for Life (TFL) provides TRICARE payment secondary 
to Medicare when a beneficiary entitled to Medicare Part A is also 
enrolled in Medicare Part B. Participation in TFL is not automatic. 
Currently, a beneficiary who is eligible for premium-free Medicare Part 
A participates in TFL by choosing to purchase Medicare Part B. By 
statute, a beneficiary who is eligible for premium-free Medicare Part A 
but declines to purchase Medicare Part B will lose his or her TRICARE 
benefits, except for care in military treatment facilities on a space-
available basis. These provisions will remain in effect, with the 
Administration's proposed TFL enrollment fee becoming an additional 
prerequisite for participation in TFL. Beneficiaries who choose not to, 
or cannot pay the enrollment fee will not have TFL coverage.

                      TRICARE Contract Management

    Question. The TriWest health care contractor, which provides 
TRICARE services in California, was recently fined $10 million for 
mismanaging its contract and failing to pass savings it had obtained 
from providers on to the federal government. In one instance TriWest 
billed the U.S. $370,000 for care delivered to a patient that had not 
been eligible for care for two years!
    Is anyone at the TRICARE Management Activity being held accountable 
for failing to oversee this contract? Are programs being initiated to 
review all the other TRICARE contractors?
    Answer. TMA currently has multiple contracts performing statistical 
audits of claims processing. Due to the volume of claims, tens of 
millions of claims per year, audits are post pay; currently TMA post 
pay audits established an overall error rate in FY 2010 of .24%. In FY 
2010 TRICARE processed 199.4 million claims.
    TMA/Program Integrity actively works to protect the Program from 
fraud and abuse so that tax payer dollars are utilized to properly 
provide benefits to our beneficiaries, under all of our contracts. In 
the TriWest situation TMA/Program Integrity received a qui tam filing 
against the provider in 2008. A review of the services specifically 
identified in the filing was properly provided to TRICARE 
beneficiaries.
    In assisting DOJ, a review of each of the issues by TMA/PI 
determined that two of the issues were unsubstantiated. The third 
issue, Letters of Agreement (LOAs) is more complex in that the 
contractor paid claims within the Regulation's maximum allowable 
charge, thus raising no payment/processing flags. Additionally, LOA's 
are not required by regulation or contract, however, if negotiated, the 
benefit of the lower rate must be passed onto the government.
    Since, LOAs are not processed as a separate distinguishable subset 
of claims and these claims in particular paid within the maximum 
allowable charges, the claims would not have created an identifiable 
pattern. TMAJPI's findings on this third issue created concerns within 
the DOJ on TriWest's failure to apply negotiated discounts and to 
identify and recoup government dollars in a timely manner thereby 
causing DOJ's limited intervention.

                         Defense Health Agency

    Question. Do you anticipate cost-savings from creating the Defense 
Health Agency? If so, how much do you expect to save? What do you 
expect the start up costs to be for the Defense Health Agency?
    Answer. A detailed cost analysis was not accomplished during this 
90-day Task Force on Military Health System (MHS) Governance; one was 
not required by the Terms of Reference for the Task Force. In 
attachment 4 of the Department's report to Congress on MHS Governance, 
March 2, 2012, we provided additional cost analyses related to the 
options presented by the MRS Governance Task Force. However, cost 
analyses for the final decisions for MRS Governance reform must await 
the results of an Implementation Planning Team that will identify all 
the actions necessary for reform and perform more detailed cost 
analyses.

                      Traumatic Brain Injury (TBI)

    Question. As you know, the incidence of traumatic brain injury 
(TBI) among deployed military members has been increasing. However, 
there seems to be some hope in understanding what happens to the brain 
after TBI. Knowledge gained from boxing and football injuries and now 
from troops who have suffered TBI, indicates that TBI may cause minute 
changes in the brain that in turn cause normal tau proteins to change 
to a toxic prion protein. The prion protein then rapidly multiplies, 
causing cognitive and behavioral degeneration. Research suggests that 
with medication, these toxic proteins can be stopped. While the injury 
to the brain cannot be reversed, the progressive damage and brain 
degeneration can be slowed or possibly stopped. We have the ability to 
screen for prions which means we can test troops who have experienced 
TBI and immediately begin medication if they test positive for prion 
proteins. This offers great hope in our efforts to treat TBI-related 
depression, alcoholism, and drug use, and to prevent the most 
devastating outcome--suicide. I know the Department of Defense is 
pursuing several TBI research initiatives, but I'm told that the 
funding for prion drug trials has yet to be released.
    Please provide an update on this research and explain why that 
money is being held back. Is the Department of Defense collecting data 
and/or analyzing whether members who commit or attempt suicide have 
suffered a TBI?
    Answer. Research funding is not being held back. The Department of 
Defense is aggressively working with the Department of Veteran Affairs 
to establish joint funding for a broad, multi-year research consortium 
to investigate the role of Chronic Traumatic Encephalopathy, including 
tau and other factors, in military and veteran populations.
    Yes, we collect these data. According to the Department of Defense 
Suicide Event Report (DoDSER), of the 281 Service members who died by 
suicide confirmed by the Armed Forces Medical Examiner System in 2010, 
eight (2.25 percent) had a diagnosis of traumatic brain injury. Of the 
863 attempted suicides reported in DoDSER, 21 (2.4 percent) had a 
diagnosis with traumatic brain injury.

    [Clerk's note.--End of questions submitted by Mr. Calbert. 
Questions submitted by Mr. Moran and the answers thereto 
follow:]

                      Traumatic Brain Injury (TBI)

    Question. The CDC reports that traumatic brain injury (TBI) 
contributes to a substantial number of deaths and cases of permanent 
disability. In fact, TBI is a contributing factor to a third (30.5%) of 
all injury-related deaths in the United States. Of the 1.7 million 
people who sustain a TBI each year in this country: 52,000 people die 
and 275,000 people are hospitalized. The estimated economic cost of TBI 
in 2010, including direct and indirect medical costs, is estimated to 
be approximately $76.5 billion. To this effect, combat veterans and 
civilians afflicted from brain injury deserve to have collaborative 
support from the brain research and advocacy communities to advance TBI 
research, significantly improving outcomes and curb the cost burden to 
the U.S. health system. We believe that the intellectual capabilities 
of our healthcare workforce can be better harnessed using collaborative 
technology platforms and to this we offer the following questions:
    Approximately how much money has the DoD spent on combat casualty 
care, TBI, PTSD, since the beginning of the wars?
    Answer. The table below provides an estimation of costs, where 
available, for Combat Casualty Care, TI and Psychological Health (to 
include PTSD).

                                                  [$ Millions]
----------------------------------------------------------------------------------------------------------------
                                          FY 2004  FY 2005  FY 2006  FY 2007  FY 2008  FY 2009  FY 2010  FY 2011
----------------------------------------------------------------------------------------------------------------
Psych Health (to include PTSD)*.........                               1,010    1,270    1,5l2    1,836     2012
                                         -----------------------------------------------------------------------
Traumatic Brain Injury*.................       Data not readily          108      135      147      184      214
                                                  available
                                         -----------------------------------------------------------------------
Combat Casualty Care**..................       30       50       52      124      114      113       67       72
----------------------------------------------------------------------------------------------------------------
* Psych Health (to include PTSD) and TBI funds represent Active Duty and their Family Members (to include
  Activated Guard and Reserve and their Family Members) and do not include Retiree.
** Combat Casualty Care represents funds obligated through the Overseas Contingency Fund (OCO).

    Question. How is the Department consolidating care for TBI, PTSD, 
and other combat-related mental disorders to provide better care for 
our uniformed service members?
    Answer. Multidisciplinary programs throughout the Military 
Healthcare System (MHS) provide high quality, consolidated care for 
Service members (SMs) with traumatic brain injury (TBI). In addition, 
posttraumatic stress disorder (PTSD) and combat-related mental 
disorders are addressed through coordinated programs. These conditions 
frequently present with similar symptoms and are often seen together, 
making diagnostic and treatment decisions challenging. There are 
currently over 60 TBI programs in the MHS that systematically 
coordinate care for SMs with TBI and co-occurring conditions, which may 
include chronic pain, headaches, PTSD, mood, and sleep disorders. These 
programs provide four levels of care to SMs who sustain a TBI, 
depending on the individual severity of injury and needed care 
requirements. Programs such as Re-Engineering Systems of Primary Care 
Treatment in the Military (RESPECT-Mil) and the Behavioral Health 
Optimization Project (BHOP) enable Department of Defense (DoD) primary 
care providers to screen and treat health-seeking patients in primary 
care clinics for PTSD, suicidal ideation, and depression while 
integrating behavioral health care providers into routine care. These 
programs place psychological health (PH) care providers in 
nontraditional primary care clinic treatment settings, and enhance 
access to PH care while increasing the care quality of both primary 
care and PH care.
    As one means of communicating the state of the evidence to clinical 
providers in the field, the DoD and Department of Veterans Affairs (VA) 
jointly developed Clinical Practice Guidelines (CPGs), including a CPG 
for the Management of Posttraumatic Stress (2010), and one for 
Concussion/Mild Traumatic Brain Injury (2009). The DoD also developed 
companion Clinical Support Tools for providers, veterans, and SMs. The 
PTSD tools are currently in development and scheduled for public 
release mid-2012. In addition, the Defense Centers of Excellence for 
Psychological Health and Traumatic Brain Injury (DCoE), which was 
established in 2007, facilitates weekly PH and TBI conference calls 
with representatives from the Services and VA to coordinate care and 
identify best practices to ensure that SMs with these clinical 
conditions receive high quality, evidence-based care in alignment with 
current scientific literature. The DoD continues in its effort to 
provide high quality, consolidated PH and TBI care, which includes 
initiatives to reduce the stigma associated with seeking PH or TBI 
care, identify improved methods to access healthcare, establish 
standards for training to improve quality of care, implement telehealth 
technologies to increase access to care, and expand collaboration 
between Departments and stakeholders.
    Question. In light of the recent unfortunate events in Afghanistan, 
what practical diagnostic tools have be developed by DoD's R&D 
investments that can reliably differentiate between the diagnosis of 
TBI, PTSD, or patients with elements of both?
    Answer. There are a number of research projects underway supporting 
the development of evidence-based scientifically-evaluated techniques 
for improving diagnostic accuracy of PTSD and TBI (with a particular 
focus on concussion/mild TBI (mTBI)), to include differential diagnosis 
as well as co-occurring PTSD and TBI. Several research efforts utilize 
brain imaging techniques to elucidate brain indices of risk for PTSD 
and mTBI that are correlated with techniques and technologies that are 
more fieldable (for example, neurocognitive testing, eye-tracking, 
balance platforms). These research studies will yield empirically-
validated diagnostic tools. There is an effort to develop a validated 
concussion dosimeter to predict likelihood of injury. Concurrently, 
foundational research is underway to understand underlying unique and 
common neurobiological mechanisms of PTSD and TBI in order to inform 
development of improved diagnostics. Lastly, research is focused on 
understanding the potential reciprocal interaction between 
psychological and physical neurotrauma. It is hypothesized that 
neurotrauma may predispose some Service members to the development of 
PTSD. Within the next several years, these research studies are 
expected to produce tools and results that will inform guidelines for 
improved accuracy of PTSD and TBI diagnoses.
    Question. Please describe any tangible benefits in the form of 
delivered and deployed products or improved processes or patient care 
protocols that our wounded warriors have received from the R&D dollars 
appropriated for TBI and PTSD to date. Please distinguish this from 
advances and contributions our military physicians have made in the 
absence of R&D funding.
    Answer. The Department has a significant research investment in 
this area and our research strategy is aligned to the continuum of TBI 
care model. Basic research and epidemiology projects focus on 
understanding mechanisms of injury and incidence of the injury. In 
addition, research projects are being conducted in the following 
categories of the continuum of TBI care model: Medical Standards for 
Protective Equipment; Objective Measures of Head Impact/Blast Exposure; 
Valid Criteria for mild TBI/Concussion Screening Tools; Portable 
Diagnostic Devices for Theatre and Garrison; Pharmaceutics and Surgical 
Technologies for Treatment; Recovery Time-Course and Rehabilitation 
Strategies; and Valid Return to Duty Standards and Measures of 
Rehabilitation.
    Question. What is the status of the helmet sensor for blast 
detection funded through MRMC? Please differentiate from the blast 
detector already deployed with the 4th ID that was developed by DARPA.
    Answer. The Generation II helmet sensor is a Program Executive 
Office (PEO) Soldier initiative designed to provide an objective way to 
measure and record soldier head impact and blast exposures in combat 
and training environments. In a blast or head impact event, the sensors 
measure and record helmet acceleration and blast pressure. These 
sensors are not medical devices, and they are not used to diagnose TBI; 
however, they do provide a means for documenting possibly injurious 
head impact and blast exposures, and they provide a mechanism for 
rapidly identifying soldiers who should be referred for medical 
evaluation and treatment.
    The U.S. Army Medical Research and Materiel Command (USAMRMC) is 
supporting the PEO Soldier Gen II helmet sensor fielding initiative. 
The USAMRMC, through the Joint Trauma Analysis and Prevention of Injury 
in Combat (JTAPIC) program, will help to assess sensor performance by 
leading a sensor data analysis project that will determine if the 
sensor data correlate with events and injuries. The JTAPIC program has 
developed an operational exposure screening tool that will be used to 
rapidly screen the sensor data as they are downloaded from soldiers' 
helmets. The screening tool produces a red-amber-green (R-A-G) output 
indicating the probability of a concussion based on existing concussion 
data from the automotive safety community and the National Football 
League. Soldiers with amber or red events will be referred for medical 
evaluation in accordance with the existing DoD policy on the management 
of concussion/mild traumatic brain injury in the deployed setting.
    The DARPA blast detector is a different technological application. 
USAMRMC is collaborating with DARPA and PEO Soldier to provide an 
objective way to measure and record soldier head impact and blast 
exposures in combat and training environments using the DARPA 
technology.
    Question. How can the DoD enhance its collaborations with other 
governmental and non-governmental organizations to more effectively 
translate basic science advances in the care of neurological disease 
into tangible benefits for the warriors, and their families?
    Answer. The Department of Defense (DoD) is collaborating with other 
government agencies, academia, and industry on many initiatives:
    <bullet> DoD and the Department of Veterans Affairs (VA) 
collaborate on many diverse research initiatives, in terms of 
identification of scientific gaps, evaluation of research proposals for 
funding and the progress of research programs. In addition, DoD funds 
nearly 350 VA and VA-affiliated investigators who perform medical 
research, including projects for traumatic brain injury (TBI) and 
psychological health research.
    <bullet> DoD and VA collaborated in the establishment of four 
Centers of Excellence: Psychological Health and Traumatic Brain Injury 
(DCoE), Vision, Hearing, and Extremity and Amputation Care. These 
Centers facilitate research planning.
    <bullet> The DCoE develops collaborative projects, such as the 
Common Data Elements Project, with the National Institutes of Health 
(NIH), VA, and the Department of Education.
    <bullet> DoD is working with NIH to develop a comprehensive 
comparative effectiveness research program on the diagnosis, treatment, 
and outcomes of TBI.
    <bullet> NIH and VA representatives serve on the DoD Neurotrauma 
Steering Committee and the Joint Program Committees that plan and 
monitor research. DoD and NIH, in partnership, are building the Federal 
Interagency Traumatic Brain Injury Research database to accelerate 
comparative effectiveness research on brain injury treatment and 
diagnosis.
    <bullet> DoD and VA are embarking on a jointly funded research 
consortium to address the chronic effects of neurotrauma, to include 
psychologic, neurologic, cognitive, and sensory effects.
    <bullet> In addition to collaborating with various governmental 
agencies, DoD partners with numerous industries that conduct clinical 
trials to develop products that will aid in the diagnosis and treatment 
of TBI.
    With so many promising avenues in simultaneous development, it is 
reasonable to anticipate exciting successes within the next 5 to 7 
years. We believe that the most promising approach to treatment and 
rehabilitation will not be through any single organization, but rather 
through collaboration of existing government and non-government 
research partners. This will require continued dedicated support and 
the combined, coordinated efforts of many agencies, academia and 
industry.

    [Clerk's note.--End of questions submitted by Mr. Moran. 
Questions submitted by Mr. Rothman and the answers thereto 
follows:]

                      Traumatic Brain Injury (TBI)

    Question. Traumatic Brain Injury continues to be a leading cause of 
death and disability among our military personnel. Recent figures 
indicated that explosive blast TBI accounted for 60% of combat 
casualties on Operation Enduring Freedom (OEF) and Operation Iraqi 
Freedom OIF)). Many patients die or are disabled by the initial brain 
injury; but many more suffer additional, often fatal, secondary brain 
damage during the days to weeks after the original injury. Despite 
advances in medical care, therapies for secondary brain injury have so 
far proven minimally effective. There is promising new research being 
done in my home state of New Jersey to decrease or eliminate the 
consequences of secondary brain injury, such as delayed cerebral 
ischemis and rebleeding. Research of this type has the potential to 
categorize secondary injuries of this type as preventable. I am aware 
that there is a wide range of research being conducted by the Services 
and the Defense Centers of Excellence on the subject of traumatic brain 
injury. Developing effective mitigation and treatment of secondary 
brain injury is a critical component of an improved TBI system of care.
    What type of projects or initiatives, and level of resources, has 
the Department devoted to investigate early intervention, mitigation 
and treatment modalities to prevent secondary brain injury following 
TBI?
    Answer. The Department has a significant research investment in 
this area and our research strategy is aligned to the continuum of TBI 
care model. Basic research and epidemiology projects focus on 
understanding mechanisms and incidence of the injury. Additionally, 
research projects are underway in the following categories of the 
continuum of TBI care model: Medical Standards for Protective 
Equipment; Objective Measures of Head Impact/Blast Exposure; Valid 
Criteria for mild TBI/Concussion Screening Tools; Portable Diagnostic 
Devices for Theater and Garrison; Pharmaceutics and Surgical 
Technologies for Treatment; Recovery Time-Course and Rehabilitation 
Strategies; and Valid Return to Duty Standards and Measures of 
Rehabilitation.

    [Clerk's note.--End of questions submitted by Mr. Rothman. 
Questions submitted by Mr. Hinchey and the answers thereto 
follow:]

                    Applied Behavior Analysis (ABA)

    Question. Mr. Woodson, in your testimony, you stated that Applied 
Behavior Analysis or ABA therapy cannot be covered under TRICARE Basic 
because it does not meet statutory requirements. You further clarified 
that it is not a policy issue that it is a statutory requirement. Can 
you please explain why this does not meet the statutory requirements 
and include the Department's current interpretation of the law or DoD 
policies that you believe support this assertion?
    Answer. Title 10 United States Code Chapter 55, Section 1071 
authorizes a uniform program--Civilian Health and Medical Program of 
the Uniformed Services--of medical benefits and dental care for members 
and certain former members of the Uniformed Services and their 
dependents. Based on the recent change to 10 USC 1073 (in NDAA FY 2011, 
Section 711), the Secretary of Defense is solely responsible for 
administering the TRICARE Program and making any decisions affecting 
it. The other Secretaries have remaining responsibilities for otherwise 
administering provisions of Chapter 55 in general, but not with respect 
to TRICARE. TRICARE is authorized at Sections 1079, 1086, and 1091 to 
contract with civilian providers for the health care program benefits 
authorized under Section 1077.
    32 C.F.R. Sec. 199.1(d) specifies that the program authorized under 
Chapter 55, Title 10, United States Code, includes a program of medical 
benefits provided by the U.S. Government under public law to specified 
categories of individuals who are qualified for these benefits by 
virtue of their relationship to one of the seven Uniformed Services. 
Although similar in structure in many of its aspects, it is not an 
insurance program in that it does not involve a contract guaranteeing 
the indemnification of an insured party against a specified loss in 
return for a premium paid. Further, the program is not subject to those 
state regulatory bodies or agencies that control the insurance business 
generally.
    Paragraph 32 C.F.R. Sec. 199.1(e) specifies that the appropriated 
funds furnished annually by the Congress are used to adjudicate claims 
received under Part 199. That paragraph establishes that Part 199 is 
the regulatory guidance for administering the program, including 
setting out the benefits that are eligible for reimbursement.
    In accordance with 32 C.F.R. Sec. 199.4(g)(15), any proposed 
TRICARE Basic Program benefit that is characterized as a drug, device, 
medical treatment, diagnostic or therapeutic procedure must be 
determined by the Director, TRICARE to be safe and effective in 
accordance with the reliable evidence criteria. Reliable evidence is 
defined in 32 C.F.R. Sec. 199.2(b) as meaning only:
    (i) Well controlled studies of clinically meaningful endpoints, 
published in refereed medical literature.
    (ii) Published formal technology assessments.
    (iii) The published reports of national professional medical 
associations.
    (iv) Published national medical policy organization positions.
    (v) The published reports of national expert opinion organizations.
    Specifically not included in the meaning of reliable evidence are 
reports, articles, or statements by providers or groups of providers 
containing only abstracts, anecdotal evidence or professional opinions. 
Furthermore, the hierarchy of reliable evidence of proven medical 
effectiveness as listed above is the order of the relative weight to be 
given to any particular source.
    Health care technology assessments were conducted by the ECRI 
Institute, the Blue Cross Blue Shield (BCBS) Technology Evaluation 
Center (TEC) and Hayes, Inc. There is insufficient evidence to 
establish that ABA is medically or psychologically necessary or that it 
is a medical treatment for Autism Spectrum Disorders (ASD). 
Additionally there is insufficient reliable evidence to establish that 
ABA is ``proven'' as medically or psychologically necessary for ASD. 
Therefore, there is no current authority to provide ABA coverage under 
the TRICARE Basic Program. However, the results of this assessment do 
support the conclusion that DoD has authority under Title 10 U.S.C. 
Section 1079(d-e) (the TRICARE ECHO program) to provide coverage of ABA 
for ASD for ECHO eligible beneficiaries.
    Question. Dr. Woodson, the statutory law that provides the basis 
for the ECHO program, 10 USC 1079(d)(e)(f), makes no specific mention 
of autism or ABA therapy. Under 10 USC 1079(d)(3)(B) it defines 
qualifying conditions as ``mental retardation, has a serious physical 
disability, or has an extraordinary physical or psychological 
condition.'' Furthermore, ``extraordinary physical or psychological 
condition'' and ``special education'' are not defined anywhere. There 
is a strong case to be made that this therapy more appropriately falls 
under 10 USC 1077(a)(5), the basis for TRICARE Basic, which makes 
beneficiaries eligible for treatment of ``nervous, mental, and chronic 
disorders.'' It should be noted that legislation pending in the House 
(H.R. 2288) would simply amend 10 USC 1077 to include autism as its own 
subsection. Other diseases and disorders have not needed specific 
mention in the statute to be eligible for coverage.
    Answer. TRICARE recognizes an Autism Spectrum Disorder (ASD) as a 
neurobiological condition, generally of unknown etiology, which 
requires medical treatment. The TRICARE Basic Program provides such 
medically necessary services as speech therapy, physical therapy, 
occupational therapy, and psychological testing and treatment for ASD 
conditions. By statute and regulation, only medical services may be 
provided in the TRICARE Basic Program. While ABA generally involves 
``education'', it is considered a behavior modification modality that 
is neither ``special education'' nor a medical treatment for autism. 
The statute proposes to include ABA as medical care when there is yet 
to be sufficient reliable evidence documented in the medical community 
establishing it as a proven safe and effective medical treatment for 
the underlying condition of autism. Instead of relying on a thorough 
review of its safety and efficacy as a medical treatment, which is 
required for all other medical treatments covered by TRICARE, this 
statute would allow individual providers to determine if the ABA 
services being requested are safe, effective and appropriate for the 
beneficiary--unlike the process for covering all other medical 
treatments under the TRICARE Basic Program.
    TMA conducted an assessment of ABA in October, 2010, and reliable 
evidence reviewed indicated that ABA does not satisfy the definition of 
proven medical care that statute and regulation require TRICARE to use. 
By implying that ABA is a medical intervention for ASD, the legislation 
goes against the weight of in-depth health care technology assessments 
conducted by the ECRI Institute and assessments by the Blue Cross Blue 
Shield (BCBS) Technology Evaluation Center (TEC) and Hayes, Inc.
    It is inappropriate to incorporate a non-medical service into the 
TRICARE Basic Program, which has heretofore been restricted to 
provision of medical care. Congress has consistently recognized this 
and established by statute the separate Extended Care Health Option 
(ECHO) to enable provision of certain non-medical services to active 
duty family members.
    Question. Even more appropriate is 10 USC 1077(a)(17) which 
provides ``rehabilitative therapy to improve, restore or maintain, or 
to minimize or prevent deterioration of function, of a patient when 
prescribed by a physician.'' Because the ECHO program does not define 
autism under ``extraordinary physical or psychological condition'' 
within the statute or define ABA therapy as ``special education,'' why 
do you believe that this is a statutory issue? It seems to me that this 
is a policy issue. Don't you agree that if DoD considers autism as 
something other than an ``extraordinary physical or psychological 
condition'' and/or ABA therapy as something other than ``special 
education'' that the law would not need to be re-written?
    Answer. ABA has been characterized by the majority of the reliable 
evidence reviewed as not being a medical treatment, but instead as 
involving non-medical, behavioral intervention services. Additionally, 
except as otherwise specifically permitted by law, TRICARE has no 
authority to provide coverage of ``special education'' (10 U.S.C. 
1079(a)(9)) or ``self-help, academic education or vocational training 
services and supplies'' (32 C.F.R. 199.4(g)(42)) under the Basic 
Program (32 C.F.R., 199.4). Consequently, reimbursement can be made by 
the DoD for these services only if authorized by some other statutory 
authority under Chapter 55 of Title 10.
    Section 1079(d)(1)-(3) provides additional authority for payment 
for non-medical services. However, this statutory provision is limited 
to dependents of Active Duty Family Members with a qualifying 
condition. Under 10 U.S.C. 1079(d)(3), the term ``qualifying 
condition'' means the condition of a dependent who is moderately or 
severely mentally retarded, has a serious physical disability, or has 
an extraordinary physical or psychological condition. Active duty 
dependents diagnosed with ASD may have one of these qualifying 
conditions.
    Although the literature characterizes ABA services by the use of 
several non-medical terms, and there does not appear to be consensus on 
any one characterization, a precise characterization of ABA is not 
required for coverage under ECHO as long as ABA: 1) does-not meet the 
definition of a benefit under the medical program; and 2) can be 
reasonably characterized as a benefit under any one of the seven 
categories listed in 1079(e).
    In sum, DoD has authority under title 10 U.S.C. Section 1079(d-e) 
(the TRICARE ECHO Program) to provide coverage of ABA as a non-medical 
service for eligible beneficiaries to minimize the effects of ASD. As 
discussed above, there is no current authority to provide ABA coverage 
under the TRICARE Basic Program.
    Question. Dr. Woodson, you stated during the hearing that ABA 
therapy is an ``educational intervention'' and not ``medical 
treatment.'' I disagree with your classification. First, TRICARE and 
most other insurance companies require a board-certified medical doctor 
in behavioral developmental pediatrics, neurodevelopmental pediatrics, 
pediatric neurology, pediatric psychology, or a specially trained 
physician or PhD psychologist who works with children to diagnose 
autism. Second, ABA therapy is a doctor-prescribed medical treatment 
and is recommended and endorsed by the U.S. Surgeon General, American 
Academy of Pediatrics, National Institute of Mental Health and other 
national medical policy organizations as effective treatment for 
autism. The 2007 American Academy of Pediatrics report concluded that 
the benefit of ABA-based interventions in autism spectrum disorders 
(ASDs) ``has been well documented'' and that ``children who receive 
early intensive behavioral treatment have been shown to make 
substantial, sustained gains in IQ, language, academic performance, and 
adaptive behavior as well as some measures of social behavior.'' Third, 
Board Certified Behavior Analysts (BCBA) administer most of the 
treatment and have no affiliation with Special Education. They are 
highly trained and spend the majority of their careers working with 
doctors, psychologists, and psychiatrists--not special educators. Based 
on these endorsements by reputable people and institutions, why do you 
not believe ABA therapy is a ``medical treatment?'' Please provide any 
supporting documentation the Department used to make its decision to 
classify ABA therapy as special education.
    Answer. See attached TRICARE MANAGEMENT ACTIVITY Assessment of 
Applied Behavior Analysis for Autism Spectrum Disorders.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Question. Dr. Woodson, currently, ABA therapy is authorized under 
the Extended Care Health Option (ECHO) Program which is not available 
to military retirees, including Wounded Warriors who are forced to 
medically retire. Please discuss why ABA therapy is placed under this 
program when the intent of Congress is to provide basic health care to 
all active duty military and military retirees?
    Answer. ABA has been characterized by the majority of the reliable 
evidence reviewed as not being a medical treatment, but instead as 
involving non-medical, behavioral intervention services. Additionally, 
except as otherwise specifically permitted by law, TRICARE has no 
authority to provide coverage of behavior modification modalities or 
other non-medical services under the Basic Program (32 C.F.R., 199.4). 
Consequently, reimbursement can be made by the DoD for these services 
only if authorized by some other statutory authority under Chapter 55 
of Title 10.
    Section 1079(d)(1)-(3) provides additional authority for payment 
for non-medical services. However, this statutory provision is limited 
to dependents of Active Duty Family Members with a qualifying 
condition. Under 10 U.S.C. 1079(d)(3), the term ``qualifying 
condition'' means the condition of a dependent who is moderately or 
severely mentally retarded, has a serious physical disability, or has 
an extraordinary physical or psychological condition. Active duty 
dependents diagnosed with ASD may have one of these qualifying 
conditions.
    Although the literature characterizes ABA services by the use of 
several non-medical terms, and there does not appear to be consensus on 
any one characterization, a precise characterization of ABA is not 
required for coverage under ECHO as long as ABA: 1) does not meet the 
definition of a benefit under the medical program; and 2) can be 
reasonably characterized as a benefit under any one of the seven 
categories listed in 1079(e).
    Question. Dr. Woodson, doctors recommend children suffering from 
autism must receive at least 25-40 hours of ABA therapy each week to be 
effective. However, the ECHO program limits therapy to $36,000 per year 
which only amounts to an average of about 10 hours per week. In some 
states like the District of Columbia and California, this only pays for 
5 hours per week. This is far less than the recommended amount. This is 
causing military families to pay out of their own pockets to make up 
this difference.
    Answer. The National Defense Authorization Act for Fiscal Year 
2009, Public Law 110-417, 110th Cong., 2nd sess. (14 Oct 2008), Section 
732 established the limit of Government liability for ECHO benefits at 
$36,000 per year. This change was implemented on April 1, 2009. Prior 
to April 1, 2009 there was a monthly government liability limit of 
$2,500 per beneficiary.
    Based on data generated using TRICARE purchased-care ECHO claims 
incurred during FY11 (October 1, 2010 through September 30, 2011), of 
the 5091 TRICARE beneficiaries with an ASD diagnosis using the ECHO 
program, 207 beneficiaries had expenditures above $35,000 per year. 
Another 489 beneficiaries had expenditures between $30,000 and $35,000 
in FY11. Thus, approximately 14% of the TRICARE beneficiaries with an 
ASD diagnosis using the ECHO program are potentially facing out-of-
pocket costs.
    Question. Why has DoD not funded this program for beneficiaries to 
receive the doctor-prescribed amount? If it is a statutory issue, what 
has DoD done to notify Congress that the ECHO program does not provide 
adequate funding? Have any recommendations ever been made to Congress 
to increase deductibles or put any other measures in place to mitigate 
the financial burden placed on these military families? Please submit 
all related documentation if Congress has been informed of this issue 
in the past.
    Answer. The National Defense Authorization Act for Fiscal Year 
2009, Public Law 110-417, 110th Cong., 2nd sess. (14 Oct 2008), Section 
732 established the limit of Government liability for ECHO benefits at 
$36,000 per year. This change was implemented on April 1, 2009. Prior 
to April 1, 2009 there was a monthly government liability limit of 
$2,500 per beneficiary.
    The Joint Explanatory Statement (JES) to accompany the Duncan 
Hunter National Defense Authorization Act for Fiscal Year (FY) 2009 
requests the Secretary of Defense to submit a report semiannually on 
the status of the TRICARE Autism Services Demonstration. Pursuant to 
the JES, the semiannual RTC includes an overview of the purpose, scope, 
and key features of the TRICARE Autism Services Demonstration; and 
information related to beneficiary utilization, provider participation, 
and whether reimbursement levels are sufficient to retain qualified 
providers. The most recent report was submitted in September 2011 and 
the current report is in coordination to be submitted by the end of 
April 2012.
    Question. Dr. Woodson, it has been brought to my attention that DoD 
does not want to offer ABA therapy under TRICARE Basic because it will 
cost too much. Can you confirm or deny that this is the reason why you 
are not offering this therapy under TRICARE Basic? Has cost 
consideration played any role in determining whether this treatment 
should be offered under TRICARE Basic? If so, please elaborate on how 
cost has affected DoD's decision making and classification of autism.
    Answer. TRICARE conducted an assessment of ABA in October, 2010, 
and reliable evidence reviewed indicates that ABA does not satisfy the 
definition of proven medical care that statute and regulation require 
TRICARE to use. It is inappropriate to incorporate a non-medical 
service into the TRICARE Basic Program, which has heretofore been 
restricted to provision of medical care. Congress has established by 
statute the separate Extended Care Health Option (ECHO) to enable 
provision of certain non-medical services to active duty family 
members. Cost was not a factor in TRICARE's assessment of ABA.
    Question. Dr. Woodson, please provide estimates of how much 
additional funding would be needed if ABA therapy is placed under 
TRICARE Basic. Please include all assumptions used to formulate this 
amount.
    Answer. Using DEERS data, we estimate that there are approximately 
1.6 million active duty family members (ADFM) younger than age 22 (99.9 
percent of ECHO ASD users are age 21 or younger). The CDC currently 
estimates that about 1 percent of the general population has ASD 
implying that roughly 16,000 ADFM beneficiaries younger than age 22 
have ASD. With 5,091 ADFM users in the ECHO ASD program during FY11, we 
estimate that roughly one third of the ASD population receives 
services.
    In FY11, the average annual cost per TRICARE beneficiary diagnosed 
with an ASD using the ECHO program was $16,249. At the end of FY10, 
there were 5562 retired family members with an ASD diagnosis. Using the 
rough estimate in the paragraph above, we would expect that 
approximately 1800 retired family members would receive services. 
Therefore, if ABA therapy were placed under the TRICARE Basic program, 
at a minimum it is estimated that approximately $30 million annually 
would be required to cover the additional beneficiaries. This does not 
take into account additional costs for all beneficiaries if the annual 
cap of $36,000 under the ECHO program was lifted. This would add 
significantly to the cost.
    It should be noted that annual TRICARE costs for ECHO program 
participants with ASD diagnoses in FY11 was $82.7 million.
    Question. Dr. Woodson, from everything that I have read ABA therapy 
is clearly the therapy that works best to give kids suffering from 
autism the best shot of living a functional life. My perception is that 
DoD is going out of its way to classify ABA therapy as something that 
does not meet TRICARE Basic classification. If there are no statutory 
requirements for DoD's classification of ABA therapy as special 
education, which has been used as justification to prevent coverage 
under TRICARE Basic, what is preventing DoD from recognizing ABA as a 
medically prescribed treatment that would obviously be covered under 10 
USC 1077(a)(5)?
    Answer. See attached TRICARE MANAGEMENT ACTIVITY Assessment of 
Applied Behavior Analysis for Autism Spectrum Disorders.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    [Clerk's note.--End of questions submitted by Mr. Hinchey. 
Questions submitted by Mr. Young and the answers thereto 
follow:]

    Question. Mr. Secretary, often times the civilian sector can 
develop outstanding technologies, methods, and programs that provide 
efficiencies to enhance industry and government performance. As 
indicated in your Department's response to senate defense 
Appropriations questions on April 6 of last year, we were encouraged to 
see that you have identified such a program at TATRC in your TS-PASS 
program (since that time, we understand the even Johns Hopkins 
University Medical is beginning to adopt these methods). As such, we 
included report language in the FY 2012 Defense Subcommittee bill 
encouraging you to establish a ten site pilot program using this new 
method for the care of military hospital patients. Can you please 
inform the committee of the status of this implementation?
    Answer. Presently, Tri-Service Patient Acuity Schedule System is 
not an operational data system in the Military Health System nor is 
there any funding allocated to implement it. It is a set of functional 
requirements for which a technological solution has not yet been 
determined. We are exploring some new concepts to staff scheduling with 
TATRC which do appear to have some possible merit in the civilian 
healthcare industry, as you have alluded. The TATRC studies will not be 
complete until later this year and we need this information before we 
can make plans for further pilot studies. I want to assure you that my 
staff is working closely with TATRC and if this technology proves to be 
useful in the military healthcare setting we will follow up on that 
course of action.

    [Clerk's note.--End of questions submitted by Mr. Young.]
                                         Wednesday, March 28, 2012.

 FISCAL YEAR 2013 NATIONAL GUARD AND U.S. ARMY RESERVE BUDGET OVERVIEW

                               WITNESSES

GENERAL CRAIG R. McKINLEY, CHIEF, NATIONAL GUARD BUREAU
LIEUTENANT GENERAL WILLIAM INGRAM, JR., DIRECTOR, ARMY NATIONAL GUARD
LIEUTENANT GENERAL HARRY WYATT, DIRECTOR, AIR NATIONAL GUARD
LIEUTENANT GENERAL JACK C. STULTZ, CHIEF, ARMY RESERVE AND COMMANDING 
    GENERAL, UNITED STATES ARMY RESERVE COMMAND

                  Opening Statement of Chairman Young

    Mr. Young. The committee will be in order.
    The hearing this morning is on National Guard and U.S. Army 
Reserve readiness. We will focus primarily on near-term 
readiness issues related to personnel, training, and equipment, 
repair, reset, and battle loss replacement.
    Because the senior services have consistently underfunded 
the Reserve components, Congress has provided funding for the 
National Guard and Reserve Equipment Account for over 30 years. 
And, at times, this funding has made all of the difference in 
the ability of units to perform their critical missions.
    We are pleased to welcome several very distinguished 
general officers as witnesses this morning.
    From the National Guard, we have General Craig R. McKinley, 
Chief of the National Guard Bureau and--congratulations, 
General--the first four-star chief of the National Guard. 
Additionally, General McKinley's position has recently been 
made permanent on the Joint Chiefs of Staff, and that is 
something that we all sort of pushed for for a long time. 
Congratulations again. This recognition and inclusion will be 
very important to the defense of our Nation.
    But, sadly, this will be the last time we will hear from 
General McKinley in his capacity as chief. General McKinley, 
originally from Jacksonville, Florida, from Mr. Crenshaw's 
district, will be retiring and moving back to Florida this 
year. That is a good decision, moving back to Florida.
    General McKinley, we thank you very much for your many, 
many years of dedicated service to our country.
    General McKinley is accompanied by Lieutenant General 
William E. Ingram, Jr., the Director of the Army National 
Guard. This is General Ingram's first time to testify before 
this committee. General Ingram, congratulations on your recent 
appointment.
    Lieutenant General Harry M. Wyatt, III, the Director of the 
Air National Guard. This will be General Wyatt's last time to 
testify before the committee in the capacity as the Air Guard 
Director. General, hopefully, we will have the opportunity to 
hear from you in a future role in your service to our country.
    Finally, we are pleased to welcome the Chief of U.S. Army 
Reserve, Lieutenant General Jack C. Stultz, another Floridian 
and soon to be retired and moving back to Florida. The General 
and I have had a long relationship dating back to the Gulf War. 
We have done some interesting work together. Let me put it that 
way. I know that he cares about his soldiers and is eager to 
stand up for their rights and needs. General Stultz, we will 
miss you terribly in the capacity as the Army Reserve Chief. 
Congratulations on your upcoming retirement.
    So welcome. We are eager to hear your testimony on better 
determining the needs of guardsmen and reservists deployed 
around the world. These officers, I say to my colleagues, are 
very well qualified to answer the questions of the committee. I 
know that there were many questions and many concerns that we 
have, along with the officers that are here.
    The committee is concerned about the readiness of the 
National Guard and the Army Reserve. Your soldiers and airmen 
performed so magnificently in Iraq and with distinction in 
Afghanistan and in many other hot spots around the globe. The 
committee would like to commend the soldiers and the airmen of 
the Guard and Reserve for their dedication throughout these 
years in Iraq and Afghanistan.
    This hearing, however, comes at a difficult time for the 
Guard and Reserve components and especially for the Air Guard 
at a time when we find that the Air Force is making every 
attempt to cut equipment and force structure from the Air 
Guard. We find our valued leaders moving on to a well-deserved 
retirement. Still, this committee will do everything possible 
to make sure adequate force structure remains to carry out both 
your homeland and wartime missions.
    So we look forward to your testimony. Your full statements 
will be placed in the record. You can speak them as you will.
    But, before we do that, I would like to recognize my 
friend, Mr. Rothman, for any opening comments he would like to 
make.
    Mr. Rothman. I thank my distinguished chairman.
    Generals, good morning. It is an honor to be with you.
    Mr. Chairman, I would also like to welcome our Guard and 
Reserve leadership to discuss the fiscal year 2013 budget 
request. Specifically, I would like to recognize two of our 
witnesses. First, to thank General Craig McKinley, Chief of the 
National Guard Bureau, for his 38 years of service to our 
Nation and to the men and women of the Air and Army National 
Guard. Thank you, General.
    General McKinley. Thank you, sir.
    Mr. Rothman. I would also like to recognize Lieutenant 
General Jack Stultz, who has selflessly said yes twice when 
asked to continue as the Chief of Army Reserve. Thank you, 
General Stultz, for your dedication to our Nation and your men 
and women who serve under you.
    You will both be missed.
    Gentlemen, this morning we look forward to your views on 
the fiscal year 2013 budget request and the current status of 
the National Guard and Army Reserve. We look forward to hearing 
how all of you are meeting the unique challenges of Reserve 
service for your soldiers and airmen, as well as meeting the 
needs of the families who support them.
    Over the past decade, the Reserve component, especially 
your organizations, have moved from a strategic force waiting 
to join the fight until needed to an operational Reserve called 
upon in every conflict and war since Desert Shield/Desert 
Storm, serving side by side with your Active component 
brethren. This fundamental shift in the employment of the Guard 
and Reserve erases the perception of the weekend warrior. It is 
now difficult to tell a guardsman or reserve soldier from the 
active one on the battlefield.
    However, as an operational reserve, readiness takes on a 
new meaning. Maintaining the people and the hard-earned skills 
and competencies from the decades worth of deployments, as well 
as the readiness of the equipment that supported those 
missions, will take time and resources.
    The committee has great interest in ensuring your equipment 
needs are being met and will be met through the National Guard 
and Reserve Equipment Account. It is important for us to hear 
just how your requirements are being filled or not filled 
through this approach.
    And just as the Active force is dealing with the profound 
effects of prolonged war, so, too, are the Guard and Reserve. 
Injuries, both physical and psychological, are realities of war 
and Reserve members have not been spared. Access to medical 
care after returning home can be challenging, even without a 
life-changing injury. We are interested in hearing about your 
efforts to help your heroes heal once they are released from 
Active Duty and return home to their families and community.
    Gentlemen, we look forward to your testimony. Again, thank 
you from the bottom of my heart and all of our Members for your 
service.
    Thank you, Mr. Chairman.
    Mr. Young. Mr. Rothman, thank you very much.
    General McKinley, we would like to recognize you first. We 
will listen attentively, and we will try not to interrupt you 
as you make your statement, as well as the other officers. But 
then we will barrage you with some interesting questions.

                 Summary Statement of General McKinley

    General McKinley. Thank you, Chairman Young. It is always a 
pleasure to appear before your committee.
    Mr. Rothman, thank you. I know Congressman Dicks will be 
joining us later, but it is a pleasure to have you up on the 
front, too.
    And to all of the members of the committee, thank you so 
much for your dedicated support to the men and women of our 
military services and in particular to the men and women of the 
National Guard.
    I wanted to take this opportunity to thank all of you for 
your dedication to the soldiers and airmen that we represent 
here in front of you today.
    Bud Wyatt to my left and Bill Ingram to my right are my 
battle buddies, my wingmen, who assist me in my preparation to 
do my job as chief. Both of them are former Adjutant's General, 
so they have a unique perspective on the issues and concerns of 
our soldiers and airmen in State Active Duty and Title 32, and 
I couldn't be more pleased with the support I get from both of 
these gentlemen.
    And I would like to thank my very, very good friend, Jack 
Stultz, for his dedicated years of service to our Nation. I 
have enjoyed working with Jack recently in these last 7 years 
here because we have both been through those years together. 
Thanks, Jack, and the best to you.
    We find ourselves in the midst of constrained budgets and 
tough choices. No doubt we must curb spending but hopefully not 
at the expense of our security. That is why I must tell you 
that sequestration is not in the best interest of our Nation. 
It would result in further severe reductions in the National 
Guard, Reserve, and our Active component. The National Guard is 
already facing difficult budget cuts, cuts that impact 
equipment and personnel. Further reductions would significantly 
limit the Guard's ability to function as an operational force, 
decrease the total force's overall capability, and reduce the 
Department's capacity to protect the homeland and respond to 
emergencies.
    The National Guard is a more ready, more capable and a more 
rapidly deployable force than ever in our Nation's history; and 
we thank the members of this committee for helping us be that 
way. We have and will continue to answer the call for 
mobilizations and volunteer in support of our combatant 
commanders.
    More than 50 percent of our Guardsmen have combat 
experience. As a part-time force, the National Guard is a 
proven, affordable defense option for America. During a time of 
constrained budgets, we must continue to be used as an 
operational force to ensure the Nation is getting the most 
defense capability at the lowest cost. As an operational force, 
the National Guard is a strategic hedge for unforeseen world 
events. At any time, the National Guard can augment the Active 
Duty to surge and regenerate forces. The Nation also counts on 
the National Guard to protect our homeland, your home States, 
territories, and the District of Columbia.
    The National Guard is the primary military force to respond 
to complex catastrophes and contributes to our security by 
protecting our airspace and borders. While representing only a 
small portion of the Guard's response capability, last year, 
Federal and State authorities called on one of our 57 civil 
support teams to use their unique weapons of mass destruction 
assessment skills almost twice a day every day in your 
hometowns.
    The National Guard is crucial to our governors. Over the 
past 3 years, members of the National Guard responded to an 
unprecedented string of natural disasters. We are poised, 
forward deployed in our communities, and ready to provide that 
support again. The Guard is the best and first military option 
for domestic response. We have proven this time and again, most 
recently during the devastating tornadoes in the Midwest.
    According to Federal Emergency Management Agency (FEMA) 
Administrator Fugate, speed is critical to domestic response. 
He has stated recently during the National Governors 
Association Conference here in Washington that aviation assets 
need to be organic to the National Guard. Other options, he 
added, may not provide the same speed and capacity.
    We are located in over 3,000 communities across the 
country. The National Guard is the connective tissue between 
the military and the American people and is positioned to 
respond quickly and efficiently to any domestic emergency.
    Our dual role requires that we continue to improve the 
quality and quantity of our equipment. The National Guard and 
Reserve Equipment Account (NGREA) has been and will continue to 
be crucial to that endeavor. NGREA is vital to the Guard, as it 
provides the ability to meet requirements, including homeland 
defense needs and modernization of legacy equipment.
    After 11 years of war, we continue to work closely with the 
Army and Air Force to reset our force to ensure our equipment 
levels meet the defense strategy. As citizen soldiers and 
airmen, guardsmen are able to blend their unique combination of 
military training and civilian-acquired skills to provide 
innovative approaches to support our Nation's security 
strategy.
    The State Partnership Program is a cornerstone of the new 
defense strategy and demonstrates the Guard's versatility. Our 
partnerships with more than 60 foreign countries have 
strengthened their military capacity and competence as well as 
our alliances. The United States benefits as well. National 
Guard partner nations have reduced the demand on U.S. forces. 
Twenty-two partner nations have provided 11,000 troops in 
Afghanistan, and 40 partner nations have provided over 31,000 
personnel in support of U.N. peacekeeping operations.
    This year, we celebrate 20 years of the State Partnership 
Program, and we look forward to continuing to provide the 
combatant commanders and the State Department with this 
innovative, low-cost, small-footprint approach to theater 
security cooperation in the future.
    Each year we continue to adapt our skills to better serve 
the Nation's strategy, and that is why this year we are 
instituting a threat-based resourcing model for our counterdrug 
activities. This will direct funding to the States with the 
most pressing needs. The breadth of our skills allows the Guard 
to take on new and emerging missions. For example, since many 
of our guardsmen and women work in the civilian IT field, we 
are ideally suited to support future cyber missions.
    I would also like to address our most important asset, our 
soldiers and our airmen. They are the reason that the National 
Guard has been so successful over the last decade, indeed, for 
the last 375 years. Today, your National Guard is the most 
capable and competent in history, and that is because we are 
recruiting the highest-quality soldiers and airmen.
    Our noteworthy enlistment and retention numbers since 9/11 
are proof that they join because they want to be used and 
expect to be used. This dedication would not be possible 
without the support of our families, communities, and 
employers. That is why I am dedicated to working closely with 
our Army and Air Force to provide our service members, their 
families, and employers with the best and most effective 
support available.
    Thank you again, Chairman Young and members of this 
committee, for the opportunity to appear before you today.
    I would now like to ask the directors of the Air and the 
Army Guard to provide brief comments on their perspectives, and 
I look forward to your questions.
    [The statement of General McKinley follows:] 

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                   Summary Statement of General Wyatt

    General Wyatt. Chairman Young and Mr. Rothman, thank you 
and the committee for your support for the extraordinary men 
and women of the Air National Guard, some 106,700 strong. I 
would like to open with a brief review of 2011 before looking 
to the future of the Air National Guard.
    Your Guard airmen continue to make significant 
contributions to our Nation's defense both here at home and 
around the globe. Last year, Guard airmen filled approximately 
56,000 requests for manpower. About 90 percent of these 
requests were filled by volunteers.
    Air National Guard responsiveness and adaptability was 
clearly demonstrated a year ago, on 17 March, 2011. As the 
United Nations Security Council passed Resolution 1973 
authorizing a no-fly zone over Libya, Air National Guard KC-
135s from the 134th Aerial Refueling Wing Tennessee Air 
National Guard and 168th Aerial Refueling Wing Alaska Air 
National Guard were diverted en route to forward operating 
bases. These Guard airmen began flying operational missions in 
support of Operation Odyssey Dawn 48 hours later and were 
joined by a significant KC-135 force from other Air National 
Guard State organizations, clearly demonstrating that the Air 
National Guard is both accessible and ready to serve.
    Last year, National Guard airmen spent over a half a 
million man days performing domestic civil support missions, a 
third of it on State Active Duty. This included assisting local 
authorities with explosive ordnance disposal, helping with 
security at special events, such as the Arkansas Governor's 
Inauguration and the Boston Marathon, helping victims of floods 
and other natural disasters, and helping to save lives by 
assisting in search and rescue efforts.
    In addition to supporting civil authorities, Guard airmen 
spent an additional million man days in homeland defense. This 
included helping to defend United States' airspace and 
aerospace control alert, assisting U.S. Customs and Border 
Protection on our Southwest border, and supporting America's 
counterdrug program.
    Congressional funding through the National Guard and 
Reserve Equipment Account has been essential to the Air Guard 
fulfilling both its Federal and State missions. For example, 
Air National Guard F-16 and A-10 squadrons deployed to 
Afghanistan with LITENING generation 4 targeting pods for the 
first time as a direct result of NGREA funding.
    Fiscal year 2011 NGREA funds were also used to procure and 
install equipment for a cyber critical infrastructure range, 
allowing Air National Guard cyber units to train and develop 
tactics, techniques, and procedures for cyber warfare without 
disrupting networks used to accomplish day-to-day missions.
    While the fiscal year 2013 budget has challenges for the 
Air National Guard, it also has opportunities, and we adjusted 
our priorities to take full advantage of those opportunities. 
The Air National Guard's priorities in preparing this budget 
were, number one, posture the Air National Guard by aligning 
force size and composition to be flexible, agile, and ready, 
with special attention to new missions such as MC-12 and 
remotely piloted aircraft, (RPA) maintaining a combat-ready 
force able to quickly surge and integrate seamlessly into joint 
operations and by repairing units broken by the base closure 
and realignment process that we recently completed.
    In conclusion, Mr. Chairman, thank you. I am grateful to be 
here today, and I look forward to answering any questions that 
you and the committee may have for me.
    [The statement of General Wyatt follows:] 

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Young. Thank you very much. I suspect that the issue 
you just talked about isn't going to stir up a lot of interest.
    General Ingram.

                  Summary Statement of General Ingram

    General Ingram. Thank you, Mr. Chairman.
    Chairman Young, Mr. Rothman, members of the subcommittee, 
it is truly my honor and privilege to be with you today 
representing the nearly 360,000 soldiers of the Army National 
Guard. The patriotism and sacrifice of these great citizen 
soldiers, their families, and their employers is a source of 
pride for all Americans.
    We are now the best-manned, best-trained, best-equipped and 
most experienced force in our 375-year history. It truly is 
congressional support for the Army National Guard that has 
contributed to our transformation and enhanced our readiness. 
As a result, the Army National Guard is a ready and reliable 
force, fully accessible for contingencies at home and abroad. 
We provide equipped and trained citizen soldiers, giving the 
President and the governors maximum flexibility in times of 
crisis. We are an operational force and a full partner with the 
Active component.
    Since September 11, 2001, the Army National Guard has 
completed a half million soldier mobilizations in support of 
domestic operations and overseas missions. We have more than 
35,000 Army National Guard soldiers currently mobilized. In 
fiscal year 2011 alone, nearly 60,000 Army guardsmen have 
deployed in support of ongoing missions around the world.
    Our soldiers represent every ZIP Code in America. They play 
a vital role as Department of Defense first responders for 
natural disasters and terrorist attacks on our soil. Today's 
Army National Guard soldiers continue the proud tradition of 
service to their States and our Nation. In 2011 alone, it was 
citizen soldiers who provided over 900,000 duty days of support 
to communities across the Nation.
    We are attracting skilled soldiers and future leaders. With 
the Nation at war as a backdrop, our recruitment rate for 2011 
was at 94 percent of our goal. This mark is complemented by a 
retention rate of 131 percent of our goal for the same period. 
We have maintained above our authorized strength since 2011.
    The Army National Guard is equipping to meet the 21st 
century challenges through your support of the necessary 
resourcing for modernization of our 28 brigade combat teams, 
including one Stryker brigade and our eight combat aviation 
brigades. We understand our readiness level is dependent upon 
the level of resourcing we receive. The overall Army National 
Guard equipment on hand for our Modified Table of Organization 
Equipment (MTOE)--our combat units, is currently at 88 percent, 
an increase from 85 percent just 2 years ago.
    Overall critical dual-use equipment on hand is at 92 
percent, an increase from 86 percent 2 years ago and a 
significant increase from the 65 percent it was during the 
Hurricane Katrina response.
    From December, 2011, through June, 2013, the Army National 
Guard is programmed to receive over 120,000 pieces of equipment 
from Army procurement funding. Army National Guard 
installations are the foundation of our readiness. We have 
facilities in more than 3,000 communities.
    Providing quality facilities across 54 States and 
territories, however, is an ongoing challenge. More than 46 
percent of our readiness centers are over 50 years old. Many 
are unable to meet the needs of a 21st century operational 
force, while failing to meet modern building standards, 
especially in terms of energy efficiency.
    The Army National Guard continues to make suicide 
prevention a top priority. Our soldiers are our most precious 
resource. We are addressing high-risk behaviors and suicidal 
tendencies through preventive measures, comprehensive training, 
and a range of intervention programs.
    In addition, we are addressing sexual harassment and 
assault response and prevention--that is called SHARP in Army 
terms--through an aggressive training program executed at the 
State level.
    It is crucial that these behavioral health programs receive 
funding in our base budget.
    In closing, I acknowledge the continued support you have 
demonstrated throughout the budget process in program planning 
for an operational Army National Guard through fiscal year 
2015. I want to express the Army National Guard's sincere 
appreciation of the critical role your committee plays in 
resourcing and sustaining the most capable National Guard that 
our Nation has ever had.
    I invite your questions and comments. Thank you.
    [The statement of General Ingram follows:] 

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Young. Thank you, General Ingram, very much.
    General Stultz.

                  Summary Statement of General Stultz

    General Stultz. Congressman Young, Mr. Chairman, Ranking 
Member Rothman, and other members, it is an honor to be here.
    Sir, I want to personally thank you for all that you have 
done throughout my tenure in this position to provide 
unwavering support for our soldiers and our families. And your 
wife Beverly doing the same. She is a champion for us.
    I just returned this weekend from a trip to Afghanistan, 
and so I got a chance to see firsthand what you are getting for 
your tax dollars, and I can assure you, you are getting a good 
return on investment.
    You know, when you look at those soldiers--and I told 
them--you are going to be in history. Because when I testify 
next Wednesday, I am going to tell your story.
    Standing on a platform in Bagram and a day later standing 
on a platform in Kandahar, looking soldiers in the eye, some of 
which are getting ready to go out on another route clearance 
mission, whose unit just got hit the day before, and lost a 
couple soldiers to wounds. Luckily, no one killed but some 
pretty significant wounds. And before they go on the mission, 
they raise their hand and take an oath of reenlistment to stay 
in uniform and to stay at war. That is a national treasure.
    And when I talk to them in the town hall meetings and I 
say, the word I am using to describe you today and that I will 
use next Wednesday is indispensable. You are an indispensable 
force for this Nation. And that doesn't come by chance. That 
comes by design.
    Because as we have shaped the Army in the past 8 or 9 years 
at war, we have leveraged the capabilities we have in our 
Reserve components, as was mentioned, into an operational 
force. But we have also created an Army.
    Number one, my buddy LTG William Ingram and I are over 50 
percent of the strength of the Army. But, more importantly, 
when you look at certain capabilities--transportation, all of 
the logistics--we are 85 percent of the Army's capability. When 
you look at engineers, route clearance, those types of 
capabilities, we are over 75 percent of the Army's 
capabilities. When you look at medicine, that life-saving 
feature out on the battlefield or back here at home, we account 
for 70 percent of the Army's capabilities. Civil Affairs, 85 
percent. Military Police, 70 percent. I can go on and on. We 
have built an Army that is dependent on the reserve component 
for those capabilities, and they have demonstrated that they 
can do it.
    Just as I have talked to the senior leadership in 
Afghanistan this last week, they said, we can't tell you which 
soldiers are Reserve and which are Active. We don't know. We 
just know they are all performing.

                     SUPPORT TO COMBAT MULTIPLIERS

    And it is because of what you have done for us, given us 
the resources over the last several years to get the equipment, 
get the training, to get the support systems that we need for 
our families that we are able to do this. And what we are is we 
are a great return on investment for this Nation. For the 
amount of the budget that we take out of the defense budget, 
which is very minimal, and what we are able to give back, and 
not only give back on the battlefield, but when those soldiers, 
those young men and women, go home, they give back in their 
communities. They are policemen, they are firemen, they are Boy 
Scout leaders, and coaches and teachers, and they are bringing 
that skill set back and applying it there.
    And when we turn around and say, now put the uniform back 
on for us, they use those same civilian skills on the 
battlefield, and we call it a combat multiplier. That soldier 
who may be there as an infantryman or a mechanic but back home 
happens to work, as General McKinley said, in information 
technology and can take care of all of the computer systems. It 
is just amazing how we see those skill sets over and over.
    So my message to you is we have done well with what you 
have given us. We have invested those tax dollars wisely. Our 
commitment is to continue to.
    The challenge we have, as we all know, is we are in an era 
of declining resources. We know we have to tighten our belts as 
a Nation. And so what we have to do is we have to be good 
stewards of the moneys you give us and use them effectively and 
use them efficiently.
    But I have to maintain that readiness levels that I have 
achieved over the last 8 to 9 years. Because that indispensable 
force, we cannot let it atrophy. So I have got to focus on 
training, and I have to migrate some dollars that are in OCO 
dollars back into my base budget, probably around $150-200 
million a year, so that I get the training requirements that I 
need to maintain that readiness. I have got to continue to 
depend on the NGREA funds to give me some flexibility, because 
those soldiers coming home expect to be able to train on the 
same level of equipment that they are going to operate in 
theater.
    And then I have to continue to focus on engaging. As was 
mentioned earlier, if we are going to get the soldiers and we 
are going to train them, we have to use them.
    I can tell you, I have spent the last 3 months in Africa 
and Europe and Asia and places like that visiting our soldiers 
engaged in stability operations, as General McKinley mentioned, 
engaged in a lot of the partnering with other nations. Whether 
it was in Ethiopia, where they were helping a Catholic priest 
set up an orphanage for Ethiopian women, or whether it was in 
Djibouti, Africa, where Captain Yeb, an aerospace engineer for 
Lockheed Martin, who is one of my civil affairs captains, is 
establishing libraries for the education system, or other 
places around the world, those mission sets are still there.
    And we can leverage this capability we have in the future 
and not have to deploy them for 12 months. But we can send them 
to El Salvador for 90-day rotation to provide some medical 
support to win the hearts and minds of those people in those 
countries. Or, as we have done before, we can send them to a 
foreign army in Africa to help train them, as we have done with 
the Ugandans and the Ethiopians so that they can take on the 
mission in Somalia so that we don't have to. But we have to 
continue that support.
    And the last thing I will tell you is what I have said 
before, our soldiers love America because they know America 
loves them. And they know you are committed to them, just as I 
am. So thank you for all of the support you and the Members of 
Congress have given us.
    I look forward to your questions.
    [The United States Army Reserve Posture Statement follows:] 


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Young. General, thank you very much.
    All four of you, thank you very much.
    I think you will find that this committee is really 
supportive of the Guard and Reserve. I am going to go a little 
bit out of order today, and I am going to yield my first time 
to Mr. Cole, because sometimes we don't get to him because we 
run out of time. And then I am going to yield Mr. Dicks' time 
to Mr. Rothman, and then I am going to yield to Mr. Hinchey. 
These are the two members that usually end up at the tail end. 
So we are reversing.
    So, Mr. Cole, you are recognized.

                             SEQUESTRATION

    Mr. Cole. It is almost biblical, Mr. Chairman. The last 
shall be first. I am very appreciative.
    I do want to make just one point. Not everybody on this 
panel is retiring and going home to Florida. You have an 
Oklahoman here. We don't expect him to retire, but we expect 
him to come home when he does. We are very proud of General 
Wyatt and his service to the country. And I would be remiss, 
gentlemen, if I did not tell you how proud we are of all of you 
and the men and women that you lead.
    I think the great untold story of this decade will be the 
role that the Guard and Reserve played at the most critical 
moment in our history in providing us the capability to respond 
to an outrageous attack and sustain operations. Every single 
man and woman that you command has enlisted or reenlisted 
knowing that they were likely to be deployed and expecting 
that, and that is a dramatic change over history. Not to 
disparage any previous eras, but this has been an incredibly 
distinguished time.
    I, like you, gentlemen, am very worried going forward. And 
I know every member of this committee is extremely worried 
about the cuts in front of us, the restraints, how we can 
maintain the superb capability, and particularly at the Guard.
    General Wyatt, talk to us about two levels of reductions. 
One, what are you looking at? What capabilities do you have now 
that you simply are not going to have given the Budget Control 
Act and some of the requests that have been made of us?
    And, number two, if sequester were to happen, what would 
that do to your ability to deploy and how would it impact the 
regular forces that you work with?
    General Wyatt. Congressman, I think I would answer the 
first question on capabilities by looking at the force 
structure cuts that the Air National Guard will be taking: 
three A-10 units, one F-16 unit, a C-130 unit, and the Reserve 
component being cut 60 of the 63 C-130s out of this year's 
budget.
    I am concerned that, while we will be able to continue the 
Title 10 fight with the new strategy going forward, I think we 
have the forces to do that, I am concerned that when you cut 
forces out of the Air National Guard you cut forces that are 
also available to the governors when they are not doing the 
Federal war fight. So I think about things like lift. I think 
about all of the capabilities that come with the Fighter Wing, 
such as communications, engineering, medical, security forces 
that will no longer be available to the governors, much less 
the President, should we need them.
    To get to the sequester part of this, it would severely 
handicap, I think, the Air Force going forward on the Federal 
war fight and, by implication, also the domestic response that 
the governors expect out of the Air Guard.
    Mr. Cole. I would like to ask the same question of all of 
you regarding your respective services.
    General Ingram. Congressman, from the Army National Guard, 
right now we are not scheduled for any significant cuts. We 
have 28 brigade combat teams, two special forces groups, eight 
division headquarters, 12 combination of combat aviation 
brigades and theater aviation brigades, and that is our 
aviation structure in the Army Guard. With that, I think the 
cuts that will affect us more in our ability to train. We have 
moved some money from future procurement accounts into a 
training base to train an operational reserve.
    As General Stultz just mentioned, training an operational 
reserve is one thing, but operating it is another. And being 
able to operate the operational reserve I think is the critical 
point as we move forward.
    Sequestration would severely hamper our ability to do 
anything and may in fact cause us to have some force structure 
as well as manpower reductions.
    General Stultz. Along the same lines as General Ingram, 
under the current budget, the Army Reserve is not being hit 
with significant cuts. We are going to reduce about a thousand 
in end strength, which we can absorb.
    My concern, though, is what I said earlier. We are 
indispensable to the Army. My commitment to the chief of staff 
of the Army is to give him about 25,000 of capability every 
year that he can count on being trained, ready, and available. 
And he needs that 25,000 because of the capabilities I listed 
earlier.
    I caution people, do not forget how we got there. I was in 
Kuwait in 2002 as we built the theater before we were able to 
launch into Iraq and earlier into Afghanistan; and all of the 
capabilities to get that equipment there, to get it in place, 
to get it set up, to get all of the combat capabilities, 
whatever, was done by Reserve component forces. It is all the 
logistics, all the transportation, whatever.
    So if we are challenged to go somewhere else in this world 
in the future, we have to have that same capability. And when 
we have run some of the operational plans--and I won't get into 
it for classification reasons--but out of the 25,000 that I 
have, they are committed in the first 30 days of a war. So my 
challenge is how do I maintain that readiness? How do I train 
them and equip them to the standard?
    My fear is, as we go into future, and especially as we hit 
sequestration, we won't by able to give them the training days 
and the type of equipment they need. And we have not been very 
good about predicting the future. Something will happen in some 
other place in the world, and we will try to say, how did we 
get there the last time? And somebody will say, we used the 
Reserve. Where are they? Well, they are not ready yet. We can't 
afford to take that risk.
    General McKinley. Finally, sir, just briefly, the $487 
billion that the Budget Control Act demanded from the 
Department was done in a very bipartisan way; and all of the 
service chiefs, along with Secretary Panetta, did a very good 
job of trying not to hollow out the force. People our age 
remember a hollow military, where you had people not matched to 
equipment, poor leadership, not able to confront the 
challenges.
    And, as Jack said, we just don't see the next decade being 
any more peaceful than the previous decade, and we have got to 
use the Guard and Reserve in an integrated fashion, which we 
have come to do on the battlefield, and be prepared to do it 
over and over again if we are going to be successful.
    Mr. Cole. I just want to comment, Mr. Chairman, this is the 
best bang for the buck, honestly, out there. And I hope as we 
go forward we do everything we can to protect this particular 
part of it. I actually think the regular forces are now much 
more dependent on you than they were at the beginning of the 
decade; and, given the budget situation, they will be 
increasingly dependent on you in the years ahead.
    Thank you, Mr. Chairman.
    Mr. Young. Thank you, Mr. Cole.
    Mr. Rothman.

                          OPERATIONAL RESERVE

    Mr. Rothman. I thank you, Mr. Chairman.
    General Stultz, there was a popular perception that the 
members of the Guard and Reserve were being overextended 
individually and that there was an inappropriate level of 
sacrifice being called upon them and their families, not only 
physically and emotionally but also in terms of their 
employment back home. From what you have said, it sounds like 
that is ancient history. But I would like to hear from you 
specifically that in fact it is ancient history and that we 
don't still have those problems where members of the Guard and 
Reserve feel that they are just being taken advantage of and 
unduly so.
    General Stultz. Yes, sir. I think you are exactly right. 
Early on in the war, because of what I said earlier about the 
capabilities that are resident that we need out of the Reserve, 
we were in a lot of cases with certain types of capabilities--a 
medical or civil affairs and our transportation--spinning at a 
very fast rate.
    The other reason was because we weren't ready as a force. 
We were a lot of times having to pull two or three units 
together to make one, and then when the next rotation came 
around, we had to reach back again.
    What we have been able to do over the last 6, 7 years is, 
one, build a readiness across the force, build a manning cycle 
across the force, but also build in more predictability. We 
have adopted what we have called the force generation model, 
the Army force generation, what we say as ARFORGEN.
    But critical to our ability to maintain the ability to 
provide readiness in this 25,000, in my case, to the Army is 
predictability, predictability for the soldier, predictability 
for the family, and predictability for the employer.
    And so we are adopting a 5-year rotation cycle. So that 
would say if you are in the Army Reserve and you are in a unit, 
the first year you are in what we call reset or regeneration. 
You have just come back. And then the next 3 years you are 
training, gradually getting improved training. And then in that 
fifth year you are available. And that gives you predictability 
to tell your family, tell your employer, tell everyone, hey, in 
that fifth year it is my time. So if something happens, I will 
be the first one to go. That is critical, and that is what our 
soldiers tell me. Give me predictability.
    But then the other thing they say is use me. When it comes 
to be that fifth year, I want to go do something.
    Mr. Rothman. General, now it is only 1 year out of 5 that 
they are in combat, so to speak, or in theater?
    General Stultz. Yes, sir. For the majority of our units, we 
are giving them 3 to 4 years of dwell time in that 5-year 
rotation. Now, we still have some units, some of my civil 
affairs and transportation and aviation, that there is just not 
enough in the Army, and we are still spinning at a faster rate. 
But that is starting to level out, also, with the drawdown in 
Iraq and the drawdown in Afghanistan.
    Mr. Rothman. General, what would you estimate to be the 
time when this 1 year of combat or being in theater out of 5 
would be uniform throughout the Guard and Reserve?
    General Stultz. Well, it is hard for me to foretell the 
future, but my personal opinion, if we go the direction we are 
planning with the current administration's drawdown timelines 
for Afghanistan, I would think by 2014.
    Mr. Rothman. What percentage of your force, General, is 
being called upon to be in combat or be in theater more than 
once--1 year out of 5?
    General Stultz. Well, I have kept about 25,000 out of 
205,000 in some sort of mobilization status, some of them back 
here in the United States, in the hospitals, in the training 
bases and whatever. And then in theater about 15,000. I would 
say out of that 15, probably about 5. So 5,000 out of 205,000 
probably on a faster spin cycle than we would like.

                              COMPENSATION

    Mr. Rothman. Are we doing anything special for them in 
terms of compensating them in any way for that kind of spin 
cycle?
    General Stultz. Not really. Not like we should.
    Mr. Rothman. Is that something we should work on, General?
    General Stultz. Well, we were looking at some programs for 
extended leave and some other things like that for compensating 
them. They are getting compensated in terms of lowering their 
age of retirement and giving them credit for time they are 
deployed. So they are getting some benefits in that capacity. 
But it might be something, yes, sir.
    Mr. Rothman. Is there a suffering of morale or a 
decompensating emotionally or psychologically for those 5,000?
    General Stultz. No, sir, I don't see that. They understand 
in most cases what their mission set is. As I mentioned earlier 
with the aviation units, they understand it is one Army. They 
are part of one Army.
    Mr. Rothman. Could I ask for the record if you have any 
statistics with regards to the actual number--I know you are 
estimating, and I appreciate that, about 5,000--what the 
experience has been over the last 5, 7 years in terms of PTSD, 
God forbid, suicides, or other troubles that these individuals 
may have faced so we can gauge the urgency of the problem to 
deal with their spin cycle.
    General Stultz. Yes, sir.
    [The information follows:]

    Since 9/11, the Army Reserve mobilized and deployed forces in 
support of global operations at unprecedented levels. Between 1 January 
2005 and 7 April 2012, there were 7,698 AR Soldiers who deployed more 
than once in support of Enduring Freedom or Iraqi Freedom. The average 
time between deployments was 665 days. Unfortunately, out of the 7,698, 
we lost eleven of our Soldiers to suicide.
    The Army Reserve continues to focus on mentoring and training our 
leaders to create an environment where it's okay to ask for help and 
where it's our duty to extend a helping hand. We are committed to 
ensuring all members of the Army Reserve Family have awareness of and 
access to the training and resources available to support their 
personal and professional wellbeing. We will continue to partner with 
our mental health professionals, chaplains, and Family Readiness 
personnel in our efforts to constantly refine and improve our programs.
    There have been 3,815 Soldiers who have deployed in support of 
ENDURING FREEDOM or IRAQI FREEDOM between 1 JAN 2005 and 7 APR 2012 who 
have been diagnosed with Post-Traumatic Stress Disorder. There are 
currently over 2,000 USAR Soldiers who are medically not ready due to 
behavioral health related issues; 1,470 of whom were mobilized in 
support of ENDURING FREEDOM, IRAQI FREEDOM or NEW DAWN. Of the 1,470 
Soldiers, 471 have had multiple deployments and have a behavioral 
health related diagnosis.
    In the fall of 2011 the USAR implemented mental health assessments 
(MHAs) to help identify Soldiers with depression and PTSD. To date 6964 
mental health assessments were conducted for Army Reserve Soldiers in 
conjunction with their Post Deployment Health Re-Assessment (PDHRA); 
22% (1,029) of these Soldiers required behavioral health referrals. For 
comparison, prior to the new Mental Health Assessment, 13% (14,294 of 
109,578) of Soldiers were referred for behavioral health evaluation 
based on the Post Deployment Health Re-Assessment since its inception 
in 2006.

    Mr. Rothman. Thank you very much, Mr. Chairman.
    Mr. Young. Mr. Calvert.

                               FACILITIES

    Mr. Calvert. Thank you, Mr. Chairman. I appreciate the 
rotation.
    Gentlemen, I thank you for your service. I appreciate it 
very much.
    I was going to use the same line before my good friend, Mr. 
Cole, took that line. We get the best bang for the buck from 
the Guard and Reserve. You do a wonderful job for our country, 
and the country appreciates your service.
    One thing that was brought up, General Ingram, in your 
testimony is about the facilities around the United States. I 
know years ago when those facilities were built after World War 
II and during the Korean conflict, those facilities were used 
by the communities, and continue to be. However, as you point 
out, I would imagine that the maintenance costs and the cost of 
just keeping those facilities open is significant, a 
significant cost in an era in which you are looking to 
consolidate your cost.
    I don't want to be parochial about this, but I will be for 
a second. We have the March Air Reserve Base in southern 
California, and we have a number of these facilities like in 
Corona and Riverside and other communities, in Hemet. It seems 
to me that it would make more sense to consolidate. We just 
built a beautiful new reserve facility at March, $50 million to 
train. I know the Guard has been involved in it, too. Wouldn't 
it make more sense to consolidate some of these smaller 
operations into a facility like that? And I would imagine that 
could be replicated across the country to save money. Plus I 
think the consolidation, you could maybe bring down some of 
your maintenance costs and motor pools, on and on and on. What 
is your comment about that?
    General Ingram. Congressman, there are two schools of 
thought about that. The Army National Guard, the National Guard 
in general, is a grass roots organization. We are a local level 
organization with a militia heritage. And that is part of our 
culture. So consolidation means you move out of small places 
into large places, and our base is in small communities.
    As far as funding for facilities is concerned, I don't 
really believe that the National Guard has gotten their fair 
share, especially with the 2005 BRAC. Most of the Military 
Construction (MILCON) money that was coming to us was deferred, 
pushed to the right a bit, and the must do by fiscal year 2011 
projects took precedence. So we have suffered in the last 5 or 
6 years because of BRAC, for one. Moving the Army home from 
Europe and consolidating the military back into the United 
States has taken precedence over some of our projects.
    Our MILCON future looks fairly bleak because of budget 
shortfalls, and our facilities are aging very rapidly. Most of 
the facilities, unlike the Army Reserve, but most of the 
facilities in the Army National Guard are 75-25 with the State. 
So the initial construction was 75 percent Federal money, 25 
percent State and local money. And then the maintenance of 
those facilities is done by the State. And at the conclusion--
in most cases, at the conclusion of the life cycle of that 
particular building, it is returned to the community.
    So the consolidation and building one large one instead of 
having three small ones is a little counter to the culture of 
the Army National Guard.
    Mr. Calvert. And I recognize in some parts of the country 
that won't work. But California is not the same State as it was 
50-60 years ago. Corona is no longer 25,000 people. It is now 
200,000 people. And Riverside is now half a million people. But 
it seems to me--and I get this from some of your local folks, 
too--that it would make more sense. You have a much more secure 
facility, cantonment area, and obviously you have a large 
airfield and a lot of synergy of utilization.
    I would hope you would take a look at that, and I suspect 
out of 3,000 facilities maybe 500 of them can be consolidated.
    General Ingram. And we truly do that. The goodness of the 
Army National Guard is having 54 Adjutants General in each 
State and territory and the District that make those 
assessments at the local level, and what is right in California 
might not be right in Missouri.

                          COUNCIL OF GOVERNORS

    Mr. Calvert. Right. I would hope as you are going through 
this transition, too, that you are working obviously with your 
brother and the regular Army and Air Force and, obviously, with 
the State. We have heard from some of the governors that feel 
that they weren't involved in some of the discussions about 
where the Guard and Reserve are going, especially the Guard, I 
would say. I guess I would ask, were the governors consulted in 
this case?
    General McKinley. Sir, in 2008, as a result of the 
Commission on Guard and Reserve, this Council of Governors was 
formed, five Republican and five Democrat governors. And they 
met six times specifically to discuss issues that you bring up: 
efficiencies, consolidation, and things like that.
    The Department of Defense budget, as you can imagine, is a 
pretty tight loop inside the system; and, therefore, there 
really wasn't a mechanism to confer or discuss the pre-
decisional budget with the governors. I think out of this we 
need to--and I believe the Department will--find a better way 
to communicate the domestic requirements with our governors. I 
think that is the long-term vision of why the Council was 
formed.
    We certainly, all of us, understand how important the 
governors are, and we feel we can do a better job of relating 
the needs of the Federal Department to our States.
    Mr. Calvert. Thank you.
    Thank you, Mr. Chairman.
    Mr. Young. Mr. Hinchey.

                     NATIONAL GUARD FORCE STRUCTURE

    Mr. Hinchey. Thank you very much, Mr. Chairman.
    Thank you all very much. I deeply appreciate everything 
that you do and the leadership you provide. And the things that 
you have been talking about today here, all of this is very 
interesting.
    One of the big things that we are facing is the reduction 
of spending. Cuts, very serious, very serious cuts. As I 
understand it, the Defense Department is seeking to receive 
$487 billion in savings over 10 years, and so all of that is 
going to have a very significant change.
    In our situation, one of the major issues facing New York 
is the planned reduction of Air National Guard, the aircraft of 
Air National Guard. Governor Cuomo wrote to Secretary Panetta 
to oppose those cuts. Two hundred and eighty Air National Guard 
aircraft are scheduled to be eliminated over the next 5 years, 
with more than 100 in fiscal year 2013.
    I am sure that these are things that are very heavy in your 
understanding and the dealings that you have to deal with. All 
of this is very, very critically important. Anything that you 
want to say about that, I would appreciate it.
    General McKinley. I will let General Wyatt comment, because 
he was involved intimately with the Air Force budget.
    I will say, as I said in my opening remarks, the Budget 
Control Act created an environment by which all of the services 
had to make some very, very tough choices. And we were heard. 
Our feelings were understood by the Department.
    But if we have sequestration, another $55 billion per year 
will come out of the defense budget, which will mean more 
significant cuts. And so service chiefs, the Secretary of 
Defense, are going to have some very difficult choices ahead.
    The Air Guard was a unique situation this year, and I will 
let General Wyatt talk about that.
    General Wyatt. In talking about the decision-making process 
in the United States Air Force, there were some really tough 
decisions this year with the Budget Control Act.
    As the Director of the Air Guard, I am allowed to 
participate in the decision-making process. In fact, not only 
am I asked for my views, I am encouraged to give my views in 
the corporate process. In fact, I have been very aggressive, I 
think.
    If you ask General Schwartz, he will probably tell you that 
I advocated not only for the Air National Guard but for air 
power of the United States Air Force and for the type of air 
power that I think we need to defend the country. And so I was 
allowed to make some inputs.
    In the end, we are a military organization, and the 
decision responsibilities rest with the Secretary of the Air 
Force. When those decisions are made, regardless of the input 
that I make, my job as a Title 10 officer then becomes to 
salute the flag and implement the decisions that were made 
until told otherwise.
    And so in the case of Niagara, the Air Guard was handed a 
C-130 divestiture bill that we had to meet, and we made some 
tough decisions. And I think the way the process works 
certainly is subject to review. But we did the best we could 
with the marching orders that we were given.

                                  C-17

    Mr. Hinchey. Thank you very much.
    General Wyatt, I want to ask another specific question. I 
know there are many of us here in this subcommittee, all of us 
with the concerns that we have, we share concerns, among other 
things, over Air National Guard aircraft, so I would like to 
ask about C-17s.
    One of the things that I have--and I am very proud of, 
frankly--is the representation of Stewart Air National Guard 
based in Newburgh, New York, where the 105th airlift wing has 
almost completely transitioned from a C-5A to C-17 mission. So 
it is my understanding that some of the Air Force's C-17s 
aren't going to have the extended range fuel, the tank that 
they need to provide that extended range fuel. So are any 
National Guard units using the extended range variant, and are 
we sacrificing mission readiness or capabilities by providing 
National Guard air wings entirely with the more limited version 
of the C-17s?
    And, finally, I understand the need to have extended range 
capabilities in Active Duty, but I would think that even one or 
two C-17s with the larger fuel tank would greatly increase 
capabilities of our Air National Guard.
    General Wyatt. Sir, you are right. The extended fuel tank 
does increase the capability and the options available to the 
Secretary and Chief of the Air Force.
    Moneys do not allow us to put extended range tanks on all 
of the C-17s. To my knowledge, none of the Air National Guard 
C-17s have extended range tanks. Stewart is one location. 
Jackson, Mississippi, is another location. In the FY 2013 
President's Budget Request, you will see Memphis, Tennessee, 
transitioning to C-17s. And in the outyears, you will see 
Martinsburg, West Virginia, transition to the C-17.
    There is a modernization effort under way at Air Mobility 
Command seeking to have common configurations across all of 
their weapon systems, including the C-17. So there is a plan to 
eventually get there. But the Air Guard will probably be at the 
end of that plan, as we are with a lot of the legacy airplanes 
that we have.
    Mr. Hinchey. Well, thanks very much, and I know that, you 
know, in the context of this situation, there are a lot of 
things that have to be thought about and a lot of changes that 
are taking place, and the big thought about is to make these 
changes as effectively as possible and to maintain the security 
of these operations. So I am deeply impressed with all of you 
and all of the dedication that you have and the sincerities 
that you are approaching on this. I just want to thank you very 
much for all of that.
    You are involved in some problems. You are going to have to 
do some things that are not easy, but they are more difficult. 
But I am sure that you can do, and you are going to do them in 
the most effective way. And for all of those things, I just 
express my appreciation and gratitude to you and thank you 
very, very much.
    Mr. Young. Mr. Crenshaw.

                                 TANKS

    Mr. Crenshaw. Thank you, Mr. Chairman, in regard to the 
last shall be first, I will let the record reflect that I am in 
the middle, so I don't really care whether you start at the 
bottom or the top. I am always in the same place.
    Mr. Young. Well, don't you think that was a nice gesture to 
Mr. Cole and Mr. Hinchey?
    Mr. Crenshaw. Thank you. But thank you all for being here. 
You have my words of thanks and respect, and the chairman 
pointed out that General McKinley is from Jacksonville. He is 
actually more than that; he is a constituent of mine, a voter. 
So if you don't mind, I will offer you a special welcome.
    But I wanted to ask, I don't know who would be best to 
answer, but we have had conversations in this subcommittee from 
time to time about the need for tanks. The Army kind of came in 
and said, well, difficult budget times; we have all the tanks 
we need, so we are thinking about closing the production line. 
And it was pointed out that if you shut down the production 
line and then start it back up, that has a cost, and there is 
arguing about whether that cost, a half a billion or a billion 
dollars or more.
    And so, last year, this subcommittee put about $250 million 
into the budget to keep the production lines open and produced, 
I think, about 40 SEP tanks. As you all know, there is kind of 
a two-tiered tank program, the Active Duty folks have the new 
tanks and the A-1s, most of the National Guard; I think there 
maybe is one combat brigade that has a SEP tank.
    So my question to you all is, is there a advantage for 
Guard to have the newer tanks, number one, and what would be 
your preference in terms of utilization? We heard General 
Odierno kind of talk about maybe the A-1s are less technical 
and maybe that might be better in terms of training, but it 
seems to me if you are going to train on something, you ought 
to train on what you are going to be using. So comment on that, 
on that overall concept of the two-tiered tank system, what is 
your view of that?
    General Ingram. Congressman, I guess I get that one by 
default. The Army National Guard has tanks.
    There are several schools of thought, I think pure fleeting 
is the right way to go, one unit having the same type of combat 
vehicle is another. There are not enough System Enhancement 
Package (SEP) tanks currently for the Army National Guard to 
field SEP tanks in all of our armor brigade combat teams.
    We do have one that is being fielded with the draw down and 
the change in the Army, they are going to reduce the number of 
brigades and reduce the number of heavy brigades in the Active 
component. And as they do that, there will be tanks available 
to cascade to Army National Guard heavy units.
    To answer your question about the assembly line, my 
understanding is that we are keeping enough tanks in the 
inventory, as well as in prepositioned stocks that are 
positioned around the world, for contingency operations, so 
some of those tanks will go into contingency force pools. 
Others will be cascaded to Army National Guard units. And, 
again, from our perspective, as long as all the tanks in our 
units are the same type, that works well for us.
    The SEP tanks are more complicated. The digital systems on 
those tanks are harder to maintain, but they wouldn't get the 
same usage unless we were mobilized that they would get in an 
Active component unit.
    Mr. Crenshaw. Just in terms of training, does that ever 
present a problem, if you are training on an older tank and 
then you are deployed and how does that work out?
    General Ingram. Usually, there is enough time that there is 
not enough difference in those systems, it is all in the fire 
control systems, so it is just getting used to a different 
computer in the turret, as I understand it.

                       OLDER VERSUS NEW EQUIPMENT

    Mr. Crenshaw. But you wouldn't say that you prefer to have 
the older tank just because it is easier to operate?
    General Ingram. We would not prefer to have the older 
equipment. No, sir.
    Mr. Crenshaw. Let me ask a question about the----
    Mr. Dicks. Would you yield for just one second on one 
point?
    Mr. Crenshaw. Yes, sir.
    Mr. Dicks. We haven't been using tanks very much in Iraq or 
Afghanistan; isn't that correct?
    General Ingram. We used tanks early on, and we haven't used 
tanks in Afghanistan. We did use tanks early on in Iraq.
    Mr. Dicks. Can you explain why you haven't used them?
    General Ingram. Well, we got into Counter Insurgency 
operations, and we don't use heavy combat vehicles to that 
extent in Counter Insurgency operations.
    Mr. Dicks. Thank you for yielding.

                          COUNTERDRUG PROGRAM

    Mr. Crenshaw. Yes, and my only concern is, I think, we all 
are concerned if we are going to spend money, then we ought to 
get something for it, but that is something I think the Army is 
doing a study to kind of look at that, because if you are going 
to spend, whether it is half a billion or a billion dollars, it 
would be better to end up with something that is of value than 
simply to open and close a production line.
    I want to ask about if, be real quick about Florida--the 
chairman and I have seen how the National Guard Counterdrug 
Program works, particularly in Florida, tremendous success. And 
I know last year we funded that program at more than the 
President's request, and the President's request this year is 
like $123 million less than last year. And so could you talk 
about the value of that program, number one; and, number two, 
what would happen if the funding was cut almost in half?
    General McKinley. Obviously, the answer is the reductions 
will have to be pushed out, phased in, and the highest threat-
based model States will have to receive the money, and some 
other States will have to be reduced. It is not a pretty 
picture, and we have seen the people who are very interested in 
this program proclaim that this is not in the best interests of 
American citizens.
    We know that drug demand reduction is a huge part of our 
Counterdrug Program. Some people said you can eliminate drug 
demand reduction. We know how effective that is in our high 
schools and around our country.
    So I think the model has stood us well over time. This 
committee has been very generous in maintaining the capability, 
but as you say, sir, it looks like a 37 percent reduction in 
2013 over the funding in 2012, so we are going to have to make 
every penny count, and we know that we have a full spectrum 
counterdrug program, from schools, where we train people, 
including law enforcement. We have our people who go out and 
interdict, cut down marijuana plants and use our sophisticated 
technology to do that. All our States, in fact, do that. But it 
will create a severe handicap to what we feel has been a very, 
very successful program over the last two decades.
    Mr. Crenshaw. Thank you.
    Thank you, Mr. Chairman.
    Mr. Young. Ms. Granger.

                                 C-130

    Ms. Granger. Thank you.
    And thank you all for being here and to remind us of the 
enormous capabilities and dedication and importance of the 
National Guard and Reserve. I think you get the sense from here 
that we think cuts are shortsighted in many cases.
    As you know, after the Air Force instructed the Air Guard 
to divest some of the C-130s, the decision was made to relocate 
Air Guard C-130s from Texas to Montana. This decision has been 
widely criticized due to the negative impact it will have on 
the ability of the Governors of the Gulf States to respond to 
national disasters.
    General McKinley, you quoted FEMA Administrator Fugate, who 
has frequently referenced the sense of urgency and the speed 
needed to respond to these national disasters, minimizing the 
loss of lives and property.
    General Schwartz has testified several times that assets 
are available to make up for the loss of the C-130s from Texas. 
So, General Wyatt, are you aware of any C-130s under the 
control of the Gulf State Governors, besides the ones at Fort 
Worth?
    General Wyatt. That would be in the nature of the organic 
C-130s available to the Governor immediately and at the behest 
of the adjutant generals, and I am not aware of any at this 
point in time.
    Ms. Granger. I am not either, and I hope the subcommittee 
recognizes that is not the testimony we heard earlier in 
another hearing.
    In addition, can you address the challenges of standing up 
a squadron of new planes in Montana versus Fort Worth, where 
there are many civilian pilots, due to proximity of DFW 
airport? And keeping in mind the 136 Airlift Wing has world 
class pilots and facilities, have you seen any cost estimates 
for the military construction and the pilot training to include 
the cost of flight hours and the costs to train new 
maintainers?
    General Wyatt. Yes. It is true, Montana currently in the F-
15, those F-15s are moving to California. The PB provides for 
C-130s to move into Montana and the MC-12 to move into 
Carswell. So you have got two units, Montana unit at Great 
Falls and the Carswell unit, that will be subjected to training 
costs to transition in the new airplanes.
    We have done some preliminary estimates. We think the MC-12 
training in Texas will run in the neighborhood of the around 
$10 million maybe a little more. The MilCon won't be that much 
because you already have at Carswell some hangars suitable for 
C-130s that will need to have a little bit of modification for 
the MC-12, we think in the range of $2 million.
    In Montana, the training will be a little more expensive 
because those folks are transitioning out of F-15s into C-130s, 
larger air crew, because of the enlisted folks, enlisted air 
crew that are on that airplane. So, with the training expense, 
preliminary estimates are around $54 million, and the MilCon we 
think will be around $20 million.
    Ms. Granger. Twenty?
    General Wyatt. Yes, ma'am for the suitable hangars for 
the----
    Ms. Granger. So $54 million for the training, $20 million 
for the facilities and probably another $12 million to make the 
changes at Forth Worth?
    General Wyatt. Yes, ma'am, preliminary estimates.
    Ms. Granger. Thank you very much.
    One other question, you talked about the process, that you 
were involved in the process in making these decisions. And I 
know they were very difficult decisions because of the enormous 
cuts, but can you give us just of an example of a significant 
proposal you made to retain capability and/or to move 
capabilities with the Guard that were not approved.
    General Wyatt. What we did early on was provide the Air 
Force some inputs regarding different alternatives or different 
ways that we thought the Air National Guard could be used, to 
meet not only the emerging national, the new national military 
strategy, but also provide the type of capability that the 
Governors need, recognizing that in the Air National Guard, you 
have the most cost-effective force. You have probably the most 
experienced force because most of our folks came from Active 
Duty.
    I am an example. I spent 6 years on Active Duty before I 
transferred into the Guard.
    We rely upon the foundational basis of the Air Force for 
our training. We train to the same standards as the United 
States Air Force. General Schwartz has noted that as we get 
smaller as an Air Force, we will not be able to do tiered 
readiness in the Air Force on any of the components. We will 
all be required to be at the high level of readiness that we 
are now. And, in fact, the Air Force has adequately provided in 
my organized training and equip account sufficient training to 
get us at that top level.
    My concern is that as we, if we take these cuts out of the 
Air National Guard, we will be losing the most experienced 
aviators, the most experienced airmen that we have because we 
are generally an older, more mature force, having been trained 
by the Active component.
    You couple that with the concern about rotation forces 
forward; the planning factors are that Air National Guard 
should be available to rotate on a 1-5 deploy to dwell, the 
Active component 1-2. And we stand ready to do that. In fact, 
we are providing more volunteerism right now than the Air Force 
could get even if they mobilize it.
    So our people are trained, experienced. They want to be in 
the fight. They are in the fight, and we think that one of the 
alternatives that we proposed was instead of forming or 
presenting Active Duty forces forward for rotational demands at 
1-2, maybe you should first do Air National Guard at 1-5. That 
would give us predictability. We would know when we would go. 
It would be easier to schedule with our employers, and we could 
do 1-5 all day long. We have been doing high operations tempo 
now for about 15 years so it is not a problem for us, ma'am. 
That is one of the ideas that we proposed.
    Ms. Granger. Thank you. I appreciate it very much.
    Thank you, Mr. Chairman.
    Mr. Young. Ms. Kaptur.

                              JOINT CHIEFS

    Ms. Kaptur. Thank you, Mr. Chairman.
    Gentlemen, thank you so very much for your service to our 
country and that of all your colleagues here this morning.
    General McKinley, I wanted to start with you, if I could. I 
know you participate in the Joint Chiefs meeting, and I am just 
wondering whether that has made a difference in the Guard's 
budget and how you are received and how that is going.
    General McKinley. Well, again, the 2008 National Defense 
Authorization Act (NDAA) gave the Chief of the National Guard 
Bureau a four star, and former Chairman, Admiral Mike Mullen, 
incorporated me into the Joint Chiefs, so that I could listen 
and participate and make comments in support of the National 
Guard, which I deeply appreciate.
    The current Chairman, General Dempsey, has done the same. 
And then, on January 2, the NDAA permitted me to become a 
member now of the Joint Chiefs. So I have only had this 
position institutionalized now for about 8 or 9 weeks, but I 
can tell you that I have been, well, warmly received by the 
other service chiefs. The Chairman has allowed me to make 
critical comments when needed in support of your National Guard 
men and women, and I can express clearly all the way up to the 
Secretary of the Defense now the issues of concern for the 
National Guard.
    Ms. Kaptur. Do you think it made a difference in your 
budget this year?
    General McKinley. I really haven't had this seat long 
enough to have participated fully in the budget, so the Army 
Guard or the Air Guard, but I can assure you that I was fully 
vested into the National Military Strategy debate that took 
place, which was very helpful for me to comment about the 
hedging capability that Jack's force and our force can give to 
the government if we need more troops and more airmen quickly. 
I was able to give that recommendation, and it was fully 
listened to and has been built into the strategy, yes, ma'am.
    Ms. Kaptur. All right. Thank you very much. I also want to 
thank all of you for the work you are doing to help lead 
America into a new energy age, and I can't comment on each of 
your respective forces, but I wanted to say to General Wyatt, 
thank you very much for the incredible work that was done in 
Ohio on testing fighter jet with camelina fuel, camelina-based 
fuel, which was very, very successful. I think that story 
speaks across the country and across the world, and we 
encourage you in making your bases more energy efficient and 
bringing on new technologies. You really have an incredible 
capability to do that.

                COST EFFECTIVENESS OF AIR NATIONAL GUARD

    General Wyatt, I also wanted to ask you in terms of 
sustaining these budget reductions, it is my understanding that 
the Air National Guard maintains more aircraft per operations 
and maintenance dollar than the Air Force Reserve or Active 
Duty Air Force. And as you look to reduce the budget, as we all 
look to reduce the budget while preserving the greatest 
capability, shouldn't we be focusing on expanding the role of 
the Air National Guard in some way since it is so much more 
cost-effective than the regular standing Air Force?
    Could you comment a little bit about and give us a feel as 
a subcommittee on how those costs can be reduced with 
additional emphasis on the Guard, Air Guard, as opposed to Air 
Force, Active Air Force?
    General Wyatt. Ma'am that is kind of the debate that took 
place in the Air Force corporate process, and you know, my 
position was that we should do exactly that; that we should 
concentrate perhaps at this time, with the budget constraints 
that we have, knowing what may be out there on the horizon as 
far as threats, that we might consider a shift of the 
percentages from the Active Duty to the Air National Guard to 
the Reserve component.
    It was vigorously debated, as I said, inside the Air Force 
corporate process and it is not to say that any, any particular 
position is right or wrong because it depends upon, you know, 
what we anticipate the steady state to be from this point 
forward. We know that if there is a huge threat that would 
require the mobilization of all of the forces, we will all go, 
and we will go as long as it takes to get the job done.
    I think the question is, what level of involvement do we 
see for the United States Air Force in the next 4 or 5 years? 
Should we build a force large enough on the Active Duty side to 
handle that at the, perhaps, expense of more capacity to handle 
the surge war when that comes? And there is a trade-off between 
the two, and the decision was made to go with the shift of the 
forces from the Reserve component to the Active component, 
stressing the anticipated demand that will be there for the 
next 4 or 5 years.
    But it is a debate that I think was healthy inside the Air 
Force and will probably continue on the Hill here as we go 
forward. There are pros and cons of doing it both ways, ma'am.
    Ms. Kaptur. Could you give us a sense, a little additional 
sense of cost savings if one emphasizes the Guard more, the Air 
Guard more than Active Air Force?
    General Wyatt. I saw a RAND study a couple, 2 or 3 years 
ago, comparing the cost of fighter squadrons. And as with any 
analysis, I think as important as the answer are the 
assumptions and the methodology used to get to the answer and 
what it is exactly that you are measuring.
    If you look at the cost of just running a fighter squadron 
in the Air Guard versus the Active component, we do it for 
about 40 percent of the cost. But when we deploy, when we 
deploy, and we bring on all of our part-time airmen in a surge, 
we are as costly as the Active component, and this kind of goes 
to the discussion that I was talking about, if you are going to 
be deployed a lot, obviously the relative cost over time would 
go up the more a particular unit is deployed.
    But the beauty of it is, if the cost goes down, if the 
demand is not what you anticipate it to be, and your forces can 
remain in garrison. So it is a trade-off one way or another, 
but that is kind of--about as brief an explanation as I can 
give.
    Mr. Young. Thank you.
    Ms. Kaptur. Thank you, that is a pretty significant figure.
    I thank all of you. Thank you, Generals.
    Mr. Young. Thank you.
    Thank you, Ms. Kaptur.
    Mr. Kingston.

                             SEQUESTRATION

    Mr. Kingston. Thank you, Mr. Chairman.
    General McKinley, I wanted to get a clarification in my 
mind, the Joint Chiefs have signed off, maybe not necessarily 
enthusiastically, but have signed off on the $487 billion 
reduction proposed by the administration; correct?
    General McKinley. Yes, sir, every service chief has looked 
at that and consulted and given General Dempsey his best 
military advice and has concurred with the $487 billion.
    Mr. Kingston. And so then the Guard bureau, the same thing, 
correct?
    General McKinley. Sir, our services, the United States 
Army, the United States Air Force due to budgets, respective 
budgets, for our Army and Air National Guard, those service 
chiefs incorporate our views into their viewpoint to the 
chairman, and I can add my comments on top of that.
    Mr. Kingston. Okay, and then, but the sequestration, what 
is the Joint Chiefs official position on the sequestration?
    General McKinley. I will give you my military opinion. 
Personal military opinion is that none of the service chiefs 
welcome or can understand how that will be applied to a budget 
that has already taken the $487 billion cut.
    Mr. Kingston. So the Joint Chiefs have not signed off on 
the sequestration proposal?
    General McKinley. No, there has not been any formal 
decision, but I can assure you from my discussions with many of 
the service chiefs that we are very, very concerned about the 
impacts of sequestration.

                           COST EFFICIENCIES

    Mr. Kingston. Okay. One of the concerns that we have, as we 
grapple with the budget, and I don't need to tell anyone in 
this room that the national debt is 100 percent of the GDP, or 
for every dollar we spend, 42 cents is borrowed, but sometimes 
we seem to then shift into, yeah, but don't cut my staff.
    And so what I was wondering is recently there was a GAO 
report that came out that identified, I think, 32 areas in 
which the Pentagon had practices that were costing more money, 
19 areas of duplications. And I was wondering if the Joint 
Chiefs had embraced that report as, well, here is something new 
or here is something we can implement. And the reason why that 
is important is because that would appear to me something that 
Democrats and Republicans and everybody could agree on if we 
have got 19 areas of duplication.
    And, you know, just kind of a side note to that, I have 
never been in a group where I have asked how many of you think 
the military system, procurement system, is broken; I have 
never had anybody say, no, it is not, it is great.
    And I am sure we have all had those conversations, but it 
always seem like everybody agrees the procurement system is 
broken, but nobody does anything about it or knows what to do 
about it. But these 19 areas where the Government 
Accountability Office (GAO) said are duplications, have the 
Joint Chiefs looked at that in the context of that GAO report?
    General McKinley. I can't comment on the relationship to 
the GAO report, but I can assure you, sir, that the 
efficiencies that cover the broad spectrum of how we operate in 
our respective enterprises has certainly been wrung out, and 
each of us, including everybody on this panel, has done his or 
her part to try to squeeze out the efficiencies, which I think 
you are alluding to.
    I think an area that the Department is seriously looking at 
is our Information Technology (IT) departments. I understand it 
is about a $37 billion a year bill. There has got to be ways to 
use best business practices to reduce that bill, so, there is 
not a servicemember out there today, including the service 
chiefs, who aren't looking at ways to become more efficient, 
more capable, to have a more effective force, because it has 
got to start with us.

                           MILITARY PENSIONS

    Mr. Kingston. So, frequently, we find as appropriators the 
GAO report will be sitting out there, or an Inspector General 
(IG) report will be sitting out there, and then we hear from 
various departments, yes, we are addressing that. And then, you 
know, a year, 2 years later, another GAO report, another IG 
report, and you know, we are still addressing that. But I think 
in this budget time, it is critical.
    Another question, certainly very sensitive, is military 
pensions. I think the cost of it now is $46 billion for 33 
cents accrued a dollar that is paid out, and yet when we go 
home and talk to our military officers associations and the 
Veterans Service Organization (VSOs), certainly you can't touch 
military pensions, but it is unsustainable on the same, on the 
current path, but I don't know of a proposal to reduce military 
pensions.
    And, again, at $46 billion, that is the size of Homeland 
Security, so it is not like it is a small, small item.
    General McKinley. Sir, I think this is a very important 
subject. I think that is why there is projected to be a 
commission to study the retirement system. I think everything 
is on the table. From my experiences talking with my 
colleagues, this is going to be a very, very important subject 
matter because we feel that we have to do our part within the 
Department of Defense to work programs that, quite frankly, are 
very important to recruiting and retaining personnel. But in 
the same regard, as former Chairman Mullen said, our number one 
national security issue today potentially is our debt, so it is 
juxtaposed against those two issues.

                              DEPLOYMENTS

    Mr. Kingston. The other thing that, as I listen to 56,000 
requests, manpower requests, and 495,000 mobilizations, but you 
know, General Stultz talked about the troops on the ground in 
Kabul and Kandahar and Bagram last week. But then General Wyatt 
mentioned Boston Marathon, and it would appeared to me that 
there are deployments, then there are deployments. And surely 
in this budget time when the Governor of Arkansas calls for 
some, the National Guard to come to his inauguration, I just 
think we have just got to take a pass; the Boston Marathon, we 
have got to take a pass. Out of all those deployments, we have 
got to take a pass.
    And then I know one that is very difficult right is this 
rub right now between the Homeland Security and the Pentagon on 
the Southwest border that we have had two deployments down 
there, one in 2006 and 2008; 6,000 troops that cost $1.2 
billion; and then there is a current one with 1,200 troops that 
right now is costing about $180 million and a potential 90-day 
extension of $35 million. That one is a structural big-picture 
problem, but it still seems to me like part of the efficiencies 
are, where are we going to deploy to, and what are we doing 
about it?
    General Wyatt. I think it is interesting to note that a 
couple of things that I mentioned, like the Boston Marathon and 
the Governor's inauguration, were out of safety concerns. The 
Guard wanted to do that, and they were not paid for with 
Federal dollars. They were paid for by the States that 
requested that particular support.
    We have a great mechanism in the adjutants general that 
paid very close attention, sir, to what your concern is, the 
operations tempo, if you will. And what we are hearing from our 
adjutants general, what I hear from my airmen when I go to the 
field is that you have trained us; we want you to use us. If 
you don't use this, we will go somewhere else because we like 
what we do, whether it is the State mission or the Federal 
mission.
    I know when I was the adjutant General in Oklahoma, I met 
my returning soldiers and airmen that were coming back from 
Katrina at the Texas-Oklahoma border, and they told me that--
and they were down there for about 45 days. They said that was 
one of the most rewarding experiences they ever had because 
they were taking care of fellow Americans.
    And so I think we do have, we do have a mechanism for 
measuring that operations tempo, and I trust that our airmen 
and our soldiers and our adjutants generals will tell us if we 
have reached that point where we are doing too much with our 
forces.
    Mr. Kingston. Well, I yield back.
    Mr. Young. Thank you. We are about to run out of time.

                    ARMY NATIONAL GUARD PROCUREMENT

    Mr. Kingston. Yes.
    Mr. Young. Mr. Frelinghuysen.
    Mr. Frelinghuysen. Thank you, Mr. Chairman, I am sure as 
others did before I got here, we want to pay tribute to the men 
and women of our Guard and Reserve and recognize that while 
maybe the focus isn't on the Middle East, we have paid tribute 
to the number of times that they were deployed. It is 
incredible the sacrifice they put forward.
    I guess this question goes to General Ingram, Army 
procurement is up, but Army National Guard procurement is down. 
Can you talk about this budget before us, this budget 
submission? And would you put into the mix a lot of equipment 
still in the Middle East, you know, in a variety of different 
shapes? Where is the Army National Guard in terms of 
procurement, and where does it fit into the picture, a lot of 
the equipment that perhaps could be potentially utilized in the 
future?
    General Ingram. Congressman, for the Army National Guard, 
we are probably in the best position we have been in recently 
with equipment. Pre-9/11----
    Mr. Dicks. Do you have your mike on? Is your mike on?
    General Ingram. Yes, sir, it is. Pre-9/11, our percentage 
of equipment was fairly high, but the quality of the equipment 
that we had was pretty old.
    Today, we are moving into the high 80s in percent of 
equipment on hand, and it is modern, new equipment for the most 
part. We don't have the substitute items, as far as all of our 
equipment is procured through the United States Army, and it is 
allocated through the United States Army. In the past 10 years, 
we have been equipped, the mechanism has been next to fight. So 
the units that are going into theater get the newest and the 
best. There is some equipment left in theater, and as that is 
retrograded and goes through reset, it will be reallocated and 
given back to our units.
    And so far, that has worked rather well. Our units are 
about a year or so after--it takes about a year to a year and a 
half to get that equipment through the reset lines and then 
back.
    Mr. Frelinghuysen. So, basically, you are satisfied with 
your procurement request, meeting the needs of the Guard?
    General Ingram. We are on par with the Active Army. They 
are not equipped any better at the moment than we are. I think 
as the equipment, the story will be told after the equipment 
returns from theater, and there is a tremendous amount of 
equipment that is in Kuwait that is flowing back from Iraq as 
we speak. And we are retrograding equipment from Afghanistan 
now in anticipation of downsizing in Afghanistan in fiscal year 
2014.
    So if there is enough money in the budget, and that is the 
key to the question, there is enough money in the budget to 
repair the equipment at the depots and reset it and get it back 
to the units, that is the answer to your question, how that 
equipment is allocated as it comes out of reset to the three 
components of the Army.
    Mr. Frelinghuysen. The bottom line is that you are 
satisfied with your position?
    General Ingram. Today I am, sir.

                         READINESS AND TRAINING

    Mr. Frelinghuysen. Just lastly, as our Guard and Reserve 
comes back, the issue of readiness, in other words, you know, 
they are happy to be back. They go back into their normal 
lives, they do focus on domestic responsibilities, but how are 
you going to keep them, keep it so that, I hate to use the term 
tempo, how are you going to keep the skills that they have 
learned, you know, the pressures that they learned to live 
under, how are you going to keep these people who are so 
dedicated on top of their game, God forbid we get in another 
situation where we need to act quickly?
    General Stultz. I will take a shot at that one, sir, 
because it is a big concern for me. We have put these soldiers 
through the best training. We have equipped them with the best 
equipment. We have put them into combat, and I would daresay 
they are not going to be happy if I give them one weekend a 
month to come back to our Reserve center and sit in a classroom 
and look at PowerPoint slides.
    We have got to give them some meaningful training, and so I 
think there are two pieces to that, and one of which you just 
touched on.
    Mr. Frelinghuysen. We want to make sure that they are not 
training some old retrograde equipment.
    General Stultz. Yes, sir. We have got to maximize the use 
of some of our simulation capabilities that we have out there. 
And we are using the NGREA funds in some cases to be able to 
buy some of those systems so if that soldier is going to come 
to a Reserve center for the weekend, then let me put him into 
an environment through simulation that replicates what he was 
using in Afghanistan so that he says, I stay on that edge.
    Number two, when I send him to training, and what we have 
tried to do in the Army Reserve is focus our training at major 
centers like Fort Hunter Liggett; Fort Dix, New Jersey; Fort 
McCoy, Wisconsin, and outfit those training centers with the 
most modern equipment and systems they have got so that when 
that soldier shows up at Fort Dix, New Jersey, he is walking 
into an environment just like he had in Iraq or Afghanistan.
    I am concerned to your point earlier about the equipment 
because in the Army Reserve, while we have approximately 90 
percent equipment on hand, we are still in the seventies in 
modernized equipment. We still have a lot of substitutes. And 
those substitute items may sound good, but for that soldier who 
is going to training, he wants to train on the piece of 
equipment he operated in Afghanistan.
    And my concern also is that we can't kick the can down the 
road and say, well, we are going to put all this stuff coming 
out of theater through reset, but that is going to take several 
years. Or we will wait till the Army draws down and see what 
kind of equipment cascades. I mean, that is a good solution 
set, but I have got soldiers who need equipment today and so we 
have got to focus on realism and training. We have got to focus 
on modernized equipment to keep that cutting edge that has been 
set. Otherwise, we are going to lose those soldiers.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Thank you for your response.
    Mr. Young. Mr. Dicks.

                               SIMULATORS

    Mr. Dicks. On that subject, you mentioned simulators, and I 
believe that simulation is extremely, is a very valuable tool, 
aviation, the stories about aviation, pilot training with 
simulators, is remarkable.
    What different scenarios do you use simulators in? Could 
you describe that for the committee?
    General Stultz. Yes, sir, from my experience, and my 
colleagues, I am sure, have, especially in the aviation field 
and others, but I can give you just a plain and simple example.
    I commanded a unit in Orlando, Florida, and we have to go 
qualify with weapons twice a year, live fire. To qualify with a 
live fire weapon in Florida, you have got really two places to 
go, MacDill Air Force Base over in Tampa or Camp Blanding, 
which would require me to put all my soldiers on a bus, bus 
them over to MacDill Air Force Base and get out on a range, or 
go to Camp Blanding. When there are simulation, weapons 
simulation systems that are available that I could set up in 
that drill center that give you the same, if not better, 
experience, of firing a live fire weapon at Camp Blanding and 
can also allow me not only to put that soldier in an 
environment with a 300-meter target down range and show him how 
to breathe and picture sight, but then I can switch and say, 
okay, in the next exercise, okay, we are going to put you in a 
village in Afghanistan, and you are going to be walking on 
patrol, and you are going to have determine, friend or foe. You 
are going to have to make some of those decisions.
    Likewise, I went to a simulator with an engineer unit that 
is a route clearance simulator. I just came back from 
Afghanistan. They were out there doing this very task. I can 
put them in a semi trailer route clearance system where they 
sit at four stations in same vehicle they are operating in 
Afghanistan, looking in the mirror seeing their buddy, just 
like they saw him in Afghanistan, and go through that whole 
scenario.
    And the soldiers come out of there with their hair tingling 
a little bit, saying, wow, that is just like it was when I was 
there. Those are the kinds of systems that I am looking at for 
the future of how we better, you know, employ simulations and 
give that soldier a meaningful training period.
    Mr. Dicks. If you had to evaluate, which I am sure you are 
doing, are there a lot of other areas where simulation could be 
utilized? Are we just kind of at the tip of understanding how 
this can be done in terms of training?
    General Stultz. Yes, sir, I think we are, I think we are at 
the very edge of what we do. I mean, there is medical 
simulations capability to keep our nurses and doctors trained. 
There is vehicle convoy line fire simulators to keep our 
transportation, our truck drivers and all trained. The 
engineers I mentioned, there is command and control simulators 
where putting them--you know, I was in an area where we were on 
the deck of an in-shore boat, and on the screen, there was a 
Humvee driving along the beach. And above us was an Apache, and 
we were trying to intercept what we thought were drug smugglers 
in the scenario.
    In the next room, you could go in there and there is the 
Humvee, and on that screen was the boat I just got out of. And 
in the next room, you could go, and there is the cockpit of the 
Apache, and you are looking down.
    The key was they said, you know, this Apache could be at 
Fort Campbell, Kentucky. This boat could be in San Diego, and 
this Humvee could be at Fort Drum, New York. And you are all 
playing this scenario together before you end up in Iraq or 
Afghanistan.
    That is the kind of things that we just haven't leveraged 
yet.
    General McKinley. Sir, could I jump in here real quick?
    Mr. Dicks. Yes.
    General McKinley. Very briefly, Bud and I fly fighters, and 
distributed mission operations, which is the wave of the 
future, will be the Counter Insurgency of the realm. If our 
fighter units are not connected virtually, so that we can do as 
General Stultz said, fly with other units, air refuel in the 
simulator, the costs of the future aviation units that we have 
will be decremented greatly without simulation.
    And then, finally, Bill Ingram's professional education 
center down at Little Rock has a cyber lane where you can go in 
and see cyber attacks occurring on a computer. You can 
recognize them. It is all done in an educational environment, 
and that is something that we must pay some attention to in the 
future.
    Mr. Dicks. Well, our committee, we have added money for 
simulation over the years, and I think it is a great 
investment. And we have had situations, I know, at Fort Lewis, 
where you are talking about, you are actually doing the mission 
that somebody in Afghanistan, or in those days Iraq, were 
doing, and you are doing it with the exact same situation. I 
mean, there can't be a better training than that, I would 
think.

                                 UH-60S

    Now, let me go on one, on the Black Hawks; this is for 
General Ingram. The past 10 years has marked the highest op 
tempo for the Army National Guard Black Hawk fleet, which 
carries out a unique dual mission set, not only supporting 
deployments and other traditional missions, but also emergency 
response missions, including search and rescue, fire fighting, 
medical evacuation and disaster relief at home.
    The result of these sustained operations is wearing out the 
National Guard H-60 Black Hawk helicopter fleet much faster 
than planned. The Army National Guard operates more than 850 
UH-60 Black Hawk helicopters; over 500 of these are older A 
models, and the majority of these are more than 30 years old 
and nearing the end of their useful life.
    General Ingram, is modernization, conversion and 
procurement keeping up with the aging fleet?
    General Ingram. Congressman Dicks, it is not.
    The A-L reset on Black Hawks, it is funded, but it is not 
funded adequately to address the need. Our procurement of the 
Mike model, the newest helicopter, although we are getting 
some, we are not getting as many as we need to keep the fleet 
modern.
    Mr. Frelinghuysen. So would the gentleman yield?
    Mr. Dicks. I yield, of course.
    Mr. Frelinghuysen. I asked about your procurement needs. Is 
this one of your unmet needs?
    General Ingram. This is a need that is being partially met, 
Congressman. It is not fully met.
    Mr. Frelinghuysen. Okay.
    Mr. Dicks. And so the Army has not budgeted properly. It 
hasn't put enough money in, whatever it is, shortfalls, the 
Budget Control Act, for whatever reason it is, we are not 
getting the Black Hawks that we need, right?
    General Ingram. That would be correct, sir.
    Mr. Dicks. I think that is it, Mr. Chairman.
    Mr. Young. Okay, thank you very much.

                                HUMVEES

    Mr. Visclosky. General McKinley and possibly General 
Stultz, following up on a response to Mr. Frelinghuysen's 
question and I assume a number of others on supplies, it is my 
understanding that a number of adjutant generals have written 
to Chairman Rogers as well as the chair of this subcommittee 
and Mr. Dicks relative to the Guard's Humvee fleets, and given 
that the Guard has evolved in a strategic Reserve and was 
mentioned with General Stultz that you fight in one vehicle and 
you train in another that may be quite some time old and 
several generations removed from what you are going to use, are 
you concerned that the majority of Humvees that the Guard uses 
to train are much different and older than those that they are 
using in theater, and what is the solution to that problem?
    General McKinley. Sir, thanks for the question. I think, 
quite frankly, we have got to have a commonality in our fleet 
and that begs the question that I am going to punt over to Bill 
Ingram on. The number of our Humvees that are at a certain age 
or older, what would be a modernization program for those, or 
is there a modernization program to replace those Humvees, 
because speaking for the adjutants general, they are concerned 
that there is an adequate fleet of Humvees that have 
commonality, that have been refurbished, and that can come back 
and support the Governors in the domestic mission. That is kind 
of the wheelhouse I work in.
    The overseas mission, obviously Jack and Bill are sending 
Army Guardsmen and Reservists overseas to fight in up-armored 
Humvees. But what about the requirement back home for floods, 
fires, hurricanes, et cetera? I will turn it over to Bill for 
that number.
    General Ingram. Congressman, right now, we have 55,000 
Humvees spread across the Army National Guard; 41 percent of 
those, that is about 21,000, are 20 years old or older; 76 
percent of that fleet is modernized; 30 percent of it are the 
newer up-armored Humvees; and 33 percent are recapped.
    The next vehicle that will replace the Humvee is the joint 
light tactical vehicle. The Joint Light Tactical Vehicle 
((JLTV), the Army plans to purchase about 50,000 of those 
vehicles and, as I understand it, and this isn't firm, but the 
Army National Guard will likely receive between 14,000 and 
20,000 of those vehicles. But the first fielding will be in the 
fiscal year 2017-2018 timeframe. That is still a vehicle in 
procurement.
    So the trade-off, and everything is budget driven, as we 
all know, the trade-off is, how soon do we get the replacement 
vehicle, and what kind of shape is our fleet in now? Do we want 
to spend, do we want to spend money on something that is 
eventually going to go away? And obviously, we want to 
maintain--we will divest ourselves of the oldest ones first, so 
it is a trade-off and a budget drill as to whether you 
modernize now and wait for the new ones, or that is the trade-
off.
    Mr. Visclosky. One of the concerns, talking about 2017, is 
that lines tend to move to the right on many of these charts. 
And if there is a delay, understanding there is going to be 
replacement at some point, is there a moderate middle ground 
here as far as refurbishment or some additional purpose to make 
sure that we are not caught short here relative to training and 
the domestic needs mentioned?
    General Ingram. Congressman, we believe it is, and we are 
resetting and modernizing. As I said, 76 percent of our fleet 
is modernized now, even though they are old.

             MODERNIZATION AND SHORTFALL REQUIRED IN BUDGET

    Mr. Visclosky. Do you have adequate funds in the budget 
request for 2013 to continue what you think you need, or is 
there a shortfall?
    General Ingram. I am confident there is a shortfall. I 
don't know how much. We are going through some very stringent 
budget drills, as you can imagine, and again, we work through 
the Army, Army procurement and Army modernization on these 
programs.
    Mr. Frelinghuysen. Will the gentleman yield?
    Mr. Visclosky. Absolutely.
    Mr. Frelinghuysen. So you are happy with the vehicles you 
have now?
    General Ingram. Congressman, you keep asking me that 
question.
    Mr. Frelinghuysen. I do keep asking you that question 
because quite honestly, the light vehicle is a way off, and 
General Odierno says it will be 7 years before we have a ground 
combat vehicle. So I know that the Army has its needs, but 
where is the Guard? Are you happy with what you have?
    General Ingram. We would be happier if we had everything 
brand new. I think, in the current budget reality, that is not 
a reasonable expectation.
    My concern is that we get the adequate funds to modernize 
on a schedule that we can all live with.
    Mr. Frelinghuysen. Thank you.
    Mr. Visclosky. I appreciate it, and if we could follow up, 
we also have a significant budget problem within the 
subcommittee, but I would at least like information if we could 
have a followup conversation so I have a good perspective, that 
would be terrific.
    Mr. Dicks. Would you yield just for a second?
    Mr. Visclosky. Sure.

                        OFF-THE-SHELF EQUIPMENT

    Mr. Dicks. We tried, our committee tried to keep the Humvee 
going, but the Army was adamant that they did not want to do 
this. They said we have got enough Humvees, and the Humvees 
that we have are vulnerable; isn't that correct? I mean, you 
know, you don't have a double V hull. You don't have the Mine 
Resistant Ambush Protected (MRAP)-type protection.
    So here is the question I have on this subject. The Army's 
record in bringing something to the forefront in procurement is 
they need a simulator is what they need, okay, to figure out 
how to do it.
    Now, you know, from the Guard's perspective, would you 
rather have them buy off-the-shelf equipment, systems that are 
out there already when you can get them and then incrementally 
improve them versus try to develop a new system that, with 
their record, has maybe only a 30 percent chance of ever being 
fielded? I mean, does the Guard worry about this? I would worry 
about it if I were the Guard.
    General Ingram. Congressman, from my perspective, I think 
we need to be equipped the same way as the Army because of all 
the sustainment systems and all the parts and maintenance that 
we have to do on these.
    Mr. Dicks. But you can get the Stryker or the MRAP or some 
system right off the shelf, incrementally improve it, why go 
through this big development program, 7 years, waste all this 
money, and then, at the end, cancel the program, which has been 
the record of the Army in recent years?
    General McKinley. Sir, I think my colleagues who work in 
Army and Air Force lanes are trying to follow their service 
leads, and I would say, as a chief, that their domestic 
requirements that through no fault of anybody's need to be 
considered. And we appreciate this committee bringing those 
needs up so that we can debate them and talk about them. Those 
domestic needs obviously include an adequate vehicle so that 
our National Guard troops in-State status can get to and from 
the scene of the disaster.
    And so I would encourage us to debate both sides of this 
issue, the needs of the Federal components and also the need 
for the domestic mission.
    General Stultz. Bill is brand new. I am retiring, so I 
don't have anything to lose.
    Mr. Dicks. You tell us.
    Mr. Frelinghuysen. Tell us like it is here.
    Mr. Visclosky. But he is retiring, too.

                             AGING EQUIPMENT

    General Stultz. But, no, I think you are exactly right. The 
concern I have got. I understand, we have gone through the same 
dilemma. Of my Humvee fleet, which is about 90 percent on hand, 
only about I think 10 or 15 percent is up-armored capable.
    So how feasible is it for me to put soldiers into combat in 
those vehicles in the future if we are going to go into a 
theater where--and I am sure we are, because everybody has gone 
to school on us and seen how IEDs affect our operations--and so 
I am concerned that those soldiers coming back from theater 
come back home and see those Humvees that they are going to 
train on now and say, you know, this is not really getting me 
ready to go to war. I need something better, and there are off-
the-shelf solution sets with MATVs and everything else.
    I have toured the plants at Oshkosh and other places like 
that, and so I think we have really got to take a serious look 
and say, what are we going to have to do for the immediacy to 
give those soldiers, maybe it is not 100 percent, because I am 
not going to send 100 percent of the Army Reserve at once, but 
give me enough fleets of equipment that I feel confident that 
everybody that I send into battle and everybody that I train to 
go into battle is training on the piece of equipment they will 
operate in theater and not an old Humvee that is not armor 
capable, and that soldier knows that.
    Mr. Dicks. Thank you.
    Thank you for yielding.
    Mr. Visclosky. I thank the gentleman.
    Mr. Visclosky. One more?
    Mr. Young. Yes, sure.

                           AIRGUARD REDUCTIONS

    Mr. Visclosky. General McKinley, I appreciate you bringing 
up the domestic component because in my mind, it wasn't in my 
mind until you mentioned that, and I appreciate you doing that.
    On equipment again, and the question deals with the Air 
Guard, Secretary Panetta had talked about a balance relative to 
the reductions at the Air Force and Air National Guard, but my 
understanding is that the Air Guard comprises about 21 percent 
of uniformed members in the total Air Force and yet would bear 
about 59 percent of the total aircraft cuts. There has been 
proposals relative to the canceling of the C-27, eliminating 27 
older C-5s and 65 C-13s--C-130s, C-130s.
    And my understanding is the Council of Governors have at 
least a proposal or some ideas as to how, if you would, to find 
a balance without more money, as I understand it, so that, 
again, the Air Guard is not decimated. Were they left out of 
these decisions, or is there still time to have a consideration 
of this so some balance can be struck? Because, again, I think 
very importantly here, they are not looking for more money, but 
they are looking for a better balance.
    General Wyatt. Yes, sir. The FY 2013 President's Budget 
Request proposal of the Air Force is right along the lines that 
you have mentioned, sir; those are the cuts. Subsequently, the 
Council of Governors, with Secretary Panetta's agreement, have 
presented an alternative proposal, and that is currently being 
discussed and evaluated and reviewed inside the Pentagon right 
now, and we hope to have some sort of answer determination at a 
later date. I don't know the particular status of the review at 
this point of time.
    Mr. Visclosky. I would, and I speak only for myself, hope 
that the people within the Department do give it serious 
consideration because I think the Governors are very serious 
about it, and again, looking to find the balance relative to 
the fiscal policy.
    Mr. Visclosky. Gentlemen, thank you very much for what you 
do. I appreciate it.
    Mr. Young. My turn.
    First of all, thank you for a really good hearing, and I 
have made more notes than I am going to be able to have time to 
talk to you about, but I, frankly, have some real concerns.

                              SEQUESTRATION

    Sequestration, I think we are going to find a way to avoid 
sequestration because all of us realize that would be a 
disaster for our national defense.
    But I, during the hearings that we have had so far and 
during the hearings today, I am hearing some words, and I might 
just be a little bit paranoid about this because I think it is 
so essential to maintain the readiness to face any threat that 
we might be faced with. And I am not sure--and in this ``budget 
reality'' is one of the words, phrases that I heard--I am not 
sure that in this budget reality that we are going to do that. 
And let me give you just one example before I go to what you 
all said.
    We had the hearing with General Mattus and General Allen, 
and they were testifying to the fact that they really needed 
more naval facilities in their AOR. Good, and I think they are 
probably right, considering what they have to deal with, the 
threats, the potential threats they are facing.
    On the other hand, we are going to hear this afternoon from 
Admiral Locklear that we are expanding our activities in the 
Pacific.
    But at the same time, we are just not building enough 
ships, enough naval resources to take care one area AOR and 
another AOR and especially to expand them, just an example of 
why I am just maybe a little bit paranoid on this subject.

                      WHAT IS ``ACCEPTABLE RISK''?

    But I hear the word ``risk,'' and I have heard the word, 
not today but in other hearings, ``acceptable risk,'' and I 
have heard the phrase ``not funded adequately,'' and I have 
heard the statement, ``soldiers need good equipment now.'' And 
then I hear ``marching orders,'' we have got our marching 
orders.
    Are the marching orders surpassing the real judgment of our 
military leadership as to what is required to maintain the 
readiness of this country and to be able to properly equip and 
train and secure the soldiers who provide that readiness? Does 
that concern anybody other than me? But it does concern me.
    General Stultz. Yes, sir, it concerns me also. It concerns 
me because I think, and I hate to use the word reality, but 
what our leaders are looking at is what they think that they 
will be given to work with in terms of the defense budget.
    And then some of the challenges within that budget, where 
we know that we need to spend money on equipment, on 
simulations and training, but we also know that we have got 
broken soldiers. We have got a lot of medical needs. We have a 
lot of things that are not in our program budget that we have 
to take care of.
    So I think that is part of the reality also is that we as a 
Nation need to recognize, and it has been mentioned here, the 
stress and strain that we put on our men and women in uniform 
over the past 10 years, and what we owe back to them to get 
them back to the health they need to be, and what it will take 
to do that, and don't make us as a military use our resources, 
that we need to be spending on equipment and other things, to 
do the right thing. And so I think that is part of the 
challenge that we are facing right now. Just in our end 
strengths, as you are talking about bringing down end strengths 
to save money, there are still a lot of broken soldiers in that 
end strength. We can't just get rid of them. We will have to 
keep them. We will have to take them, and we will have to count 
them, which may force us, to get down to where we need to be, 
we will have to get rid of good soldiers that we really need to 
keep.
    I think those are the kind of realities we need to grapple 
with and say: What does it take for this Nation to have a 
military that we need and we deserve, and to take care of those 
soldiers, because what we cannot risk, what is not acceptable 
risk, is that we lose it?
    That is my concern on the Reserve. If we don't resource our 
reserve soldiers correctly, to give them the proper training, 
to give them the confidence that if they go into battle and get 
wounded, that we are going to take care of them when they get 
home, we are going to lose that national treasure. And we will 
go through another dip, just like we did before, where we 
dropped in the Army Reserve from 205 down to about 185, and try 
to climb out of that. And we have. But we will go through that 
again, and we will hit that bottom right about time the next 
conflict occurs.
    General McKinley. Mr. Chairman, from my vantage point, we 
cannot squander the gains that we made in the National Guard 
and Reserve over the last 10 years. It would be a waste of 
taxpayer money. We have the most capable, trained, highly 
qualified, eager force that we have ever seen. And they are 
expecting our leaders to fight hard so that they don't return 
to a status that we have returned to in most other major 
conflicts that our Guard and Reserve have fought in.
    So we are here today to tell you that while we work within 
our service lanes, that we also come here to thank you for 
supporting us in the unique needs that we have, the fact that 
the National Guard and Reserve equipment account takes care of 
an awful lot of things that our services can't take care of, 
that we can utilize in other things like simulations and dual-
use training equipment, that is vitally important to us. And 
without that, we are going to squander the gains that we have 
made over this last decade of war.
    Mr. Young. Any other comments?
    General Wyatt. I will just add in from the Air Guard side, 
we look at the new National Military Strategy and we look at 
the Air Force's restructuring, I think where we are headed, we 
have the force structure to do what it is that the country 
expects us to do.
    I think the key, though, is making sure that everybody 
understands that the days where we might be able to do some 
peanut butter cuts to hit additional budget cuts are over. And 
if we go down that sequestration route or if we don't do what 
we are doing right now properly, we will find ourselves 
promising some military capability that we can't deliver on.
    Internally to the Air National Guard, for example, what we 
did in 2013 and what we will do for the next 5 years is to 
improve our readiness because General Schwartz has told me, 
when I call on your forces, Bud, they better be ready to go. I 
have said, okay, they will be ready to go. But, sir, what I 
need some help in is divesting some of the sunset under-
resourced lower priority missions so that I can take those 
resources and put them toward the higher priority, rising 
missions that we think that we will need in the future. So that 
is what we are trying to do internally with the Air National 
Guard.
    Mr. Dicks. Would the chairman yield just for a second on 
that point?
    Mr. Young. Go ahead.

                        NATIONAL GUARD MISSIONS

    Mr. Dicks. You said the lesser missions that should be 
sunsetted; what are those?
    General Wyatt. Some of those missions might be, as we go 
forward and we take a look at the need for maybe combat 
communications, do we have too many combat communications 
missions across units, across all of the components. And we 
talked to the combatant commanders and we have talked to the 
major commands in the Air Force, the Air Guard does, to make 
sure that we don't have any force structure that is not 
important to the new fight. Force structure that may have been 
necessary 10-15 years ago, and we have postured our forces for 
that fight. But as we move forward, things like combat 
communications and increasing need. For example, for maybe 
security forces. We know the growing portfolio in remotely 
piloted aircraft, intelligence, surveillance, reconnissance, 
cyber is going to be the focus of the future.
    So these are difficult decisions. It is not that these 
missions are not important. But as you rack and stack them in 
the level of importance and you try to determine what the risk 
the country is willing to take, to borrow a word that you used, 
Mr. Chairman, there can be some internal readjustments of the 
type of units that you have. That is what we are trying to do, 
take those lower priority units, those units that maybe have 
suffered some force structure cuts along the way that they are 
not as capable as they should be, and just make the hard call. 
It is time to divest and get in those mission sets that we 
think will be important in the future.

                          OPERATIONAL RESERVE

    Mr. Young. General, did you want to comment on my 
statement?
    General Ingram. Congressman, I do. Every man, woman that 
has joined the Army National Guard since 9/11 has--every 
soldier that we have in the Army National Guard has either 
joined or re-enlisted since 9/11. So our force, the most 
capable we have ever had, expects to do something. And that 
speaks to the Operational Reserve.
    At this point, we have funded the training for an 
operational Reserve, but we need to have the money to operate 
the operational reserve, both Guard and Reserve in our United 
States Army. So the Nation expects that.
    The investment that General McKinley just talked about, we 
have spent a lot of Nation's treasure in the last 10 years 
manning, equipping and training the Reserve component of the 
United States Army. And if we don't use that on a periodic, 
predictable basis to do missions around the world or in the 
United States, then we will lose that edge that we have gained. 
I think that is what you are talking about.
    Mr. Young. That is pretty much what I am talking about, 
yes.
    Well, this subcommittee understands the importance and the 
necessity of having your forces and your troops and having them 
trained properly and equipped properly. You will find if there 
is something that you would like to slip under the table, a 
list of things that you need and aren't in the budget, let us 
take a look at it because we are very supportive.
    We are running out of time, so I want to go to the other 
subject that I have talked about.

                            AVIATION ASSETS

    General McKinley, you and I have discussed this in private 
meetings. And that has to do with the aviation assets for the 
National Guard in the respective States, and we haven't talked 
too much today about how the Governors have all written to this 
committee and have written to the Armed Services Committee 
complaining about the loss of their aviation assets. I thought 
I was going to maybe just make a comment--maybe I sound too 
serious--but we were really impressed with what you are doing 
with the simulators. And Mr. Dicks and I are very strong 
supporters of simulators. We have both used them, and we like 
them. But I am just wondering, if, when you need that C-130 in 
Florida for the next hurricane, are you going to use a 
simulator to do what that 130 should do? And that worries me. 
Other members of this committee have expressed that concern to 
the Air Force, to Secretary Donley and General Schwartz. I 
don't think we have made much progress, but it just seems to me 
like we are eliminating an asset that may be more important for 
the State function, the domestic function, as opposed to the 
overall military function. But it is something that is real.
    I have gone with our adjutant general into a hurricane 
situation where the National Guard is there on the scene and 
had to get from Hurricane Ivan, for example, that wiped out 
Pensacola Air Station, and they had to get back to St. 
Augustine because the next hurricane was heading there. They 
were able to get there quickly with the aircraft. No aircraft 
and they would be traveling in trucks or Humvees, and the 
hurricane would be over. Anyway, that is a concern. Many 
members of the committee have expressed concern on that very 
subject.
    And I know, General McKinley, I know where you stand on 
that, and I am not going to get into that any further.
    This has been a great hearing.
    Mr. Dicks. Mr. Chairman, could I just bring up one quick 
little one?
    Mr. Young. Of course, Mr. Dicks.

                     POST-TRAUMATIC STRESS DISORDER

    Mr. Dicks. Thank you, Mr. Chairman.
    We just had a big to-do out of Fort Lewis, Joint Base 
Lewis-McChord on post-traumatic stress disorder, traumatic 
brain injury, anxiety. There were a number of people who felt 
that they had been mistreated, that their diagnosis had been 
changed. And they were. Some of these were reversed at Walter 
Reed Bethesda. Now, do you think this is a problem? Are the 
Guard and Reserve people, are they worried that their diagnoses 
for disability are not being properly handled, that there is 
kind of a secret code in the Army--and the Air Force doesn't 
get this wrap but the Army does--for trying to hold down the 
cost of treating these people? And there are implications to 
this.
    What if somebody is misdiagnosed or not diagnosed properly, 
and then they are sent back into combat and then they get into 
a big mess? Now, Bales, apparently, his wife says he didn't 
have any post-traumatic stress disorder, but a person could. 
This has implications beyond just money. It has implications 
about what these people can do or perform when they are called 
upon in Active Duty combat.
    General Stultz. Sir, I will give you my perspective in 
talking with my soldiers.
    I don't think that they necessarily think that they are 
being treated differently in terms of the concern and care. I 
think their frustration is they are being treated differently 
because of the bureaucracy. And the challenge we have got is a 
soldier comes back from Iraq/Afghanistan that is in 1st Cav 
Division. He is going back to Fort Hood, Texas. He may 
eventually PCS to another installation. But if he starts 
manifesting issues that associate back to his deployment, he is 
still in our system, and he is considered in the line of duty 
and gets treated.
    Our soldiers come back, and we take them off Active Duty, 
and we send them back home to their communities. In a lot of 
cases, they don't start to manifest issues for 6 months, maybe 
a year. And then the bureaucracy of trying to get them back 
into the system, to get the care they need and everything, is 
where it is very frustrating for our soldiers. Or our soldiers 
that we do get back into the system, the Warrior Transition 
Units at Walter Reed Bethesda now, and I just met a soldier 
over there just recently, and he has been in that system for 3 
years because--and it is not anybody's evil intention; it is 
just different types of orders. It is different types of 
authorities. It is different types of line of duties. It is 
different types that we don't have a medical system that really 
is equipped and ready to take care of the needs of the Reserve 
components. We have a medical system that is struggling to take 
care of the Active component as it is. We put on top of that 
the fact that we send them back home, and then they have 
issues; how do we get them back into that system?
    It frustrates me a great deal when I hear somebody 
questioning a soldier, who we know he was in Iraq; we know he 
went through an IED blast, whatever, and he has been back 2 
years and somebody is asking for a line of duty. Don't ask me 
for a line of duty. He was in combat. We know that.
    If that soldier is, for example, at Fort Hood, Texas, and 
he is playing basketball and twists his ankle, he is in line of 
duty, and we take care of him. If one of my soldiers is out 
there jogging so he can pass his PT test and twists his ankle, 
he is not in line of duty; he is not a soldier. The hell he 
isn't; he is a soldier 24 hours a day. He is just not in 
uniform today. We have to figure out a system to say, how do we 
provide the medical care for our soldiers in the Reserve 
components at the same level, not at the same cost, but if we 
say, hey, this soldier needs care and it is a military 
responsibility, we can get him back into the system immediately 
and take care of him.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Young. And that is a good point. We need to explore 
that. I know of some cases that would fit into that category, 
and we need to fix that.
    Thank you for a really good hearing. We stand here in 
support of the Guard and Reserve.
    This subcommittee is now in recess until 2 p.m. this 
afternoon when we will hear regarding U.S. Pacific Command and 
U.S. Forces Korea.
    [Clerk's note.--Questions submitted by Mr. Moran and the 
answers thereto follow:]

                            Cloud Computing

    Questions. The realities of today's difficult budget environment 
have forced us to look at all aspects of the federal budget to ensure 
that we meet our fiscal responsibilities and make the best use of 
limited funding. In the overall budget plan for DoD, I notice a number 
of programs where savings measures will be achieved through innovations 
in information technology. In particular, I have been following the 
implementation of the Administration's ``cloud-first'' mandate and note 
the successes of other federal agencies, such as GSA and NOAA, who have 
been able to achieve IT cost savings by moving some its programs and 
email users to the cloud. In many instances these savings are reported 
to be in excess of 50% of their prior operating costs.
    Lt. Gen. Wyatt, does the Air National Guard plan to move any of 
existing programs to a cloud environment? If so, will this include 
email systems?
    Answer. In our efforts to assess the viability of moving the entire 
Air National Guard to the cloud, we recently reached out to industry 
with a request for information on available cloud computing solutions. 
The responses received make us optimistic that we will be able to 
potentially leverage a solution for core capabilities to include secure 
e-mail services at a much lower cost. While actual savings are unknown 
at this time, we do believe the Air National Guard can realize 
considerable reductions in hardware, software, environmental and 
personnel costs by moving to a cloud environment. Just as importantly, 
we also believe a public cloud environment will not only offer better 
access to our Drill Status Guardsmen and women, but provide 
collaboration capabilities with state and local governments not 
available today.
    There are still a number of questions that must be answered. How do 
we continue to interface with our Active Duty counterparts in the Air 
Force? Where is the DoD going with the Joint Information Environment 
and will our cloud computing initiative be compatible with those 
ongoing efforts? We believe by working with industry we will be able to 
answer those and other questions going forward.
    Question. Will you be considering the lower cost advantages of a 
Government community cloud in order to achieve the best value for the 
tax payer?
    Answer. Yes, we will be considering both public and private cloud 
offerings as we fully explore cloud computing. Our recent request for 
information from Industry yielded solutions for both private and public 
cloud environments. Ultimately, the security of our information and 
cost efficiencies offered will probably drive toward one solution over 
another. At this time, we don't have enough information to say which 
solution best meets the needs of the Air National Guard.

    Clerk's note.--End of questions submitted by Mr. Moran. 
Questions submitted by Mr. Young and the answers thereto 
follow:]

        C-27J--Spartan Medium Sized Military Transport Aircraft

    Question. Imagine the visual of brand new C-27Js going from the 
assembly line to the boneyard at Davis-Monthan Air Force Base in 
Arizona.
    When I look at the long history of the C-27 it seems very confusing 
and difficult to understand. Can you explain what has happened starting 
with the Army's control of the program and why you believe the C-27 is 
such a low priority program within the Department of Defense?
    Answer. In 2007, the Department had two robust airlift programs in 
development. The first was the Army's Future Cargo Aircraft program 
which in essence was a recapitalization for its aging C-23 Sherpa 
program. The second was the Air Force's Light Cargo Aircraft program 
which was to supplement the C-130 and C-17 fleet by moving smaller 
payloads into smaller, forward-based landing zones. Those programs were 
merged to leverage a single, common airframe to meet both needs. An 
original 145-aircraft fleet size was moderated to 78, which represented 
a moderate-risk to meet both programs' needs.
    In April 2009, the fleet size was further reduced from 78 aircraft 
to only 38 aircraft. The reduced fleet size was seen as a floor and not 
a ceiling pending more complete fleet mix analyses. In 2010, an Air 
Mobility Command (AMC)-commissioned RAND study concluded that between 
42-92 aircraft would be needed to fulfill the Army's direct support 
requirement to move time-sensitive, mission-critical supplies and 
personnel within the joint operational area. AMC believed the retention 
of the 38 C-27Js, and covering the additional capacity with C-130s, 
addressed the RAND conclusions.
    In 2010, growing fiscal realities began to impact future program 
funding. In early 2011, the C-27J program had not received a full rate 
production decision for the final 17 of its forecast 38 aircraft. The 
principle concern was the cost associated with the aircraft's 25-year 
Service Cost Position. Later in 2011, the Budget Control Act directed 
the Department to significantly alter its views on force structure and 
fiscal requirements. The Department undertook a comprehensive strategic 
review of its National Defense Strategy. Given the fiscal reality and 
new strategic direction, the Air Force made the choice to divest older 
weapons systems and smaller, niche fleets. The Air Force posture, based 
on a new strategic guidance, is to reduce the overall requirement for 
intra-theater airlift. The Air Force subsequently determined that both 
the domestic and direct support missions to be performed by the C-27J 
could be performed by the existing C-130 fleet. The Air Force remains 
committed to supporting the original Army premise, and in January 2012 
the Joint Chiefs signed a memorandum to provide direct support for the 
time-sensitive, mission-critical mission. As such, the C-27J fleet 
would be divested and offered to other services or nation partners.
    Question. The Committee understands that the C-27J has served well 
in state units, and the Ohio National Guard has flown the C-27J in 
Afghanistan. Generals, has the C-27J program had cost, schedule or 
performance problems which have led to the decision to end the program?
    Answer. The recommendation to end the C-27J program was established 
by the Air Force. It was based in part on an analysis of estimated 
lifecycle costs, but more so by a strategic change in how the Air Force 
will employ intratheater airlift. The recommendation does not appear to 
have been driven by any schedule or performance issues. The aircraft is 
achieving its original key performance parameters, both at home and in 
theater. Initial issues concerning maintenance reliability have begun 
to lessen as the parts and sustainment system has matured and overcome 
the initial stresses imposed by the immediate deployment of the 
aircraft. For the last six months, the fleet has maintained an average 
86% mission capable rate in the U.S., and over 90% while deployed.
    Question. General McKinley, because you can answer for both the 
Army and Air Guard, how many C-27J aircraft did the Department intend 
to buy at the high point? How many aircraft were to go to Army? How 
many to Air Force? And what mission were these aircraft to have served?
    Answer. In March of 2005, the Joint Requirements Oversight Council 
approved the Army's Initial Capabilities Document that called for 145 
future cargo aircraft. In June 2006, the Army and Air Force Vice Chiefs 
of Staff signed a memorandum of agreement that established the way 
ahead for the convergence of the Army Future Cargo Aircraft and Air 
Force Light Cargo Aircraft programs. The agreement specified the Army 
would initially procure a minimum of 75 aircraft (48 of which were 
designated for the Army National Guard), and the Air Force would 
procure a minimum of 70 aircraft. The total fleet at time was forecast 
at 145.
    In May 2007, the Joint Chiefs of Staff signed a memorandum stating 
the Army was presently budgeted for 46 aircraft but was fully committed 
to fund a total of 54 aircraft thru Fiscal Year 2013, 40 of which were 
for the Army National Guard. The Air Force was also committed to an 
initial buy of 24 aircraft, bringing the total forecast for the fleet 
to 78 aircraft. In May 2009, the Secretary of Defense moved the program 
entirely into the Air Force, and reduced the fleet size to 38 aircraft.
    The Joint Cargo Aircraft program's Capability Development Document, 
April 2007, established the baseline performance parameters and 
missions to be achieved by the aircraft. The aircraft was to perform 
intra-theater airlift missions in support of the Joint Force 
Commander's objectives, and would be capable of performing basic 
airlift mission sets including general passenger and cargo movement, 
combat employment and sustainment, aeromedical evacuation, special 
operations support, and operational support airlift. These missions 
include operations with night vision equipment, arrivals and departures 
from unimproved fields, and the airdrop of personnel and containerized 
supplies.
    The mission of the C-27J aircraft is to supply time sensitive, 
mission critical deliveries to widely dispersed Army units; it would 
not have replaced the Air Force mission of intra-theater airlift. The 
Army identified a need for less than a full load of cargo carrying 
capacity for the ``last tactical mile'' and the C-27J may be able to 
operate more effectively and efficiently than other Army or Air Force 
aircraft. In addition, the C-27J would replace the Army National Guard 
C-23 aircraft and relieve the pressure on the over-stressed Army rotary 
wing aircraft, particularly the CH-47. Both the Army and Air National 
Guard would employ the aircraft in support of civil authorities and 
homeland defense missions.
    Question. The unit cost of the C-27J is about $32 million. The C-
130J unit cost is about $65 million. General Wyatt, is there a need for 
front line tactical airlift, and does the C-27J satisfy that 
requirement at a lower procurement cost and lower operating cost?
    Answer. The C-27J was developed by the US Army to fulfill an 
operational gap created with the pending retirement of the C-23 Sherpa. 
The C-27J was designed as a light-cargo airlift aircraft, which would 
continue to meet the Army's on-demand movement of critical cargo and 
personnel to forward operating areas. The C-27J is presently meeting 
that mission set as intended. The aircraft provides the Air Force an 
agile platform to effectively and efficiently move general support 
cargo across the joint operating area. The C-27J's smaller platform can 
be used for those missions that do not meet the general support 
mission's minimum requirements. Such a fleet would allow the AF to 
leverage and apply the right-sized platform for the mission at hand. 
This would maximize the use of airlift capacity at the same time 
increase the fuel efficiency per mission with no loss in mission 
effectiveness.
    Question. General Wyatt, would the initial buy of C-27Js have 
allowed for the retirement of an equal number of old C-130s?
    Answer. When the Air Force accepted the responsibility of the 
program, they specifically accepted the responsibility to provide the 
Army direct support for its intra-theater airlift of the time-
sensitive, mission-critical supplies and personnel. The Air Mobility 
Command's Air Mobility Master Plan, Nov 2011, identified that lessons 
learned from Southwest Asia revealed the need for a smaller airlift 
aircraft to better support the time-sensitive, mission-critical needs 
of the combatant commander. The C-27J was seen as the right-sized 
aircraft to provide that support and would do so ``by adding a more 
efficient means to move small payloads, shorter distances, into austere 
locations.''
    The initial procurement of thirty-eight aircraft gives the Air 
Force a preliminary means to achieve efficiencies in the movement of 
smaller general and direct support mission loads. However, the small 
fleet footprint is not sufficient to generate efficiencies necessary to 
warrant the replacement of an equal number of C-130s.
    Question. General Ingram, have Army National Guard units turned in 
some or all of their old aircraft, the Sherpas, Hurons, and 
Metroliners? If you no longer have the C-27J in the fleet, what is the 
plan to replace those older aircraft, and if the plan is to use C-130s, 
is that a bit of over kill and wasted money?
    Answer. Resource Management Decision 802 (April 2009) directed the 
Army National Guard divest four C-23 aircraft in fiscal year 2011 and 
another four by the end of calendar year 2012. The Army National Guard 
will divest the remaining 34 C-23s no later than calendar year 2014. 
The Army National Guard has not divested any other types of aircraft. 
The Army is currently staffing a Fixed Wing Utility Aircraft Initial 
Capabilities Document to address the replacement of aging C-12 Huron 
and C-26 Metroliner utility aircraft.
    The Army and Air Force both agreed that the C-130 could effectively 
perform high priority and time sensitive transport/resupply missions 
involving small passenger and cargo loads to widely dispersed units. 
The C-130 did not meet some technical requirements for the joint cargo 
aircraft and was eliminated from the competition in 2006. The C-130 is 
also a larger aircraft than is required for this mission (a 42,000 
pound payload versus 25,000 pounds for the C-27J), and, according to 
Department of Defense reimbursable rates, it costs approximately three 
times more to operate than the C-27J.
    The C-27J would have replaced the C-23 fleet; no other aircraft is 
projected to replace Army National Guard C-27s/C-23s.
    Question. General Wyatt, the Air Force Chief of Staff says that you 
were you a full participant in the Air Force budget process. Did you 
disagree with the decisions put forward in the FY13 PB for the Air 
Force? Did you provide alternate options to the Air Force during the 
process? Have alternate options been provided to the Air Force since 
the release of their budget proposal? If so, how have they been 
received?
    Answer. The National Guard Bureau was directed to cut Air National 
Guard manpower; an endorsement of the overall decision was not part of 
the Air Force process for making this decision. The National Guard 
Bureau participation in selecting force structure changes was to offer 
advice and options to Air Force leadership. The Air Force mandated how 
many, which type of aircraft and/or units to cut. The National Guard 
Bureau offered recommendations for options within the parameters of the 
decision required. At the conclusion of the Corporate Process 
deliberations, the Secretary and Chief of Staff of the Air Force made 
the final decisions on the size, shape and content of the Air National 
Guard.
    Question. The Committee understands that the Department plans to 
divest of the 21 C-27Js that have been delivered or are in production. 
What does divest mean exactly: store them, sell them, or give them away 
. . .?
    Answer. The Air Force is presently reviewing options for future 
utilization of the aircraft. Initial screening has identified the US 
Coast Guard has interest in 21 aircraft, SOCOM has interest in 6 
aircraft, and the Defense Logistics Agency's Law Enforcement Support 
Office has interest in 5 aircraft. Air Force personnel have indicated 
that formal screening and a final disposition decision is expected this 
summer.
    Initial plans to move all aircraft to the Aerospace Maintenance and 
Regeneration Group for temporary storage pending a final disposition 
decision have been suspended. Instead, the Air Force will support the 
continued aircraft operations for the four primary aircraft at each of 
the three operational Air National Guard Wings. All further aircraft, 
to include those delivered off the production line, will be held at the 
primary contractor's facility in Waco, Texas, pending final decision on 
the Fiscal Year 2013 budget.
    Question. General McKinley, is this program another example of the 
requirements process in the Department of Defense being out of control?
    Answer. The C-27J Spartan was originally designed to serve as the 
recapitalization of the Army's aging workhorse, the C-23 Sherpa. The 
Joint Requirements Oversight Council approved the C-27J as the Army's 
Future Cargo Aircraft. It was subsequently determined that the airframe 
also met the program baseline for the Air Force's Light Cargo Aircraft 
program. This reflected an initial intent to procure 145 aircraft, 75 
for the Army and 70 for the Air Force. Eventually, an agreement was 
signed to merge the programs and thus realize the synergies of 
procuring one aircraft to achieve both Services' mission need. The 
initial acquisition baseline was set to initially procure 78 aircraft, 
54 for the Army and 24 for the Air Force.
    By May 2009, the Services agreed that intratheater airlift was a 
core competency of the Air Force, and as such an agreement was made 
that the Air Force would implement the program and execute the mission. 
This correctly aligned mission sets within the respective Services, and 
was a prudent step to take. However, the initial procurement was 
further reduced to 38 aircraft.
    Since the program inception, each decision to modify or change the 
program came with a decision to reduce the total fleet size. The net 
effect over time has been to produce a program that equates to a 
significant cost per airframe, and a fleet size/basing strategy that is 
less than optimal. The requirement to employ an aircraft that would 
manage smaller cargo loads which must move in `on-demand' environment 
favors this aircraft. The requirement is not wrong, but decision to 
incrementally reduce overall fleet size has hurt the overall program.
    Question. Where are the C-27s in the Air Guard inventory currently 
located? What missions are they filling? Has anything changed in the 
homeland defense and domestic response mission that would indicate a 
need to reduce airlift requirements in the Air National Guard?
    Answer. The Air National Guard has accepted ten of the twelve C-27J 
aircraft presently delivered to the Air Force. In accordance with the 
program of record, each active Wing will receive four primary aircraft. 
The first four aircraft were delivered to the 179th Airlift Wing, 
Mansfield, Ohio. Three aircraft have been delivered to both the 135th 
Airlift Group, Baltimore, Maryland, and the 186th Airlift Wing, 
Meridian, Mississippi. The Maryland and Mississippi Wings await 
delivery of their respective fourth and final aircraft. These aircraft 
still pending delivery this summer from the primary contractor. The 
final two of the twelve aircraft are stationed at contractor-provided 
Flight Training Unit, Robins Air Force Base, Georgia. All further 
aircraft deliveries will be held at the primary contractor's facility 
in Waco, Texas, pending final action on the Fiscal Year 2013 budget.
    The primary focus for the C-27J program was to rapidly field and 
train units in order to immediately support deployment requirements. 
The 179th Wing met that goal by deploying two aircraft in support of 
Operation Enduring Freedom in July 2011. The unit has continued to 
aggressively complete mission certification training and to sustain 
deployed operations. The 135th has now deployed to assume the 
operational commitment from the 179th to return home.
    The units maintain a continuous readiness-state to support any 
homeland defense mission, just as they were available during Hurricane 
Irene. We see nothing to indicate a reduction in domestic airlift 
requirements.

                          Counter Drug Funding

    Question. Gen. McKinley, the committee understands the National 
Guard, in a Title 32 status, offers the primary domestic military 
support to combating the nation's drug epidemic by disrupting both drug 
trafficking and transnational criminal organizations.
    How will the decrease in counter-drug funding effect the National 
Guard Counter Drug Program? What can the Committee do to make sure that 
this program remains viable to those states that need it most?
    Answer. The National Guard Counterdrug Program has received an 
overall funding reduction of $86.2 Million or 37% for FY 2013 as 
compared to the previous fiscal year 2012. The State Plans Project Code 
7403 has specifically received a $73.9 Million or 41% reduction from 
the previous fiscal year. That 41% budget reduction will reduce 
operational support by approximately 45-50%.
    The operational reduction will impact support provided to Law 
Enforcement Agencies (LEAs) counter narcotic operations in the 
following mission support areas: Marijuana Eradication, Aerial and 
Ground Reconnaissance, Criminal Analyst support, and Civil Operations & 
Coalition Development (formerly Drug Demand Reduction).
    The National Guard Counterdrug Training Center budget has been 
reduced by $1.7 Million or 16% which may result in a reduction of 
approximately 45,000 Law Enforcement personnel trained at the National 
Guard Counterdrug Training Centers.
    The Committee can assist the National Guard Counterdrug Program by 
working with Department of Defense to establish a stabilized and 
adequate funding stream within the Presidential Budget base. This 
achievement would provide each state program the opportunity to 
deliberately plan support, train law enforcement, and properly plan 
funding expenditures.

                        Domestic Mission Aviation

    Question. The Air Force budget includes the reduction of 65 C-130s 
and the divestiture of all C-27s from the fleet. We know that these 
aircraft are the primary aircraft used in response to domestic 
emergencies. Without aircraft like these to respond to recent disasters 
in the Gulf states, missions may have been compromised.
    General Wyatt, how will the Air Force's budget impact the Air 
Guard's ability to respond to domestic emergencies?
    Answer. In most cases, the first 72-hours of disaster response is 
local and no one knows better what a state needs to respond to support 
its citizens better than the state leadership and their emergency 
planners. We believe aircraft and personnel that can respond to a 
Governor's request can be utilized more quickly than assets not under 
his/her control. The ability to have personnel and aircraft in a 
standby status can speed the response by many, many hours and that 
could be the difference in supplying the lifesaving and life-sustaining 
capabilities needed. Reductions in transport aircraft, search and 
rescue assets, and other keys capabilities from a Governor's control 
may slow a response to a domestic event.
    Question. Given the Air Force's proposed cut, how many additional 
aircraft, and of what types will the Air Guard need to adequately 
perform its domestic mission?
    Answer. The Congress has required a study to look at potential 
capability gaps with the new force structure plan while looking at DoD 
commitments around the world, historical domestic response needs, and 
potential domestic needs to support major and/or complex catastrophes. 
The capabilities based assessments is expected to be completed in Dec 
2012. Once complete, we should be able to provide a more detailed 
response.
    Question. General McKinley we understand that the Air Force 
believes it will be able to provide the necessary aviation assets 
during domestic emergencies through a combination of Guard, Reserve, 
and Active forces. Yet, FEMA, the governors, and Adjutants General have 
all said that time is vital to domestic response and only the Guard is 
positioned to respond in a timely manner. Is there any explanation to 
the Air Force's reasoning on this?
    Answer. We believe the explanation lies in the lack of an 
articulated requirement (Refer to #13 response).

                      Air National Guard Readiness

    Question. The Fiscal Year 2013 budget request for Air National 
Guard proposes such deep cuts in its funding for maintenance 
requirements that only 72% of the aircraft would be adequately 
maintained and ready to fly, while the remaining iron, approximately 
200-300 aircraft; would have to be sidelined. This cut is on TOP of the 
already significant reductions to the number of Air National Guard 
planes. The Air Force objective is to provide enough funding for 
maintenance of aircraft and aircraft engines so that 100% of the fleet 
is mission ready, but this budget seems to fall far short of this goal.
    General Wyatt, do you agree with this assessment? How much 
additional funding would be required so that 100% of the significantly 
reduced Air National Guard fleet would be mission ready?
    Answer. For FY13, the Active Component accepted significant risk in 
other components of Weapon System Sustainment (WSS), while budgeting 
aircraft and engines at 100%. The budget for the Air National Guard 
(ANG) reflects 72% for the entire ANG WSS. While this does allow us to 
fund aircraft and engines at higher than 72%, while accepting risk in 
other areas of ANG WSS, it is not sufficient enough for the ANG to 
fully fund aircraft and engines at 100%.
    The Air National Guard projects a $263 million shortfall to ensure 
100% of the significantly reduced Air National Guard fleet would be 
mission ready. This funding would allow the Air National Guard to fund 
21 engine depot overhauls ($38.0M) and 7 aircraft programmed depot 
maintenance (PDM) inductions ($84.5M). The funding would also be 
utilized to fund Contract Logistics Support for Weapon Systems such as 
E8-JSTARS and targeting pods ($140.5M). Should this shortfall go 
unaddressed, aircraft and engines will be deferred ultimately resulting 
in groundings.
    Question. The Committee understands that the active Air Force 
includes approximately $250 million in funding in its Overseas 
Contingency Operations budget for Air National Guard maintenance. Could 
the Air National Guard use this funding to supplement the shortfall?
    Answer. In Fiscal Year 2010, a Air Force General Counsel ruling 
determined the Air National Guard's (ANG) appropriation is for 
organizing, training and equipping our force. As a result of the 
decision, all Overseas Contingency Operations (OCO) funds (other than 
Yellow Ribbon funds) in the ANG baseline budget were ``reprogrammed'' 
out and we support all OCO missions in a ``reimbursable'' status. That 
is to say, any time we support the active forces, that duty is paid for 
from the active appropriations. Since our baseline budget is designed 
to support our peacetime training, the peacetime (baseline funding) 
would need to be increased to resolve the shortfall. All OCO support we 
provide drives increased maintenance costs, the reimbursement from Air 
Force pays only that OCO bill.
    Any additional OCO funding we receive is a direct correlation with 
additional flying, thus the shortfall is not decreased. The money would 
need to be reprogrammed into the ANG's baseline to eliminate the 
shortfall.

     [Clerk's note.--End of questions submitted by Mr. Young.]
                                         Wednesday, March 28, 2012.

                 U.S. PACIFIC COMMAND/U.S. FORCES KOREA

                               WITNESSES

ADMIRAL SAMUEL J. LOCKLEAR III, U.S. NAVY, COMMANDER, UNITED STATES 
    PACIFIC COMMAND
GENERAL JAMES D. THURMAN, U.S. ARMY, COMMANDER, UNITED NATIONS COMMAND; 
    COMMANDER, UNITED STATES-REPUBLIC OF KOREA COMBINED FORCES COMMAND; 
    AND COMMANDER, UNITED STATES FORCES KOREA
    Mr. Young. The committee will be in order.
    The chair recognizes Mr. Dicks for a motion.
    Mr. Dicks. Mr. Chairman, I move that those portions of the 
hearing today which involve classified material be held in 
executive session because of the classification of the material 
to be discussed and its sensitivity.
    Mr. Young. Without objection, it is so ordered.
    Mr. Young. Today, this afternoon, our hearing is on the 
status of the United States Pacific Command and the United 
States Forces Korea, welcoming Admiral Samuel Locklear, U.S. 
Navy, Commander, United States Pacific Command; and General 
James D. Thurman, U.S. Army, Commander, United Nations Command, 
and Commander, Republic of Korea-United States Combined Forces 
Command, and Commander, United States Forces Korea.
    Gentlemen, I have a really long opening statement, but I am 
not going to make it because of this vote situation, and we 
want to give you all the time that we can give you.
    I yield to Mr. Dicks, and I assure he will----
    Mr. Dicks. Yes, I would do the same thing.
    And thank you, Mr. Chairman.
    Mr. Young. Thank you, Mr. Dicks.
    Admiral, we would like to hear from you, sir, and your 
entire statements will be put in the record and then you can 
just state them any way you like.
    [Clerk's note.--The complete transcript of the heading 
could not be printed due to the classification of the material 
discussed.]
    [The statements of Admiral Locklear and General Thurman 
follow:] 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                      Thursday, September 20, 2012.

         JOINT IMPROVISED EXPLOSIVE DEVICE DEFEAT ORGANIZATION

                                WITNESS

LIEUTENANT GENERAL MICHAEL D. BARBERO, U.S. ARMY, DIRECTOR, JOINT IED 
    DEFEAT ORGANIZATION, U.S. DEPARTMENT OF DEFENSE

                     Opening Statement of Mr. Young

    Mr. Young. The Committee will be in order.
    Thank you all for being present this morning.
    The hearing today is about the status of the JIEDDO 
responsibilities and where we are going with it, with the 
organization, with the devices, with the training--anything 
related to JIEDDO. And we really are happy to welcome General 
Barbero, who is, I would say, a very, very distinguished 
military leader.
    And as we looked over your biography, I would tell you, 
General, it is impressive. And I know this is your first visit 
with this subcommittee, and so your biography will be placed in 
our record for history.
    Mr. Young. We want recorded the fact that we had the chance 
to visit with you. So thank you very much for being here.

                          PROTECTING SOLDIERS

    I would have to tell you that the reason I wanted to have 
this hearing--and I would say to my colleagues, too, because we 
haven't had much of a chance to discuss it--I have had a major 
commitment ever since Mr. Dicks and I have been working 
together on national security issues, and that is to do what 
whatever needs to be done to provide the proper training for 
our troops for whatever their mission might be and to be ready 
to perform that mission; and, also, to guarantee that they have 
whatever tools, whatever weapons, whatever technology that they 
need to carry out that mission; and third, and very important, 
was whatever was necessary to protect our soldiers as they go 
about their mission. And I am not really satisfied with where 
we are in protecting our soldiers.

                      General Dempsey's Statement

    And I can tell you that I was very impressed, and I wanted 
to read this just briefly for the Members that might not have 
seen it, with--the Chairman of the Joint Chiefs of Staff made a 
very telling statement last week when he was in the region. And 
General Dempsey was quoted as saying, talking about the problem 
of our soldiers being attacked in Afghanistan, he said, ``You 
can't whitewash it. We can't convince ourselves that we just 
have to work harder to get through it. Something has to 
change.'' I think that it was a very courageous statement for 
someone in his position to make, and I certainly agree with 
that.
    He also said, ``We are all seized with the insider attack 
problem,'' meaning the Afghanis that we are training who are 
turning on us and murdering our soldiers. Dempsey said, again, 
you can't whitewash it. We can't convince ourselves that we 
just have to work harder to get through it. Something has to 
change.
    So you are really responsible, sir, your organization, to 
help take care of part three of the commitment that I have had, 
that Mr. Dicks has had, that all the members of this 
subcommittee have had, and that is to protect our troops.
    So I want to give Mr. Dicks a chance to make an opening 
statement here and then would like to hear whatever you want to 
tell us about your feelings on this and where we are going with 
JIEDDO and what we need to be doing to help you provide 
security for our soldiers, which is a priority to this chairman 
and to the members of this subcommittee.
    Mr. Dicks.

                          Remarks of Mr. Dicks

    Mr. Dicks. Thank you, Mr. Chairman. I want to second your 
welcome to our witness, General Barbero, and thank him for the 
important work his office performs.
    Our servicemembers who are deployed in Afghanistan and who 
were deployed in Iraq are no strangers to the improvised 
explosive device, also known as IEDs. This weapon of choice for 
insurgents and terrorist organizations creates havoc and draws 
much attention to the carnage it leaves behind.
    Some reports indicate that undetected roadside bombs have 
caused over 75 percent of the casualties to coalition forces in 
Afghanistan. The effects of these casualties have been far-
reaching, leaving our troops without limbs, with traumatic 
brain injuries and horrific memories of their combat 
experiences.
    Last November, members of our subcommittee traveled to 
Afghanistan and learned that the ISAF forces are finding, 
detecting 60 to 70 percent of the IEDs that are deployed by the 
enemy. Advances in training, intelligence, and equipment 
championed by JIEDDO have diminished the effectiveness of this 
weapon.

                          HOMEMADE EXPLOSIVES

    However, in recent years, commercially produced calcium 
ammonium nitrate fertilizer from Pakistan has become a primary 
component in the production of IEDs. Our efforts to find and 
track these materials have been like finding a needle in a 
haystack since 1 percent of the fertilizer produced makes its 
way to the insurgents. This development has allowed a 
continuing flow of IED materials into Afghanistan despite our 
efforts to the contrary. It is frustrating to know the source 
and yet not stop the flow of this deadly material.
    We strongly support your efforts to defeat the enemy and 
stop as much as possible the use of IEDs. However, the threat 
is still on the roads and in the villages that our troops 
patrol every day. We look forward to your testimony on your 
efforts and the challenges that still exist with the 
insurgents' weapon of choice.
    Thank you, Mr. Chairman.
    Mr. Young. Mr. Dicks, thank you very much.
    Mr. Young. General, we do have some interesting questions 
for you, but we would like to hear from you at this point. And 
you know our concerns, and I think you understand our 
commitment. No matter where we stand with General Dempsey or 
Chairman Young on the feelings about our relationship in 
Afghanistan, this Committee will commit, will always provide 
whatever is needed for our soldiers at whatever mission that 
they are on.
    Now, we do not try to substitute our judgment for those of 
military commanders in the field. Sometimes we do have some 
strong opinions on the overall mission, which you know that I 
have discussed with you and others about my feeling, and we 
will get into that later.
    But we would like to hear your statement now, sir, please.

                  Summary Statement of General Barbero

    General Barbero. Thank you, Chairman Young, Ranking Member 
Dicks, and distinguished members of the subcommittee. Thank you 
for the opportunity to update you this morning on the 
Department of Defense's efforts to counter the IED and to 
disrupt the global threat networks that employ them.
    I have prepared a written statement which I like to submit 
for the record.
    First, let me begin by commenting on the retirement of 
Congressman Dicks.
    Congressman, thank you for your service and your support to 
our troopers and our military.
    And to Congressman Lewis and Congressman Hinchey, thank 
you, as well. You have been great champions for our Armed 
Forces throughout your careers, and for that we are very 
grateful.
    Up front, Mr. Chairman, I would like to say I share your 
concerns, and we try to live the commitment that you talked 
about. And hopefully I can answer your questions today.
    But I would also like to thank you, Mr. Chairman, for your 
leadership, and the entire subcommittee for recognizing the 
importance of the counter-IED mission and resourcing it 
accordingly. The funding support you provide has enabled the 
Department of Defense to rapidly field critical counter-IED 
capabilities that our warfighters need to execute their 
mission.
    We still need to do more. And let me say up front that I 
believe the IED and the networks that use these asymmetric 
weapons will remain a threat to our forces and here at home for 
decades. The IED is the weapon of choice for threat networks 
because they are cheap, readily available, largely off-the-
shelf, easy to construct, lethal, and accurate.

                       PROGRESS IN DEFEATING IEDS

    This trend is readily apparent in Afghanistan, as you 
highlighted, where IED events continue to rise. In the past 2 
years, IED events have increased 42 percent, from 9,300 events 
in 2009 to 16,000 events in 2011. And this year we are on track 
for 2012 to meet or exceed the historic number of IED events we 
saw last year. As a matter of fact, this past June, June 2012, 
we had the highest number of monthly IED events we have 
recorded.

                          HOMEMADE EXPLOSIVES

    Contributing to these numbers, as Ranking Member Dicks 
mentioned, are the fertilizer explosives, which remain a 
significant challenge in Afghanistan. Today, 87 percent of the 
IEDs employed against coalition forces are made with homemade 
explosives. And of those, 74 percent are made with ammonium 
nitrate derived from calcium ammonium nitrate, a common 
agricultural fertilizer that is ubiquitous in the area.
    While the overall number of IED events is high, as you 
mentioned, our ability to find and neutralize them before 
detonation has improved steadily, helping to reduce U.S. 
casualties by more than 40 percent this past year.
    Now, many factors have contributed to the decreased 
effectiveness of IEDs in Afghanistan, including: our attempts 
to apply the lessons learned in-theater to our predeployment 
training; fielding the increased number of counter-IED 
capabilities, everything from airborne sensors to handheld 
devices, especially focused on our dismounted troopers; and 
commanders and troopers on the ground continuously refining 
their tactics, techniques, and procedures tailored to the 
threat they face in their region.

                IED ATTACKS DURING AFGHANISTAN DRAWDOWN

    As we begin to transition combat operations in Afghanistan 
and look to 2014, we must not lose our focus on the mission at 
hand. U.S. forces and civilian personnel will remain the target 
of insurgent IED attacks, and the IED will remain the weapon of 
choice. From our experience in Iraq, the reduction of U.S. 
forces must not equal a reduction in counter-IED or other 
critical capabilities.
    As the military footprint in Afghanistan decreases, this 
drawdown and transition will require flexibility to shift 
priorities rapidly, providing the requisite counter-IED 
capabilities, situational awareness, and security and 
protection for these remaining troops.
    While the IED has been the focal point of combat operations 
in Afghanistan and Iraq during the last decade, it is not 
exclusive to those countries or region. The global spread of 
threat networks and proliferation of IEDs and associated 
technology are pervasive and continue to affect U.S. security 
at home and interests abroad.
    Since 2007, IED incidents outside of Iraq and Afghanistan 
have increased to average more than 500 incidents per month 
around the globe. Since January 2011, there have been more than 
10,000 global IED events, occurring in 112 countries, executed 
by more than 40 regional and transnational threat networks.
    The extremist networks that employ the IEDs have proven to 
be resilient, interconnected, and extremely violent. 
Globalization, the Internet, and social media have extended the 
reach of these organizations, providing platforms for 
recruiting, technical exchanges, training, planning, funding, 
and social interaction.
    While we in the military adhere to Napoleon's dictum to 
march to the sound of the guns, these threat networks march to 
the signs of insecurity and take the IED with them. We see this 
in Colombia, Pakistan, Syria, Bahrain, Nigeria, and Somalia, 
among others. Wherever we see turmoil and insecurity, we see 
the spread of these networks and their use of the IEDs.
    Today, as we see in Afghanistan, and in the future, I 
believe U.S. forces will operate in an IED environment. I 
believe it is the reality of the 21st-century warfare, and we 
must plan accordingly.

                   ENDURING COUNTER IED CAPABILITIES

    Currently, the Department, led by Deputy Secretary Carter, 
is in the process of reviewing the number of proven 
capabilities that we have developed over the last 10 years 
during the course of these conflicts to determine which ones 
should endure. And as part of these, I have recommended five 
counter-IED capabilities which I believe should be 
institutionalized.
    The first: We must preserve the ability to rapidly provide 
counter-IED materiel solutions in response to this dynamic 
threat. The constantly changing threat environment requires the 
Department of Defense to maintain a higher level of 
institutional acquisition agility and continued investment in 
counter-IED R&D. Moving forward, DOD must acquire and deliver 
capabilities in months, not years.
    The second enduring capability is the ability to fuse 
operational information and intelligence from all sources to 
produce actionable intelligence for our commanders, delivering 
analytical products that meet the needs of both our operational 
commanders and our domestic security partners. This is 
accomplished through a robust and powerful network of partners 
with whom analytical tools, methodologies, and, most 
importantly, information and intelligence can be shared to 
identify and then exploit the vulnerabilities of these global 
networks. The speed at which our enemies operate requires us to 
operate just as fast and be just as networked.
    Third, counter-IED training, as you mentioned, must endure 
and be permanently integrated into our service and training 
institutions and centers. This is not a passing phenomenon. As 
we have learned in Iraq and Afghanistan, we can provide the 
best counter-IED capabilities and tools to the warfighters, but 
without the timely and relevant training component, the full 
capacity of equipment and tactics will never be realized. 
Moving forward, we must train to conduct operations in an IED 
environment which includes an agile networked enemy.
    The fourth enduring capability is our ability to conduct 
timely and relevant collection, analysis, and technical 
forensic exploitation of these devices and identify emerging 
IED technologies. This is done through a process we call 
weapons technical intelligence, referred to as WTI. And we are 
very closely partnered in with FBI on this.
    During the past 8 years, JIEDDO, the military services, 
U.S. interagency, and our multinational partners have developed 
a highly effective WTI process to derive forensic evidence--
fingerprints, DNA, and biometrics--from these devices that we 
have recovered on the battlefield in order to identify 
personnel and then target them. Our tactical commanders in 
Afghanistan increasingly focus operations to collect biometrics 
and forensic data, and several have referred to this capability 
as a ``game-changer.''
    WTI removes a violent extremist's greatest defense, 
anonymity, and makes them vulnerable to attribution, which is 
why the WTI capability must endure.
    Fifth and finally, the enduring global IED threat requires 
a whole-of-governments approach. As we move forward, we must 
continue to synchronize our counter-threat network capabilities 
among our domestic, international, and other security partners. 
It is not a military mission alone. And today we are working 
with an expanded interagency group to identify the 
vulnerabilities and target some of these networks that we have 
talked about that are moving these materials into Afghanistan.
    Maintaining this momentum against an adaptive threat 
requires the continued focus of the intelligence community, 
however, in order to focus on these networks to provide us a 
common intelligence picture that we can target.
    We will continue to face an ever-present threat from an 
overlapping consortium of networks employing IEDs as a weapon 
of choice. We have to continue to pursue this whole-of-
governments approach, knitting together all the tools we have 
at our disposal in order to nonkinetically attack these 
networks, including their finances.
    These five recommended enduring counter-IED capabilities 
are integrated into the Department's process being led, as I 
said, by Deputy Secretary Carter. With his leadership, I am 
confident we are on the right track to institutionalize these 
capabilities, but much work remains to be done.
    In closing, the IED and the networks that employ these 
weapons are here to stay, operationally and here at home. As we 
have done from previous conflicts, we must account for this 
enduring threat and retain the hard-earned capabilities. It is 
our responsibility to learn and adapt our institutions 
accordingly.
    But I would like to leave you with one final thought. I 
understand the toll that these weapons have taken on our 
troopers and their families--the deaths, the terrible life-
changing injuries. I see this. And I promise you we are 
committed to providing every possible capability we can to 
protect our troops into 2014 and beyond. This is my mission.
    Chairman Young, Ranking Member Dicks, members of the 
subcommittee, again, thank you for the opportunity to appear 
before you today. Thank you for your support. And I now look 
forward to your questions.
    Mr. Young. General, thank you very much, sir.
    [The biography and statement of General Barbers follows:] 

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                             IED LETHALITY

    Mr. Young. You have, in a few minutes, said a lot. And what 
you are telling me is that this problem is not going to go away 
anytime soon. But you are telling me and telling the committee 
that you are prepared to bring together all of the structure 
that is needed to provide technology designs, training, and I 
applaud you for that.
    And I want to tell you that this is really important. The 
IED toll that you mentioned, the numbers that you have 
presented here today are just really disturbing, how the IED 
attacks are growing. And I know that personally. I have been to 
Afghanistan, as have all the members of this subcommittee.
    But I will tell you, General, I have really learned more 
about what is happening with the soldiers by visits to Walter 
Reed in Bethesda. Now, my wife is sitting over there on the 
corner. She is weekly, at least once a week, at the hospitals 
to not only visit with the wounded soldiers, who are getting 
really good care--and if you ask them, they will say, yes, that 
their care, medical care, is good. And I really applaud our 
medical corps, Army and Navy. But some of the families need 
help, and that is where Beverly comes in.
    But some of the stories that we hear, you know, when you 
ask, well, what do you need? Do you have everything you needed? 
And they tell us, yeah, I have all I needed. But almost every 
one will say, what we need is a change in the rules of 
engagement.

                          RULES OF ENGAGEMENT

    Now, I don't know if you could have any influence in 
changing the rules of engagement. I am not sure that that falls 
within your charter. But I think what they are concerned about 
is, and I will just try to paraphrase it, that if they do 
something that might be a little aggressive or that might 
appear to be beyond what their stated rules of engagement are, 
the President of the country that we are trying to help becomes 
their super-critic, demanding that they be punished. And I just 
don't think that is right.

                   AFGHANS ATTACK ON U.S. AND ALLIES

    You know, you can't have an ally part-time. You either have 
an ally or you don't. And I have come to the conclusion, after 
working on this issue for quite some time, that our part-time 
ally is not really our ally. And the stories of the Afghanis 
that we are training turning on us and killing and murdering--
and murdering in their sleep our soldiers. And that is not a 
JIEDDO issue, but it is still an issue of supporting the 
troops.
    But we had talked about a letter that I had received from a 
soldier, and you said you had not seen the letter. I had 
distributed it pretty widely through the Pentagon. But I have a 
copy for you. And I have taken out some of the personal 
information. I have taken out dates and locations because I 
know that that should not be revealed.
    And I think you know about the case.
    General Barbero. Yes, sir.

                      LETTER FROM A STAFF SERGEANT

    Mr. Young. You can read it at your leisure.
    But when I got this letter, I had heard similar stories 
from other wounded warriors at the hospitals. So I doubled back 
and talked to some of those that I could still have contact 
with, and I hear the same story, pretty much, of what you will 
read in this letter. So it convinced me that there is something 
really needed to be done about this.
    I took this letter, and I talked to leaders at the 
Pentagon. And I sent a very detailed letter, including a copy 
of this letter, to the Pentagon. That didn't really get any 
kind of a response.
    And so the next conversation that I had with the leader of 
the Army was to notify him that the soldier that had written 
this letter prophesying what was going to happen happened, and 
he and his platoon sergeant were blown up with a single IED.
    There is something wrong with that, when the soldiers can 
see the problems--and this is a seasoned soldier. He has been 
there before. And the folks that I have talked to--and a couple 
of them are still at the hospital, by the way--you get the same 
story. Now, when you get the same story over and over again, it 
tends to bother you.

                   COUNTER IED EQUIPMENT MAINTENANCE

    And the issue of the IEDs where, if a troop is told to go 
into a field or an area that is known to be full of IEDs, there 
has to be some way to give them some protection. And I know 
that you have a number of ways to do that. And I know that you 
have, with the Strykers for example, you have the mine rollers. 
But my information provided to me is that if a Stryker gets 
blown up, the mine roller gets destroyed, the Stryker is 
parked, and it is not repaired. There is no new mine roller put 
on there, so the troops are put on foot patrol.
    This committee is prepared to provide as many mine rollers 
as those Strykers need. We should not take the kids out of the 
Strykers--and I apologize for calling them kids, because what 
they are going through, they are not kids. That Stryker should 
be repaired so that that IED protection of the mine roller can 
be redeployed and so the soldier doesn't have to go on foot in 
a minefield that we know is full of mines.

                     IED DETECTION AND DESTRUCTION

    Now, that is a long lead-up to a question. If you know the 
minefield is full of mines, what can you do? What can you, the 
soldiers do? What do you train the soldiers to do, especially 
if you know that the field is full of mines?
    General Barbero. Uh-huh. Well, Chairman, first of all, I 
will talk about detection in a minute and what we do to protect 
our troopers.
    But if I could, I am familiar with the incident with 
Sergeant Sitton and studied it early August when it occurred. 
And it was troubling, as they all are. And, you know, I spoke 
in my comments about progress we are making. And I understand, 
to some kid at Bethesda or some family in Florida or Washington 
State or Texas or California, that is not progress. They don't 
want to hear about progress. And I understand that. So, you 
know, I start every day looking at, what were the casualties, 
what were the lessons learned, and, more importantly, what can 
we do about it?
    And to take Sergeant Sitton's example, he was killed on 
dismounted operations. And we have focused on the dismounted 
trooper because of the terrible nature of their injuries, the 
amputations. And we have taken steps over the last 15 months to 
field a wide variety of 8,000 handheld detectors, protective 
undergarments, a greater number of sensors and such.
    But it is an IED battlefield. A commander said to me, ``It 
is not a case of encountering IEDs on the battlefield. The IED 
is the battlefield. That is their weapon. And it is combat.''
    Now, can we do better at detecting where these are? We can, 
and we are trying. But the enemy, as I said in my comments, is 
adaptive and smart. They watch us. They know we have handheld 
detectors, so they have gone to nonmetallic IEDs. The pressure 
plates--and, in this case, we think the pressure plate was 
wooden. And what they do is they take carbon rods from D cell 
batteries, which do not have a very high metallic content but 
they have enough to complete the circuit when they are touched, 
and two pieces of wood, a plastic jug filled with homemade 
explosives, ammonium nitrate, bury it with a battery underneath 
so we can't pick that up, and that is what they use. So it is a 
thinking enemy that is watching us and observing.
    And our detection rates and found and cleared rates have 
improved as we have adjusted in this arms race of trying to 
find and detect and clear these IEDs. We are not going to find 
every one of them. They are going to continue to adapt.
    As far as your question about the (Rules of Engagment) ROE, 
you know, my job is to provide the tools that answer our 
commanders' requirements and support them with whatever they 
need, whatever our troopers tell us or our commanders tell us. 
So I can't really comment on rules of engagement because I am 
not there and I have not served in Afghanistan.
    But we have taken steps to protect especially our 
dismounted troopers, our most vulnerable ones. But, Chairman, 
we could outfit these soldiers like medieval knights and if 
they step on one of those weapons, this weapon is effectively 
employed by a thinking enemy, it is going to have effects. And 
I would be untruthful if I told you something different. There 
is no silver bullet in this fight.
    But we are working as hard as we can. And I can give you a 
list of all the equipment that has been fielded to our 
commanders, from handheld devices, dogs, sensors, and 
undergarments, that have had some effect. But, as I said, to 
folks who have loved ones deployed, this is not progress, and 
we realize that. We have to do better.
    Mr. Young. Well, General, thank you for that offer, and we 
would like to have a list of that for our hearing records.
    [The information follows:]

    The list provided contained classified information.

    Mr. Young. And I have a lot more to talk with you about, 
but the other Members have interest in this issue. And I want 
to yield to Mr. Dicks, who, by the way, it will possibly be his 
last hearing with this subcommittee.
    Mr. Dicks. Oh, we may have another one, Mr. Chairman, 
before----
    Mr. Young. Well, maybe we can have a couple more just to 
keep you busy.
    Mr. Dicks. Yeah, keep us busy.
    Mr. Young. Mr. Dicks has been an outstanding Member of this 
Congress and of this subcommittee. And his chairmanship was a 
good chairmanship. It was short-lived, but it was a good 
chairmanship, and he did outstanding work. And the Congress 
will miss him, this Committee will miss him, and I personally 
will miss him because we have worked together for 35 years on 
all of these important issues.
    I yield to Mr. Dicks.

                      FERTILIZER BASED EXPLOSIVES

    Mr. Dicks. Thank you, Mr. Chairman.
    And I certainly understand and appreciate your concern. All 
of us are concerned.
    The one issue that just troubles me is the fertilizer that 
keeps coming in from Pakistan, and somehow we don't seem to be 
able to do anything about it. Now, that is something, General, 
we know about, and yet it still exists.
    I know it is a small amount of what is produced in 
Pakistan, but we know it is coming in across the border. I 
mean, this is--and we choose not to do anything about it. I 
mean, we talk to the Pakistanis until we are blue in the face, 
and yet it still comes in.
    What do you have to say about that?
    General Barbero. Early in----
    Mr. Dicks. I mean, all the little committees here in 
Washington--but the reality is, that stuff is still coming 
across the border every day, and we know it.
    General Barbero. Congressman, I agree 100 percent. And 
early in my--when I first arrived on the job, I looked at the 
situation, and my assessment was that in Afghanistan we are 
playing defense. We are sweeping historic amounts of this 
calcium ammonium nitrate off the battlefield, tons, up 100 
percent this year, and yet the number of IED are at historic 
highs.
    You know, when an insurgent can buy a bag of fertilizer, 
about 110 pounds, for $31, boil it with a little propane, add 
an accelerant to it----
    Mr. Dicks. Where do they buy it?
    General Barbero. It is smuggled across. Hundreds of 
crossing sites. We, as I said, capture what we can, detect what 
we can. And they----
    Mr. Dicks. Do you think we are doing enough on that issue? 
I mean, do you think we are--I mean, if it continues to exist 
week after week, month after month, it is very discouraging.
    General Barbero. It is. And I have been to Pakistan twice 
to engage the civil leadership and the military leadership 
about this. And the Pakistanis have a significant problem with 
these networks and devices also. There were eight Pakistani 
civilians killed today with an IED aimed at their military, 
which it was--it misfired.
    And our message to the Pakistanis has been on two issues: 
``We will help you with your problem, with your IEDs, but you 
have got to do something about this free flow of calcium 
ammonium nitrate that is coming into Afghanistan. Here are the 
effects we are seeing.''
    And we must continue to press them. They must take action, 
and I think they can do more. I can and I would like to, in 
another setting--I can't discuss it now--talk about some of the 
actions we are taking against these networks that we know are 
moving this material and the funding behind them. I just can't 
talk about it here.
    But I share your concern. It is a priority for us. And this 
interagency task force we have put together with Treasury, 
Commerce, et cetera, is totally focused on this. And to date--
--
    Mr. Dicks. Well, Mr. Chairman, I hope we can have a secure 
setting, if not today, you know, after the election, to go into 
this, or even have a briefing for the Members who are going to 
be here.
    Mr. Young. Yeah, well, why don't you yield?
    The General and I talked about this yesterday, recognizing 
there will be some areas that can't be discussed in an open 
hearing. And I agree and he agrees that we should have----
    Mr. Dicks. We could do it tomorrow, as far as I am 
concerned.
    General Barbero. Absolutely.
    Mr. Young. Well, we will see.
    Mr. Dicks. All right. At least at some point, I think we 
need, to do our job, we need to do what is being done and what 
the problems are.
    Mr. Young. Good suggestion. Thank you.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Young. Mr. Lewis.

                   IMPROVED IED DETECTION TECHNOLOGY

    Mr. Lewis. Thank you, Mr. Chairman.
    General Barbero, it was on Monday that I was last at the 
Walter Reed Bethesda. The young soldier in front of me who lost 
his leg just below the knee, that exposure for us tells the 
entire story.
    I would like to have you share with the Committee that 
which you can share about improved technology to detect exactly 
where this material is flowing and what actions we can take to 
stop those flows. I am interested in questions like whether the 
surveillance available by way of the Predator, for example, is 
improving our circumstance. Sixteen thousand events in 2011 
will tell you that, clearly, we are not on top of the entire 
picture, that we can do more.
    So tell the committee, if you will, how that technology is 
working and how we can help you.
    General Barbero. Certainly, Congressman.
    First, let me describe it as I see it in two fights. There 
is the mounted fight and the dismounted fight, because 
different weapons, different variants of the IED are used in 
each, and it requires different technologies and equipment for 
each.
    First in the mounted fight, we see this primarily using 
command wires, like we saw in Iraq, where there is an insurgent 
at the end of the wire and when he sees the vehicle approach at 
the right point he will touch a button, complete the circuit. 
And we see increased explosive weights. They are packing more 
explosives as a counter to our improved armor.
    In reaction to this, we fielded everything from additional 
airborne sensors--which I can talk about their capabilities, or 
provide it for the record, in a classified forum--and we are 
pursuing two additional ones. We have received a request from 
theater for two additional systems, called Copperhead, which 
have proven very effective, as they were in Iraq, for this 
operation; and also these handheld devices.
    The best technique is, when you approach a spot where we 
think there are IEDs or indications tell us there are some or a 
pattern from the past tells us there are, you dismount to clear 
them or you use a mine roller. One of the technologies in the 
last 2 years, my organization has spent $269.5 million on mine 
rollers, repair parts, technicians to repair them. So we will 
look into this report that is very troubling.
    So for the mounted troopers, it is everything from airborne 
sensors, handheld devices, mine rollers, and improved training 
at Fort Irwin, for example.
    For the dismounted troopers, first it is about, how can we 
best protect them? And last year we were informed about these 
undergarments, these pelvic protection undergarments. And in 4 
months we fielded 210,000 sets for about $19 million. That is 
what we get paid to do. The reports are that if our troopers 
are wearing them--and they all are now--that there is a 40 
percent reduction in severe injuries to the area if they are 
wearing these.
    So our technology supports to dismounted includes what we 
can do to protect them, which is limited, to increased handheld 
devices and also some airborne sensors.

                                TRAINING

    But I would tell you, for both of these, one of the things 
over the last year we have greatly invested in is training. Our 
troopers tell us, hey, sir, this is great equipment, but I 
don't see it until I get to Afghanistan. Handheld devices, how 
do I integrate all these sensors? How do I operate a ground-
penetrating radar screen and know what to look for?
    So, over the last 18 months, we have purchased 75 sets of 
equipment, and they are fielded out to Fort Campbell, Kentucky, 
the home of the 101 Air Assault Division, to Camp Lejeune, and 
also at our big training centers. And then we have a refresher 
training when they get in-theater.
    So before a trooper goes out on operation, he has seen the 
equipment in his home station and is allowed to operate it, he 
has seen it at these big training exercises where he gets to 
integrate it in a very stressful environment, and then he sees 
it another time on some training lanes when he arrives in 
Kandahar or Camp Leatherneck or other places.
    So training is a nonmateriel factor which I think is 
contributing to what we are seeing.
    Mr. Lewis. General, I think by your comments you know that 
NTC Fort Irwin is in our territory. Is that kind of training 
taking place there, the undergarment sort of training in the 
field?
    General Barbero. Absolutely. The commander at Fort Irwin is 
my deputy for training. And not only is it taking place there, 
it is taking place at Twentynine Palms, at the Marine Corps 
training at Fort Polk, Louisiana, the Joint Readiness Training 
Center, where there are other Army units training.

                            LESSONS LEARNED

    And we take lessons learned from the field. When a brigade 
deploys, within its first 90 days we have a VTC with them, and 
Fort Irwin and the Marines and the whole community is on there. 
And we say, what did you learn in training? What can we do 
better? And from those VTCs, we take those actions and put them 
into training.
    I will give you an example, Congressman, recently. As we 
looked at the mounted threat, we noticed that the enemy was 
taking culverts and underpasses and packing them with 
explosives at the end of a command wire, the large amounts of 
explosives they can pack in there. So we heard that in an AAR, 
so we did two things. We said, okay, Fort Irwin and the rest of 
the training centers, you have got to replicate this threat and 
train our forces on it. And then we looked at a solution and 
then fielded hundreds of barrier devices with sensors that will 
hopefully keep our insurgents from getting in there.
    But, to answer your question, our training centers are 
fully linked in on this, and we are updating them as we take 
these lessons learned from individual incidents.

                         PAKISTANI COOPERATION

    Mr. Lewis. Briefly responding to the chairman's inquiry, do 
we have any kind of reliable partnership with the Pakistani 
military leadership relative to identifying the sources of this 
kind of activity?
    General Barbero. I have been to Pakistan twice and met with 
the military. We have a framework for cooperation on this area. 
We press them hard. I think when they hear it from 
congressional delegations, the State Department, and DoD, it 
has an effect.
    I will tell you that we have talked a lot about 
cooperation; we have not seen cooperation yet.
    Mr. Lewis. Thank you.
    Mr. Young. Thank you, Mr. Lewis.
    Mr. Frelinghuysen.

                            CHAIN OF COMMAND

    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    General, thank you for your distinguished career since West 
Point.
    I want to get back to the chairman's letter here. Now, we 
have a chain of command here, these units. And, obviously, we 
are respectful of what is on the battlefield, the weapon of 
choice.
    So if a soldier brings something to his superior's 
attention that obviously involves his safety or her safety and 
the people in that unit, what has happened in this situation? 
What have you found through your investigation here?
    General Barbero. Well, I have not investigated the chain of 
command. We look at the incidents and try to learn from them--
--

                      COUNTER IED EQUIPMENT POLICY

    Mr. Frelinghuysen. Well, no, I am sort of drilling down 
here of the policy issue here. We are providing resources here, 
but obviously we are talking about human beings. And if 
soldiers have an issue about--you know, if all of the equipment 
has been destroyed, someone might say, well, it might be 
difficult to get some in here, or maybe the budget has run dry, 
there are none, you know, in the area that can replace it, 
soldiers have to go out on patrol. Is that the policy?
    General Barbero. Uh-huh.
    Mr. Frelinghuysen. But, more importantly, in this instance, 
with this situation, how did the chain of command work? And was 
anybody out there listening?
    General Barbero. I----
    Mr. Frelinghuysen. I assume we have had some time to look 
into this matter?
    General Barbero. I can tell you a couple facts and then 
tell you what I don't know.
    Fourth Brigade, 82nd is in the Zharay province--a very, 
very tough area. And I visited briefly with them in July, 
talked to the brigade commander. And since that time, we have 
had a video after-action review with them on lessons learned 
and things we can do better. That commander is very open when 
he needs something or if something hasn't worked.
    I have not studied the letter. I have reviewed the 
incident, but I have not studied the letter or the comments in 
here, and so I can't comment on that.
    Mr. Frelinghuysen. This is a more personal hearing than 
many of the hearings we have here.
    General Barbero. Right. Right.
    Mr. Frelinghuysen. But just run me through the process 
here. Obviously, soldiers obey the command of their superior 
officers. And if equipment is destroyed, you know, and there is 
no replacement, people have to go on foot, right, with all the 
other devices you refer to here? Is that the policy?
    And is there an issue here in this area where there was no 
other equipment available?
    General Barbero. I don't know what the specific policy is, 
but I have never heard a commander say, "Listen, we don't have 
this equipment, but I want you to go out there anyway." I know 
this commander, in particular, has told me, and I even walked 
the patrols, that he will not send out a patrol unless it has 
the following equipment.
    And I am not sure--if there was a breakdown--obviously, 
Sergeant Sitton felt there were--and where that breakdown may 
have fell, I can't answer that, but----
    Mr. Frelinghuysen. Well, this is a--obviously, some letters 
have gone back and forth here, and, obviously, this is 
particularly horrific. Of course, all of us as Members have 
constituents. God forbid, many have died, but many have double 
amputees. And I have to be quite blunt. I haven't been good 
enough to question them, in some cases, the way that perhaps--
the underpinnings of this discussion. But I do think there is a 
policy issue here.

                     PLACING MARKERS IN FERTILIZER

    And on another issue, I think this is in the public arena, 
relative to the ranking member's comments, I thought Members of 
Congress were interested in putting some markers in some of 
this material that has been produced down there. And, quite 
honestly, the response from the bureaucracy was pretty lame. 
Where do we stand relative to that issue?
    General Barbero. Congressman, this has to deal with the 
fertilizer, and I would like to take that on in a different 
session, if I could. I think we will get into some classified 
information.
    Mr. Frelinghuysen. Okay.
    General Barbero. But we have asked four things: So the 
fertilizer industry writ large, we have engaged them and also, 
obviously, the Pakistani fertilizer issue, is first dye this 
stuff, put a dye in it, so a border guard on the Pakistan 
border who can't read can----
    Mr. Frelinghuysen. So you are actually answering my 
question even though----
    General Barbero. Well, I will tell you the four things that 
are open. We proposed this.
    The first step is dye. Change the color. Right now it is 
this nondescript white; it is easily repackaged. And we have 
seen this as detergent and other materials. And if you have an 
illiterate border guard on the Pakistan-Afghanistan border, it 
is hard to detect when it has been repackaged.
    The second thing is for the fertilizer industry, they need 
to reformulate this. Ammonium nitrate, in its pure form, 
existed until Northern Ireland----
    Mr. Frelinghuysen. General, this Committee has been talking 
about this for 4 years.
    General Barbero. Uh-huh.
    Mr. Frelinghuysen. You know, I hope we can make some 
progress. On the policy issue, it would be good if you could 
provide some clarification as to what it is.
    General Barbero. Okay. I will.
    Mr. Frelinghuysen. We would appreciate it.
    General Barbero. In another session, I can describe in 
detail our conversations of this specific problem.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Mr. Young. We will work with the General to schedule a 
classified version because I understand the reason why we can't 
discuss all of the technologies today and some of the tactics.
    But I wanted to add to what Mr. Frelinghuysen said when he 
was talking about the chain of command. And I told you that 
after getting Sitton's letter that I doubled back with some 
other soldiers who had told me similar stories to what Matt 
Sitton told me. And one of those, by the way, was a 
commissioned officer; they were not just enlisted personnel. It 
was a commissioned officer who suffered from this same exposure 
from the same area.
    So I wanted to make sure that you knew it wasn't just the 
soldier walking in the field, in the minefield. It was a 
commissioned officer that confirmed what Sergeant Sitton said.
    Mr. Visclosky.

          FUNDING THE EQUIPPING AND TRAINING OF AFGHAN FORCES

    Mr. Visclosky. Thank you, Mr. Chairman.
    General, thank you very much.
    Regarding the IED equipment--and if you have commented 
earlier, because I apologize, I was late--could you talk about 
the training and equipping of the Afghan forces and how that is 
proceeding? Because it appears you have to be trained up, and, 
even given that, there are very serious dangers here.
    General Barbero. My responsibility and my funding is 
authorized to support our combatant commanders in support of 
U.S. forces. I cannot use any of my funding for equipping or 
even training the Afghan forces. ISAF and the NATO training 
command there has a different fund to do that.
    Mr. Visclosky. Okay. Are they being trained?
    General Barbero. They are being trained.
    Mr. Visclosky. Who trains them?
    General Barbero. NATO forces at the institutions, and then 
when they operate----
    Mr. Visclosky. That would be in-country?
    General Barbero. That would be in-country, absolutely.
    Mr. Visclosky. And who does pay for that?
    General Barbero. Well, I can explain, give you an example. 
My last job before this, I had the training command in Iraq. 
And we had a separate pot of money called ISSF, and in 
Afghanistan I think it is called ASSF--funding to use to 
provide training, equipping of these security forces. And that 
fund is what is used to do that.
    They are being trained in-country in EOD, route clearance, 
basic counter-IED. And the equipping is being procured to allow 
them to do that.
    Mr. Visclosky. It is not coming out of your pot, and you 
are not responsible for it.
    If I could ask the chair or staff, are we responsible for 
that pot of money and it is simply a different agency under our 
jurisdiction? Do we know? Where is that money coming from? Do 
we know?
    General Barbero. It is OCO.

                      PERFORMANCE OF AFGHAN FORCES

    Mr. Visclosky. Okay.
    Do you have an impression as to how this is working and, 
subsequently, whether the Afghans will have money to, you know, 
do this on their own?
    General Barbero. Well, two points, Congressman.
    First of all, Secretary Carter has brought us all together 
and said, our priorities are to see what we can do to 
accelerate their capabilities. And so he has taken this on. He 
has said there are very few higher priorities than to build 
these capabilities for the Afghan forces. So it is a priority 
for him and for the Department to support the training command 
in Afghanistan to do this.
    When I talk to our U.S. commanders about equipping and 
training and what they need and when I was there in July, they 
comment that when--and the statistics prove this--that when 
they operate with Afghan forces, their found and cleared rates 
go up. Because the Afghans are very, as you would imagine, just 
like it was in Iraq, they know what to look for, they know what 
doesn't look right. When they walk into a village to talk to 
people, they will be more forthcoming than they are with our 
forces. So they are effective at this.
    I will also tell you that they are increasingly being 
targeted. Statistics also show us, as they get out there more 
often and they are in the lead and especially effective in 
these counter-IED operations, they are being targeted more by 
IEDs.
    But beyond how capable they are, I would take that for the 
record and get you something from the folks in-theater.
    [The information follows:]

    The Joint Improvised Explosive Device Defeat Organization (JIEDDO) 
has supported Train the Trainer efforts in support of Afghanistan 
National Security Forces (ANSF) by assisting Combined Joint Task Force 
(CJTF) Paladin supporting the National Training Mission-Afghanistan 
(NTM-A). For example, JIEDDO facilitated contracting of 29 counter-
improvised explosive device (C-IED) trainers for CJTF Paladin by 
assisting with the writing the Statement of Work and providing subject 
matter expertise on what the contractor should accomplish in this 
training. These C-IED trainers will provide training to the ANSF on 
handheld equipment, site exploitation, explosive hazard reduction, and 
C-TED awareness.
    JIEDDO has offered to facilitate NTM-A's efforts to translate the 
C-IED training materials into Dari and Pashtun, but at this time we 
have no formal request for this assistance.
    JIEDDO is not in any position to evaluate ANSF's C-IED capabilities 
directly, as that is the mission of NTM-A.

    Mr. Visclosky. Thank you.
    Thank you, Mr. Chairman.
    Mr. Young. Mr. Crenshaw.

                         TRAINING THE AFGHANIS

    Mr. Crenshaw. Thank you, Mr. Chairman.
    Along the lines of training the Afghanis, let me ask you 
about that in the context of the green-on-blue situations that 
we are reading more and more about. And I know we have limited 
the number of those joint efforts. And I am sure that General 
Allen would say every time you got one of those situations you 
have a lot of positive interaction that takes place.
    But my question is, when we talk about training the 
Afghanis in terms of counter-IED, is there any concern at all 
on our part that, as we train in terms of counter-IED, that 
some of that information becomes a blueprint for those green-
on-blue situations, where we are basically telling them what we 
do, we are training them not only in a positive way, how to 
deal with that, but in a very negative way, how they can 
utilize that information in the wrong way? Is that a concern?
    General Barbero. I have not heard that concern raised by 
our commanders. And I can tell you that there are certain 
technologies which will not be transferred to the Afghan 
security forces for a variety of reasons. And we will share 
with them information, but we won't share with them our full 
capabilities for a variety of reasons: their ability to 
integrate that information, classified reasons, and other 
senses.
    But I have not heard a concern from any commander that when 
they share information with their local Afghan counterpart, 
that that then is used against them.

                         BLUE ON GREEN ATTACKS

    Mr. Crenshaw. Is that something that you think that we 
ought to be thinking about?
    General Barbero. Given the nature and the seriousness of 
these blue on green attacks, we need to look at all aspects of 
it, I think. As General Dempsey said, it is not business as 
usual. I think he is saying we have to change something. So I 
believe we should look at all aspects of it.
    Mr. Crenshaw. As you say, this is a thinking enemy. It 
seems like we have to be thinking ahead, not just dealing with 
what we deal with. Part of my question is what do you see next? 
For instance, if we are training the Afghanis when we leave, 
they are going to have these counter-IED capabilities. If we 
don't tell them everything we know, then we leave, we are 
leaving them with inadequate information. Yet if we tell them 
everything we know, the concern that I raise is that they may 
be able to use that as a blueprint for working against us. So 
it seems to me that is a pretty complicated situation. What are 
your thoughts as we leave and as you see what happens day to 
day, what is next? Where do you see an increased use of IEDs 
and things like that?
    General Barbero. Let me just, Congressman, take that in the 
context from what we learned from the drawdown in Iraq and the 
transition there. We saw an increase in a certain type of 
weapon, these explosively formed projectiles, copper plates on 
a command wire. So as we detected this increase, we fielded 
additional capabilities to find these things and to go after 
them.
    I would also tell you that, as I said in my statement, a 
smaller number of troops on the ground does not equal a 
corresponding drawdown in certain capabilities. Counter IED, we 
know it is still going to be used, and we need to increase our 
capabilities there.
    ISR is another one. As your footprint decreases and you 
rely more on local forces, the fidelity of reporting and the 
accuracy of the reporting draws down also. So you must 
compensate for that. And one of the capabilities is an increase 
actually, what we did in Iraq, of ISR, to be able to fill in 
those gaps of situational awareness.
    So those are some of the things that we have to keep in 
mind, that a drawdown in boots on the ground does not equal a 
drawdown across the board in all of our capabilities. And we 
are looking for indicators of other threats. And right now we 
are looking at next spring fighting season. What do we learn 
now, what can we get postured in time to equip our troops for 
that inevitable fighting season?

                         ATTACKING THE NETWORK

    If I could make one point, Mr. Chairman. We have talked a 
lot about the device, defeating the device, and we have to do 
that. Most of our effort and our technology and our funding 
goes to that because that is how you limit casualties and that 
is how our commanders gain freedom of maneuver.
    We also talked, we invest a lot in training because a well-
trained trooper is our best counter IED tool.
    The third line of operation and the one that is decisive is 
attacking the network. It goes to Congressman Dicks' comments 
about this network that supplies them these materials. And we 
must continue to do that and go after these networks, find out 
where their funds are and bring all the tools of our government 
to bear on these. And we are doing that also. That is a 
decisive effort, though.
    Mr. Crenshaw. Thank you, Mr. Chairman.
    Mr. Young. Mr. Calvert.

                                PAKISTAN

    Mr. Calvert. Thank you, Mr. Chairman.
    Thank you, General, for coming today. We are all extremely 
frustrated, as you can tell. And I am sure nobody is more 
frustrated than you are. As Mr. Frelinghuysen said, this has 
been going on for years to get a coherent strategy on how to 
deal with these IEDs. And we keep going back to Pakistan, our 
supposed ally in the region. What kind of ally would allow for 
this kind of activity to continue? You know, I keep saying 
look, if we had two major fertilizers plants in Mexico and 
people were smuggling across even a small amount of fertilizer 
and killing five U.S. citizens a week, I am sure we would 
something about it pretty quickly.
    Here we are today losing approximately five U.S. 
servicemembers a week, or having horrific injuries, and it 
seems we are unable to do anything with our supposed ally in 
Pakistan. These markers that we were talking about, the 
Pakistani Government is not even interested in dealing with the 
United States in making those markers available. Some people 
think they are effective or not effective, I don't know. But it 
tells you something about Pakistan that they don't even want to 
consider doing anything to help us identify calcium ammonium 
nitrate as it crosses that border. The Haqqani network 
continues to operate with impunity in Pakistan and especially 
in some of the border regions, which we can probably get into a 
more secure briefing area, without any interference with the 
Pakistani military at all. And it seems to me you can do a lot 
of work in Afghanistan and other regions around the world where 
we are going to have this problem, and that is important, but 
specifically to the Afghan theater. If the material that is 
being used continues to cross that border with virtually no 
interference at all because the border is a sieve, you can 
smuggle just about anything across that border, without any 
assistance from the Pakistanis at all, how in the hell are we 
going to deal with this?
    General Barbero. Congressman, I can't argue with anything 
that you have said. As I said at the outset when you are just 
focused on the device and mitigating its impact you are playing 
defense. In another session----
    Mr. Calvert. I think we are all tired of playing defense.
    Mr. Chairman, I think any aid and assistance that we have 
to Pakistan should be directly tied to their assistance to us 
to help us deal with these fertilizer plants in Pakistan, 
especially something as simple as adding a color or an odor to 
the production of this fertilizer. And I know those offers have 
been made. Those offers have been made to cover the cost of it 
and they are not interested in doing it because I am sure the 
ISI finds it convenient to continue to be able to work with the 
Haqqani network to smuggle this across the border. Let's just 
call it the way it is. They like to destabilize the Afghan 
Government, destabilize the NATO allies that are fighting in 
Afghanistan, and the Pakistanis continue to deal with these 
people. And they continue to kill American soldiers every day.
    Mr. Young. Would the gentleman yield?
    Mr. Calvert. Yes, I am happy to yield.
    Mr. Young. You remember that in our defense appropriations 
bill that we passed with a very large number in the House, we 
had some very tough language dealing with the issue that you 
are talking about in Pakistan. But when the Senate chose not to 
take up that bill, that became null and void and we are 
functioning under a continuing resolution which does not 
include the strong language on Pakistan.
    Mr. Calvert. And nobody has worked harder on this issue 
than you have, Mr. Chairman. I appreciate that language. It is 
frustrating to us to have to operate under a continuing 
resolution when we could do some things, and I hope maybe 
during the lame duck session maybe we can work toward a real 
bill.
    Mr. Young. We tried to get that language in the CR as an 
anomaly, but we weren't successful there. Thank you for raising 
that issue. It is a very important issue.
    Mr. Calvert. As I mentioned earlier, if these two 
fertilizer plants were in Mexico, I suspect we would find a way 
to neutralize that problem. But they are not, they are in 
Pakistan.
    Thank you, Mr. Chairman.
    Mr. Young. Mr. Hinchey.

           SUSPENSION OF U.S.-AFGHAN JOINT MILITRY OPERATIONS

    Mr. Hinchey. Thank you, Mr. Chairman.
    General Barbero, thank you very much. I very much 
appreciate everything that you are saying. And I think it is 
very, very good we called this hearing today because this is a 
whole host of set of circumstances that need to be focused on 
and dealt with and dealt with as effectively as possible. So I 
think it is worth discussing the news that U.S.-Afghan joint 
military operations have been suspended. They have been 
suspended, and at least below the battalion level after 
numerous green on blue attacks. So this year already, as I 
understand it, 51 NATO coalition members have been killed in 
these types of attacks, various kinds of attacks that have been 
going on over there. So I know that we have justified our 
continued commitment to Afghanistan by our willingness to train 
Afghan forces and hand responsibility as much as possible to 
them, but the situation to some extent continues although I 
think we have done things that are apparently making the 
situation a little bit better, stronger and more effective. 
Less people are getting killed.
    I think it is worth discussing in this Committee since we 
are spending as I understand it $85.6 billion in and around 
Afghanistan by maintaining our presence and training and arming 
people that end up killing our young men and women. So there is 
a whole host of things that are going on and I deeply 
appreciate you and I deeply appreciate all of the things that 
you have been engaged in and how you have been trying to 
straighten this out.
    I wonder how long will training be suspended and what do we 
realistically hope to achieve between now and the end of 2014? 
And is that worth the risks to American lives and the 
tremendous appropriations that are dealt with in the meantime?
    As I said, I know that you are dealing with this very 
effectively, but it is an interesting situation. It is an 
interesting situation to a large extent with Afghanistan 
because of the conflicting activities that are being engaged 
there by that country. So I would appreciate whatever you can 
tell us about that.
    General Barbero. Thank you, Congressman.
    I can tell you what I have seen is that the suspension of 
joint operations has been described as temporary by ISAF, and I 
am not sure beyond that when it will resume. The chairman 
quoted General Dempsey about the seriousness of this, and it is 
not business as usual and the Department is seized with it. And 
I do not want to give you any misinformation on that, but I do 
not deal with green on blue, so I would be just guessing if I 
told you, gave you my views on that. And some of those are 
policy decisions, obviously.
    But I do, and I would like to say before this Committee 
that the issues we have talked about underscore why going into 
fiscal year 2013, having the budgetary flexibility that we have 
requested in our submission is so important. General Dempsey 
described the way forward as not a straight line. And we know 
certain things about 2013, and there are certain things we just 
don't know. We know there is going to be a tough fighting 
season. The Secretary said that the other day. We know it is a 
smart and determined enemy. We have a whole generation of bomb 
makers. And the IED numbers continue to tell us it is going to 
be the weapon of choice. And we know that we will be conducting 
combat operations into 2013.
    Why we need flexibility, and how long will we be at 68,000? 
And how long will we continue to require increased counter IED 
capabilities. The enemy gets a vote. It is a thinking enemy, 
and they are going to do this, what we described today and 
other actions.
    If we have a new initiative that comes our way, that could 
be, have an impact on the counter IED fight, and we are going 
to get it there as fast as we can. We have one in theater now 
that is a new capability that I can't talk about here much, 
although I will tell you it allows us, I think, to detonate 
certain IEDs at the time and place of our choosing. We have 
moved that to theater, so we need that flexibility as we go 
into 2013 to find and field new initiatives. And then there are 
unforeseen requirements from our commanders, just as we had 
this year. For robots and undergarments and additional sensors 
that we need to be able to fund also. So what we have talked 
about here is a very dynamic situation, and it requires us to 
have the flexibility to be able to respond and support our 
commanders and the troopers.

            POLITICAL TURBULANCE IN AFGHANISTAN AND PAKISTAN

    Mr. Hinchey. Just one more simple little question. 
Afghanistan is a complicated set of circumstances. I am just 
wondering to what extent we are trying to understand just 
exactly what they are doing, what their motivation is, what 
their complexity is, how they are dealing with the complex 
internally within their country. Is there any sense that we 
have with regard to what the future might be and if that future 
is going to be steadily honest, secure, or maybe not?
    General Barbero. I am sure, Congressman, that there are 
experts and leaders who study this and can answer that. I am 
not one of them. I have not studied it and I have not formed a 
view on that. It would be way outside my lane to try to guess 
on the future of Afghanistan or Pakistan.
    Mr. Hinchey. So this is something we need to deal with more 
effectively and get the answers to.
    Thank you very much, General.
    Mr. Young. Mr. Bonner.

         AUTHORITY TO SUPPORT OTHER U.S. AGENCIES WITH DOD FUND

    Mr. Bonner. Thank you, Mr. Chairman.
    General, this has been an enlightening hearing and I think 
we all look forward to the closed session that we will have a 
chance to have with you.
    The chairman made note of the fact that we had language in 
our defense bill which has drawn bipartisan support that 
perhaps would have sent a very blunt and direct message to 
Pakistan with regard to these fertilizer plants and he also 
mentioned that because we are operating under a CR that very 
few on this Committee are excited about that language can't 
take effect yet from Congress. But it is not, correct me if I 
am wrong, it would not preclude the leadership of the 
Department of Defense from recommending it to the Commander in 
Chief that he initiate this message? Are you familiar enough 
with the language that Chairman Young was talking about that 
you could offer a comment about whether you think this might be 
a possible solution with regard to this issue?
    General Barbero. Is this in relation to funding for 
Pakistan?
    Mr. Bonner. Yes, sir.
    General Barbero. I am not familiar with the specific 
language that is contained therein. But I am familiar with the 
legislative proposal that has been submitted from the 
Department that deals with my authorities to use my funding 
which I would like to recommend support for. It would allow me 
to use my funding to support any activity by our other Federal 
agencies, Border Patrol, FBI and others, to impede the flow of 
these materials from Pakistan into Afghanistan. Right now I 
can't do that. If a Federal agency said we want to put this 
technology in place working with either Afghan border police or 
Pakistan border police, I can't help them, although it directly 
impacts the problem that we have talked about, and the language 
is in the authorization bill, both versions, which would 
support this. I am concerned that I will not be able to enact 
this until the NOAA is passed. But that language, I think I 
know about because we helped prepare it. The Department 
supported it, and it is in both authorization bills and I think 
that is a tool that we can use, which I can talk more about in 
this closed session.

                         MILITARY WORKING DOGS

    Mr. Bonner. You know, every member here has been to Walter 
Reed Bethesda, none more than Chairman Young and his wife, 
Beverly. Every member here has been, like you and others in 
uniform, to the homes of the young men and women who have come 
home in a flag-draped coffin.
    I had the privilege of having breakfast this morning with a 
young man from my district who stepped on an IED. Fortunately, 
I had a chance to have breakfast with him and I didn't have to 
go to a funeral home to pay respects to his family. He lost a 
leg, he is fighting to keep the second leg. So when you hear 
the questions coming from around this table, they are coming 
with frustration and with heartfelt concern that more has to be 
done. They are also coming obviously with the greatest respect 
for the uniform you wear and the tough decisions that you have 
under your responsibility.
    We have talked about the robots and the undergarments and 
the additional sensors and other things. One thing we haven't 
discussed is what is being done with regard to dogs going out? 
Is that something that has been effective? Is that something 
that could be more helpful until we get a permanent--we know 
what the weapon of choice is, but until we find a way to take 
that weapon off the table, are dogs part of the solution? And 
if so, are you getting adequate funding for that?
    General Barbero. Congressman, we are. Dogs are a part of 
this. I tell people we are involved in fielding everything from 
a sensor at 40,000 feet to a four-legged sensor on the ground. 
And they are effective. And our commanders use them.
    Some commanders will not let a dismounted patrol go out 
without a dog. They have limitations--110 degree heat, climbing 
over culverts and into canals and things like that, carrying a 
dog over a wall so you don't go through a likely ambush point. 
But they are effective. But it boils down to selection of the 
handler. If you don't have a senior NCO picking the right 
soldier or marine or airman or sailor to go out there, you are 
not going to be successful. And I am confident all of our 
commanders understand that and are engaged in picking the right 
handler for the dog to really make it an operational team. The 
other part is the preparation and training of the dogs and 
getting them trained on the right senses, ammonium nitrate, for 
example, to sense that. But it is a part of it. It is part of 
this network and part of the tools that my job is to provide to 
commanders and NCOs and let them choose which ones they want to 
take on which mission which is most effective in their specific 
area. But dogs are effective, and we are committed to that. And 
we are adequately funded for those.
    Mr. Bonner. Thank you, Mr. Chairman.

                             SITTON LETTER

    Mr. Young. I would advise the committee in an agreement the 
General and I had yesterday on timing, we have time for each 
member to have a follow-up question. I am going to use my time 
for a follow-up question. I have had a couple of notes from the 
audience asking a little more about the Sitton letter which has 
been mentioned several times. I only have a couple of copies of 
that letter, but I am going to ask Mr. Paul Terry to actually 
read the Sitton letter so you know what we are talking about 
when you hear reference to the Sitton letter.
    Mr. Terry. Hello. My name is Staff Sergeant Matthew Sitton. 
I am in the 82nd Airborne Division stationed in Fort Bragg, 
North Carolina. I am currently deployed with the 4th Brigade 
Combat Team in support of Operation Enduring Freedom in 
Afghanistan. I am writing you because I am concerned for the 
safety of my soldiers. This is my third combat tour to 
Afghanistan. So I have seen the transition in rules of 
engagement and overall tactics over the past 6 years. I am only 
writing this email because I feel myself and my soldiers are 
being put into unnecessary positions where harm and danger are 
imminent. I know the threat of casualties in war and am totally 
on board with sacrifice for my country, but what I do not agree 
with is the chain of command making us walk through, for lack 
of a better term, basically a mine field on a daily basis. I am 
in a platoon of 25 soldiers. We are operating at a tempo that 
is set for a full 35-40 man infantry platoon. We have been 
mandated to patrol twice daily for 2-4 hours each patrol on top 
of guarding our forward operating base and conducting routine 
maintenance of our equipment. There is no end state or purpose 
for the patrols given to us from our higher chain of command, 
only that we will be out for a certain period of time. I am all 
for getting on the ground and fighting for my country when I 
know there is a desired end state and we have clear guidance of 
what needs to be done. But when we are told basically to just 
go walk around for a certain amount of time is not sitting well 
with me. As a brigade, we are averaging at a minimum an amputee 
a day from our soldiers, because we are walking around 
aimlessly through grape rows and compounds that are littered 
with explosives. Not to mention that the operating tempo that 
every soldier is on leaves little to no time for rest and 
refit. The morale and alertness levels on our patrols are low, 
and it is causing casualties left and right.
    Here is an example of how bad things have gotten. Our small 
forward operating base was flooded accidentally by a local [by 
a local--that being citizen] Early one morning a few days ago. 
He was watering his fields and the dam he had broke and water 
came flooding into our living area. Since our forward operating 
base does not have portable bathrooms, we had to dig a hole in 
the ground where soldiers could use for the bathroom. That also 
got flooded and contaminated the water that later soaked every 
soldier and his gear. Instead of returning to base and cleaning 
up, our chain of command was set on us meeting the brigade 
commanders two patrols a day guidance that they made us move 
outside the flooded forward operating base and conduct our 
patrols soaked in urine.
    That is just one single instance of the unsatisfactory 
situation that our chain of command has put us in. At least 
three of my soldiers have gotten sick since that incident and 
taken away from our combat power because of their illness 
caused by unhealthy conditions.
    I understand that as a commander you are to follow the 
orders of those appointed over you. However, there needs to be 
a time where the wellness of your soldiers needs to take 
priority over walking around in fields for hours a day for no 
rhyme or reason, but only to meet the brigade commander's 
guidance of you will conduct so many patrols for such an 
allotted time.
    I am concerned about the well-being of my soldiers and have 
tried to voice my opinion through the proper channels of my own 
chain of command, only to be turned away and told that I need 
to stop complaining. It is my responsibility to take care of my 
soldiers, and there is only so much I can do with that little 
bit of rank I have. My guys would fight by my side and have my 
back in any condition, and I owe it to them to have their best 
interest in mind. I know they would and I certainly would 
appreciate it if there was something that you could do to help 
us out. I just want to return my guys home to their families 
healthy.
    I apologize for taking your time like this, sir, and I 
appreciate what you do for us. I was told to contact you by my 
grandmother who said you had helped my uncle many years ago. He 
was also serving in the military at that time. Thank you again 
for allowing soldiers like me to voice their opinion. If 
anything, please pray for us over here. God bless.
    Mr. Young. Paul, thank you very much.
    That letter was forwarded to the Pentagon, and a discussion 
of that letter took place between myself and numerous high 
ranking leaders at the Pentagon, military and civilian.
    Before we got any kind of a response, Sergeant Sitton's 
prophesy came true. He died. He and his platoon sergeant were 
both affected by the same IED and they both died.
    Mr. Dicks.

                           FUNDING AUTHORITY

    Mr. Dicks. As I understand what you testified, General, you 
do not have the language that you need in order to deal with 
this border situation, and it was in both of the authorizing 
bills but it is not in the continuing resolution; is that 
correct?
    General Barbero. That is true, Congressman.
    Mr. Dicks. So the authorization bills are not enacted and 
the continuing resolution is not amended, you can't do what you 
have asked to be able to do; is that correct?
    General Barbero. That is my understanding, Congressman.
    Mr. Dicks. Can you tell us what this will not allow you to 
do that you want to do?
    General Barbero. This would adjust our funding authorities 
so I can use my funds, which I can commit rapidly to fund 
initiatives by other Federal agencies, Border Patrol and 
others, to take actions along the Afghan-Pakistan border to 
help impede the flow of these materials, either helping Afghan 
forces, Pakistani forces, or otherwise. And this would allow me 
to use my funds which were designed to be able to rapidly 
address issues like this, in my view. So that is what it would 
allow us to do.
    Mr. Dicks. Could this be addressed by a reprogramming? Have 
you thought about that?
    General Barbero. No, I think it could not be.
    Mr. Dicks. So you think it takes legislative language?
    General Barbero. It does. That is what we have been told, 
and that is what we have been working and the Department has 
supported this legislative language.
    Mr. Dicks. Another reason why we ought to get this defense 
bill enacted and get our authorization bill passed.
    Thank you, Mr. Chairman.
    Mr. Young. Thank you, Mr. Dicks.
    Mr. Lewis.

                           FERTILIZER MARKERS

    Mr. Lewis. Thank you, Mr. Chairman.
    General, we have noted that the administration has been 
willing to take direct action when the Congress is not acting 
in a number of arenas. Relative to fertilizer and ammonium 
nitrates, relative to markers in fertilizer, are you telling me 
that the Congress, in spite of the Congress, the 
administration, the Secretary of Defense, upon your request, 
could not take action that would specifically require markers 
placed in ammonium nitrates? Are your hands tied to that extent 
that you can't take a direct action that will save the lives of 
our troops by saying, through the Secretary of Defense, by God, 
we have to do something. I am the General, I am asking you to 
do something.
    General Barbero. Congressman, throughout the fertilizer 
industry, there is no one who puts markers or taggants in their 
fertilizer. The issue is----
    Mr. Lewis. Why?
    General Barbero. I think it is purely cost. We have raised 
this to them. There are very strict, since Oklahoma City, there 
are very strict restrictions here on the transfer of ammonium 
nitrate in the United States. Not so, obviously, in other 
places in the world.
    It is going to take Pakistan to take these actions. We 
cannot force it. If the Secretary of Defense ordered it, I am 
not sure how it would happen. It is going to take cooperation 
from Pakistan and this company to do that, and to treat this 
specific case that we have been talking about, about the flow 
of these materials into Afghanistan.
    Mr. Lewis. You know, I do not believe this Committee wants 
to be in a position of serving the Secretary of State, imposing 
our willing upon the Commander in Chief, et cetera, but my God, 
troops are losing their lives. And if we can't indeed at least 
insist that the government of Pakistan help us place markers in 
ammonium nitrate, then what are we here for?
    General Barbero. Secretary of State Clinton, this is on the 
top of her list with engagements and priorities with Pakistan. 
I can describe in another session the interagency actions that 
are taking place to get after this problem. But I just can't do 
it here in this session, Congressman.
    Mr. Lewis. Thank you, Mr. Chairman.
    Mr. Young. Mr. Frelinghuysen.

            POLICY ON OPERATIONS WITH COUNTER IED EQUIPMENT

    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    General, correct me if I am wrong, often the most dangerous 
time in war is when you are getting out of Dodge, when you are 
leaving, and we are departing out of Afghanistan. We give you I 
think in our budget $1.7 billion. I am wondering how we marry 
what you are doing with the policy issues raised in that letter 
that was written by Mr. Sitton? We can give you, and God bless 
you for the things that you do and things we have prevented, 
but if the money that goes into R&D is not married to some sort 
of a policy here, what I see, and correct me if I am wrong, is 
that some of these units are out there. Their equipment is 
destroyed. They may be in a God forsaken place to begin with, 
they may be in a forward operating base. Has the equipment been 
drawn down so much because of destruction, its destruction, 
that we can't supply to these soldiers some sort of a 
replacement that would perhaps limit their--the foot patrols 
that were referenced in that letter. In other words, we give 
you resources, but how is the chain of command making use of 
some of these other resources here? We have Stryker equipment. 
We have a lot of stuff that is out there.
    General Barbero. Right. Congressman, a couple of points. 
First of all, the most dangerous time in any military operation 
is a transition. When you go from one to the other.

                               TRANSITION

    Mr. Frelinghuysen. You can call it what it is, but we are 
in that time.
    General Barbero. We are. We have two this year. There is a 
transition to an advising training role and different 
structure, and then the eventual transition to the Afghan 
security forces. These are fraught with challenges.
    Mr. Frelinghuysen. The focus here is what we are going to 
do with all of the MRAPs. What about the soldiers that are on 
point now that are suffering these injuries? Are they missing 
equipment because we can't get the equipment to them? What is 
going on here?
    General Barbero. Obviously from Sergeant Sitton's letter, 
there are some issues we need to look into as a Department. But 
when I talk to commanders, I talk to junior leaders, 
lieutenants, sergeants and some troopers, I ask what them else 
they need. And they give us some very specific requirements 
which we take on.
    We are well funded to provide replacement mine rollers, 
repair parts, and contractors who work on these, and that is a 
constant point of attention, is where do we have the right 
people at the right place to rapidly repair these so when our 
troopers go outside the wire they have what they need. And we 
will redouble our effort based on this. We are not complacent 
about it, and we are looking at it.
    Mr. Frelinghuysen. Just for the record, there are not 
shortages of some of this equipment here?
    General Barbero. Not that I am aware of.
    Mr. Frelinghuysen. I think we would like to actually maybe 
get a greater picture as to what is out there. I understand 
what is referred to and I want to be respectful that we will be 
looking into it. But in reality, this letter was out there and 
there was a call for help, and apparently we were not able to 
meet that call.
    Thank you, Mr. Chairman.
    General Barbero. If I could just make additional comments, 
our budget request for fiscal year 2013 was $1.9 billion. Last 
year it was $2.4 billion. We looked very seriously at the 
reduction in troops. We fielded a lot of equipment last year. 
We did not need to repeat the same funding as last year, so 
$1.9 billion it is my firm belief will allow us to meet the 
challenges that we know and those challenges that I said we 
were not sure about. And anything below that I believe we would 
be accepting risk in the area of the number one weapon used 
against us. So I appreciate your support on that.
    Mr. Young. General, if you would provide for the record 
information relative to the mine rollers and Strykers because 
the information that we have received was that there were 
Strykers sitting idle because they did not have a mine roller. 
If there is a problem in providing mine rollers, this committee 
will find a way to appropriate the money to get the mine 
rollers. Whatever it costs for the mine roller will not compare 
to the cost of a soldier's life or losing arms and legs.
    [The information follows:]

    Currently, the availability of mine rollers is not impacting 
operational use of Stryker vehicles in Afghanistan. This was confirmed 
during a recent site visit by the Project Manager--Stryker Brigade 
Combat Team.
    Of the 144 mine rollers delivered in Afghanistan for use on Stryker 
Double V-Hull (DVH) vehicles, 52 have been issued and another 92 are 
available for issue. An additional 114 mine rollers are currently on 
contract and are being delivered to Afghanistan at a rate of 20 per 
month with an expected delivery completion in March 2013. This will 
complete the total requirement of 258 mine rollers.
    To allow installation of the mine rollers on the Stryker DVH, an 
adapter kit, or ``Delta'' kit has been developed. With regards to the 
Mine Roller Adapter Kit (MRAK) Delta kit, 80 kits have been delivered 
in Afghanistan for use on Stryker DVH vehicles. Of these 80 delivered 
kits, 36 have been issued and 44 are available for issue. An additional 
125 are currently on contract and are being delivered to Afghanistan at 
a rate of 20 per month with an expected delivery completion in April 
2013. This will complete the total requirement of 205 MRAK Delta kits.
    Currently, all current Stryker DVH vehicle fieldings in Afghanistan 
include two Light Weight Mine Roller (LWMR) systems per platoon and 
additional LWMRs are being issued to the current DVH fleet as required.

    Mr. Dicks. Mr. Chairman, would you yield?
    Mr. Young. Absolutely.

                         RAPID RESPONSE FUNDING

    Mr. Dicks. We received a letter yesterday, a couple of days 
ago from Secretary Panetta which cited that DoD has a rapid 
acquisition authority to align funds to provide for the safety 
of the troops. The Committee was just given this letter on 9/
17, and this was authority that was in the 2003 authorization 
bill. Why couldn't this authority be used? If you can't answer 
that directly, take a look into this. I think it could address 
a number of these issues, especially the one dealing with the 
border issue.
    General Barbero. My funding is rapid response. I can 
approve $25 million with my signature. Anything above that is 
rapidly staffed through the four stars and the Deputy Secretary 
approves that. He has never disapproved one, and it takes us 
about 7 days to get that approved.
    Mr. Dicks. So you could do the mine rollers?
    General Barbero. In total, Congressman, we have spent about 
$400-500 million on mine rollers, repair parts and contractors 
to support them. We will look into the mine roller issue and 
report back to this committee.
    Mr. Dicks. We will give you a copy of this letter. Take a 
look at this authority and see if this authority could be of 
assistance.
    General Barbero. Absolutely.
    Mr. Dicks. Thank you.
    Mr. Young. Mr. Visclosky.

                           IED BOMBER NETWORK

    Mr. Visclosky. Thank you, Mr. Chairman.
    General, on the networks that protect the bombers and 
provide them supplies, guide them, what success have you had 
against these networks in Afghanistan and Iraq? What remains to 
be done, and particularly as far as the security forces in 
Afghanistan now, have they been helpful, unhelpful? Are parts 
of the network embedded in the Afghan security forces? If you 
could comment.
    General Barbero. I will tell you in a description of the 
networks, and this could be applied in a number of places 
around the world, but in the Afghanistan/Pakistan region, we 
see a cooperation or I call it a consortium of networks. You 
have the narco, the poppy network. That is the cash crop for 
the insurgency, and they use IEDs to protect their cash crop. 
You have a smuggling network which has gone across that border 
for centuries. That is involved in this. And then you have the 
insurgents network that is controlling the flow of these 
materials. So when you talk about the network, it is this 
consortium of networks that you have to look at.
    And I will tell you, I believe and as I have said, I have 
done this in Iraq, I believe we are being effective against the 
network. One of the factors I didn't mention, which is driving 
down the effectiveness rates of these attacks, is we have worn 
down the network in Afghanistan to a degree. But they are 
resilient. They are adaptive.
    Mr. Visclosky. Can you be specific? In what respect would 
you characterize you have worn them down?
    General Barbero. Well, leadership. But they are still 
obviously very active and very lethal. Leadership, we have gone 
after their supplies. But it is a continuous effort to go after 
them.
    My reports from the NSA is they are effective in providing 
intelligence and cooperating in the intelligence collection on 
these networks. And I haven't seen any reports to the contrary 
on that.
    Mr. Visclosky. Have you seen any infiltration of the 
security forces by the networks?
    General Barbero. That is the question in these blue on 
green attacks. That is still being determined, whether these 
are individual actors or part of a concerted effort. I have not 
seen the conclusion of the intelligence on that.
    Mr. Visclosky. Thank you, Mr. Chairman.
    Mr. Young. Mr. Calvert.
    Mr. Calvert. Thank you, Mr. Chairman.
    I am going to go back to Pakistan for a second. It seems to 
me it all goes back to this supposed ally. I know we focus a 
lot of time on Iran and what Iran is doing to fund various 
terrorist networks throughout the world that affect the 
stability and United States security, but Pakistan was the 
country that developed the nuclear weapon and then proliferated 
that weapon to our adversaries.
    Now I hear Mr. Khan is running for public office in 
Pakistan and is revered by the Pakistani population. The 
Pakistani Government continues, through the ISI, to fund and 
help and assist the Haqqani network and other terrorist 
organizations. And God knows, they continue to shield certain 
elements of the Taliban in certain communities throughout 
Pakistan, especially along the border area. They continue to 
attack NATO troops and U.S. interests with impunity. And I 
still have a hard time, I know our intelligence people say that 
they didn't know Osama bin Laden was hiding under their nose 
right there in the largest military town in Pakistan, just 
happened to live there for a few years, and they are upset that 
we went in and killed him. You know, I am just tired of people 
saying we have this ally and we have to be sensitive to their 
feelings. Well, they are not being very sensitive to us when 
they won't even allow for us to pay to put markers in these two 
fertilizer plants. I agree it is beyond just Pakistan. We ought 
to have a national standard for ammonium nitrate throughout the 
world that has a common odor and other markers put into 
ammonium nitrate because you are going to see this problem in 
South America. I wouldn't be surprised if we see it along the 
border regions of the United States and some of these crazies 
that want to do harm to the United States Government. We need 
to be more proactive.
    By the way, on this continuing resolution, the Commander in 
Chief, the definition of a continuing resolution, we give the 
authority to the President to have a lot of authority to fund 
what he wants to fund as a Commander in Chief. We give--we 
relinquished our authority under the Constitution, it doesn't 
matter who the President is. I think we all agree we should be 
doing these bills, but I would think that the President has 
some authority to say to the Pakistan Government, look, you 
agree to work with us on this or you are not going to get any 
money. We have to start playing hard ball with these guys. As I 
said, at the end of the day, you can do all you want in 
Afghanistan to protect our troops, and I know you are doing a 
lot, but at the end of the day, it is like you have your finger 
in the dike. And it is impossible to deal with the amount of 
stuff that is coming across that border.
    Thank you, Mr. Chairman.
    Mr. Young. Incidentally, gentlemen, we mentioned there was 
language in our defense bill that is not in the continuation 
resolution, and that language does include comments about IEDs, 
explosive devices, the networks, and the precursor chemicals. 
And so we actually do address that issue in our language that 
is not active now because there is no bill.
    Mr. Moran.

                                 POLICY

    Mr. Moran. Thank you, Mr. Chairman.
    Mr. Chairman, I agree with the tone and the content of what 
Mr. Calvert has said, and with all of my colleagues on this 
panel, and I agree with the statements that you most recently 
made with regard to this Afghan conflict. I am glad we are 
having a hearing, but we have the wrong guy here. He is doing 
his job. He is doing the research. He has been given a 
procedural responsibility. But we are asking him about policy 
because the policy is the problem. It is not these very 
competent individuals who are carrying out their assignments. 
The best way that we can stop these horrendous losses of limbs 
and lives is to get our troops the hell out of there. That is 
the way to do it. Instead, we are spending billions and 
billions of dollars on equipment and research and so on when 
the real solution, I think, is staring us in the face.
    With regard to Pakistan, I couldn't agree more. And I agree 
with--did we put this language in that I was handed that we are 
not going to give any more money to Pakistan until they--this 
is actually in the bill, or we want to put it in? It is in the 
bill. Geez, I wish we had talked about it more. It is great 
language. The problem is they have a nuclear weapon, and we 
can't think that Iran hasn't learned that lesson that we are 
teaching every day with the hands off or gentle approach we 
take to Pakistan when they are the problem in Afghanistan.
    So I wonder if it is not time to bring the Secretary back 
after the election in the lame duck session and talk about the 
policy, talk to the policy people. It is not General Barbero's 
responsibility to answer the questions that are on our mind and 
really need answers, but I think it is past time to get some 
policy answers, particularly when it is clear that the green on 
blue attacks are stepping up. We are not making progress. And 
some of the people who have the courage to speak out honestly 
and forthrightly are telling us look, this is a lost cause. We 
are not gaining ground, and we have to try a different 
approach. Maybe the first step is to substantially accelerate 
our troop withdrawal out of Afghanistan. And the implications 
of that, the ramifications it seems to me might be helpful to 
discuss them with the Secretary, even in a public session. But 
that is your call, Mr. Chairman.
    That is all I have to say. I have been told that every 
thoughtful question that could have been asked of General 
Barbero has been asked. And so my alternative was to ask an 
unthoughtful question, and I will pass on that opportunity.
    Mr. Young. I will tell you that we started out on a NATO 
issue, but we did expand to a lot of other issues. And I agree 
with what you said, that we should be pursuing this whole issue 
of Afghanistan. You know my thoughts on that.
    Mr. Moran. And I agree with you.
    Mr. Young. Mr. Hinchey.

                  COUNTER IED RESEARCH AND DEVELOPMENT

    Mr. Hinchey. Thank you very much, Mr. Chairman.
    This is a very interesting and important issue that we are 
dealing with. General, I thank you very much for everything 
that you have said effectively. I just wonder, just briefly, if 
you can discuss the research and development for future 
counter-IEDs? Is there any way you may be able to say something 
about that situation? And are big developments in the work that 
can just simply continue to save lives?
    General Barbero. Congressman, we take our R&D role and 
search for new capabilities obviously as a huge part of our 
mission. General Mattis, one of my bosses, his number one 
priority to us is predetonation. What can we do to detonate 
these IEDs to a time and place of our choosing. He has been 
very vocal about that, but also supportive. We have made--and 
this is hard physics and you are hearing this from an 
infantryman now, so bear with me. But to be able to impart 
enough energy into the ground to activate a blasting cap or 
something like that with different soil conditions and moisture 
is very--is a great challenge. But I would like to tell you 
maybe in the closed session what we are doing in that area, 
what capabilities we have fielded, and the progress of the ones 
that we have behind them in various states of research and 
development.

                         SEVEN CAPABILITY GAPS

    Also, we have identified seven areas. I identified earlier 
what I think are some enduring capabilities we need to have to 
deal with this enduring threat, and the Department is looking 
at those. But also, we have identified seven areas of our 
current capability gaps, and we have made this unclassified. We 
put it on our Web site and we shared it with industry and with 
academia and with the national labs. I have been to all of 
them, and they are directly engaged in helping us identify 
capabilities to help close some of these gaps we have--
detection, blast mitigation, predetonation, a greater ability 
to pull fingerprints or DNA from these devices so we can 
identify and go after the network.
    So it is very active. Probably in a closed session I can 
tell you what technologies we have recently fielded and which 
ones are in the pipeline.
    Mr. Hinchey. Thank you very much.
    Mr. Young. General, thank you very much for an excellent 
hearing. I know it expanded beyond where we started at, and we 
do appreciate your willingness to join with us again to discuss 
some of the classified materials that are extremely important 
to the work that we do and to the work that you do. So we will 
be in touch with you to arrange a compatible time for that 
purpose.
    Unless Members have any other business, we are adjourned.
    [Clerk's note.--Questions submitted by Mr. Moran and the 
answers thereto follow:]

    Question. We have seen significant, but insufficient, progress in 
JIEDDO's ability to manage the DoD counter-IED effort. To best confront 
the enemy's techniques, tactics and procedures, I believe we need to 
leverage the entire defense industrial base so long as our uniformed 
servicemembers are in harm's way. How can JIEDDO better leverage the 
entire industrial base, but especially the capabilities of large 
contractors, in a cost-effective manner as the defense budget 
generally, and JIEDDO's budget specifically, declines?
    Answer. The Joint Improvised Explosive Device Defeat Organization 
(JIEDDO) routinely engages directly with industry, including large 
contractors, to identify innovative capabilities in order to enable 
access to the industrial base to develop and field enablers for 
counter-improvised explosive device (C-IED) related operational needs. 
For example:
    <bullet> JIEDDO solicits proposals from industry, including large 
contractors, through its Broad Agency Announcement (BAA) process. Over 
the past year, JIEDDO received 132 proposals through the BAA process 
from private entities which identified themselves as large businesses 
(with ``large business'' meaning a business not eligible for 
registering with the federal government as a small business).
    <bullet> JIEDDO invites industry representatives to attend JIEDDO-
sponsored technology outreach events, such as the JIEDDO Technology 
Outreach Conferences (JTOCs).
    <bullet> JIEDDO works with industry groups in the development of 
certain kinds of C-IED capabilities--for example, for C-TED solutions 
involving robotic platforms, JIEDDO leverages industry groups including 
the National Defense Industrial Association and the Association of 
Unmanned Vehicle Systems International to maintain awareness of both 
Department of Defense (DoD) and commercial efforts.
    JIEDDO leverages the whole industrial base, including both small 
business and large contractors, to meet the goal of rapid delivery to 
the warfighter. JIEDDO seeks opportunities to leverage large firms 
during the procurement phase of initiatives (i.e., the acquiring and 
fielding of developed capabilities) in order to achieve cost 
efficiencies. Currently, JIEDDO has 29 initiatives with large 
industrial partners.
    To more effectively invest in new solutions to counter an evolving 
enemy, JIEDDO strives to maintain visibility over C-IED capabilities 
being developed and fielded by other DoD components. JIEDDO's primary 
effort in this area is serving as the lead for developing a DoD-wide 
database of C-IED capabilities, which will enable the analysis needed 
to develop a comprehensive DoD-wide inventory of C-TED capabilities. 
JIEDDO is currently evaluating alternative technical approaches for 
developing the database. A timeline for creation and implementation of 
the database will be developed once JIEDDO has selected a new technical 
solution. JIEDDO expects to make a decision on the technical approach 
for the database by the first quarter of FY 2013.
    In the absence of this database and the associated comprehensive 
inventory, JIEDDO employs a number of tools and processes to maintain 
visibility over other DoD components' development and fielding of C-IED 
capabilities and how they leverage the industrial base to meet C-TED 
related operational needs, such as the following:
    <bullet> DoD Services and Agencies participate in JIEDDO-sponsored 
JTOCs and mini-JTOCs.
    <bullet> JIEDDO co-chairs, with the Office of the Assistant 
Secretary of Defense (Research & Engineering), the DoD C-IED Science 
and Technology (S&T) Technology Focus Team, a DoD-wide committee which 
coordinates C-IED S&T issues across DoD.
    <bullet> JIEDDO conducts direct engagements with other DoD 
components (Services, Service laboratories, Defense Advanced Research 
Projects Agency, etc.) on an as-required basis for certain planning, 
project management, and budget execution tasks.
    <bullet> There are a number of liaison officers from other DoD 
components and other federal agencies who are embedded with JIEDDO.
    <bullet> The Boards within the Joint Improvised Explosive Device 
Defeat Capability Approval and Acquisition Management Process (JCAAMP) 
provide an opportunity for DoD entities, such as the Offices of the 
Under Secretaries of Defense, the Services, and the Chairman of the 
Joint Chiefs of Staff, to coordinate with JIEDDO on decisions regarding 
C-IED initiatives brought for review and approval.
    <bullet> Subject matter experts from other DoD components 
participate in evaluation panels to review new C-TED-related proposals 
that are submitted through JIEDDO's BAA Information Delivery System 
process.
    Question. As a multibillion dollar defense organization, can you 
provide the committee with your timeline and approach to audit 
readiness for the Statement of Budgetary Resources in accordance with 
Secretary Panetta's readiness goal of March 2014.
    Answer. The Joint Improvised Explosive Device Defeat Organization's 
(JIEDDO) timeline and approach to achieving audit readiness for 
Statement of Budgetary Resources (SBR) is through utilization of the 
General Fund Enterprise Business System (GFEBS) in accordance with 
Department of Defense guidance. In accordance with the Department of 
the Army goals, JIEDDO began fielding GFEBS in July 2012 in preparation 
for utilization during FY2013. GFEBS will improve JIEDDO's financial 
management capability and in-turn accomplishes audit readiness for SBR 
by June 2014. Additionally, JIEDDO has implemented monthly and 
quarterly comprehensive management internal controls testing to closely 
monitor financial transactions and sequentially facilitate complete 
audit trails. By 1 October 2013, JIEDDO will execute full utilization 
of GFEBS and conduct internal controls testing to assess audit 
readiness standards. JIEDDO expects to meet full audit readiness 
standards prior to March 2014.

    [Clerk's note.--End of questions submitted by Mr. Moran.]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                           W I T N E S S E S

                              ----------                              
                                                                   Page
Barbero, Lieutenant General M. D.................................   497
Bischoff, Kim....................................................   552
Connor, C. D.....................................................   557
Eckerle, Dr. W. A................................................   582
Goraleski, Karen.................................................   546
Gordon, Barbara..................................................   570
Green, Lieutenant General (Dr.) C. B.............................   137
Hieshetter, Janet................................................   588
Horoho, Lieutenant General Patricia..............................   137
Ingram, Lieutenant General William, Jr...........................   333
Locklear, Admiral S. J., III.....................................   451
McHugh, J. M.....................................................     1
McKinley, General C. R...........................................   333
Nathan, Vice Admiral M. L........................................   137
Navarre, R. S....................................................   576
Norton, N. J.....................................................   573
Odierno, General R. T............................................     1
Stultz, Lieutenant General J. C..................................   333
Thurman, General J. D............................................   451
Visco, Fran......................................................   560
Woodson, Dr. Jonathan............................................   137
Wyatt, Lieutenant General Harry..................................   333

</pre></body></html>
